App. 1
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0003p.06e
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

SHARI GUERTIN, individually and
as next friend of her child, E.B.,
a minor; DIOGENES MUSECLEVELAND,
Plaintiffs-Appellees,
v.
STATE OF MICHIGAN, et al.,
Defendants,

Nos. 17-1698/1699/
1745/1752/1769

CITY OF FLINT, MICHIGAN,
HOWARD CROFT, DARNELL EARLEY,
and GERALD AMBROSE (17-1699);
LIANE SHEKTER-SMITH, DANIEL
WYANT, STEPHEN BUSCH, MICHAEL
PRYSBY, and BRADLEY WURFEL
(17-1745); NANCY PEELER
(17-1752); ROBERT SCOTT
(17-1769); EDEN WELLS and
NICK LYON (17-1698),
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of Michigan at Ann Arbor.
No. 5:16-cv-12412—Judith E. Levy, District Judge.
Argued: June 6, 2018
Decided and Filed: January 4, 2019

App. 2
Before: McKEAGUE, GRIFFIN, and WHITE,
Circuit Judges.
-----------------------------------------------------------------------

COUNSEL
ARGUED: Zachary C. Larsen, OFFICE OF THE
MICHIGAN ATTORNEY GENERAL, Lansing, Michigan, for Appellants in 17-1698. Frederick A. Berg, Jr.,
BUTZEL LONG, P.C., Detroit, Michigan, for Appellants in 17-1699. John J. Bursch, BURSCH LAW
PLLC, Caledonia, Michigan, for Appellants in 17-1745.
Michael S. Cafferty, Detroit, Michigan, for Appellant in
17-1752. Kurt Krause, CHARTIER & NYAMFUKUDZA, P.L.C., East Lansing, Michigan, for Appellant
in 17-1769. Paul T. Geske, MCGUIRE LAW, P.C., Chicago, Illinois, for Appellees. Samuel R. Bagenstos, Ann
Arbor, Michigan, for Amicus Curiae.
ON BRIEF: Zachary C. Larsen, Richard S. Kuhl, Margaret A. Bettenhausen, Nathan A. Gambill, OFFICE
OF THE MICHIGAN ATTORNEY GENERAL, Lansing, Michigan, for Appellants in 17-1698. Frederick A.
Berg, Jr., Sheldon H. Klein, BUTZEL LONG, P.C., Detroit, Michigan, Nikkiya T. Branch, PERKINS LAW
GROUP, Detroit, Michigan, Alexander S. Rusek,
WHITE LAW PLLC, Okemos, Michigan, William Y.
Kim, CITY OF FLINT, Flint, Michigan, Barry A. Wolf,
LAW OFFICE OF BARRY A. WOLF PLLC, Flint,
Michigan, for Appellants in 17-1699. John J. Bursch,
BURSCH LAW PLLC, Caledonia, Michigan, Philip A.
Grashoff, Jr., KOTZ SANGSTER WYSOCKI P.C.,
Bloomfield Hills, Thaddeus E. Morgan, Michael H.

App. 3
Perry, FRASER TREBILCOCK, Lansing, Michigan,
Charles E. Barbieri, Allison M. Collins, FOSTER,
SWIFT, COLLINS & SMITH, P.C., Lansing, Michigan,
Jay M. Berger, Michael J. Pattwell, Jordan S. Bolton,
Christopher B. Clare, CLARK HILL PLC, Detroit,
Michigan, for Appellants in 17-1745. Michael S. Cafferty, Detroit, Michigan, for Appellant in 17-1752.
Mary Chartier, CHARTIER & NYAMFUKUDZA,
P.L.C., East Lansing, Michigan, for Appellant in 171769. Paul T. Geske, MCGUIRE LAW, P.C., Chicago,
Illinois, Steven Hart, HART, MCLAUGHLIN & ELDRIDGE, LLC, Chicago, Illinois, John Sawin, SAWIN
LAW FIRM, LTD., Chicago, Illinois, for Appellees. Samuel R. Bagenstos, Ann Arbor, Michigan, for Amicus Curiae. Richard S. Kuhl, Margaret A. Bettenhausen,
Nathan A. Gambill, Zachary C. Larsen, OFFICE OF
THE MICHIGAN ATTORNEY GENERAL, Lansing,
Michigan, for Amicus Curiae in 17-1699.
GRIFFIN, J., delivered the opinion of the court in
which WHITE, J., joined, and McKEAGUE, J., joined
in part. McKEAGUE, J. (pp. 40–70), delivered a separate opinion concurring in part and dissenting in part.
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

GRIFFIN, Circuit Judge.
This case arises out of the infamous governmentcreated environmental disaster commonly known as
the Flint Water Crisis. As a cost-saving measure until
a new water authority was to become operational,

App. 4
public officials switched the City of Flint municipal water supply from the Detroit Water and Sewerage Department (DWSD) to the Flint River to be processed by
an outdated and previously mothballed water treatment plant. With the approval of State of Michigan
regulators and a professional engineering firm, on
April 25, 2014, the City began dispensing drinking water to its customers without adding chemicals to counter the river water’s known corrosivity.
The harmful effects were as swift as they were severe. Within days, residents complained of foul smelling and tasting water. Within weeks, some residents’
hair began to fall out and their skin developed rashes.
And within a year, there were positive tests for E. coli,
a spike in deaths from Legionnaires’ disease, and reports of dangerously high blood-lead levels in Flint
children. All of this resulted because the river water
was 19 times more corrosive than the water pumped
from Lake Huron by the DWSD, and because, without
corrosion-control treatment, lead leached out of the
lead-based service lines at alarming rates and found
its way to the homes of Flint’s residents. The crisis was
predictable, and preventable. See generally Mason v.
Lockwood, Andrews & Newnam, P.C., 842 F.3d 383, 387
(6th Cir. 2016).
I.
Plaintiffs Shari Guertin, her minor child E.B., and
Diogenes Muse-Cleveland claim personal injuries and
damages from drinking and bathing in the leadcontaminated water. Plaintiffs’ complaint asserted

App. 5
various claims against numerous state, city, and
private-actor defendants. In response to motions to dismiss, the district court granted in part and denied in
part the motions. In its written order, the court dismissed many of the original claims and original defendants. Plaintiffs have not filed a cross appeal. The
defendants who were not dismissed now appeal and
are collectively referred to as “defendants” throughout
this opinion. The plaintiffs’ sole remaining claim is
that defendants violated their right to bodily integrity
as guaranteed by the Substantive Due Process Clause
of the Fourteenth Amendment. They bring this claim
pursuant to 42 U.S.C. § 1983, under which “an individual may bring a private cause of action against anyone
who, under color of state law, deprives a person of
rights, privileges, or immunities secured by the Constitution or conferred by federal statute.” Wurzelbacher v.
Jones-Kelley, 675 F.3d 580, 583 (6th Cir. 2012).
II.
On this appeal, we decide two substantial issues
of public importance. First, viewing each defendant
individually, did the district court err in denying defendants’ motions to dismiss based upon qualified immunity? Specifically, did plaintiffs plead a plausible
Fourteenth Amendment Due Process violation of their
right to bodily integrity and was such a constitutional
right clearly established when the defendants acted?
We join the United States District Court for the Eastern District of Michigan, In re Flint Water Cases, 329
F. Supp. 3d 369 (E.D. Mich. 2018), vacated on other

App. 6
grounds (Nov. 9, 2018), and Guertin v. Michigan, 2017
WL 2418007 (E.D. Mich. June 4, 2017), the Michigan
Court of Appeals, Mays v. Snyder, 916 N.W.2d 227
(Mich. Ct. App. 2018), and the Michigan Court of
Claims, Mays v. Snyder, No. 16-000017-MM (Mich. Ct.
Cl. Oct. 26, 2016),1 in holding that plaintiffs have pled
a plausible Due Process violation of bodily integrity regarding some of the defendants. For the reasons that
follow, we affirm the district court’s order denying the
motions to dismiss based upon qualified immunity regarding defendants Howard Croft, Darnell Earley, Gerald Ambrose, Liane Shekter-Smith,2 Stephen Busch,
Michael Prysby, and Bradley Wurfel. However, we reverse the denial of the motions to dismiss regarding
defendants Daniel Wyant, Nick Lyon, Eden Wells,
Nancy Peeler, and Robert Scott because plaintiffs’ complaint alleges mere negligence, and not a constitutional violation against them.
The second issue is whether the City of Flint is
entitled to Eleventh Amendment immunity from
plaintiffs’ suit because the takeover by the State of
Michigan of the City of Flint pursuant to Michigan’s
“Emergency Manager” law transformed the City into
an arm of the state. It is not, and we therefore affirm
the district court’s same holding.
1

The Michigan Court of Appeals and Michigan Court of
Claims construed the Due Process Clause of the Michigan Constitution and, following Michigan precedent, deemed it coextensive
with its federal counterpart. See, e.g., Mays, 916 N.W.2d at 261.
2
We have changed the docket to correct plaintiffs’ misspelling of Shekter-Smith’s name.

App. 7
III.
We possess jurisdiction under 28 U.S.C. § 1291 and
the “collateral-order doctrine,” as defendants are appealing the denial of qualified and Eleventh Amendment immunity. Kaminski v. Coulter, 865 F.3d 339, 344
(6th Cir. 2017). The district court granted in part and
denied in part defendants’ motions to dismiss plaintiffs’ complaint under Federal Rule of Civil Procedure
12(b)(6). Given this procedural posture, we construe
the complaint in the light most favorable to plaintiffs,
accept all well-pleaded factual allegations as true, and
draw all reasonable inferences in plaintiffs’ favor.
Crosby v. Univ. of Ky., 863 F.3d 545, 551–52 (6th Cir.
2017). But if we are to affirm, the factual allegations in
plaintiffs’ complaint must plausibly allege a legally
recognized constitutional claim. See generally Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 556–58 (2007).
IV.
Qualified immunity shields public officials “from
undue interference with their duties and from potentially disabling threats of liability.” Harlow v. Fitzgerald, 457 U.S. 800, 806 (1982). It is not a “mere defense
to liability”; the doctrine provides “immunity from
suit.” Mitchell v. Forsyth, 472 U.S. 511, 526 (1985). This
immunity “gives government officials breathing room
to make reasonable but mistaken judgments about
open legal questions,” “protect[ing] all but the plainly
incompetent or those who knowingly violate the law.”
Ashcroft v. al-Kidd, 563 U.S. 731, 743 (2011) (internal

App. 8
quotation marks omitted). A plaintiff bears the burden
of showing that a defendant is not entitled to qualified
immunity. Bletz v. Gribble, 641 F.3d 743, 750 (6th Cir.
2011). To do so, a plaintiff must show “(1) that the official violated a statutory or constitutional right, and (2)
that the right was clearly established at the time of the
challenged conduct.” al-Kidd, 563 U.S. at 735 (internal
quotation marks omitted). The district court concluded
plaintiffs met this standard, and we review that decision de novo. Sutton v. Metro. Gov’t of Nashville & Davidson Cty., 700 F.3d 865, 871 (6th Cir. 2012).
The assertion of qualified immunity at the motionto-dismiss stage pulls a court in two, competing directions. On the one hand, the Supreme Court has
repeatedly “stressed the importance of resolving immunity questions at the earliest possible stage in litigation.” Pearson v. Callahan, 555 U.S. 223, 232 (2009)
(internal quotation marks omitted). But on the other,
“[w]hen qualified immunity is asserted at the pleading
stage,” as defendants did here, “the precise factual basis for the plaintiff ’s claim or claims may be hard to
identify.” Id. at 238–39 (citation omitted). We have thus
cautioned that “it is generally inappropriate for a district court to grant a 12(b)(6) motion to dismiss on the
basis of qualified immunity. Although . . . entitlement
to qualified immunity is a threshold question to be resolved at the earliest possible point, that point is usually summary judgment and not dismissal under Rule
12.” Wesley v. Campbell, 779 F.3d 421, 433–34 (6th Cir.
2015) (internal citations, quotation marks, and brackets omitted). The reasoning for our general preference

App. 9
is straightforward: “Absent any factual development
beyond the allegations in a complaint, a court cannot
fairly tell whether a case is ‘obvious’ or ‘squarely governed’ by precedent, which prevents us from determining whether the facts of this case parallel a prior
decision or not” for purposes of determining whether a
right is clearly established. Evans-Marshall v. Bd. of
Educ. of Tipp City Exempted Vill. Sch. Dist., 428 F.3d
223, 235 (6th Cir. 2005) (Sutton, J., concurring) (brackets omitted).
V.
The Fourteenth Amendment provides that “[n]o
State shall . . . deprive any person of life, liberty, or
property, without due process of law.” U.S. CONST.
amend. XIV, § 1. Flowing directly from the protections
enshrined in the Magna Carta, see, e.g., Lewellen v.
Metro. Gov’t of Nashville & Davidson Cty., 34 F.3d 345,
348 (6th Cir. 1994), the Due Process Clause significantly restricts government action—its core is “prevent[ing] government from abusing its power, or
employing it as an instrument of oppression.” Collins
v. City of Harker Heights, 503 U.S. 115, 126 (1992) (internal quotation marks and brackets omitted); see also
Cty. of Sacramento v. Lewis, 523 U.S. 833, 845–46,
(1998) (“The touchstone of due process is protection of
the individual against arbitrary action of government,
[including] the exercise of power without any reasonable justification in the service of a legitimate government objective.” (internal quotation marks omitted)).
Although the Clause provides no guarantee “of certain

App. 10
minimal levels of safety and security,” it expressly prohibits deprivations by “the State itself.” DeShaney v.
Winnebago Cty. Dep’t of Soc. Servs., 489 U.S. 189, 195
(1989). That is, “[i]ts purpose [is] to protect the people
from the State, not to ensure that the State protect[ ]
them from each other.” Id. at 196.
There are procedural and substantive due process
components. See Range v. Douglas, 763 F.3d 573, 588
(6th Cir. 2014). Only the latter component is at issue
here. Substantive due process “bar[s] certain government actions regardless of the fairness of the procedures used to implement them.” Daniels v. Williams,
474 U.S. 327, 331 (1986). It “specifically protects those
fundamental rights and liberties which are, objectively,
deeply rooted in this Nation’s history and tradition,
and implicit in the concept of ordered liberty, such that
neither liberty nor justice would exist if they were sacrificed.” Washington v. Glucksberg, 521 U.S. 702, 720–
21 (1997) (internal quotation marks and citations
omitted). The liberty interests secured by the Due Process Clause “include[ ] the right ‘generally to enjoy
those privileges long recognized at common law as essential to the orderly pursuit of happiness by free
men.’ ” Ingraham v. Wright, 430 U.S. 651, 673 (1977)
(quoting Meyer v. Nebraska, 262 U.S. 390, 399 (1923)).
These common-law privileges, the Supreme Court has
held, specifically embrace the right to bodily integrity,
Glucksberg, 521 U.S. at 720, and the right not to be subjected to arbitrary and capricious government action
that “shocks the conscience and violates the decencies

App. 11
of civilized conduct.” Lewis, 523 U.S. at 846–47 (internal quotation marks omitted).
The Supreme Court “has always been reluctant to
expand the concept of substantive due process because
guideposts for responsible decisionmaking in this uncharted area are scarce and open-ended.” Collins, 503
U.S. at 125. Substantive Due Process is not “a rigid conception, nor does it offer recourse for every wrongful
action taken by the government.” EJS Props., LLC v.
City of Toledo, 698 F.3d 845, 862 (6th Cir. 2012). As
such, it “does not purport to supplant traditional tort
law in laying down rules of conduct to regulate liability
for injuries that attend living together in society.” Daniels, 474 U.S. at 332. That means a “ ‘careful description’ of the asserted fundamental liberty interest” is
essential, Glucksberg, 521 U.S. at 721 (citation omitted), otherwise the Clause would turn into “a font of
tort law to be superimposed upon whatever systems
may already be administered by the States.” Daniels,
474 U.S. at 332 (citation omitted). Accordingly, we “focus on the allegations in the complaint to determine
how [plaintiffs] describe[ ] the constitutional right at
stake and what the [defendants] allegedly did to deprive [them] of that right.” Collins, 503 U.S. at 125.
A.
Plaintiffs’ complaint deals with the scope of the
right to bodily integrity, an indispensable right recognized at common law as the “right to be free from . . .
unjustified intrusions on personal security” and

App. 12
“encompass[ing] freedom from bodily restraint and
punishment.” Ingraham, 430 U.S. at 673–74; see also
Davis v. Hubbard, 506 F. Supp. 915, 930 (N.D. Ohio
1980) (“In the history of the common law, there is perhaps no right which is older than a person’s right to be
free from unwarranted personal contact.” (collecting
authorities)).
This common law right is first among equals. As
the Supreme Court has said: “No right is held more sacred, or is more carefully guarded by the common law,
than the right of every individual to the possession and
control of his own person, free from all restraint or interference of others, unless by clear and unquestionable authority of law.” Union Pac. Ry. Co. v. Botsford, 141
U.S. 250, 251 (1891); cf. Schmerber v. California, 384
U.S. 757, 772 (1966) (“The integrity of an individual’s
person is a cherished value of our society.”). Absent
lawful authority, invasion of one’s body “is an indignity,
an assault, and a trespass” prohibited at common law.
Union Pac. Ry., 384 U.S. at 252. On this basis, we have
concluded “[t]he right to personal security and to bodily integrity bears an impressive constitutional pedigree.” Doe v. Claiborne Cty., 103 F.3d 495, 506 (6th Cir.
1996).
“[T]his right is fundamental where ‘the magnitude
of the liberty deprivation that the abuse inflicts upon
the victim strips the very essence of personhood.’ ”
Kallstrom v. City of Columbus, 136 F.3d 1055, 1063
(6th Cir. 1998) (quoting Doe, 103 F.3d at 506–07)
(brackets and ellipsis omitted). “We have never retreated . . . from our recognition that any compelled

App. 13
intrusion into the human body implicates significant,
constitutionally protected . . . interests.” Missouri v.
McNeely, 569 U.S. 141, 159 (2013) (emphasis added);
see also Rochin v. California, 342 U.S. 165, 172 (1952)
(forcibly pumping a detainee’s stomach to obtain evidence was “too close to the rack and the screw to permit
of constitutional differentiation”). And more broadly, it
is beyond debate that an individual’s “interest in preserving her life is one of constitutional dimension.”
Nishiyama v. Dickson Cty., 814 F.2d 277, 280 (6th Cir.
1987) (en banc), abrogated on other grounds as recognized in Jones v. Reynolds, 438 F.3d 685, 694–95 (6th
Cir. 2006).
Bodily integrity cases “usually arise in the context
of government-imposed punishment or physical restraint,” but that is far from a categorical rule. Kallstrom, 136 F.3d at 1062 (collecting cases). Instead, the
central tenet of the Supreme Court’s vast bodily integrity jurisprudence is balancing an individual’s common
law right to informed consent with tenable state interests, regardless of the manner in which the government intrudes upon an individual’s body. See, e.g.,
Cruzan v. Dir., Missouri Dep’t of Health, 497 U.S. 261,
269–70 (1990). Thus, to show that the government has
violated one’s right to bodily integrity, a plaintiff need
not “establish any constitutional significance to the
means by which the harm occurs[.]” Boler v. Earley,
865 F.3d 391, 408 n.4 (6th Cir. 2017). That is because
“individuals possess a constitutional right to be free
from forcible intrusions on their bodies against their
will, absent a compelling state interest.” Planned

App. 14
Parenthood Sw. Ohio Region v. DeWine, 696 F.3d 490,
506 (6th Cir. 2012).
A few examples illustrate the breadth of this
tenet. Consider Washington v. Harper, which addressed the State of Washington’s involuntary administration of antipsychotic medication to an inmate
without a judicial hearing. 494 U.S. 210, 213–17 (1990).
There, the Supreme Court had “no doubt” that the inmate “possess[ed] a significant liberty interest in
avoiding unwanted administration of antipsychotic
drugs under the Due Process Clause of the Fourteenth
Amendment.” Id. at 221–22. This “interest in avoiding
the unwarranted administration of antipsychotic
drugs is not insubstantial. The forcible injection of
medication into a nonconsenting person’s body represents a substantial interference with that person’s liberty.” Id. at 229 (citing Winston v. Lee, 470 U.S. 753
(1985), and Schmerber, 384 U.S. 757). And this is especially so when the foreign substance “can have serious,
even fatal, side effects” despite some therapeutic benefits. Id. But the extent of this interference, reasoned
the Court, is circumscribed by the government’s interest (there, administering medication in the custodial
setting). Id. at 222–27. Examining those interests, the
Court permitted the physical intrusion upon a showing
of certain circumstances—danger to self or others, and
in the inmate’s medical interest. Id. at 227; see also
Riggins v. Nevada, 504 U.S. 127, 135–38 (1992) (applying Harper to the forced administration of drugs in
trial and pretrial settings and focusing upon the
state’s “overriding justification and a determination of

App. 15
medical appropriateness” to justify the intrusion); Sell
v. United States, 539 U.S. 166, 177–86 (2003) (similar).
The Supreme Court’s seminal “right to die” case,
Cruzan v. Director, Missouri Department of Health,
provides further explication. At issue in Cruzan was
whether the parents of an individual in a persistent
vegetative state could insist that a hospital withdraw
life-sustaining care based on her right to bodily integrity. 497 U.S. at 265–69. Writing for the Court, Chief
Justice Rehnquist extensively detailed the line between the common law, informed consent, and the right
to bodily integrity: “This notion of bodily integrity has
been embodied in the requirement that informed consent is generally required for medical treatment,” id.
at 269, “generally encompass[es] the right of a competent individual to refuse medical treatment,” id. at 277,
and is a right that “may be inferred from [the Court’s]
prior decisions.” Id. at 278–79 (citing Jacobson v. Massachusetts, 197 U.S. 11 (1905); Breithaupt v. Abram,
352 U.S. 432 (1957); Harper, 494 U.S. 210; Vitek v.
Jones, 445 U.S. 480 (1980); and Parham v. J.R., 442 U.S.
584 (1979)). And, although the Court assumed as
much, “the logic of [these] cases . . . embrace[s] . . . a
liberty interest” in “artificially delivered food and water essential to life.” Id. at 279. As with Harper, the
Court’s main inquiry was not whether the case dealt
with the right to bodily integrity, but rather how to balance this right with a competing state interest (the
protection of life) in relation to the procedural protections provided (the state’s requirement that an incompetent person’s wishes to withdraw treatment be

App. 16
proven by clear and convincing evidence). Id. at 280–
87; cf. Winston, 470 U.S. at 759 (holding that a nonconsensual “surgical intrusion into an individual’s
body for evidence” without a compelling state need is
unreasonable).
This nonconsensual intrusion vis-à-vis government interest line of cases has played out time and
time again in the lower courts. See, e.g., United States
v. Brandon, 158 F.3d 947, 953 (6th Cir. 1998) (“[T]he
issue of forced medication implicates . . . [the] liberty
interest in being free from bodily intrusion.”).3 The numerous cases involving government experiments on
unknowing and unwilling patients provide a strong
analogy to the Flint Water Crisis.4 Involuntarily subjecting nonconsenting individuals to foreign substances with no known therapeutic value—often under
false pretenses and with deceptive practices hiding the

3

Some defendants contend actual and targeted physical
force by a government actor is requisite for a bodily integrity invasion. But as set forth, the right to bodily integrity’s anchor is
control of one’s own person by way of informed consent, and thus
the method upon which the government enters the body is irrelevant. Boler, 865 F.3d at 408 n.4; see also Planned Parenthood of
Se. Pennsylvania v. Casey, 505 U.S. 833, 857 (1992) (plurality op).
4
See, e.g., Barrett v. United States, 798 F.2d 565 (2d Cir.
1986); Lojuk v. Quandt, 706 F.2d 1456 (7th Cir. 1983); Rogers v.
Okin, 634 F.2d 650 (1st Cir. 1980), overruled on other grounds sub
nom, Mills v. Rogers, 457 U.S. 291 (1982); Bounds v. Hanneman,
2014 WL 1303715 (D. Minn. Mar. 31, 2014); Heinrich v. Sweet, 62
F. Supp. 2d 282 (D. Mass. 1999); Stadt v. Univ. of Rochester, 921
F. Supp. 1023 (W.D.N.Y. 1996); In re Cincinnati Radiation Litigation, 874 F. Supp. 796 (S.D. Ohio 1995); Davis v. Hubbard, 506
F. Supp. 915 (N.D. Ohio 1980).

App. 17
nature of the interference—is a classic example of invading the core of the bodily integrity protection.
In re Cincinnati Radiation Litigation is a good example. Funded by the Department of Defense, government officials at the University of Cincinnati subjected
cancer patients to radiation doses consistent with
those expected to be inflicted upon military personnel
during a nuclear war. 874 F. Supp. at 802–04. The patients were in “reasonably good clinical condition,” and
were “primarily indigent, poorly educated, and of lower
than average intelligence.” Id. at 803. At no time did
the government actors disclose the risks associated
with the massive radiation doses or obtain consent to
irradiate the patients at those levels for those purposes—they instead told the patients that the radiation was treatment for their cancer. Id. at 803–04.
Summarizing the caselaw just mentioned, the Cincinnati Radiation court easily concluded that “[t]he right
to be free of state-sponsored invasion of a person’s bodily integrity is protected by the Fourteenth Amendment guarantee of due process.” Id. at 810–11. The
involuntary and misleading nature of the intrusions
was key. The patients could not “be said to exercise that
degree of free will that is essential to the notion of voluntariness” because:
[t]he choice Plaintiffs would have been forced
to make was one of life or death. If the Constitution protects personal autonomy in making
certain types of important decisions, the decision whether to participate in the Human
Radiation Experiments was one that each

App. 18
individual Plaintiff was entitled to make
freely and with full knowledge of the purpose
and attendant circumstances involved. Without actually seizing the Plaintiffs and forcing
them to submit to these experiments, the . . .
agents of the state[ ] accomplished the same
feat through canard and deception[.]
Id. at 812 (internal quotation marks and citations
omitted). Also key was the risk of harm—the plaintiffs
received “total and partial body radiation, which
caused burns, vomiting, diarrhea and bone marrow
failure, and resulted in death or severe shortening of
life.” Id. at 814.
We find the Cincinnati Radiation matter especially analogous. In both instances, individuals engaged in voluntary actions that they believed would
sustain life, and instead received substances detrimental to their health. In both instances, government
officials engaged in conduct designed to deceive the
scope of the bodily invasion. And in both instances,
grievous harm occurred. Based on the facts and principles set forth in the above cases, we therefore agree
with the district court that “a government actor violates individuals’ right to bodily integrity by knowingly
and intentionally introducing life-threatening substances into individuals without their consent, especially when such substances have zero therapeutic
benefit.”
Finally, we note what plaintiffs’ claim does not entail. There is, of course, “ ‘no fundamental right to water service.’ ” In re City of Detroit, 841 F.3d 684, 700 (6th

App. 19
Cir. 2016) (quoting Golden v. City of Columbus, 404
F.3d 950, 960 (6th Cir. 2005)). Moreover, the Constitution does not guarantee a right to live in a contaminant-free, healthy environment. See, e.g., Lake v. City
of Southgate, 2017 WL 767879, at *4 (E.D. Mich. Feb.
28, 2017) (collecting cases). To this end, several defendants and the dissent cite a California state case involving residents complaining about a city fluoridating its
drinking water supply. See Coshow v. City of Escondido, 132 Cal. App. 4th 687, 709 (2005). However,
Coshow is particularly inapposite because it shows the
push-and-pulls of competing policy decisions that generally fall outside the scope of a violation of the right
to bodily integrity—there, the government publicly introduced fluoride into the water system, a chemical frequently added to public water systems to prevent tooth
decay. Here, defendants make no contention that causing lead to enter Flint’s drinking water was for the
public good or that they provided notice to Flint residents about the lead-laced water. Therefore, “Coshow
did not address whether substantive due-process protections might be implicated in the case of intentional
introduction of known contaminants by governmental
officials, and its reasoning is inapplicable here.” Mays,
916 N.W.2d at 262 n.16.
B.
Upon a showing of a deprivation of a constitutionally protected liberty interest, a plaintiff must show
how the government’s discretionary conduct that deprived that interest was constitutionally repugnant.

App. 20
See Am. Express Travel Related Servs. Co. v. Kentucky,
641 F.3d 685, 688 (6th Cir. 2011) (“[A] plaintiff must
demonstrate a deprivation of a constitutionally protected liberty or property interest in order to establish
a due process violation based on discretionary conduct
of government officials[.]”). We use the “shocks the conscience” rubric to evaluate intrusions into a person’s
right to bodily integrity. Lillard v. Shelby Cty. Bd. of
Educ., 76 F.3d 716, 725 (6th Cir. 1996). Thus, a “plaintiff must show as a predicate the deprivation of a liberty or property interest” and conscience-shocking
conduct. See EJS Props., 698 F.3d at 861; Claybrook v.
Birchwell, 199 F.3d 350, 359 (6th Cir. 2000) (holding
that conscience-shocking behavior must be taken “towards the plaintiff ’s federally protected rights”); see
also Vargas v. City of Phila., 783 F.3d 962, 973 (3d Cir.
2015) (“To sustain a substantive due process claim, a
plaintiff must show that the particular interest in
question is protected by the Fourteenth Amendment
and that the government’s deprivation of that interest
‘shocks the conscience.’ ”); United States v. Sanders,
452 F.3d 572, 577 n.4 (6th Cir. 2006) (similar); Martinez
v. Cui, 608 F.3d 54, 64 (1st Cir. 2010) (similar).5
5

In dicta, we stated in Range that “[o]ur case law on substantive due process is somewhat conflicted as to whether an underlying constitutionally-protected right must be established in
order for a government action to violate one’s rights by shocking
the conscience,” and then cited EJS Properties for the proposition
that in non-zoning decision contexts “we have held that ‘government action may certainly shock the conscience or violate substantive due process without a liberty or property interest at
stake.’ ” 763 F.3d at 589 (quoting EJS Props., 698 F.3d at 861–
62). For that statement, EJS Properties, in dicta as well, cited two

App. 21
“[T]he measure of what is conscience shocking is
no calibrated yard stick,” nor is it “subject to mechanical application.” Lewis, 523 U.S. at 847, 850. Several
“tropes” help explain its meaning, Range, 763 F.3d at
589, with the focus again being on “executive abuse of
power.” Lewis, 523 U.S. at 846. Rochin is the “benchmark.” Id. at 846–47. Due-process-violative conduct
(there, forced stomach pumping to obtain evidence)
“shocks the conscience,” infringes upon the “decencies
of civilized conduct,” is “so brutal and so offensive to
human dignity,” and interferes with rights “implicit in
the concept of ordered liberty.” Rochin, 342 U.S. at 169,
172–74 (citation omitted); see also Lewis, 523 U.S. at
846–47 (collecting authorities). “These are subjective
standards, to be sure, but they make clear that the
‘shocks the conscience’ standard is not a font of tort
law, but is instead a way to conceptualize the sort of
egregious behavior that rises to the level of a substantive due process violation.” Range, 763 F.3d at 590.
Stated differently, the shocks-the-conscience test is the

pre-Lewis cases, and more importantly, American Express—a
case involving a constitutional challenge to a state law. 698 F.3d
at 861–62. Range’s and EJS Properties’ dicta misconstrue American Express, which expressly held “a plaintiff must demonstrate
a deprivation of a constitutionally protected liberty or property
interest in order to establish a due process violation based on discretionary conduct of government officials,” unless the matter involves a constitutional challenge to a state law. Am. Express, 641
F.3d at 688–89 (citation omitted). This is consistent with Lewis,
523 U.S. at 847 n.8.

App. 22
way in which courts prevent transforming run-of-themill tort claims into violations of constitutional guarantees.
To aid this inquiry, we are to place the alleged heinous conduct on a spectrum, “[t]he bookends [of which]
present the easier cases.” Id. On the one end is conduct
that “is categorically beneath the threshold of constitutional due process,” mere negligence. Lewis, 523 U.S.
at 849. Conduct that is “intended to injure in some way
unjustifiable by any government interest” represents
the other end, for this behavior “would most probably
support a substantive due process claim.” Id. We deal
here not with these extremes, but rather in the middle,
what the Court has deemed “something more than negligence but less than intentional conduct, such as recklessness or gross negligence.” Id. (internal quotation
marks omitted).
This “middle state[ ] of culpability ‘may or may not
be shocking depending on the context,’ ” Range, 763
F.3d at 590 (quoting Hunt v. Sycamore Cmty. Sch. Dist.
Bd. of Educ., 542 F.3d 529, 535 (6th Cir. 2008)), for
what may “constitute a denial of fundamental fairness,
shocking to the universal sense of justice, may, in other
circumstances, and in the light of other considerations,
fall short of such denial,” Lewis, 523 U.S. at 850 (quoting Betts v. Brady, 316 U.S. 455, 462 (1942)). “Deliberate indifference that shocks in one environment may
not be so patently egregious in another, and our concern with preserving the constitutional proportions of
substantive due process demands an exact analysis of

App. 23
circumstances before any abuse of power is condemned
as conscience shocking.” Id.
Lewis delineates this dichotomy. The issue there
was “whether a police officer violates the Fourteenth
Amendment’s guarantee of substantive due process by
causing death through deliberate or reckless indifference to life in a high-speed automobile chase aimed at
apprehending a suspected offender.” Id. at 836. The
Court held that “high-speed chases with no intent to
harm suspects physically or to worsen their legal
plight do not give rise to liability under the Fourteenth
Amendment. . . .” Id. at 854. In so holding, the Court
highlighted how the time to deliberate in one circumstance may dictate liability in one situation but not
another because “[a]s the very term ‘deliberate indifference’ implies, the standard is sensibly employed
only when actual deliberation is practical[.]” Id. at 851.
Take a classic deliberate indifference situation—when,
for example, a prison official has “time to make unhurried judgments, [with] the chance for repeated reflection, largely uncomplicated by the pulls of competing
obligations.” Id. at 853. It is in these kinds of situations
where we would expect plaintiffs asserting substantive
due process claims based on deliberate indifference to
be most successful. In rapidly evolving situations like
prison riots, high-speed chases, and other tense, splitsecond-reaction-demanding matters, we apply “a much
higher standard.” Id. at 852–54. We look instead to
whether the state actor applies force “maliciously and
sadistically for the very purpose of causing harm”—in

App. 24
other words, whether he acted with an intent to harm.
Id. at 853.
“The critical question in determining the appropriate standard of culpability is whether the circumstances allowed the state actors time to fully consider
the potential consequences of their conduct.” Ewolski
v. City of Brunswick, 287 F.3d 492, 510 (6th Cir. 2002)
(internal quotation marks and brackets omitted). This
“time to deliberate consideration,” however, does not
“transform any reckless action from a tort to conscience-shocking behavior simply because the government actor had time to appreciate any risk of harm.
Time is instead one element in determining whether
the actor’s culpability ‘inches close enough to harmful
purpose to spark the shock that implicates’ substantive due process.” Range, 763 F.3d at 590 (quoting
Lewis, 523 U.S. at 853) (brackets omitted). Our focus
instead is upon the entirety of the situation—“the type
of harm, the level of risk of the harm occurring, and the
time available to consider the risk of harm are all necessary factors in determining whether an official was
deliberately indifferent.” Id. at 591.
After Lewis, “the key variable is whether actual
deliberation is practical, not whether the claimant was
in state custody.” Ewolski, 287 F.3d at 510 n.5. This is
because “[c]ustodial settings . . . are not the only situations in which officials may have a reasonable opportunity to deliberate.” Id. But more importantly, even in
non-custodial situations, we have stressed that deliberate indifference claims require “something more”:

App. 25
[A] something that we have variously described as callous disregard for the risk of injury, or action in an arbitrary manner that
shocks the conscience or that indicates an intent to injure. That additional element—be it
termed callous disregard or intent to injure—
ensures that only the most egregious official
conduct can be said to be arbitrary in the constitutional sense.
Schroder v. City of Fort Thomas, 412 F.3d 724, 730 (6th
Cir. 2005) (internal citations, quotation marks, and
brackets omitted).
We have identified a multitude of considerations
when evaluating an official’s alleged arbitrariness in
the constitutional sense, including the time for deliberation, the nature of the relationship between the
government and the plaintiff, and whether a legitimate
government purpose motivated the official’s act. Hunt,
542 F.3d at 536. These factors help elucidate Lewis’s
broader point that simply making bad choices does not
rise to the level of deliberate indifference. Rather, “[f ]or
us to find deliberate indifference, . . . we must find not
only that the governmental actor chose to act (or failed
to act) despite a subjective awareness of substantial
risk of serious injury, but we also must make some assessment that he did not act in furtherance of a countervailing governmental purpose that justified taking
that risk.” Id. at 541; see also Schroder, 412 F.3d at 729
(“Many, if not most, governmental policy choices come
with risks attached to both of the competing options,
and yet ‘it is not a tort for government to govern’ by

App. 26
picking one option over another.” (citation omitted)).
“Essentially, the more voluntary the plaintiff-government relationship, or the less time the state actor has
to deliberate, or the greater the extent to which the
state actor is pursuing a legitimate end, the less arbitrary we should deem a bodily injury or death caused
by the state actor.” Durham v. Estate of Losleben, 744
F. App’x 268, 271 (6th Cir. 2018). We agree with the district court that these considerations weigh in favor of
finding that the generally alleged conduct was so egregious that it can be said to be “arbitrary in the constitutional sense.”6
6

Several defendants suggest we should depart from this line
of authorities and instead reject plaintiffs’ claim on the basis of
the Supreme Court’s pre-Lewis decision in Collins, where the Supreme Court rejected a substantive due process claim that “the
Federal Constitution imposes a duty on the city to provide its employees with minimal levels of safety and security in the workplace” and the city’s deliberate indifference to employee safety
shocked the conscience. 503 U.S. at 125–26. True, the substantive
due process clause “confer[s] no affirmative right to government
aid, even where such aid may be necessary to secure life, liberty,
or property interests of which the government itself may not deprive the individual,” DeShaney, 489 U.S. at 195, nor does it set a
floor for the public’s right to be safe and secure, see Collins, 503
U.S. at 127. But these general principles have no applicability
here—this is not a workplace injury case, plaintiffs do not allege
Flint was required to provide them with “certain minimal levels
of safety and security,” id., and DeShaney itself makes clear in
the same token that injuries caused by the state are of a different
ilk. 489 U.S. at 195–96. Nor is there a contention that—unlike
many public employees hired to perform inherently dangerous
jobs who thus “assumed the risk,” Hunt, 542 F.3d at 538—Flint
residents voluntarily consumed the water in the face of likely
lead-exposure. For these reasons, our post-Collins, pre-Lewis
caselaw relied upon by defendants is similarly distinguishable.

App. 27
Extensive time to deliberate. There is no doubt that
the lead-contamination inflicted upon the people of
Flint was a predictable harm striking at the core of
plaintiffs’ bodily integrity, and this known risk cannot
be excused on the basis of split-second decision making. All of the alleged decisions by defendants leading
up to and during the crisis took place over a series of
days, weeks, months, and years, and did not arise out
of time-is-of-the-essence necessity. Their “unhurried
judgments” were replete with opportunities for “repeated reflection, largely uncomplicated by the pulls of
competing obligations,” and thus militate in plaintiffs’
favor. Lewis, 523 at 853; see also Ewolski, 287 F.3d at
511–12. In the Court’s words, because “[w]hen such extended opportunities to do better are teamed with protracted failure even to care, indifference is truly
shocking.” Lewis, 523 U.S. at 853.
Involuntary relationship. In addition to the time
to deliberate, the relationship between the City of
Flint and its residents matters. At the outset, we
acknowledge we deal here not with the typical line of
voluntary/involuntary relationships that normally occur in our caselaw. Instead, two factors weigh toward
an involuntary relationship. First, Flint’s transmission
of drinking water to its residents is mandatory on both
ends—Flint’s Charter and Code of Ordinances mandate that the city supply water to its residents, see, e.g.,
Flint City Charter § 4-203(A), Flint Code of Ord. § 467, and as the City expressly argued below, “residents
See, e.g., Lewellen, 34 F.3d 345; Upsher v. Grosse Pointe Pub. Sch.
Sys., 285 F.3d 448 (6th Cir. 2002).

App. 28
are legally required to take and pay for the water, unless they use an approved spring or well.” See Flint
Code of Ord. §§ 46-50(b), 46-51, 46-52. Second, various
defendants’ assurances of the water’s potability hid the
risks, turning residents’ voluntary consumption of a
substance vital to subsistence into an involuntary and
unknowing act of self-contamination. As the district
court aptly reasoned, “[m]isleading Flint’s residents as
to the water’s safety—so that they would continue to
drink the water and Flint could continue to draw water
from the Flint River—is no different than the forced,
involuntary invasions of bodily integrity that the Supreme Court has deemed unconstitutional.” (Citations
omitted).7
No legitimate government purpose. The decision to
temporarily switch Flint’s water source was an economic one and there is no doubt that reducing cost is a
legitimate government purpose. See, e.g., Garrett v.
Lyng, 877 F.2d 472, 476 (6th Cir. 1989). When a government acts “for the benefit of the public,” normally its
deliberate choice does not shock the conscience. See
Hunt, 542 F.3d at 542. There is a caveat to this general
rule—acting merely upon a government interest does
not remove an actor’s decision from the realm of unconstitutional arbitrariness. Id. at 543 (“[W]e have
held open the possibility that in extreme cases the
7

See also Briscoe v. Potter, 355 F. Supp. 2d 30, 45–47 (D.D.C.
2004) (holding that plaintiffs sufficiently alleged conscienceshocking conduct where defendants knew a post office distribution center was contaminated with anthrax, made affirmative
misrepresentations about the facility’s safety, and coerced plaintiffs into continuing to work at the facility).

App. 29
governmental actor’s choice to endanger a plaintiff in
the service of a countervailing duty would be deemed
arbitrary[.]”). Here, jealously guarding the public’s
purse cannot, under any circumstances, justify the
yearlong contamination of an entire community. In the
words of the Michigan Court of Appeals, “we can conceive of no legitimate governmental objective for this
violation of plaintiffs’ bodily integrity.” Mays, 916
N.W.2d at 262. (Some defendants contend their actions
were motivated by other legitimate government purposes, and we address their positions below.)
There is no allegation defendants intended to
harm Flint residents. Accordingly, the question is
whether defendants acted with “[d]eliberate indifference in the constitutional sense,” Range, 763 F.3d at
591, which we have “equated with subjective recklessness,” Ewolski, 287 F.3d at 513 (citing Farmer v. Brennan, 511 U.S. 825, 837 (1994)). This is a particularly
high hurdle, for plaintiffs must show the government
officials “knew of facts from which they could infer a
‘substantial risk of serious harm,’ that they did infer
it, and that they acted with indifference ‘toward the individual’s rights.’ ” Range, 763 F.3d at 591 (citation
omitted). The deliberate-indifference standard requires an assessment of each defendant’s alleged actions individually. See Bishop v. Hackel, 636 F.3d 757,
767 (6th Cir. 2011). Our focus is on each individual defendant’s conduct, their “subjective awareness of substantial risk of serious injury,” and whether their
actions were made “in furtherance of a countervailing

App. 30
governmental purpose that justified taking that risk.”
Hunt, 542 F.3d at 541.
C.
Flint defendants (Earley, Ambrose, and Croft). We
begin with one of the two sets of defendants who were
instrumental in creating the crisis—defendants Croft,
Emergency Manager Earley, and Emergency Manager
Ambrose. These individuals were among the chief architects of Flint’s decision to switch water sources and
then use a plant they knew was not ready to safely process the water, especially in light of the Flint River’s
known environmental issues and the problems associated with lead exposure. Earley, for example, “forced
the transition through” despite knowing how important it was that “the treatment plant be ready to
treat Flint River water” and that “[t]he treatment
plant was not ready.” Similarly, Croft permitted the
water’s flow despite knowing “that the City’s water
treatment plant was unprepared to adequately provide
safe drinking water to Flint’s residents.” The Flint defendants also made numerous statements to the public
proclaiming that the water was safe to drink. Defendant Ambrose’s decisions to twice turn down opportunities to reconnect to the DWSD after he knew of the
significant problems with the water were especially
egregious. These and other asserted actions plausibly
allege deliberate indifference and “plain[ ] incompeten[ce]” not warranting qualified immunity. al-Kidd,
563 U.S. at 743 (citation omitted). To the extent these
defendants claim “mistakes in judgment” because they

App. 31
reasonably relied upon the opinions of Michigan Department of Environmental Quality (MDEQ) employees and professional engineering firms, see Pearson,
555 U.S. at 231, those are facts to be fleshed out during
discovery and are not appropriate to resolve at the
motion-to-dismiss posture. See, e.g., Wesley, 779 F.3d at
433–34.
The dissent concludes that Ambrose and Earley
were merely “rel[ying] on expert advice” and therefore
their actions could not demonstrate a callous disregard
for plaintiffs. However, this conclusion ignores Wesley’s
guidance not to resolve such issues at the motion-todismiss stage. It also ignores our obligation to accept
plaintiffs’ allegations as true and draw reasonable inferences from those allegations. One can place a benign
construction on the factual allegations and draw inferences so that the facts amount to a negligent mismanagement of priorities and risks; but the allegations also
support a reasonable inference that Earley prioritized
a drive to cut costs with deliberate and reckless indifference to the likely results, and Ambrose refused to
reconnect to Detroit water despite knowing the substantial risk to Flint residents’ health.
For now, we conclude that plaintiffs’ complaint
plausibly alleges a constitutional violation as to these
defendants.
D.
MDEQ Defendants (Busch, Shekter-Smith, Prysby,
Wurfel, and Wyant). The MDEQ defendants were the

App. 32
other set of individuals front and center during the crisis. The allegations against defendants Busch,
Shekter-Smith, Prysby, and Wurfel are numerous
and substantial. These MDEQ defendants played a
pivotal role in authorizing Flint to use its ill-prepared
water treatment plant to distribute drinking water
from a river they knew was rife with public-healthcompromising complications. Furthermore, when faced
with the consequences of their actions, they falsely assured the public that the water was safe and attempted to refute assertions to the contrary. A few
poignant examples further illustrate their culpability:
•

Less than two weeks before the switch to
Flint water, the Flint water treatment
plant’s water quality supervisor wrote to
Prysby and Busch that he had inadequate staff and resources to properly
monitor the water. As a result, he informed Prysby and Busch, “I do not anticipate giving the OK to begin sending
water out anytime soon. If water is distributed from this plant in the next couple of weeks, it will be against my
direction.” Busch and Prysby did not act
on this warning. Instead, a few days later,
Busch drafted a talking point for a Flint
community meeting that highlighted that
MDEQ was “satisfied with the City’s ability to treat water from the Flint River.”

•

After General Motors very publicly
stopped using Flint River water at its engine plant for fear of corrosion, Prysby
made sure the department’s approach

App. 33
was to spin this symptom as not related
to public health instead of investigating
the underlying problem. He “stressed the
importance of not branding Flint’s water
as ‘corrosive’ from a public health standpoint simply because it does not meet a
manufacturing facility’s limit for production.”
•

On February 27, 2015, Busch lied when
he told “the EPA on behalf of MDEQ that
the Flint Water Treatment Plant had an
optimized corrosion control program.”
However, Busch knew “[b]y no later than
April 2015, but likely much earlier . . .
that no corrosion control was being used
in Flint following the switch to the Flint
River as the water source.” (Emphasis
added).

•

In the midst of the crisis and with full
knowledge that Flint’s water distribution
system was corroded and presented significant health issues, Shekter-Smith callously excused Flint’s lack of drinking
water compliance as “circumstances happen.” And after the EPA pressed MDEQ
officials for MDEQ’s failure to optimize
corrosion controls in July 2015, she requested the EPA nonetheless cover her
department’s decision by “indicat[ing] in
writing . . . [its] concurrence that the city
is in compliance with the lead and copper
rule. . . .” Doing so, she wrote, “would help
distinguish between [MDEQ’s] goals to
address important public health issues

App. 34
separately from the compliance requirements of the actual rule which we believe
have been and continue to be met in the
city of Flint.” In other words, “technical
compliance” trumped addressing an urgent and catastrophic public health disaster.
•

On numerous occasions, defendant
Wurfel, the public face of the crisis, announced the water was safe to drink, and
demeaned, belittled, and aggressively
dampened attempts by the scientific community to challenge the government’s assertions that Flint did not have a problem
with its drinking water. And he suggested
that concern regarding the water was at
best a short-term problem—that by the
time the City had completed its leadtesting, the City would already be drawing from a different water source
altogether.

As with the Flint defendants, these MDEQ defendants created the Flint Water environmental disaster
and then intentionally attempted to cover-up their
grievous decision. Their actions shock our conscience.
It is alleged that these defendants acted with deliberate indifference to the plaintiffs’ constitutional right to
bodily integrity and at a minimum were plainly incompetent.
To the extent these defendants made “honest mistakes in judgment”—in law or fact—in interpreting
and applying the Lead and Copper Rule, see, e.g.,

App. 35
Pearson, 555 U.S. at 231, that defense is again best reserved for after discovery. See, e.g., Wesley, 779 F.3d at
433–34. This Rule generally requires public water systems to monitor lead and copper levels and to treat certain elevated levels in accordance with the regulation.
40 C.F.R. § 141.80 et. seq. More specifically, it requires
a “large system,” like Flint, to optimize corrosion control treatment before distribution of water to the public. § 141.81(a)(1). However, MDEQ employees did not
follow this dictate; instead, under a “flawed interpretation” of the Rule, they drew up a yearlong sampling
program post-switch (broken up into two, six-month
monitoring periods) to determine whether corrosion
controls were required. In their view, this after-thefact-wait-and-see approach to corrosion controls allegedly fell within minimum compliance levels of the
Rule. Plaintiffs’ view is bleaker. They assert MDEQ
viewed Flint residents as “guinea pigs” for a year to
test lead-compliance theories that were unsupported
and unauthorized by the EPA just to pass time until
water began flowing from a new water authority. To be
sure, plaintiffs’ view must be based on reasonable inferences from factual allegations. The district court
correctly found that it is.
By the same token, we reject Wurfel’s reliance
upon two Second Circuit cases involving statements by
public officials about the air-quality in lower Manhattan in the days following the September 11 terrorist
attacks, see Lombardi v. Whitman, 485 F.3d 73 (2d Cir.
2007) and Benzman v. Whitman, 523 F.3d 119 (2d Cir.
2008), chiefly for the reason that those matters

App. 36
involved the balancing of competing governmental interests—restoring public services and protecting public health—during a time-sensitive environmental
emergency. We have no such similar facts here on the
face of plaintiffs’ complaint.
The dissent again asks us to view plaintiffs’ allegations in a light favorable to defendants, arguing
that Shekter-Smith, Busch, and Prysby simply “misinterpreted the [EPA’s] Lead and Copper Rule” and
provided “misguided advice rooted in mistaken interpretations of the law.” But plaintiffs’ allegations, which
we must accept, are that Busch, Shekter-Smith, and
Prysby authorized use of Flint River water with
knowledge of its contaminants and then deceived others to hide the fact of contamination. Moreover, it is
improper to conclude at this stage that Shekter-Smith,
Busch, and Prysby merely misinterpreted the Lead
and Copper Rule because plaintiffs allege that the EPA
informed them that they were not complying with EPA
requirements, providing them with a memorandum
that “identified the problem, the cause of that problem,
and the specific reason the state missed it.” In response, “Defendants ignored and dismissed” the memorandum. Although the dissent claims that plaintiffs’
factual allegations do not support that Wurfel’s statements were knowing lies, that is a reasonable inference from plaintiffs’ factual allegations.
We cannot say the same with respect to defendant
Director Wyant based on the allegations in the complaint. At most, plaintiffs claim Wyant was aware of
some of the issues arising with the water supply

App. 37
post-switch and admitted his department’s “colossal
failure” after the City reconnected to DWSD. Plaintiffs
do not plausibly allege Wyant personally made decisions regarding the water-source switch, nor do they
allege he personally engaged in any other conduct that
we find conscience-shocking. In short, while the conduct of individuals within his department was constitutionally abhorrent, we may only hold Wyant
accountable for his own conduct, not the misconduct of
his subordinates. See Ashcroft v. Iqbal, 556 U.S. 662,
676–77 (2009). For this reason, the district court erred
in denying defendant Wyant’s motion to dismiss.
E.
MDHHS Executives (Lyon and Wells). In the complaint before us, plaintiffs’ allegations against Michigan Department of Health and Human Services
(MDHHS) Director Lyon and Chief Medical Executive
Wells are minimal. The complaint sets forth no facts
connecting Lyon and Wells to the switch to the Flint
River or the decision not to treat the water, and there
is no allegation that they took any action causing
plaintiffs to consume the lead-contaminated water. Instead, plaintiffs claim generally that Lyon and Wells
failed to “protect and notify the public” of the problems
with Flint’s water shortly before Flint switched back to
DWSD. However, the Due Process Clause is a limitation only on government action. See DeShaney, 489
U.S. at 195.

App. 38
We are thus left with allegations of at most questionable actions by Lyon and Wells. The sole allegation
against Lyon is that he attempted to “discredit” a study
by Dr. Mona Hanna-Attisha, a pediatrician at Hurley
Medical Center in Flint, showing significant increases
of blood lead levels in children post-water-source
switch.8 Paragraph 289 of plaintiffs’ complaint sets
forth plaintiffs’ entire case against Lyon:
MDHHS Director Nick Lyon continues trying
to discredit Dr. Hanna-Attisha’s study despite
his own department’s knowledge that it shows
a real problem. In an e-mail, he stated: “I need
an analysis of the Virginia Tech/Hurley data
and their conclusions. I would like to make a
strong statement with a demonstration of
proof that the lead blood levels seen are not
out of the ordinary and are attributable to
seasonal fluctuations. Geralyn is working on
this for me but she needs someone in public
health who can work directly with her on immediate concerns/questions.”
And the two main factual allegations against Wells are
equally sparse:

8

They also allege Lyon “participated in, directed, and/or
oversaw the department’s efforts to hide information to save face,
and to obstruct and discredit the efforts of outside researchers.
He knew as early as 2014 of problems with lead and legionella
contamination in Flint’s water and instead of fulfilling his duty to
protect and notify the public, he participated in hiding this information.” (Plaintiffs make the same general allegation against
Wells.) But this is precisely the type of “chimerical,” “bare assertion[ ]” Iqbal requires we set aside. 556 U.S. at 681.

App. 39
•

On September 29, 2015, Wells received an
email from an MDHHS employee asking,
“Is it possible to get the same type of data
for just children under the age of six? So
basically, the city of Flint kids ages six
and under with the same type of approach as the attached chart you gave us
last week?” Another employee responded
that “[i]t’s bad enough to have a data war
with outside entities, we absolutely cannot engage in competing data analyses
within the Department, or, heaven forbid,
in public releases.” Dr. Wells replied
“Agree.” Plaintiffs claim this “show[ed]
MDHHS continuing efforts to mislead the
public, protect itself, and discredit Dr.
Hanna-Attisha.”

•

In response to an email from Dr. HannaAttisha showing the tripling of blood lead
levels, Wells “responded that the state
was working to replicate Hanna-Attisha’s
analysis, and inquired about Dr. HannaAttisha’s plans to take the information
public.” According to plaintiffs, this shows
that “[w]hile discouraging her department to look further into Dr. HannaAttisha’s findings and misleading Dr.
Hanna-Attisha, Defendant Wells remained focused on a single task; saving
face at the expense of Flint’s residents.”

At most, plaintiffs have alleged Lyon and Wells were
unjustifiably skeptical of Dr. Hanna-Attisha’s study
and were hoping to assemble evidence to disprove it.
This falls well-short of conscience-shocking conduct

App. 40
and therefore the district court erred in denying their
motions to dismiss.
F.
MDHHS Employees (Peeler and Scott). That leaves
us with two MDHHS employees, Nancy Peeler and
Robert Scott, who jointly worked on projects within
MDHHS designed to eliminate lead exposure. As with
Lyon and Wells, the allegations against Peeler and
Scott relate not to the switch of water sources, but to
how they processed—or rather did not process—data
relating to lead exposure more than a year later.
In general, plaintiffs allege Peeler and Scott “participated in, directed, and/or oversaw the department’s
efforts to hide information to save face, and actively
sought to obstruct and discredit the efforts of outside
researchers. Even when [their] own department had
data that verified outside evidence of a lead contamination problem, [they] continued trying to generate evidence to the contrary.” Scott “also served a key role in
withholding and/or delaying disclosure of data that
outside researchers needed to protect the people of
Flint.” In support of these general allegations, plaintiffs point to the following:
•

Beginning in July 2015, Peeler learned
there was “an uptick in children with elevated blood lead levels in Flint in July,
August, and September 2014,” but attributed it to “seasonal variation” instead
of the water-source switch.

App. 41
•

On September 11, 2015, Robert Scott emailed a copy of a grant proposal by a Virginia Tech professor, Marc Edwards, that
“described a ‘perfect storm’ of ‘out of control’ corrosion of city water pipes leading
to ‘severe chemical/biological health risks
for Flint residents’ ” to Peeler and others.
Scott stated, “When you have a few
minutes, you might want to take a look at
it. Sounds like there might be more to this
than what we learned previously. Yikes!”

•

Following Dr. Hanna-Attisha’s study,
Scott “tried to recreate [her] numbers,”
saw “a difference”—“but not as much difference” as found by Dr. Hanna-Attisha—
in children’s lead-levels pre-and postswitch, but told Peeler that he was “sure
this one is not for the public.”

•

Scott, Peeler, and another MDHHS colleague corresponded about a Detroit Free
Press story on Dr. Hanna-Attisha’s study.
Scott wrote, “The best I could say is something like this: ‘While the trend for Michigan as a whole has shown a steady
decrease in lead poisoning year by year,
smaller areas such as the city of Flint
have their bumps from year to year while
still trending downward overall.’ ” Peeler
chimed in that her “secret hope is that we
can work in the fact that this pattern is
similar to the recent past.” In plaintiffs’
view, this correspondence shows Peeler
and Scott “intentionally withheld information that they had a duty to disclose to

App. 42
the public, and actively sought to hide the
lead poisoning epidemic that they had
previously failed to discover.”
•

Scott drafted an apology email to Prof.
Edwards explaining why he failed to respond to multiple requests for state data.
His unsent email to Edwards explained
that he “worked with you earlier this
month to get data to you relatively
quickly but did not manage to complete
the process before I went on annual leave
for several days. I neglected to inform you
that I’d be away, and I apologize for not
informing you.’ ” Scott did not send the
email to Edwards after Peeler told him to
“apologize less,” “despite,” in plaintiffs’
words, “the fact that Scott admitted to going on vacation and leaving an unimportant task unfinished as a public health
crisis unfolded.”

In total, plaintiffs’ allegations against Scott and
Peeler are: (1) after Dr. Hanna-Attisha released her
study on September 24, 2015, Scott tried to “recreate”
the study, found a smaller difference in children’s lead
levels than Dr. Hanna-Attisha’s study, and concluded
his results were “not for the public”; (2) Scott did not
timely provide researchers with requested data; (3)
Peeler and Scott knew that elevated lead levels could
have been due to corrosion in the city water pipes; and
(4) both sought to attribute it to regular fluctuations.
In our view, these allegations do not rise to the level of
“callous disregard”; plaintiffs do not factually link
Scott’s and Peeler’s inaction to causing Flint residents

App. 43
to consume (or continue to consume) lead-tainted water. Nor do plaintiffs identify a source of law for the
proposition that an individual violates the right to bodily integrity just because he failed to “blow the whistle.” Plaintiffs have therefore not plausibly alleged
Scott and Peeler engaged in conscience-shocking conduct.
In sum, the district court erred in finding that
plaintiffs adequately alleged that defendants Wyant,
Lyon, Wells, Peeler, and Scott violated plaintiffs’ substantive due process right to bodily integrity, but correctly held plaintiffs plausibly alleged such a violation
against defendants Earley, Ambrose, Croft, Busch,
Shekter-Smith, Prysby, and Wurfel.
VI.
A right is “clearly established” when its “contours
. . . [are] sufficiently clear that a reasonable official
would understand that what he is doing violates that
right.” Anderson v. Creighton, 483 U.S. 635, 640 (1987).
Notice to officials is paramount; “the salient question”
in evaluating the clearly established prong is whether
officials had “fair warning” that their conduct was unconstitutional. Hope v. Pelzer, 536 U.S. 730, 741 (2002).
In making this determination, “we must look first to
decisions of the Supreme Court, then to decisions of
this court and other courts within our circuit, and finally to decisions of other circuits.” Baker v. City of
Hamilton, 471 F.3d 601, 606 (6th Cir. 2006) (quotation
omitted).

App. 44
Plaintiffs must generally identify a case with a
fact pattern similar enough to have given “fair and
clear warning to officers” about what the law requires.
White v. Pauly, 137 S. Ct. 548, 552 (2017) (per curiam)
(quotation omitted); see also Arrington-Bey v. City of
Bedford Heights, 858 F.3d 988, 993 (6th Cir. 2017). But
such a case need not “be on all fours in order to form
the basis for the clearly established right.” See Burgess
v. Fischer, 735 F.3d 462, 474 (6th Cir. 2013). We do not
require a prior, “precise situation,” Sutton, 700 F.3d at
876, a finding that “the very action in question has previously been held unlawful,” Comstock v. McCrary, 273
F.3d 693, 702 (6th Cir. 2001) (internal quotation marks
omitted), or a “case directly on point.” al-Kidd, 563 U.S.
at 741. Instead, the test is whether “existing precedent
must have placed the . . . constitutional question beyond debate.” Id. This means there must either be “controlling authority or a robust consensus of cases of
persuasive authority.” Plumhoff v. Rickard, 134 S. Ct.
2012, 2023 (2014) (internal quotation marks omitted).
Finally, “an action’s unlawfulness can be ‘clearly established’ from direct holdings, from specific examples
describing certain conduct as prohibited, or from the
general reasoning that a court employs.” Baynes v.
Cleland, 799 F.3d 600, 612 (6th Cir. 2015) (citing Hope,
536 U.S. at 742–44).
Given the unique circumstances of this case, defendants argue we should defer to the “breathing
room” qualified immunity provides and hold that the
invasion of plaintiffs’ right to bodily integrity via lifethreatening substances with no therapeutic benefit

App. 45
introduced into individuals without their consent was
not clearly established before the officials engaged in
their respective conduct. The dissent likewise suggests
that “plaintiffs must be able to ‘identify a case with a
similar fact pattern’ to this one ‘that would have given
‘fair and clear warning to officers’ about what the law
requires.’ ” (Quoting Arrington-Bey, 858 F.3d at 993
(quoting White, 137 S. Ct. at 552)). But the Court has
“mad[e] clear that officials can still be on notice that
their conduct violates established law even in novel
factual circumstances.” Hope, 536 U.S. at 741; see also
White, 137 S. Ct. at 552 (noting that “general statements of the law are not inherently incapable of giving
fair and clear warning” where the unlawfulness is apparent (citation omitted)). For the reasons that follow,
we decline to erect the suggested “absolute barrier to
recovering damages against an individual government
actor.” Bletz, 641 F.3d at 756 (citation omitted).
The lack of a comparable government-created public health disaster precedent does not grant defendants
a qualified immunity shield. Rather, it showcases the
grievousness of their alleged conduct: “The easiest
cases don’t even arise,” United States v. Lanier, 520
U.S. 259, 271 (1997) (citation and internal quotation
marks omitted); “there is no need that the very action
in question [have] previously been held unlawful” because “[t]he unconstitutionality of outrageous conduct
obviously will be unconstitutional,” Safford Unified
Sch. Dist. No. 1 v. Redding, 557 U.S. 364, 377 (2009)
(internal quotation marks omitted); and “[s]ome personal liberties are so fundamental to human dignity as

App. 46
to need no specific explication in our Constitution in
order to ensure their protection against government
invasion.” Brannum v. Overton Cty. Sch. Bd., 516 F.3d
489, 499 (6th Cir. 2008).
Knowing the Flint River water was unsafe for public use, distributing it without taking steps to counter
its problems, and assuring the public in the meantime
that it was safe “is conduct that would alert a reasonable person to the likelihood of personal liability.”
Scicluna v. Wells, 345 F.3d 441, 446 (6th Cir. 2003). As
set forth above, taking affirmative steps to systematically contaminate a community through its public water supply with deliberate indifference is a government
invasion of the highest magnitude. Any reasonable
official should have known that doing so constitutes
conscience-shocking conduct prohibited by the substantive due process clause.9 These “actions violate the
heartland of the constitutional guarantee” to the right
of bodily integrity, Stemler v. City of Florence, 126 F.3d
856, 867 (6th Cir. 1997), and “t[he] obvious cruelty inherent” in defendants’ conduct should have been
enough to forewarn defendants. Hope, 536 U.S. at 745.
Furthermore, the long line of Supreme Court cases
discussed above—Harper, Cruzan, Rochin, Winston, to
name a few—all build on each other from one
9

See also Wright v. City of Phila., 2015 WL 894237, at *13
(E.D. Penn. March 2, 2015) (“[I]t would have been clear to a reasonable [government] employee that causing the release of airborne asbestos in Plaintiffs’ home and then failing to notify
Plaintiffs or acting in any way to mitigate the harm caused by the
release, was unlawful under the circumstances.”).

App. 47
foundation: an individual’s right to bodily integrity is
sacred, founded upon informed consent, and may be invaded only upon a showing of a government interest.
The Court could not have been clearer in Harper when
it stated that “[t]he forcible injection of medication into
a nonconsenting person’s body represents a substantial interference with that person’s liberty.” 494 U.S. at
229. Here we have an even more dramatic invasion, for
at least in Harper the state forced medication—something needed to improve or sustain life—into its citizens; here, government officials caused Flint residents
to consume a toxin with no known benefit, did so without telling them, and made affirmative representations that the water was safe to drink.
The same can be gleaned from Cruzan. If the common law right to informed consent is to mean anything,
reasoned the Court, it must include “the right of a competent individual to refuse medical treatment.” 497
U.S. at 277. If an individual has a right to refuse to ingest medication, then surely she has a right to refuse
to ingest a life necessity. Cruzan instructs as much,
recognizing that the “logic” of its bodily integrity
cases—i.e., the reasoning—encompasses an individual’s liberty interest to refuse “food and water essential
to life.” Id. at 279. And if an individual has a right to
refuse the consumption of beneficial water, then certainly any reasonable official would understand that
an individual has a right to refuse the consumption of
water known to be lead-contaminated, especially when
those individuals involved in tainting the water simultaneously vouched for its safety. Put differently,

App. 48
plaintiffs’ bodily integrity claim implicates a clearly established right that “may be inferred from [the Supreme Court’s] prior decisions.” Id. at 278. Before
Cruzan, a factually identical case had not been decided
by the Court. Nonetheless, the Supreme Court held
that the right to bodily integrity claim there was compelled by the logic and reasonable inferences of its
prior decisions. Id. at 270, 278–79. The same is true
here.
Several defendants take issue with the district
court’s definition of the right, contending it deals in
generality instead of specificity. See, e.g., al-Kidd, 563
U.S. at 742 (admonishing courts “not to define clearly
established law at a high level of generality”). Our focus, of course, is “whether the violative nature of particular conduct is clearly established . . . in light of the
specific context of the case.” Mullenix v. Luna, 136
S. Ct. 305, 308 (2015) (per curiam) (internal quotation
marks omitted). To be sure, sweeping statements about
constitutional rights do not provide officials with the
requisite notice. “For example,” the Supreme Court has
told us, “the right to due process of law is quite clearly
established by the Due Process Clause, and thus there
is a sense in which any action that violates that Clause
(no matter how unclear it may be that the particular
action is a violation) violates a clearly established
right.” Anderson, 483 U.S. at 639. But, the deficiencies
of a too-general clearly established test have no bearing on the specifics of this case. Here, the right recognized by the district court—and one we adopt as
directly flowing from the reasoning of the long line of

App. 49
bodily integrity and shocks-the-conscience cases—is
neither a “general proposition” nor one “lurking in the
broad ‘history and purposes’ ” of the substantive due
process clause. al-Kidd, 563 U.S. at 742. “Any other result would allow Hope’s fear of ‘rigid, overreliance on
factual similarity’ in analyzing the ‘clearly established’
prong of the qualified immunity standard to be realized.” Baynes, 799 F.3d at 614 (quoting Hope, 536 U.S.
at 742).10
In providing a tainted life-necessity and falsely assuring the public about its potability, government officials “strip[ped] the very essence of personhood” from
those who consumed the water. Doe, 103 F.3d at 507.
They also caused parents to strip their children of their
own personhood. If ever there was an egregious violation of the right to bodily integrity, this is the case; the
“affront to human dignity in this case is compelling,”
United States v. Booker, 728 F.3d 535, 546 (6th Cir.
2013), and defendants’ “conduct is so contrary to fundamental notions of liberty and so lacking of any
10

Some defendants and the dissent direct us to dicta in a recent District of New Jersey case involving a bodily integrity claim
arising out of the discovery of leaded water in the Newark, New
Jersey’s public-school buildings. See Branch v. Christie, 2018 WL
337751 (D.N.J. Jan. 8, 2018). We are not obligated to give this
decision, let alone its dicta, any persuasive value. See Baker, 471
F.3d at 606. The opinion is bereft of any substantive analysis regarding the right to bodily integrity, and wholly omits discussion
of the Supreme Court cases mentioned in detail here. It is also
factually distinct in at least one major aspect—here, the government officials participated in the decision to taint Flint’s watersupply in the first instance; there, the government officials failed
to take action upon discovery of the leaded water.

App. 50
redeeming social value, that no rational individual
could believe . . . [their conduct] is constitutionally permissible under the Due Process Clause.” Doe, 103 F.3d
at 507. We therefore agree with the district court that
plaintiffs have properly pled a violation of the right to
bodily integrity against Howard Croft, Darnell Earley,
Gerald Ambrose, Liane Shekter-Smith, Stephen
Busch, Michael Prysby, and Bradley Wurfel, and that
the right was clearly established at the time of their
conduct. Should discovery shed further light on the
reasons behind their actions (as but one example, a
governmental interest that trumps plaintiffs’ right to
bodily integrity), they are free to raise the qualified immunity defense again at the summary judgment stage.
See, e.g., Miller v. Maddox, 866 F.3d 386, 390 (6th Cir.
2017); see also Wesley, 779 F.3d at 433–34.11
11

We deny plaintiffs’ pending motion to take judicial notice
of pending but unproven criminal charges against some of the defendants and note that that the district court erred in doing so
and using them to justify denying qualified immunity. First,
although courts may consider judicially noticed facts when evaluating motions to dismiss under Federal Rule of Civil Procedure
12(b)(6), see, e.g., Buck v. Thomas M. Cooley Law Sch., 597 F.3d
812, 816 (6th Cir. 2010), we have held that a “criminal indictment
qualifies as a matter outside the pleading” therefore necessitating
conversion to a Rule 56 motion. Rose v. Hartford Underwriters
Ins. Co., 203 F.3d 417, 420 (6th Cir. 2000) (brackets and internal
quotation marks omitted). Second, it was error for the district
court to consider the charges for qualified-immunity purposes
without engaging in the proper analysis. The Supreme Court has
made clear that “[o]fficials sued for constitutional violations do
not lose their qualified immunity merely because their conduct
violates some statutory . . . provision.” Davis v. Scherer, 468 U.S.
183, 194 (1984). Instead, government officials are “liable for damages only to the extent that there is a clear violation of the

App. 51
VII.
The final issue is Flint’s claim that the district
court erred in denying it sovereign immunity. The
Eleventh Amendment provides that “[t]he Judicial
power of the United States shall not be construed to
extend to any suit in law or equity, commenced or prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign
State.” U.S. Const. amend. XI. It bars suits against a
state by its own citizens, and by citizens of another
state. See, e.g., Bd. of Trs. of Univ. of Ala. v. Garrett, 531
U.S. 356, 363 (2001). “The ultimate guarantee of the
Eleventh Amendment is that nonconsenting States
may not be sued by private individuals in federal
court.” Id.
Flint, obviously, is not a state; it is a municipality
incorporated under the laws of the State of Michigan.
See People v. Pickett, 63 N.W.2d 681, 684 (Mich. 1954).
The Supreme Court could not be clearer in demarcating between states and their political subdivisions for
sovereign immunity purposes: “The bar of the Eleventh Amendment to suit in federal court extends to
States and state officials in appropriate circumstances,
but does not extend to counties and similar municipal
corporations.” Mt. Healthy City Sch. Dist. Bd. of Educ.
statutory rights that give rise to the cause of action for damages.”
Id. at 194 n.12. They do not “lose their immunity by violating the
clear command of a statute . . . unless that statute . . . provides
the basis for the cause of action sued upon.” Id. Here, the district
court failed to consider whether the charges could be considered
under this standard.

App. 52
v. Doyle, 429 U.S. 274, 280 (1977) (internal citations
omitted); see also Jinks v. Richland Cty., 538 U.S. 456,
466 (2003) (“[M]unicipalities, unlike States, do not enjoy a constitutionally protected immunity from suit.”).
We have even noted this contrast in one of our previous
Flint Water Crisis cases, stating in dicta that the Eleventh Amendment does not apply to “the defendants associated with the City of Flint.” Boler, 865 F.3d at 410.
Flint readily concedes municipalities do not enjoy
sovereign immunity. That would normally end our
analysis, but this is not a typical case. At the time of
the crisis, Flint was so financially distressed that the
State of Michigan had taken over its day-to-day local
government operations by way of a statutory mechanism enacted to deal with municipal insolvency—gubernatorial-appointed individuals who “act for and in
the place and stead of the governing body and the office
of chief administrative officer of the local government.”
Mich. Comp. Laws § 141.1549(2); see generally Phillips
v. Snyder, 836 F.3d 707, 711–12 (6th Cir. 2016) (summarizing Michigan’s Local Financial Stability and
Choice Act (or Public Act 436)). Flint contends it became an arm of the state because of the State of Michigan’s takeover. We thus find it more appropriate to
resolve whether this extraordinary factor dictates a
different outcome. See Monell v. Dep’t of Soc. Servs. of
City of New York, 436 U.S. 658, 690 n.54 (1978) (suggesting that under some circumstances, local governmental units could be “considered part of the State for
Eleventh Amendment purposes”). On de novo review,
see Babcock v. Michigan, 812 F.3d 531, 533 (6th Cir.

App. 53
2016), we agree with the district court that the City of
Flint is not entitled to Eleventh Amendment immunity.12
A.
“The entity asserting Eleventh Amendment immunity has the burden to show that it is entitled to
immunity, i.e., that it is an arm of the state.” Lowe v.
Hamilton Cty. Dep’t of Job & Family Servs., 610 F.3d
321, 324 (6th Cir. 2010) (brackets and citation omitted).
We have identified four factors relevant to “whether an
entity is an ‘arm of the State’ on the one hand or a ‘political subdivision’ on the other”: “(1) the State’s potential liability for a judgment against the entity; (2) the
language by which state statutes, and state courts refer to the entity and the degree of state control and veto
power over the entity’s actions; (3) whether state or local officials appoint the board members of the entity;
and (4) whether the entity’s functions fall within the
traditional purview of state or local government.”
Ernst v. Rising, 427 F.3d 351, 359 (6th Cir. 2005) (en
banc) (internal citations omitted).

12

Flint requests that we either certify the question of
whether Public Act 436 transforms municipalities into arms of
the state to the Michigan Supreme Court, or delay our opinion
“until after Michigan courts have had an opportunity to answer
it.” Certification is not appropriate here—Flint did not make the
same request to the district court and we have the appropriate
data points to address the issue. See, e.g., In re Amazon.com, Inc.,
Fulfillment Ctr. Fair Labor Standards Act (FLSA) & Wage &
Hour Litig., 852 F.3d 601, 607–08 (6th Cir. 2017).

App. 54
We have characterized the first factor—the state’s
potential liability for a judgment against the entity—
as “the foremost,” id., the “most salient,” Town of
Smyrna v. Mun. Gas Auth. of Ga., 723 F.3d 640, 651
(6th Cir. 2013), and one creating “a strong presumption” on the issue. Kreipke v. Wayne State Univ., 807
F.3d 768, 777 (6th Cir. 2015). Although this “statetreasury inquiry will generally be the most important
factor, . . . it is not the sole criterion.” Ernst, 427 F.3d at
364 (internal quotation marks omitted). This is so because sovereign immunity protects not only a state’s
purse but also its dignity—“it . . . serves to avoid the
indignity of subjecting a State to the coercive process
of judicial tribunals at the instance of private parties.”
Seminole Tribe v. Florida, 517 U.S. 44, 58 (1996) (citation omitted). Accordingly, “the last three factors may
demonstrate that an entity is an arm of the state entitled to sovereign immunity despite the fact that political subdivisions and not the State are potentially liable
for judgments against the entity.” Pucci v. Nineteenth
Dist. Court, 628 F.3d 752, 762 (6th Cir. 2010). To do so,
however, they must “far outweigh” the first factor. Id.
at 761. Applying this test, we conclude the City of Flint
has not met its burden to show that it was an “arm of
the state” protected by the Eleventh Amendment.13
13

Citing Cash v. Granville County Board of Education, 242
F.3d 219 (4th Cir. 2001), Flint quizzically argues it can separately
show it is entitled to Eleventh Amendment immunity under a
“sovereign dignity” inquiry independent from the traditional
Ernst factor test set forth in text. This argument is not well-taken.
For one, we are bound by our en banc decision in Ernst, not the
Fourth Circuit’s decision in Cash. For another, Cash does not

App. 55
1.
Michigan’s potential liability (or rather, lack
thereof ) weighs heavily against Flint. Michigan law
provides that local property tax rolls account for judgments against cities or its officers, see Mich. Comp.
Laws § 600.6093(1), while the state treasury pays
judgments against “arms of the state.” See Mich. Comp.
Laws §§ 600.6458(2), 600.6096(1). Public Act 436 does
not change this; in fact, it reinforces this dynamic,
providing that any claims, demands, or lawsuits “arising from an action taken during the services of [an]
emergency manager” are to “be paid out of the funds of
the local government that is or was subject to the receivership administered by that emergency manager.”
Mich. Comp. Laws § 141.1560(5). Most critically, Public
Act 436 “does not impose any liability or responsibility
in law or equity upon th[e] state, any department,
agency, or other entity of th[e] state, or any officer or
employee of th[e] state, or any member of a receivership transition advisory board, for any action taken by
any local government under this act, for any violation
of the provisions of this act by any local government,
or for any failure to comply with the provisions of this
hold, as Flint suggests, that “[e]ven if a defendant fails the Ernst
test, it may still enjoy sovereign immunity if the judgment would
adversely affect the dignity of the State as a sovereign.” Rather,
it holds consistent with our caselaw, that the “state purse” factor
is foremost, but in certain situations “sovereign dignity factors”—
i.e., Ernst factors two, three, and four—can lead to a finding of
sovereign immunity. Id. at 224; see also Pucci, 628 F.3d at 761.
Put differently, our Ernst factors already take state dignity into
account when evaluating application of the Eleventh Amendment.

App. 56
act by any local government.” Mich. Comp. Laws
§ 141.1572. Michigan’s lack of potential liability here
creates a “strong presumption” against an Eleventh
Amendment finding. See Kreipke, 807 F.3d at 777.
2.
As to the second factor—state law treatment of,
and state control over, the entity—we start with a
foundational aspect of Michigan law undisputed by the
parties: Municipalities enjoy significant autonomy
over local governmental functions. “Michigan is
strongly committed to the concept of home rule, and
constitutional and statutory provisions which grant
power to municipalities are to be liberally construed.”
Bivens v. Grand Rapids, 505 N.W.2d 239, 243 (Mich.
1993). Michigan’s Constitution grants cities the “power
to adopt resolutions and ordinances relating to its municipal concerns, property and government.” Mich.
Const. Art. 7, § 22 (1963). The Michigan Supreme
Court has also held that home rule cities like Flint “enjoy not only those powers specifically granted, but they
may also exercise all powers not expressly denied.” AFSCME v. City of Detroit, 662 N.W.2d 695, 707 (Mich.
2003) (citation and internal quotation marks omitted).
Although state statutes and Michigan’s Constitution
may limit these broad powers, Michigan’s clear preference is that municipalities have “great[ ] latitude to
conduct their business.” Associated Builders & Contractors v. City of Lansing, 880 N.W.2d 765, 769 (Mich.
2016). Flint asks us to find an exception to these general principles because it was engaged in providing

App. 57
water services to its citizens and did so while under the
control of emergency managers. We decline to do so.
First, citing Curry v. City of Highland Park, 219
N.W. 745 (Mich. 1928), Flint claims that when a municipality acts in the interest of public health, like
providing water services, it “acts as the arm of the
state” under Michigan law. Id. at 748. We disagree. For
one, Curry noted that “the management of water
works” is a “matter[ ] of purely local concern . . . as distinguished from the state at large.” Id. (citation omitted). But more importantly and as recently illustrated
by another Flint Water Crisis case, that is not what
Michigan law provides. See Boler v. Governor, ___
N.W.2d ___, 2018 WL 2991257 (2018) (per curiam).14
The import of Michigan’s Constitution and its Home
Rule City Act, Mich. Comp. Laws § 117.1, et seq., is that
“if a municipality is supplying a utility, or specifically
waterworks, to its citizens and the citizens are paying
for the same, the municipality is operating the waterworks as a business and it is doing so as a businessman
or corporation, not as a concern of the state government or arm of the state. It is, after all, serving only a
14

Michigan’s Court of Claims Act grants the Michigan Court
of Claims exclusive jurisdiction “[t]o hear and determine any
claim or demand, statutory or constitutional . . . against the state
or any of its departments or officers.” Mich. Comp. Laws
§ 600.6419(1)(a). The issue presented in Boler v. Governor was
whether claims arising out of the Flint Water Crisis against Flint
were within the exclusive jurisdiction of the Court of Claims.
Although it is strictly a statutory interpretation case, we find its
analysis persuasive for it provides extensive discussion about the
relationship between Michigan and its political subdivisions.

App. 58
limited number of people within its boundaries, not the
state as a whole.” Id. at *4. Michigan’s Home Rule City
Act expressly empowers a municipality to “provide for
the installation and connection of sewers and waterworks in its charter.” Id. (citing Mich. Comp. Laws
§ 117.4b); see also Mich. Comp. Laws §§ 117.4c(1),
117.4f. But if, for example, a municipality supplies water for another purpose—“protecting its citizens from
fire or natural disaster or anything else that has the
potential to have state-wide impact, and it is not profiting from the provision of that water”—then and only
then could a municipality’s waterworks “perhaps”
serve the state’s citizenry at large and thus be deemed
an arm of the state. Boler, ___ N.W.2d ___, 2018 WL
2991257, at *4. And as the Michigan Court of Appeals
determined, Flint’s provision of water services clearly
falls within its “proprietor” function and does not
transform the city into an arm of the state. Id.; see also
Collins v. City of Flint, 2016 WL 8739164, at *4 (Mich.
Ct. Cl. Aug. 25, 2016).
Second, we are equally unconvinced that Flint’s
emergency-management status should weigh in Flint’s
favor. At first blush, Flint’s argument here has some
facial appeal—generally speaking, Public Act 436 can
be a one-way ticket to state receivership. The governor,
in consultation with several bodies, determines
whether a financial emergency exists, and then provides the entity at issue with four options (one of which
is emergency management). See Phillips, 836 F.3d at
712. Flint claims these options are illusory because
state officials still have significant oversight within

App. 59
each option, and were nonetheless unavailable to Flint
because Public Act 436 kept in place Flint’s prior-appointed emergency manager under a prior version of
the emergency manager law. See id. at 711–12; see also
Mich. Comp. Laws § 141.1549(10).
Once in receivership, the argument goes, Flint was
essentially at the whim of its emergency managers.
One need not look beyond Public Act 436’s power-authorizing provision to appreciate its breadth:
Upon appointment, an emergency manager
shall act for and in the place and stead of the
governing body and the office of chief administrative officer of the local government. The
emergency manager shall have broad powers
in receivership to rectify the financial emergency and to assure the fiscal accountability
of the local government and the local government’s capacity to provide or cause to be provided necessary governmental services
essential to the public health, safety, and welfare. Following appointment of an emergency
manager and during the pendency of receivership, the governing body and the chief administrative officer of the local government shall
not exercise any of the powers of those offices
except as may be specifically authorized in
writing by the emergency manager or as otherwise provided by this act and are subject to
any conditions required by the emergency
manager.
Mich. Comp. Laws § 141.1549(2) (emphasis added). In
essence, an emergency manager acts “for and on behalf

App. 60
of the local government,” and may take any “action or
exercise any power or authority of any officer, employee, department, board, commission, or other similar entity of the local government, whether elected or
appointed, relating to the operation of the local government.” § 141.1552(dd)–(ee).
There is also a certain amount of control the state
has over the emergency manager. Among other things,
an emergency manager “is a creature of the Legislature with only the power and authority granted by
statute”; is appointed by the governor; serves at the
governor’s pleasure, and may be removed by the governor or by impeachment by the Legislature; receives financial compensation from the state treasury; is
subjected “to various codes of conduct otherwise applicable only to public servants, public officers and state
officers”; and is statutorily obligated to submit certain
plans and reports to state officials. See Mays, 916
N.W.2d at 256 (citations omitted). On this basis, the
Michigan Court of Appeals has held (again, in a Flint
Water Crisis matter) that an emergency manager is a
“state officer” for purposes of the Court of Claims Act
and thus “[c]laims against an emergency manager acting in his or her official capacity therefore fall within
the well-delineated subject-matter jurisdiction of the
Court of Claims.” Id. at 257.
The problem with Flint’s argument is that Michigan courts have rejected the notion that a city’s emergency management status transforms a city into a
state entity. In the words of the Michigan Court of Appeals:

App. 61
As indicated in the Local Financial Stability
and Choice Act, “it is a valid public purpose for
this state to take action and to assist a local
government in a financial emergency so as to
remedy the financial emergency.” The primary
purpose of the Act, then, was for the State of
Michigan to assist local governments temporarily during a financial crisis. The emergency
manager acts in the place of the chief administrative officer and governing body for and on
behalf of the local government only. At all
times, then, the City remained a municipality,
albeit with a state employee temporarily overseeing the financial management of the municipality affairs. The City was at no time
operating as “a means or agency through
which a function of another entity i.e., the
state is accomplished.” No function or purpose
of the state was accomplished in the emergency manager overseeing the City. The City
was instead always operating as a means
through which functions of its own entity
were accomplished. The state simply engaged
a state employee to temporarily assist the
City in performing its functions and serving
its local purposes for its citizens.
Boler v. Governor, ___ N.W.2d ___, 2018 WL 2991257,
at *6 (alterations and citations omitted); see also Collins, 2016 WL 8739164, at *4–5. We agree with this
well-reasoned analysis. Moreover, it is consistent with
our recent decision in Phillips, where we noted Public
Act 436 merely reflects states’ abilities “to structure
their political subdivisions in innovative ways,” including by “allocat[ing] the powers of subsidiary bodies

App. 62
among elected and non-elected leaders and policymakers.” 836 F.3d at 715. That is, Public Act “436 does not
remove local elected officials; it simply vests the powers of the local government in an emergency manager.”
Id. at 718.
Given this, we conclude the second factor tilts
against Flint.
3.
The appointment factor weighs in Flint’s favor.
Public Act 436 expressly provides that the governor appoints an emergency manager. Mich. Comp. Laws
§ 141.1549(1). The state attempts to temper this specific appointment language by pointing out that emergency management under Public Act 436 is one of last
resort—that upon declaration of financial emergency,
a municipality has several options in addition to emergency management, see § 141.1547, and may remove
an emergency manager after 18 months (or petition
the governor to remove the emergency manager earlier). § 1549(6)(c), (11). That may be so, but Ernst is
specific here—we are to consider who appoints the
entity at issue, and there is no debating that although
a municipality might have some ability to avoid
emergency management or to remove an emergency
manager, Michigan’s governor appoints emergency
managers.

App. 63
4.
Whether the entity’s functions fall within the traditional purview of state or local government weighs
heavily against Flint. Under Public Act 436, an emergency manager takes the place of a local body; he, in
other words, takes over the local government’s functions. And as the State of Michigan rightly phrases it,
“[t]he City of Flint’s functions are ‘within the traditional purview of local government’ because the City of
Flint is a local government.”
Flint has no answer for this obvious point, and instead asks us to narrowly focus on the City’s provision
of waterworks. It underwhelmingly strings this argument together: Because Michigan’s Safe Drinking Water Act provides the MDEQ with “power and control
over public water supplies and suppliers of water” and
criminalizes the failure to comply with MDEQ rules,
see Mich. Comp. Laws §§ 325.1003, 325.1021, “the functioning of a waterworks falls within the purview of the
State.” But even were we to ignore the fact that Public
Act 436’s command to an emergency manager is to
take over all of a municipality’s functions and not just
its utilities, the answer is still the same given our discussion above. Flint even admits as much, telling us
“the day-to-day operations of a waterworks generally
fall within the purview of local authorities.” That
MDEQ “exercises the state’s police powers, in an oversight capacity, by regulating the water quality” does
not dictate a contrary conclusion, for “MDEQ does not
own, operate or maintain the water delivery systems,
. . . [n]or is it charged with providing water to the

App. 64
inhabitants of Michigan’s cities.” Collins, 2016 WL
8739164, at *4. Thus, we decline to effectively turn
every local governmental body’s provision of service
into an arm of the state when that service is regulated
by the state in some fashion. Cf. N. Ins. Co. of New York
v. Chatham Cty., 547 U.S. 189, 194 (2006) (merely “exercis[ing] a slice of state power” does not transform a
state’s subdivision into an arm of the state (internal
quotation marks omitted)).
B.
In sum, Flint has not met its burden to show that
when under emergency management, it was an “arm
of the state” protected by the Eleventh Amendment.
The foremost consideration—the state’s potential liability for judgment—counsels against a finding of Eleventh Amendment immunity, and the remaining factors
do not “far out-weigh” this factor. Pucci, 628 F.3d at
761.
VIII.
For these reasons, we affirm the district court in
part, and reverse in part.

App. 65
---------------------------------------------------------------------------------------------------------------------------------------------------------------

CONCURRING IN PART AND
DISSENTING IN PART
---------------------------------------------------------------------------------------------------------------------------------------------------------------

McKEAGUE, Circuit Judge, concurring in part
and dissenting in part. The majority tells a story of intentional poisoning based on a grossly exaggerated
version of plaintiffs’ allegations. The complaint tells an
entirely different story. It is a story of a series of discrete and discretionary decisions made by a variety of
policy and regulatory officials who were acting on the
best information available to them at the time. In retrospect, that information turned out to be grievously
wrong. The result is what has become known as the
Flint Water Crisis. The question this case presents is
not whether the collective result of the officials’ actions—the Water Crisis—caused any harm. It did. The
question is, rather, whether any official’s discrete decisions or statements, which in any way caused or contributed to the Crisis, violated a substantive due
process right to bodily integrity. By answering that
question with, “obviously, yes,” the majority extends
the protections of substantive due process into new
and uncharted territory and holds government officials
liable for conduct they could not possibly have known
was prohibited by the Constitution. In doing so, the
majority unfairly denies defendants protection from
suit under the doctrine of qualified immunity.
As in all cases dealing with the defense of qualified
immunity, it is plaintiffs’ burden to establish, first, that

App. 66
the defendants violated a constitutional right and, second, that the right was clearly established at the time
the challenged conduct took place. Ashcroft v. al-Kidd,
563 U.S. 731, 735 (2011). I have serious doubts about
whether plaintiffs carried their burden at the first
prong of the analysis. I am certain they failed to carry
their burden at the second. The majority reaches the
opposite conclusion by building on a factual narrative
of its own invention.
To place the qualified-immunity analysis on firmer
footing, I begin with a recitation of the allegations as
told by plaintiffs in their complaint. I then turn to
qualified immunity’s two prongs. As to the first, I doubt
that plaintiffs allege that any defendant deprived
them of a Fourteenth Amendment substantive-dueprocess right—both because the conduct actually
alleged in the complaint does not appear to be conscience-shocking and because the Due Process Clause
has never before been recognized as protecting against
government conduct that in some way results in others
being exposed to contaminated water. But even if
plaintiffs have alleged the violation of a recognized due
process right, their claim nonetheless fails at prong
two of the qualified-immunity analysis, which asks
whether the right was clearly established. The mere
fact that no court of controlling authority has ever recognized the type of due process right that plaintiffs allege in this case is all we need to conclude the right is
not clearly established. Accordingly, qualified immunity must shield each defendant from suit.

App. 67
Before moving to the analysis, I note several
points of agreement with the majority opinion. First, I
join the majority in rejecting the City of Flint’s argument that it is entitled to Eleventh Amendment immunity from plaintiffs’ suit because the State of
Michigan’s takeover of the City of Flint, pursuant to
Michigan’s “Emergency Manager” law, transformed
the City into an arm of the state. Additionally, I agree
that plaintiffs fail to state a Fourteenth Amendment
claim against Michigan Department of Health and Human Services (MDHHS) employees Nick Lyon, Eden
Wells, Nancy Peeler, and Robert Scott; and Michigan
Department of Environmental Quality (MDEQ) director Daniel Wyant. That is where my agreement ends,
however. I respectfully dissent from the denial of qualified immunity for Flint Emergency Managers Darnell
Earley and Gerald Ambrose; Flint’s Director of Public
Works Howard Croft; and MDEQ employees Liane
Shekter-Smith, Stephen Busch, Michael Prysby, and
Bradley Wurfel.
I
I begin with a review of the facts. Because this
case comes before us on appeal from a motion to dismiss for failure to state a claim, I accept all factual allegations as true and construe them in the light most
favorable to plaintiffs. Linkletter v. W. & S. Fin. Grp.,
Inc., 851 F.3d 632, 637 (6th Cir. 2017).
The Flint Water Crisis began when the City of
Flint, undergoing extreme financial distress, came

App. 68
under the leadership of a succession of “Emergency
Managers”—temporary city managers appointed by
the governor to “act for and in the place and stead of
the governing body and the office of chief administrative officer of the local government.” M.C.L.
§ 141.1549(2). One of the City’s Emergency Managers
was Edward Kurtz. In 2013, Kurtz made a critical fiscal decision that set the City on a path toward the Flint
Water Crisis. With the approval of the State of Michigan’s treasurer, Kurtz terminated a decades-long contract for water services from the Detroit Water and
Sewerage Department (DWSD) and ordered Flint to
join the newly-formed and more affordable Karegnondi
Water Authority (KWA). The KWA was not yet functional, however. So Kurtz had to choose an interim
source of Flint’s drinking water. He determined that
the best temporary source, from a budgetary standpoint, was the Flint River, treated at the City’s own,
and then-idle, water treatment plant. He notified the
DWSD that Flint would soon cease receiving water
from the DWSD.
Before the switch was finalized, Darnell Earley
took over as Emergency Manager, assuming the position in November 2013. The City officially switched to
the Flint River in April 2014. For decades prior, the
Flint water treatment plant was designated for emergency use only. A 2011 “feasibility report” concluded
that it would take extensive upgrades to bring it in
compliance with “applicable standards” for use as a
permanent water source. Plaintiffs allege that Earley
“rushed” the switch to meet a “self-imposed” and

App. 69
“aggressive” deadline, without ensuring that Flint’s
water treatment plant was ready to properly treat
Flint River water, and that he did so for the purpose of
cutting costs. But they also assert that, at some point
before the April 2014 switch, Flint hired an engineering firm—Lockwood, Andrews, & Newman (Lockwood)—“to prepare Flint’s water treatment plant for
the treatment of new water sources, including both the
KWA and the Flint River.” Even though the Flint River
water was highly corrosive, plaintiffs allege that Lockwood did not advise the City to set water quality standards or implement corrosion control at the water
treatment plant prior to using the River as a drinking
water source.
Neither did the MDEQ—the state agency primarily responsible for ensuring compliance with federal
and state safe drinking water laws. Relevant here, the
MDEQ was tasked with ensuring Flint complied with
the federal Lead and Copper Rule. That Rule generally
requires public water systems to monitor and treat
lead and copper levels in drinking water. 40 C.F.R
§ 141.80, et seq. The MDEQ believed, erroneously as it
turns out, that the Rule allowed Flint’s water treatment plant to begin distributing Flint River water and
then conduct two rounds of six-month testing before
determining what method of corrosion control to use
to treat the water. So in April 2014, the City began
distributing the Flint River water to residents without first implementing corrosion control treatment.
Around the time of the switch, the director of Flint’s
Department of Public Works, Howard Croft, publicly

App. 70
announced that the City’s testing proved the water was
safe and “of the high quality that Flint customers have
come to expect.”
Soon after the transition, however, problems
emerged. Residents complained of oddly smelling and
discolored water. In October 2014, General Motors
stopped using the City water at its engine-manufacturing plant out of fear that high levels of chloride would
cause corrosion. Then, after the City attempted to disinfect the water, it discovered trihalomethanes—a potentially toxic byproduct caused by attempting to
disinfect the water. That discovery prompted the City
to mail a notice to its customers explaining that the
City was in violation of the Safe Drinking Water Act
but that the water was safe to drink for most people
with healthy immune systems. Additionally, plaintiffs
say that “[a]s early as January of 2015, the State of
Michigan provided purified water coolers at its Flint
offices in response to concerns about the drinking water.”
On January 9, 2015, the first apparent concerns of
lead in Flint’s drinking water began to emerge. On that
day, The University of Michigan-Flint discovered lead
in campus drinking fountains. It is unclear from the
complaint whether that discovery was publicized and
thus whether any City or State official involved in testing or distributing Flint’s water knew about the discovery.
Also around January 2015, and largely in response
to citizen complaints, Flint hired another engineering

App. 71
firm—Veolia North America, LLC (Veolia)—to review
the City’s water quality. Veolia completed a “160-hour
assessment of the treatment plant, distribution system, customer services and communication programs,
and capital plans and annual budget.” The firm issued
a final report in March, in which it concluded that Flint
was in “compliance with State and Federal water
quality regulations, and based on those standards, the
water [was] considered to meet drinking water requirements.” Additionally, it stated that discolorations in
the water “raise[d] questions” but that the water remained safe to drink.
Around that time, another Emergency Manger,
Gerald Ambrose, took over the City’s operations. On
January 12, 2015, the day before Ambrose assumed his
Emergency Manager role, the DWSD offered to waive
a 4-million-dollar reconnection fee if the City of Flint
resumed using its services. Ambrose declined the offer.
Then, in late March, Flint’s City Council voted 7-1 to
resume services with the DWSD. Ambrose rejected the
vote, calling it “incomprehensible.”
In the meantime, several MDEQ employees were
having internal discussions about Flint’s water problems. Liane Shekter-Smith, MDEQ’s Chief of the Office
of Drinking Water and Municipal Assistance, emailed
other MDEQ employees to suggest that the Flint River
water was “slough[ing] material off of pipes” in the distribution system rather than “depositing material or
coating pipes[.]” She opined that “[t]his may continue
for a while until things stabilize.”

App. 72
Soon, an EPA employee became involved in the
discussion as well. Miguel Del Toral, the EPA’s regional
drinking water regulations manager, reached out to
the MDEQ on February 27, 2015, to voice his concerns
about the possibility of elevated lead levels. Del Toral
informed Michael Prysby, an MDEQ engineer, that the
MDEQ’s specific method for testing lead levels in Flint
residents’ tap water may be producing test results that
underestimated lead levels. He also asked whether the
water treatment plant was using optimized corrosion
control, which he noted was “required” to be in place.
That same day, Stephen Busch, an MDEQ District Supervisor in Lansing, responded to Del Toral stating
that the water treatment plant had an “optimized corrosion control program.” Two months later, an unidentified individual from the MDEQ informed the EPA
that it had no optimized corrosion control treatment in
place.
In April 2015, Del Toral again reached out to the
MDEQ, this time issuing a memorandum that expressed concern with the lack of corrosion control and
Flint’s water testing methods. He also told MDEQ employees Busch and Prysby that he believed the
MDEQ’s sampling procedures did not properly account
for the presence of lead service lines. Therefore, Del
Toral said he “worried that the whole town may have
much higher lead levels than the compliance results
indicated[.]” According to plaintiffs, the MDEQ “ignored and dismissed” Del Toral’s concerns.
A few months later, plaintiffs say that Busch
“claimed that ‘almost all’ homes in the pool sampled for

App. 73
lead in Flint had lead services lines,” even though this
was untrue. Plaintiffs do not indicate to whom Busch
made that statement. Later in July, a reporter broke a
story announcing that Flint’s water was contaminated
with lead, citing Del Toral’s April 2015 memorandum.
In response, Bradley Wurfel, MDEQ’s Communications Director, publicly stated that “anyone who is concerned about lead in the drinking water in Flint can
relax.”
That same month, the EPA and the MDEQ had a
conference call to discuss MDEQ’s compliance with the
Lead and Copper Rule. According to plaintiffs, the EPA
pushed for Flint to use optimized corrosion control, but
the MDEQ insisted that doing so was “unnecessary
and premature.” In a follow-up email, MDEQ employee
Shekter-Smith asked the EPA to provide a written concurrence that the City was in compliance with the
Lead and Copper Rule.
Also in July, MDEQ employees exchanged a series
of internal emails discussing how water tests performed by outside sources, which showed that Flint’s
drinking water had impermissibly high lead levels,
compared with the MDEQ’s own water testing results,
which showed lower lead levels. When a report by a
Virginia Tech professor revealing high lead levels surfaced in September 2015, Wurfel made public statements challenging the report and asserting that Flint’s
drinking water remained in compliance with federal
and state laws. During this time, other MDEQ employees maintained that Flint was not required to use corrosion control until unacceptably high levels of lead

App. 74
had already appeared in the water, which they believed
was not yet the case.
Later in September, Croft emailed “numerous officials” to report that the City of Flint had “officially returned to compliance with the Michigan Safe Drinking
Water Act” and that it had “received confirming documentation from the [M]DEQ” to that effect. He explained that “[a]t the onset of our plant design,
optimization for lead was addressed and discussed
with the engineering firm and with the [M]DEQ. It
was determined that having more data was advisable
prior to the commitment of a specific optimization
method. . . . We have performed over one hundred and
sixty lead tests throughout the city since switching
over to the Flint River and remain within EPA standards.”1
The MDHHS also began to take a closer look at
the outside studies showing high lead levels in Flint’s
water. Though at least a few MDHHS employees became aware of an increase in blood lead levels in Flint’s
children in July, the increase was attributed to “seasonal variation”—a summer phenomenon in which
children’s blood lead levels naturally increase because
of more frequent exposure to lead in soil and other seasonal factors. But in September, MDHHS employees
began to take a closer look. They circulated a study
conducted by a pediatrician at a Flint hospital, Dr.
1

It is unclear whether the “one hundred and sixty lead tests”
were part of the “160-hour assessment” that Veolia conducted in
early 2015 as part of its review of the City’s water treatment
plant.

App. 75
Mona Hanna-Attisha, which showed elevated blood
lead levels in children. The next day, one MDHHS employee attempted to recreate the study but came up
with different numbers. The City of Flint also issued a
health advisory telling residents to flush pipes and install filters to prevent lead poisoning. On October 1,
2015, the MDHHS officially confirmed Dr. HannaAttisha’s results.
Finally, on October 16, 2015, Flint reconnected to
the DWSD. Two days later, MDEQ Director Daniel Wyant admitted to Michigan’s governor that MDEQ “staff
made a mistake while working with the City of Flint.
Simply stated, staff employed a federal (corrosion control) treatment protocol they believed was appropriate,
and it was not.” Several MDEQ employees subsequently resigned or were suspended without pay. On
January 21, 2016, the EPA issued an Emergency Order
identifying the primary cause of increased lead levels
in Flint’s water as being a lack of corrosion control
treatment after the City’s switch to the Flint River.
II
To make it past qualified immunity’s first prong, a
plaintiff must plead facts showing that a government
official violated a constitutional right. al-Kidd, 563 U.S.
at 735. Plaintiffs assert that their claim falls under the
fundamental right to bodily integrity, a right guaranteed by the substantive component of the Fourteenth
Amendment’s Due Process Clause. Albright v. Oliver,
510 U.S. 266, 272 (1994). We measure whether the

App. 76
deprivation of a right to bodily integrity—or any other
substantive-due-process right—actually occurred by
determining whether a defendant’s alleged conduct
was so heinous and arbitrary that it can fairly be said
to “shock the conscience.” Lillard v. Shelby Cty. Bd. of
Educ., 76 F.3d 716, 725 (6th Cir. 1996). At times we
have treated these two elements (deprivation of a constitutional right and conscience-shocking behavior) as
separate methods of stating a substantive-due-process
claim. Range v. Douglas, 763 F.3d 573, 588 (6th Cir.
2014). At other times we have concluded they are both
required. See Am. Express Travel Related Servs. Co.,
Inc. v. Kentucky, 641 F.3d 685, 688 (6th Cir. 2011). But
whether these are two separate methods of establishing a substantive-due-process violation or are two required elements of doing so does not change the
outcome in this case. Plaintiffs’ allegations show neither conscience-shocking conduct nor the violation of a
fundamental right.
To demonstrate why, I turn back to the allegations
in plaintiffs’ complaint. The complaint is particularly
important here, because substantive due process is an
undefined area where “guideposts for responsible decisionmaking . . . are scarce and open-ended” and “judicial self-restraint requires us to exercise the utmost
care whenever we are asked to break new ground in
this field.” Collins v. City of Harker Heights, 503 U.S.
115, 125 (1992). We must, therefore, “focus on the allegations in the complaint to determine how [plaintiffs’]
describe[ ] the constitutional right at stake and what
[defendants] allegedly did to deprive [plaintiffs] of that

App. 77
right.” Id. The majority pays lip service to that
command but abandons it in the analysis. Although
the majority describes the bodily integrity right
at stake as the right to be free from a government official “knowingly and intentionally introducing lifethreatening substances into individuals without their
consent,” the right plaintiffs allege was violated is altogether different.
Plaintiffs’ complaint specifically states: “In providing Plaintiffs with contaminated water, and/or causing
Plaintiffs to consume that water, Defendants violated
Plaintiffs’ right to bodily integrity, insofar as Defendants failed to protect Plaintiffs from a foreseeable risk
of harm from the exposure to lead contaminated water.” That claim makes clear where defendants allegedly went wrong. It was not in knowingly introducing
life-threatening substances into plaintiffs’ bodies
against their will; it was in allegedly “fail[ing] to protect plaintiffs from a foreseeable risk of harm from the
exposure to lead contaminated water” (emphasis
added).
And that claim, as framed by plaintiffs, immediately encounters two roadblocks to establishing a due
process violation: (1) a policymaker’s or regulator’s unwise decisions and statements or failures to protect the
public are typically not considered conscience-shocking
conduct, and (2) the Due Process Clause does not
generally guarantee a bodily integrity right against exposure to contaminated water or other types of environmental harms. These two roadblocks raise serious
doubts about whether plaintiffs meet the first prong of

App. 78
the qualified immunity analysis. I review each of these
problems with plaintiffs’ claim in turn, starting first
with whether defendants’ alleged conduct rises to the
conscience-shocking level.
A
The first roadblock to plaintiffs’ due process claim
is that the conduct alleged fails to meet the “high” conscience-shocking standard. Range, 763 F.3d at 589.
Plaintiffs’ “failure to protect from foreseeable harm”
theory sounds in classic negligence. But negligence—
even gross negligence—does not implicate the Due
Process Clause’s protections. Daniels v. Williams, 474
U.S. 327, 331–33 (1986). “The Due Process Clause ‘does
not purport to supplant traditional tort law in laying
down rules of conduct to regulate liability for injuries
that attend living together in society[.]’ ” Collins, 503
U.S. at 128 (citation omitted). Rather, it serves to limit
the government from using its power as an “instrument of oppression.” DeShaney v. Winnebago Cty. Dep’t.
of Soc. Servs., 489 U.S. 189, 195 (1989) (citation omitted). Accordingly, substantive due process is implicated
only by government actions (and sometimes failures to
act) that are “so inspired by malice or sadism rather
than a merely careless or unwise excess of zeal that
[they] amount[ ] to a brutal and inhumane abuse of official power literally shocking to the conscience.”
Lillard, 76 F.3d at 725 (citation omitted). Normally,
meeting that standard requires plaintiffs to show an
intent to injure through some affirmative act, but, depending on the context, even a deliberately indifferent

App. 79
failure to act may constitute conscience-shocking behavior. Cty. of Sacramento v. Lewis, 523 U.S. 833, 846
(1998). In the context of a non-custodial case such as
this one, to show conscience-shocking behavior based
on deliberate indifference, a plaintiff must show something akin to “callous disregard or intent to injure.”
Schroder v. City of Fort Thomas, 412 F.3d 724, 730 (6th
Cir. 2005) (citing Lewis, 523 U.S. at 846); see also Hunt
v. Sycamore Cmty. Sch. Dist. Bd. of Educ., 542 F.3d 529,
538 (6th Cir. 2008) (“[I]n order to succeed on a § 1983
claim in a non-custodial setting, a plaintiff must prove
either intentional injury or ‘arbitrary conduct intentionally designed to punish someone[.]’ ” (citation and
emphasis omitted)).
In all cases, we are required to perform an “exact
analysis of the circumstances before” condemning “any
abuse of power . . . as conscience shocking.” Lewis, 523
U.S. at 850. The majority eschews that requirement.
Instead of reviewing the defendant-specific allegations
in context, it cherry-picks a few “examples” from plaintiffs’ complaint and strings them together to form a
narrative not told by plaintiffs. In compounding that
error, the majority draws inconsistent, even contradictory, conclusions about the level of culpability the allegations entail. In one breath, the majority says
plaintiffs plausibly allege that defendants “knowingly
and intentionally introduc[ed] life-threatening substances into individuals without their consent.” But
in another breath, it says “[t]here is no allegation defendants intended to harm Flint residents.” In yet
another, the majority says defendants “systematically

App. 80
contaminate[d]” the Flint community. I will leave it to
the reader to reconcile how conduct may constitute a
knowing, intentional, and systematic attempt to contaminate another without also being motivated by an
intent to harm that person. I, for one, fail to follow
that logic. It is only by this imprecise analysis that
the majority concludes these defendants acted in a
conscience-shocking manner.
A more exact, defendant-specific analysis shows
otherwise. The following analysis reveals that plaintiffs do not allege the additional “callous disregard or
intent to injure” element that applies to non-custodial
deliberate-indifference claims. I review the allegations
against Flint’s Emergency Managers (Darnell Earley
and Gerald Ambrose),2 Flint’s Department of Public
Works Director (Howard Croft), and the MDEQ employees (Liane Shekter-Smith, Stephen Busch, Michael
Prysby, and Bradley Wurfel) in turn. Additionally, I explain why I agree with the majority that the case
against the MDHHS executives and employees (Nick
Lyon, Eden Wells, Nancy Peeler, and Robert Scott)
and the MDEQ Director (Daniel Wyant) must be dismissed.

2

Plaintiffs also bring a claim against the City of Flint, which
necessarily rises and falls with their claim against the Emergency
Managers. Because the Emergency Managers were acting on behalf of the City, their policy decisions concerning the source of the
City’s water were also policy decisions of the City. Accordingly,
plaintiffs’ claim implicates the City only to the extent the Emergency Managers’ decisions were unconstitutional.

App. 81
1
Flint Emergency Managers Darnell Earley and
Gerald Ambrose. First, consider plaintiffs’ allegations
against Emergency Managers Earley and Ambrose.
According to plaintiffs, Earley “rushed” the switch to
the Flint River to meet a “self-imposed” and “aggressive” deadline as a cost-saving measure without ensuring the water treatment plant was adequately
equipped to treat the water. Ambrose later rejected opportunities to return to the DWSD despite residents’
complaints and other evidence pointing to the water’s
high corrosivity. The majority concludes that both
Emergency Managers approved the initial and ongoing
use of the Flint River as a water source despite knowing the City’s water treatment plant was not equipped
to treat the water. Not so.
Consider the Emergency Managers’ decisions in
context, starting with the initial switch under Earley’s
leadership. Recall that before the switch, the City consulted with the Lockwood engineering firm to ready its
treatment plant. The engineering firm did not advise
the City to implement corrosion control. Neither did
the MDEQ. In fact, the MDEQ informed the City that
it was “satisfied with the water treatment plant’s ability to treat water from the Flint River.” And although
the MDEQ noted that the KWA was “a higher quality
source [of ] water” than the Flint River, it never indicated that use of the Flint River would place residents
at risk of lead contamination. Fast-forward to early
2015, when Ambrose rejected two opportunities to reconnect to the DWSD. At that time, the City had hired

App. 82
the Veolia engineering firm to review its water quality
and treatment procedures. After a 160-hour assessment, Veolia concluded that Flint’s water complied
with applicable laws and did not advise Flint to use
corrosion control.
The Emergency Managers’ reliance on expert advice does not demonstrate a callous disregard for or intent to injure plaintiffs. Earley and Ambrose were
budget specialists, not water treatment experts. They
did not oversee the day-to-day operations of the water
treatment plant, nor did they carry any responsibility
for ensuring its compliance with federal or state laws.
Accordingly, their reliance on the industry and regulatory experts who were tasked with preparing the water
treatment and ensuring its compliance with safe
drinking water laws does not demonstrate conscienceshocking behavior.
The majority, with the luxury of hindsight, believes that whether Earley or Ambrose reasonably relied on the opinions of the MDEQ or professional
engineering firms is better left for summary judgment.
But that belief suggests that the Due Process Clause
may obligate managers of a municipal budget or other
government officials to reject the advice of industry
and regulatory experts based on the risk that those experts are wrong. Such a conclusion cuts against the
“presumption that the administration of government
programs is based on a rational decisionmaking process that takes account of competing social, political,
and economic forces.” Collins, 503 U.S. at 128. Indeed,
“[i]t is in the very nature of deliberative bodies to

App. 83
choose between and among competing policy options,
and yet a substantive due process violation does not
arise whenever the government’s choice prompts a
known risk to come to pass.” Schroder, 412 F.3d at 729.
Yet under the majority’s conscience-shocking analysis,
a whole host of policy decisions would now be subject
to constitutional review, in direct contravention of the
presumption of rational regulatory decisionmaking.
See, e.g., White v. Lemacks, 183 F.3d 1253, 1258 (11th
Cir. 1999) (“[W]hen governmental action or inaction reflects policy decisions about resource allocation (as is
often the case), those decisions are better made ‘by locally elected representatives, rather than by federal
judges interpreting the basic charter of Government
for the entire country.’ ” (quoting Collins, 503 U.S. at
129)).
Finally, the majority asserts that concluding that
Ambrose and Earley were relying on experts places an
inappropriately “benign construction on the factual allegations.” Yet the majority cites no factual allegations
supporting any other conclusion. Instead, it accepts
plaintiffs’ various “labels and conclusions”—for instance, that Ambrose and Earley “knew” about risks to
Flint residents—as sufficient support for their claim.
This cuts against the Supreme Court’s directive that
plaintiffs allege facts, not conclusions, to state entitlement to relief. Bell Atlantic Corp. v. Twombly, 550 U.S.
544, 555 (2007). The bottom line is that plaintiffs do
not allege that any industry or regulatory expert informed Earley or Ambrose that the City’s water treatment plant was not equipped to treat Flint River water

App. 84
or that the water was not being treated with corrosion
control. In fact, plaintiffs allege just the opposite. Professional engineering firms and the MDEQ repeatedly
affirmed that Flint’s drinking water complied with applicable law. Accordingly, the Emergency Managers’
approval of the plant’s initial and ongoing use of the
Flint River as a water source does not plausibly
demonstrate callous disregard for or an intent to injure
plaintiffs, let alone any effort to “systematically contaminate” the Flint community.
2
MDEQ employees Liane Shekter-Smith, Stephen
Busch, Michael Prysby, and Bradley Wurfel. Next consider the claims against the various MDEQ employees.
Plaintiffs contend that every MDEQ employee misinterpreted the Lead and Copper Rule. Under the
MDEQ’s erroneous interpretation of the Rule, the City
could begin distributing Flint River water to residents
and then conduct two six-month rounds of lead testing
before treating the water with corrosion control. Without immediate treatment, the water accumulated lead
as it flowed through the City’s pipes. And over time,
plaintiffs’ drinking water became contaminated with
allegedly unhealthy levels of lead. Plaintiffs equate the
MDEQ’s misinterpretation of the Lead and Copper
Rule’s corrosion-control requirements with conscienceshocking behavior that caused plaintiffs’ exposure to
lead.

App. 85
As gravely erroneous as the MDEQ’s interpretation of the Rule appears in hindsight, however, there is
no legal support for the conclusion that it amounted to
conscience-shocking conduct. On the contrary, a mistake of law is the classic type of conduct that qualified
immunity protects from suit. Pearson v. Callahan, 555
U.S. 223, 231 (2009) (“The protection of qualified immunity applies regardless of whether the government
official’s error is ‘a mistake of law, a mistake of fact, or
a mistake based on mixed questions of law and fact.’ ”
(citation omitted)); Gavitt v. Born, 835 F.3d 623, 640–
41 (6th Cir. 2016). That should end the case against
these defendants.
The majority concludes, however, that the MDEQ’s
misinterpretation may have been intentional. According to the majority, plaintiffs’ allegations present the
“bleak[ ]” possibility that the MDEQ may have used
Flint residents as “guinea pigs” to test lead-compliance
theories unsupported by the law. None of plaintiffs’ factual allegations make that inference a reasonable one.
This is not a conspiracy case. Plaintiffs do not assert
that the MDEQ employees maliciously agreed to a certain incorrect interpretation of the Lead and Copper
Rule to exempt Flint from using corrosion control.
And it is implausible that each MDEQ employee individually set out to advance the same incorrect interpretation of the Rule just to save the City money.
Indeed, plaintiffs do not allege that any MDEQ employee intentionally misled Flint about the Rule’s requirements. Instead, plaintiffs’ allege that the MDEQ
provided misguided advice rooted in mistaken

App. 86
interpretations of law—the type of conduct that,
though it led to extremely unfortunate consequences
here, is classically entitled to protection from suit under the doctrine of qualified immunity.
Still, the majority takes plaintiffs’ allegations a
step further, making the sweeping assertion that the
MDEQ employees “created” the Flint Water Crisis by
knowingly approving distribution of Flint River water
with the use of an ill-prepared water treatment plant
and then deceiving the public about the consequences
of that decision. The allegations do not support that
theory, however.
First, plaintiffs do not allege facts showing that
Shekter-Smith, Busch, Prysby, or Wurfel personally
approved the City’s use of the Flint River and the Flint
water treatment plant. Rather, plaintiffs say that the
decision was made by Kurtz, Flint’s 2013 Emergency
Manager, with approval from the State’s treasurer.
Moreover, plaintiffs fail to allege that any of these
MDEQ employees knew that the Flint water treatment
plant was incapable of treating Flint River water. To be
sure, plaintiffs allege that “all Defendants” were aware
of a 2011 “feasibility report” rejecting the use of the
Flint River at the time because of costs associated with
bringing the treatment plant in compliance with “applicable standards.” But plaintiffs provide no further
context surrounding the report’s creation and who
knew about its contents. On the other hand, plaintiffs
allege that, prior to the switch, Flint’s Utilities Administrator told Prysby and Busch that the water treatment plant had “developed a system of redundant

App. 87
electrical systems, treatment processes and adequate
finished water storage” after consulting with the
MDEQ and an engineering firm. And after that, Busch
informed Wurfel that the MDEQ was “satisfied with
the City’s ability to treat water from the Flint River[.]”
These allegations thus do not suggest that any MDEQ
employee knew the treatment plant was actually incapable of properly treating Flint River water and approved its use anyway.
Nor do the majority’s “poignant examples” of a
handful of plaintiffs’ allegations show an attempt by
any MDEQ employee to knowingly mislead the public
about Flint’s alleged noncompliance with drinking water laws or to falsely assure residents of the water’s
safety.
Prysby. Take Prysby, an MDEQ engineer, first. The
majority latches on to a single email sent from Prysby
to a couple other MDEQ employees in October 2014. In
it, Prysby opines that the fact that a General Motors
engine-manufacturing plant stopped using Flint River
water because of its corrosive nature did not mean that
the water should be labeled “ ‘corrosive’ from a public
health standpoint.” According to the majority, that
statement shows that Prysby was more interested in
spinning the water’s corrosive nature as unconnected
to public health instead of investigating problems with
the water. But a “[n]egligent failure to investigate . . .
does not violate due process.” Wilson v. Lawrence Cty.,
260 F.3d 946, 955 (8th Cir. 2001) (citations omitted).
And no other allegation against Prysby demonstrates
anything more than a failure to act—plaintiffs’

App. 88
remaining allegations name Prysby as merely a recipient of various emails but they do not identify any specific actions taken by him. Plaintiffs thus do not
plausibly allege that Prysby created the Flint Water
Crisis and then deceived the public about it.
Busch. Nor do the allegations support such a finding when it comes to Busch. The complaint references
a number of Busch-authored emails, but the majority
references only two internal emails exchanged between MDEQ employees and between Busch and EPA
employee Del Toral. The majority concludes that Busch
lied in the latter email, when he informed Del Toral in
February 2015 that Flint’s water treatment plant “had
an optimized corrosion control program” in place,
which demonstrates conscience-shocking behavior. But
the complaint contains no factual allegations supporting the conclusion that Busch’s statement was a lie.
Flint did have a corrosion control “program” in place—
a program that permitted a two-round testing period
after the plant became operational and before plant
administrators chose a particular method of corrosion
control treatment. The MDEQ believed the Lead and
Copper Rule allowed for that type of program. Even
though the MDEQ was wrong, that error does not support the allegation that Busch lied to the EPA about
the existence of a corrosion control program. Moreover,
plaintiffs do not allege that Busch personally knew
that Flint was distributing water without corrosion
control treatment until April 2015. So even if Busch
meant “treatment” when he said “program” in the February email, the factual allegations do not support the

App. 89
conclusion that he knew the statement was false. In
sum, neither that statement nor the various other internal emails in which Busch expressed support for the
MDEQ’s interpretation of the Lead and Copper Rule or
his belief that the water treatment plant was capable
of treating Flint River water plausibly demonstrate
that Busch created the Flint Water Crisis and then attempted to deceive the public.
Shekter-Smith. The allegations likewise fail to
demonstrate that Shekter-Smith acted in a conscienceshocking manner. The majority focuses on two of
Shekter-Smith’s emails.
In the first, Shekter-Smith requested that an EPA
official indicate his agreement “that the city [was] in
compliance with the lead and copper rule.” That, she
explained, would help the MDEQ “distinguish between
[its] goals to address important public health issues
separately from the compliance requirements of the actual rule[.]” The majority’s take on that email is that
Shekter-Smith cared more about “technical compliance” with the Lead and Copper than addressing an
urgent health crisis. Whatever weight Shekter-Smith
actually assigned each of those concerns, all that her
email exhibits is an attempt to address them separately. This is hardly conscience-shocking conduct.
In the second email, Shekter-Smith responded to
a question from Jon Allan, Director of the Michigan
Office of the Great Lakes, about the MDEQ’s statewide
goals related to health-based standards. Under those
goals, “98 percent of population [sic] served by

App. 90
community water systems” and “90 percent of the noncommunity water systems” would be providing “drinking water that meets all health-based standards” by
2020. Allan asked why MDEQ had any goal less than
“100 percent,” saying, “How many Flints Do you intend
to allow???” Shekter-Smith replied:
The balance here is between what is realistic
and what is ideal. Of course, everyone wants
100 percent compliance. The reality, however
is that it’s impossible. It’s not that we ‘allow’ a
Flint to occur; circumstances happen. Water
mains break, systems lose pressure, bacteria
gets into the system, regulations change and
systems that were in compliance no longer
are, etc. Do we want to put goal [sic] in black
and white that cannot be met but sounds
good? Or do we want to establish a goal that
challenges us but can actually be accomplished? Perhaps there’s a middle ground?
This second email likewise shows nothing more
than Shekter-Smith’s concern with meeting agency
goals—in this instance, goals related to the statewide
administration of safe drinking water. The propriety of
certain agency goals, however, falls outside the purview of the Due Process Clause. Indeed, we presume
that agency goal-setting consistent with its regulatory
duties takes into account “competing social, political,
and economic forces” of which judges do not have full
view. Collins, 503 U.S. at 128. In this instance, ShekterSmith was apparently seeking to establish a goal that
could “actually be accomplished.” That concern is not
conscience-shocking, regardless of how it sounds in

App. 91
view of what happened in Flint. These two emails, in
short, do not demonstrate that Shekter-Smith created
the Flint Water Crisis and subsequently attempted to
deceive the public.
Wurfel. Of all the MDEQ employees, the majority’s
intentional-public-deception theory really implicates
only one individual: Wurfel, the Department’s Director
of Communications. He is the only MDEQ employee alleged to have made public statements about Flint’s
drinking water. The majority characterizes Wurfel’s
statements as attempts to demean, belittle, and aggressively dampen challenges to the government’s assertion that Flint’s drinking water was safe. But
however his statements may be characterized, they
were not conscience-shocking.
His first statement came in July 2015, after a reporter broke a story claiming that there was lead in
Flint’s drinking water. Wurfel publicly responded by
saying that “anyone who is concerned about lead in the
drinking water in Flint can relax.” Then, in September
2015, after two doctors released separate reports about
studies showing unsafe levels of lead in Flint residents’
water, Wurfel placed the blame for the lead on the service lines in residents’ homes even though there was,
according to plaintiffs, evidence that at least some residents’ service lines were plastic. Wurfel later called
the doctors’ testing results “perplex[ing],” explaining
that they did not match the City’s testing results,
which he asserted were “done according to state and
federal sampling guidelines and analyzed by certified

App. 92
labs.” On two other occasions in September, Wurfel asserted the doctors’ studies were inaccurate.
Though plaintiffs assert Wurfel’s statements were
knowing lies, their factual allegations do not support
that conclusion. See Twombly, 550 U.S. at 555. As
plaintiffs’ complaint alleges, Wurfel made his public
statements after other MDEQ employees represented
both that Flint’s water treatment plant was prepared
to treat Flint River water and that Flint’s water testing
results showed Flint was in compliance with the requirements of the Lead and Copper Rule. The allegations do not show that Wurfel was given contrary
information by any City or State official. Accordingly,
plaintiffs do not demonstrate that Wurfel intentionally
attempted to deceive the public about the safety of
Flint’s drinking water or the City’s compliance with
drinking water laws. At most, they show a mistake of
law or fact, made at least in partial reliance on the representations of other State employees. It is certainly
unfortunate that Wurfel announced those mistaken
beliefs to the public. But that he did so does not strip
him of the protection of qualified immunity. Pearson,
555 U.S. at 231. Wurfel’s handful of statements in July
and September do not evince a knowing and intentional attempt to deceive the public about known deficiencies in Flint’s water treatment procedures or any
conduct designed to intentionally contaminate the
public.
The allegations against the MDEQ employees, in
sum, do not plausibly demonstrate a callous disregard
for or intent to injure plaintiffs, let alone any effort to

App. 93
“systematically contaminate” the Flint community.
What they show instead is a series of internal emails
and a handful of public statements regarding the requirements of the Lead and Copper Rule and the water’s safety. Even if the MDEQ employees made
mistakes in interpreting the Rule, those mistakes are
not conscience-shocking.3
3
Flint Director of Department of Public Works, Howard Croft. Next, I turn to the allegations against
Croft, which come nowhere near the high conscienceshocking standard. Plaintiffs assert that Croft “caused
and allowed unsafe water to be delivered to Flint’s residents,” but they fail to allege that Croft was actually
involved in the City’s decision to use to the Flint River
as a water source or that he played any part in
3

Rather than viewing plaintiffs’ allegations in a light most
favorable to defendants, all this conclusion does is hold plaintiffs
to their burden of presenting factual allegations that provide a
plausible basis for their claim. Twombly, 550 U.S. at 555. Plaintiffs do not provide any factual allegations supporting the conclusion that the MDEQ’s interpretations were more than mistakes.
According to the majority, plaintiffs allege that Shekter-Smith,
Busch, and Prysby knew Flint was not in compliance with applicable law because EPA employee Del Toral made that clear in a
memorandum that these defendants “ignored and dismissed.” But
while that memorandum allegedly expressed “concern[ ]” with
Flint’s lack of corrosion control and water testing methods, it did
not conclude that Flint was in violation of the Lead and Copper
Rule. Plaintiffs do not allege that Del Toral or any other EPA official informed the MDEQ that Flint was flouting federal drinking
water requirements.

App. 94
determining whether and when the treatment plant
would use corrosion control. The majority finds that
single, conclusory allegation sufficient to make the
plausible inference that Croft played an affirmative
role in approving the transition to the Flint River.
What makes that conclusion especially confounding is
the majority’s simultaneous rejection of allegations
against other defendants that are just as conclusory as
this one. For example, the majority finds that plaintiffs’
allegation that MDHHS executive Nick Lyon “participated in, directed, and/or oversaw the department’s efforts to hide information to save face, and to obstruct
and discredit the efforts of outside researchers” as the
kind of “bare” and “chimerical” assertions Iqbal mandates be set aside. But the allegation that Croft
“caused and allowed unsafe water to be delivered to
Flint’s residents” is not any more detailed than the
“chimerical” assertion against Lyon. There are only
two other allegations against Croft. The first is that, at
an unidentified point in time, he said in a press release
that the City’s water was “of the high quality that Flint
customers have come to expect.” The second is that in
September 2015, he emailed “numerous officials” to inform them that the MDEQ had confirmed Flint’s compliance with “EPA standards.” These allegations do not
demonstrate that Croft engaged in any behavior that
may fairly be construed as conscience-shocking.
4
MDHHS executives Nick Lyon and Eden Wells;
MDHHS employees Nancy Peeler and Robert Scott; and

App. 95
MDEQ Director Daniel Wyant. Finally, a brief word
about the MDHHS executives, the MDHHS employees,
and MDEQ Director Wyant, all of whom the majority
correctly dismisses from this case. I agree with the majority that most of the allegations against the MDHHS
executives and employees have to do with negligence
(i.e., failing to timely notify the public of the possibility
of increased lead in the water) rather than any affirmative action involving them in the decision to use the
Flint River as a water source without simultaneously
implementing corrosion control treatment. I agree as
well that once those allegations are discarded, plaintiffs’ remaining allegations—going to these defendants’ attempts to “discredit” studies from outside
sources—are too sparse to demonstrate conduct rising
to the level of conscience-shocking.
And as to MDEQ Director Wyant, I concur with
the majority’s conclusion that none of plaintiffs’ allegations show that he was personally involved with the
decision to use the Flint River as a water source or otherwise engaged in any conscience-shocking behavior.
Accordingly, I join the majority in concluding that
plaintiffs’ allegations against these defendants engaged in conscience-shocking behavior or otherwise infringed on plaintiffs’ due process rights.
For all of these reasons, I do not believe plaintiffs’
allegations suggest that any individual defendant’s actions or failures to act shock the conscience. This presents a significant roadblock that seems to prevent
plaintiffs from establishing a violation of substantive

App. 96
due process and thus proceeding past the first prong of
the qualified-immunity analysis.
B
The second roadblock to plaintiffs’ substantivedue-process claim—which also suggests they cannot
proceed past qualified immunity’s first prong—is that
their claim does not appear to arise from the deprivation of a recognized fundamental right to bodily integrity. As should be clear by now, the right reconstructed
by the majority is entirely distinct from the one asserted in plaintiffs’ complaint and is thus, unsurprisingly, devoid of support from plaintiffs’ factual
allegations.
So what is the bodily integrity right plaintiffs allege? According to the complaint, defendants’ alleged
conduct amounted to a failure to protect from exposure
to lead-contaminated water. But although plaintiffs
frame the claim that way in their complaint, they insist their claim does not flow from a right to receive
clean water. Plaintiffs are right to avoid advancing
that theory because the Due Process Clause guarantees neither a right to live in a contaminant-free
environment, Collins, 503 U.S. at 125–26, nor a fundamental right to water service. In re City of Detroit, 841
F.3d 684, 700 (6th Cir. 2016) (quoting Golden v. City of
Columbus, 404 F.3d 950, 960 (6th Cir. 2005)). Still, it is
hard to understand plaintiffs’ claim independent from
the right to receive clean water. If the Constitution
does not guarantee the right to receive clean water on

App. 97
the one hand, how may it guarantee the right not to be
exposed to contaminated water on the other?
The majority avoids grappling with that issue by
turning, inappropriately, to abstract concepts of personal autonomy and informed consent that it divines
from several inapposite cases. In so doing, the majority’s analysis runs contrary to the “restrained methodology” outlined by the Supreme Court in Washington v.
Glucksberg, 521 U.S. 702, 721 (1997). To apply that
methodology, we look to “concrete examples involving
fundamental rights found to be deeply rooted in our legal tradition.” Id. at 722. Those examples reveal the
“outlines of the ‘liberty’ [interests] specially protected
by the Fourteenth Amendment[.]” Id. Because the Due
Process Clause’s substantive component protects only
those rights that are an integral part of our “Nation’s
history and tradition,” courts “have always been reluctant to expand” the Clause’s coverage into new territory. Id. at 720–21. Looking to concrete examples
regarding what those historic rights are “tends to rein
in the subjective elements that are necessarily present
in due-process judicial review.” Id. at 720, 722.
In Glucksberg, the Court showed us how to use
that “restrained methodology.” There, the Supreme
Court dismissed a claim by state physicians that the
Due Process Clause guaranteed a right to physicianassisted suicide. Id. at 721–24. The physicians argued
that recognizing such a right would be consistent with
the “self-sovereignty” principles underlying a person’s
interest in choosing between life and death, which
were articulated in Cruzan v. Missouri Department of

App. 98
Health, 497 U.S. 261 (1990). Id. at 723–24. In rejecting
that argument, the Glucksberg Court clarified that
Cruzan assumed, though did not definitively decide,
that a competent person had a right to refuse unwanted lifesaving medical treatment. Id. at 720. That
assumption, however, “was not simply deduced from
abstract concepts of personal autonomy.” Id. at 725. It
instead arose from the “common-law rule that forced
medication was a battery, and the long legal tradition
protecting the decision to refuse unwanted medical
treatment[.]” Id. The specific right to physician-assisted suicide found no support in the examples outlined in the Court’s jurisprudence or in our Nation’s
history or traditions and was therefore not protected
by substantive due process. Id. at 723–24.
Likewise, no concrete examples arising from the
established bodily integrity jurisprudence or from our
Nation’s history or traditions support the right asserted here—protection from policy or regulatory decisions or public statements that, somewhere down the
line, result in exposure to contaminated water.
We have previously interpreted the bodily integrity right as “the right against forcible physical intrusions of the body by the government.” Planned
Parenthood Sw. Ohio Region v. DeWine, 696 F.3d 490,
506 (6th Cir. 2012) (citations omitted). The right is outlined most explicitly in Rochin v. California, 342 U.S.
165 (1952). There, the Court held that the Due Process
Clause prohibits a state from securing evidence in support of a conviction by using a vomit-inducing solution
to forcibly extract the evidence from a suspect’s

App. 99
stomach. Id. at 172–74. That intrusion on an individual’s body, the Court explained, was “too close to the
rack and the screw” to be constitutionally permissible.
Id. at 172. Since then, the Court has concluded that
similar types of physically intrusive law enforcement
searches implicate the right to bodily integrity. Those
include a “compelled physical intrusion beneath [a suspect’s] skin and into [the] veins to obtain a” blood sample, Missouri v. McNeely, 569 U.S. 141, 148 (2013), and
a nonconsensual surgery to retrieve a bullet from a
suspect’s chest. Winston v. Lee, 470 U.S. 753, 767
(1985). In this Circuit, we have concluded that obtaining evidence by “anally prob[ing]” an individual “without his consent” when he was “naked and handcuffed,
. . . paralyzed, [and] intubated” was such a grave bodily
integrity violation that it rendered the Fourth Amendment search unreasonable. United States v. Booker,
728 F.3d 535, 537, 547 (6th Cir. 2013) (citation omitted).
In the medical context, too, the Court has underscored the right’s guarantee against direct, physical intrusions into an individual’s body at the hands of a
government official. In Washington v. Harper, for instance, the Court emphasized the significance of an inmate’s “liberty interest in avoiding the unwanted
administration of antipsychotic drugs.” 494 U.S. 210,
221, 223 (1990). Riggins v. Nevada, 504 U.S. 127, 135
(1992) affirmed the magnitude of that liberty interest—avoiding the unwanted administration of drugs—
for pretrial detainees as well. Later, in Cruzan, the
Court explained that the general principles underlying

App. 100
Harper and Riggins suggested that “a competent person [has] a constitutionally protected right to refuse
lifesaving hydration and nutrition.” 497 U.S. at 280;
Glucksberg, 521 U.S. at 720 (explaining that Cruzan
“assumed, and strongly suggested, that the Due Process Clause protects” such a right without expressly
concluding that it did (citing Cruzan, 497 U.S. at 278–
79)). In the same vein, cases from the Supreme Court
and our Circuit suggest that the right to bodily integrity is implicated by government interference with a
woman’s right to obtain an abortion. See id. at 726–27;
Planned Parenthood Sw. Ohio Region, 696 F.3d at 507.
These cases delineate the contours of the right to
bodily integrity in terms of intrusive searches or forced
medication. None of them is compatible with the “careful description” of the right at issue here: protection
from exposure to lead-contaminated water allegedly
caused by policy or regulatory decisions or statements.4 Even the few district court or sister circuit
4

Even In re Cincinnati Radiation Litigation, 874 F. Supp.
796 (S.D. Ohio 1995), the one district court case the majority finds
“especially analogous,” fails to close the gap. There, the court concluded that government officials violated medical patients’ right
to bodily integrity by devising a program that subjected unwitting
cancer patients to high doses of radiation under the guise of performing cancer treatment. Id. at 803–04. But whether the Due
Process Clause protects hospital patients from being intentionally
subjected to harmful medical treatment without their consent is
not the determinative issue here. What we should care about is
whether and when it protects an indeterminate number of public
citizens from certain regulatory decisions or statements that have
some impact on the quality of public drinking water or any other
environmental resource.

App. 101
cases cited by the majority do not clarify the contours
of plaintiffs’ alleged right. All except one of those
cases deal with medical professionals performing
government-sponsored invasive procedures or harmful
experiments on unsuspecting patients.5 The last one
deals with police officers who coerced individuals to ingest marijuana while those individuals were under the
officer’s control.6 So those cases further elaborate the
ways in which medical or law enforcement personnel
may interfere with an individual’s right to bodily
5

Barrett v. United States, 798 F.2d 565 (2d Cir. 1986) (state
psychiatric hospital administered injections of a synthetic mescaline compound furnished by the Unites States as part of an experimental program that tested the suitability of the substance as a
chemical warfare agent); Lojuk v. Quandt, 706 F.2d 1456 (7th Cir.
1983) (Veterans Affairs psychiatrist subjected patient to electroconvulsive therapy without the patient’s consent); Rogers v. Okin,
634 F.2d 650 (1st Cir. 1980), overruled on other grounds sub nom,
Mills v. Rogers, 457 U.S. 291 (1982) (state administered antipsychotic drugs to both voluntary and involuntary patients at state
mental health facilities); Heinrich v. Sweet, 62 F. Supp. 2d 282 (D.
Mass. 1999) (U.S. Government conspired with health institutions
to conduct “extensive, unproven and dangerous medical experiments on over 140 terminally ill patients, without their
knowledge or consent”); Stadt v. Univ. of Rochester, 921 F. Supp.
1023 (W.D.N.Y. 1996) (government physicians injected patient
with plutonium without her knowledge or consent); In re Cincinnati Radiation Litigation, 874 F. Supp. 796 (S.D. Ohio 1995) (government and university physicians subjected cancer patients to
radiation experiments without their knowledge under the guise
that they were receiving cancer treatment); Davis v. Hubbard,
506 F. Supp. 915 (N.D. Ohio 1980) (inadequate medical treatment).
6
Bounds v. Hanneman, 2014 WL 1303715 (D. Minn. Mar.
31, 2014) (officers forced plaintiffs to ingest a substantial amount
of marijuana, against their will, in order to observe how they
would react).

App. 102
integrity. But they say nothing about how noncustodial policy or regulatory decisions or statements
affecting the quality of an environmental resource may
do so. In short, neither our Nation’s history and traditions nor governing bodily integrity jurisprudence suggests that the conduct alleged here is comparable to a
“forcible physical intrusion[ ] of the body by the government.” Planned Parenthood Sw. Ohio Region, 696 F.3d
at 506. “The mere novelty of such a claim is reason
enough to doubt that ‘substantive due process’ sustains it.” Reno v. Flores, 507 U.S. 292, 303 (1993).
In sum, because the conduct alleged does not appear to rise to the level of conscience-shocking, and because I believe it does not demonstrate the deprivation
of a recognized fundamental right, I have serious
doubts about whether plaintiffs state a substantive
due process claim sufficient to carry them past prong
one of the qualified-immunity analysis.
III
The second prong of the qualified-immunity analysis looks to whether the alleged constitutional right
was “clearly established” at the time the government
official acted. al-Kidd, 563 U.S. at 735. This presents
the most fundamental problem for plaintiffs’ case. To
the extent plaintiffs do successfully allege the violation
of a constitutional right, the novelty of that right just
shows that it was not clearly established at the time
the alleged events unfolded. Therefore, the doctrine of
qualified immunity shields every defendant from suit.

App. 103
For a right to be clearly established, its contours
must be “sufficiently clear that every reasonable official would have understood that what he is doing violates that right[.]” Mullenix v. Luna, 136 S. Ct. 305,
308(2015) (emphasis added) (quoting Reichle v. Howards, 566 U.S. 658, 664 (2012)). Because “[t]he dispositive question is whether the violative nature of
particular conduct is clearly established,” we look to
how existing precedent applies to each defendant’s actions in the “specific context of the case” before us. Id.
at 308 (internal quotation marks and citation omitted).
Plaintiffs must be able to “identify a case with a similar fact pattern” to this one “that would have given ‘fair
and clear warning to officers’ about what the law requires.” Arrington-Bey v. City of Bedford Heights, 858
F.3d 988, 993 (6th Cir. 2017) (quoting White v. Pauly,
137 S. Ct. 548, 552 (2017)). Identifying a factually similar case is especially important in the realm of substantive due process, where the inherent ambiguity of
what the law protects is best discerned through “carefully refined . . . concrete examples[.]” Glucksberg, 521
U.S. at 722.
Here, that means plaintiffs must be able to point
to controlling cases extending substantive due process
protections to the following individuals:
•

A high-level government executive who
makes a decision (or proceeds with a project) while relying on expert opinions that
the decision or project is lawful and safe
(Earley and Ambrose).

App. 104
•

A regulator who misinterprets environmental laws and provides bad advice to
government policymakers (MDEQ employees).

•

A city or state regulator who, based on the
erroneous advice of other regulators, publicly announces that a governmentprovided resource is safe for consumption
when it is not (Wurfel, Croft, or others
who made public statements).

As the majority acknowledges, plaintiffs point to no
factually similar controlling case in which a court
found that such conduct violated a constitutional right
to bodily integrity. “This alone should have been an important indication to the majority that [the defendants’] conduct did not violate [plaintiffs’] ‘clearly
established’ right.” White, 137 S. Ct. at 552.
In fact, in case after case around the country,
courts have consistently rejected substantive-dueprocess claims based on the type of conduct alleged
here. Branch v. Christie is one such case. 2018 WL
337751 (D.N.J. Jan. 8, 2018). Branch dealt with a bodily integrity claim brought by parents of New Jersey
public school children against several state officials for
“knowingly expos[ing] the children . . . to water that
was contaminated with unsafe levels of lead,” and “concoct[ing] a scheme to cover up the health hazard.” Id.
at *1. The parents said that state employees caused the
lead contamination by “cancel[ling] work orders to
change outdated and lead-saturated filters,” and “allowing several filters to be used for upwards of five

App. 105
years.” Id. (internal quotation marks and citation omitted). Once the public became aware of the unsafe lead
levels in the school’s drinking fountains, state employees “undertook a course of providing misinformation to
parents, telling the community that the water was
safe.” Id. (internal quotation marks and alterations
omitted). The Branch court dismissed the parents’
claims, finding “no authority” supporting their bodily
integrity theory. Id. at *8. As the court explained, “[t]he
liberty interest in bodily integrity guarantees the
‘right generally to resist enforced medication,’ the right
to be ‘free from medical invasion,’ and the right to an
abortion,” but “not to guarantee . . . a right to minimum
levels of safety” or protection from contaminated water.
Id. at *7 (citations omitted).
Here, as in Branch, government officials allegedly
exposed others to water contaminated with lead. And
here, as in Branch, certain government officials allegedly attempted to hide the lead contamination. The
Branch court could find no authority indicating that
such conduct violated a substantive due process
right—not even the Supreme Court’s bodily integrity
cases were close to on point. That court’s conclusion
shows how unclear it would have been for the regulators and policymakers in this case to have anticipated
that their actions might have violated an established
bodily integrity right.
Coshow v. City of Escondido, a state court case,
also sheds light on the novelty of plaintiffs’ asserted
right. 132 Cal. App. 4th 687 (Cal. Ct. App. 2005). There,
the California Court of Appeals rejected residents’

App. 106
bodily integrity claims against the City of Escondido
and California’s Department of Health Services over
their decision to add fluoride to public drinking water.
Id. at 698. The residents asserted that adding fluoride
to the water exposed the public to unnecessary health
risks. Id. But the court held that, just as the Constitution did not guarantee any “right to a healthful or
contaminate-free environment,” it likewise did not
guarantee a right to receive fluoride-free drinking water from the City. Id. at 709–10. This was so even
though the fluoride might have contained “trace levels
of lead and arsenic[.]” Id. at 700. The court reasoned
that the residents’ claim came down to an asserted
right to receive “public drinking water of a certain
quality.” Id. at 708–09. And it held that the “mere novelty” of that claim indicated it was not “so rooted in the
traditions and conscience of our people as to be ranked
as fundamental.” Id. (quoting United States v. Salerno,
481 U.S. 739, 751 (1987)). Accordingly, the court held
that the right to fluoride-free drinking water was not
protected by substantive due process. Id.
Just as in Coshow, the novelty of plaintiffs’ claim
here shows that it is not clearly established. The majority attempts to draw a disingenuous distinction between this case and Coshow. It reasons that, in
Coshow, adding fluoride to drinking water served the
beneficial purpose of preventing tooth decay while, in
this case, adding lead to water served no countervailing governmental interest. I certainly do not quibble
with the premise that adding lead to water furthers no
discernable beneficial purpose. But that is not what

App. 107
happened here. No government official made a conscious decision to introduce lead into Flint’s water. Instead, the Emergency Managers made a conscious and
legitimate policy decision to switch to the Flint River
as a water source to cut costs—and they did so in reliance on guidance from engineering firms and the
MDEQ. That hardly demonstrates that the decision to
switch to the Flint River was made with no countervailing governmental interest in mind. The government officials’ resource-allocation decisions during a
budgetary crisis did not constitute obvious violations
of the right to bodily integrity because of the grave
health consequences they allegedly caused in hindsight.
Moreover, that some governmental officials made
public statements about the safety of Flint’s water does
not make the unlawfulness of any defendant’s conduct
any more obvious. As the Second Circuit put it, “no
court has ever held a government official liable for
denying substantive due process by issuing press releases or making public statements”—regardless of
whether the public statements were true or false.
Benzman v. Whitman, 523 F.3d 119, 125, 127 (2d Cir.
2008) (rejecting residents’ substantive due process
claims against EPA officials for making “substantially
exaggerated” statements regarding air quality after
the September 11 terrorist attacks). Benzman invoked
the principles underlying a similar post-September-11
case, Lombardi v. Whitman, 485 F.3d 73 (2d Cir. 2007).
In Lombardi, workers who performed search, rescue,
and cleanup services at the World Trade Center site in

App. 108
the aftermath of the terrorist attacks alleged that the
EPA violated their right to bodily integrity by falsely
assuring them that it would be safe to work without
respiratory protection. Id. at 74. Relying on those assurances, several workers went without that protection and later suffered adverse health effects. Id. at 75.
Without definitively deciding whether the alleged false
assurances interfered with the workers’ fundamental
right to bodily integrity, the court found that they were
nevertheless not conscience-shocking. Id. at 82–83. In
so deciding, the court expressed concern with imposing
broad constitutional liability on EPA officials for making false statements in the course of fulfilling the
agency’s mission. The court reasoned that “the risk of
such liability will tend to inhibit EPA officials in making difficult decisions about how to disseminate information to the public in an environmental emergency.”
Id. at 84. Accordingly, absent any allegation of an intent to harm, the court declined to extend substantive
due process to cover what was “in essence a mass tort
for making inaccurate statements.” Benzman, 523 F.3d
at 127–28.
This case implicates similar, albeit not identical,
concerns to those invoked in Lombardi and Benzman.
As the majority points out, there is no allegation that
any defendant here intended to harm a Flint resident.
And like the EPA regulators in Lombardi and
Benzman, Wurfel made public statements pursuant to
his official role as MDEQ’s Director of Communications. To be sure, those statements countered evidence
about Flint water’s lead levels presented in two

App. 109
separate outside studies. But they were also consistent
with information provided to Wurfel by officials from
his own department. That information was, in retrospect, misguided. Plaintiffs do not assert, however, that
Wurfel made any knowingly false statements for the
purpose of causing harm. The same goes for Croft.
When he issued a press release asserting that Flint’s
water was of a “high quality,” at least one engineering
firm and the MDEQ had concluded that the water
treatment plant was capable of adequately treating
Flint’s water. In other words, the allegations do not
show that Croft made a knowingly false public statement for the purpose of causing harm. Given the absence of any such allegation, and because no court has
ever concluded that the Due Process Clause covers the
public statements of government officials, it can hardly
have been apparent to Wurfel or Croft that their statements clearly violated plaintiffs’ due process right to
bodily integrity.
Due to the lack of controlling precedent and the
many cases suggesting substantive due process does
not protect plaintiffs’ asserted right, the majority
again falls back on its exaggerated characterization of
defendant’s actions and statements, likening them to
the “systematic” poisoning of an entire community. Advancing that narrative, the majority concludes that
this case is one of the “easy” ones that should never
have arisen in the first place. See United States v. Lanier, 520 U.S. 259, 271 (1997). “Of course, in an obvious
case, [general] standards,” (or reasoning) “can ‘clearly
establish’ the answer, even without a body of relevant

App. 110
case law.” Brosseau v. Haugen, 543 U.S. 194, 199 (2004)
(citation omitted). But this is not one of those cases. As
already demonstrated, the majority’s systematic poisoning narrative has no basis in plaintiffs’ factual allegations.7 This is not a case about a government official
knowingly and intentionally introducing a known contaminant into another’s body without that person’s
consent. It is a case about a series of erroneous and
unfortunate policy and regulatory decisions and statements that, taken together, allegedly caused plaintiffs
to be exposed to contaminated water.
7

What is more, the majority’s exaggerated narrative runs
contrary to what is publicly known in the aftermath of the Flint
Water Crisis. For instance, plaintiffs point out that the state has
brought criminal charges against various defendants and ask us
to take judicial notice of those charges as providing context for
their bodily integrity claim. Of course, I agree with the majority
that it is inappropriate to consider those charges for the purpose
of deciding plaintiffs’ constitutional claim. But I note that even if
it were appropriate to consider them, the charges would not support plaintiffs’ assertion that defendants’ conduct is so obviously
unlawful that qualified immunity does not shield them from
plaintiffs § 1983 suit. In fact, they prove just the opposite. If the
defendants’ actions are obviously unlawful, then one would expect
relatively speedy probable-cause determinations. Reality suggests otherwise. Consider this: the state issued its complaint
against Lyon on June 14, 2017, but the court did not find probable
cause to bind him over for trial until August 24, 2018. In the
meantime, the trial judge spent around 11 months on preliminary
examinations just to find probable cause existed. Other defendants, such as MDEQ Employee Shekter-Smith and MDHHS Executive Peeler, have not even been bound over yet, despite the
state filing complaints against them as early as July 2016. These
cases have languished unusually long in probable cause proceedings. That alone suggests that the egregiousness of defendants’
actions is not so apparent as the majority makes it out to be.

App. 111
The proper framing of the factual narrative exposes how far off base are the bodily integrity cases relied upon by the majority. How could those cases have
provided any practical guidance to government officials like Earley, Ambrose, Croft, or the MDEQ employees? For instance, how should Rochin’s prohibition
against induced vomiting to obtain evidence have informed Earley’s oversight of the switch from the
DWSD to the Flint River and what professional opinions he was entitled to rely upon when the City made
the switch? And how should it have informed Ambrose’s decision to continue using the Flint River as a
water source and what professional opinions he was
entitled to rely upon in doing so? What about the
MDEQ employees? How should Riggins’s limits on the
state’s ability to administer antipsychotic drugs to pretrial detainees have changed what kind of advice the
MDEQ employees gave the City about federal corrosion-control requirements? Or what about the fact that
Cruzan allows a state to demand clear and convincing
evidence that an incompetent patient no longer desires
life support before cutting it off ? How should that have
influenced the content of Wurfel’s (or any other defendant’s) public statements about the water’s quality? The
answer to these questions is—clearly—not established.
And although the right plaintiffs allege is not established, various courts have certainly considered it—
and rejected it. See Branch, 2018 WL 337751; Coshow,
132 Cal. App. 4th 687; Benzman, 523 F.3d 119;

App. 112
Lombardi, 485 F.3d 73.8 But ignoring those cases, the
majority turns, curiously, to a few federal and state
cases arising from the Flint Water Crisis itself. The
majority begins its opinion with the proclamation that
it joins a few decisions concluding that some of these
same defendants, and some others, violated various
Flint residents’ substantive due process rights. Those
cases offer weak support for the majority’s position.
Oddly, one of the decisions it cites is the very case before us on appeal, Guertin v. Michigan, 2017 WL
2418007 (E.D. Mich. June 4, 2017). The second is
8

The number of cases rejecting similar environmentally
based claims is significant. See Kaucher v. Cty. of Bucks, 455 F.3d
418, 420, 428–30 (3d Cir. 2006) (rejecting a substantive-dueprocess claim by corrections officials who contracted a disease allegedly due to the jail’s unsanitary conditions and provision of
false and misleading information about the extent of the sanitary
problem); Walker v. City of E. Chicago, No. 2:16-cv-367, 2017 WL
4340259, at *6 (N.D. Ind. Sept. 29, 2017) (rejecting a substantivedue-process claim that the government allowed a housing
authority to “build and operate public housing in an area with
contaminated soil, thus increasing their risk of injury”); In re
Camp Lejeune N. Carolina Water Contamination Litig., 263
F. Supp. 3d 1318, 1325, 1359 (N.D. Ga. 2016) (rejecting a substantive-due-process claim by service members against government
officials at the Marine base where they lived based on the officials’
failure to monitor water quality and notify service members of the
presence of toxic substances in the water); Naperville Smart Meter Awareness v. City of Naperville, 69 F. Supp. 3d 830, 839 (N.D.
Ill. 2014) (rejecting a substantive-due-process claim by residents
of a city asserting that radio frequency waves emitted by “smart
meters” that the city installed in their homes posed health risks);
J.S. ex rel. Simpson v. Thorsen, 766 F. Supp. 2d 695, 712 (E.D.
Va. 2011) (rejecting a substantive-due-process claim brought by
an elementary student that school officials knowingly concealed
the school’s mold problems to the detriment of the student’s
health).

App. 113
authored by the same judge as authored Guertin, and
its bodily integrity analysis block-quotes more than
2,000 words from the Guertin analysis. In re Flint
Water Cases, 329 F. Supp. 3d 369, 397–400 (E.D.
Mich. 2018), vacated on other grounds (Nov. 9, 2018).
And that case appears to follow the same analytical errors as the state case to come before it—that is, just
like the state case, it makes several logical leaps to conclude that policy and regulatory decisions and statements are on par with an intentional introduction of a
contaminant into another’s body. Mays v. Snyder, 916
N.W.2d 227 (Mich. Ct. App. 2018); Mays v. Snyder, No.
16-000017-MM (Mich. Ct. Cl. Oct. 26, 2016). These few
cases and their redundant analyses provide a weak
foundation on which to build a new bodily integrity jurisprudence.
In sum, the majority’s opinion is a broad expansion of substantive due process, which contradicts the
traditional understanding that due process does not
“supplant traditional tort law” or impose a duty on the
government to ensure environmental safety. Collins,
503 U.S. at 126 (citation omitted). What is more, it effectively “convert[s] the rule of qualified immunity . . .
into a rule of virtually unqualified liability” for government officials making policy or regulatory decisions or
statements that have any effect on a publicly consumed environmental resource. White, 137 S. Ct. at
552 (ellipses in original) (citation omitted). That turns
qualified immunity on its head.

App. 114
IV
The majority’s conclusion that the defendants violated plaintiffs’ clearly established right to bodily integrity has some facial appeal, of course, because we
sympathize with the Flint residents’ plight. It is wrong,
however, on both the facts and the law. For all of the
above reasons, I join the majority in its denial of sovereign immunity to the City of Flint and in dismissing
various defendants from the case. But I dissent from
its denial of qualified immunity to Earley, Ambrose,
Croft, Shekter-Smith, Busch, Prysby, and Wurfel.

App. 115
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 17-1698/1699/1745/1752/1769
SHARI GUERTIN, individually
and as next friend of her child,
E.B., a minor; DIOGENES
MUSE-CLEVELAND,
Plaintiffs - Appellees,
v.
STATE OF MICHIGAN, et al.,
Defendants,
CITY OF FLINT, MICHIGAN,
HOWARD CROFT, DARNELL
EARLEY, and GERALD AMBROSE
(17-1699); LIANE SHEKTER-SMITH,
DANIEL WYANT, STEPHEN BUSCH,
MICHAEL PRYSBY, and BRADLEY
WURFEL (17-1745); NANCY PEELER
(17-1752); ROBERT SCOTT (17-1769);
EDEN WELLS and NICK LYON (17-1698),
Defendants - Appellees.
Before: McKEAGUE, GRIFFIN,
and WHITE, Circuit Judges.

App. 116
JUDGMENT
(Filed Jan. 4, 2019)
On Appeal from the United States District Court
for the Eastern District of Michigan at Ann Arbor.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the judgment of the district court is AFFIRMED
IN PART and REVERSED IN PART.
ENTERED BY ORDER
OF THE COURT
/s/

Deb S. Hunt
Deborah S. Hut, Clerk

App. 117
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Shari Guertin, Shari
Guertin as next friend
of her child, E.B., a
minor, and Diogenes
Muse-Cleveland,

Case No. 16-cv-12412
Judith E. Levy
United States District Judge
Mag. Judge Mona K. Majzoub

Plaintiffs,
v.
State of Michigan, Richard
Snyder, Michigan
Department of
Environmental Quality,
Michigan Department
of Health and Human
Services, City of Flint,
Howard Croft, Michael
Glasgow, Darnell Earley,
Gerald Ambrose, Liane
Scheckter-Smith, Daniel
Wyant, Stephen Busch,
Patrick Cook, Michael
Prysby, Bradley Wurfel,
Eden Wells, Nick Lyon,
Nancy Peeler, Robert
Scott, Veolia North
America, LLC, and
Lockwood, Andrews
& Newman, Inc.,
Defendants.

/

App. 118
OPINION AND ORDER GRANTING
IN PART AND DENYING IN PART
DEFENDANTS’ MOTIONS TO DISMISS
[50, 52, 59, 69, 70, 96, 102, 103, 105]
(Filed Jun. 5, 2017)
This is a Flint water case. Plaintiffs Shari Guertin,
her minor child E. B., and Diogenes Muse-Cleveland
allege that at all relevant times they were residents of
Flint, Michigan, where defendants caused the lead in
the potable water to rise to dangerous levels and then
actively concealed it from residents, causing plaintiffs
harm when they consumed and bathed in the water
over an extended period of time. Defendants filed motions to dismiss, and the Court held a hearing on
March 27, 2017. For the reasons set forth below, each
motion is granted in part and denied in part.
I.

Background

Plaintiffs are residents of Flint, Michigan, and allege that defendants are legally responsible for harm
that was caused when plaintiffs drank and bathed in
water that was contaminated with dangerous levels of
lead. (Dkt. 1 at 4-5.)1 Defendants’ main challenges to
plaintiffs’ complaint are under Rule 12(b)(1) as a facial
challenge to subject matter jurisdiction and Rule
12(b)(6) for failure to state a claim, so the following background is drawn from the complaint in the
1

Plaintiffs clarified at the hearing on the motions to dismiss
that paragraph sixteen of the complaint applies to plaintiff Diogenes Muse-Cleveland. (See Dkt. 1 at 5.)

App. 119
light most favorable to plaintiffs and accepting all allegations as true. Keys v. Humana, Inc., 684 F.3d 605,
608 (6th Cir. 2012); United States v. Ritchie, 15 F.3d
592, 598 (6th Cir. 1994).
a. The defendants
Defendant City of Flint is where the relevant
harms occurred, and its officials made some of the decisions that ultimately led to plaintiffs’ harms. (Dkt. 1
at 5.) Defendant Darnell Earley, Flint’s Emergency
Manager from November 1, 2013, through January 12,
2015, made the decision “to rush the distribution of
water from the Flint River without proper treatment,
including corrosion control.” (Id.) Defendant Earley
made the decision to switch to Flint River water and
made false and misleading statements representing
that the water was safe to drink, even after he became
aware that it was not. (Id. at 7-8.)
Defendant Howard Croft, Flint’s Department of
Public Works Director, and defendant Michael Glasgow, a water treatment plant operator for Flint, knew
that Flint’s water treatment plant was inadequate,
and nonetheless caused and allowed unsafe water to
be delivered to Flint’s residents and did not disclose
that Flint’s water was unsafe. (Id. at 6-7.) Defendant
Croft also made a number of false statements about
the safety and quality of Flint’s water that he knew to
be untrue. (Id. at 6.)
Defendant State of Michigan directs, controls, and
operates defendants Michigan Department of Environmental Quality (“MDEQ”) and Michigan Department

App. 120
of Health and Human Services (“MDHHS”). (Id. at 7.)
Defendant Richard Snyder, as Governor of Michigan,
participated in, directed, and facilitated the state’s decision to transition Flint’s water source to the Flint
River, and participated in, directed, and facilitated the
state’s insufficient response to protect plaintiffs from
defendant State of Michigan’s actions. (Id.)
Defendant Gerald Ambrose, Flint’s Emergency
Manager from January 13, 2015, until April 28, 2015,
and a financial advisor regarding Flint’s financial
emergency from January 2012 until December 2014,
was involved in and directed the state’s decision to
transition Flint to Flint River water, and made false
and misleading statements representing that the water was safe to drink. (Id. at 7-8.)
Defendant MDEQ is the state agency responsible
for implementing safe drinking water laws, rules, and
regulations in Michigan. Defendant MDEQ, through
its employees, violated the federal Lead and Copper
Rule by failing to require corrosion control for Flint
River water, misled the federal Environmental Protection Agency (“EPA”), conducted illegal and improper
sampling of Flint’s water, lied to the public about the
safety of Flint’s water, and attempted to publicly discredit outside individuals who offered independent evidence of the water’s contamination. (Id. at 8-9.) These
defendants ignored voluminous evidence of the crisis
they had created until the point when their denials
could no longer withstand outside scrutiny. (Id. at 9.)

App. 121
Defendant Liane Shekter Smith,2 Chief of the Office of Drinking Water and Municipal Assistance for
MDEQ until she was removed from her position on October 19, 2015, knowingly participated in, approved of,
and caused the decision to transition to Flint River water, and knowingly disseminated false statements to
the public that the water was safe to drink, leading to
the continued consumption of lead-contaminated water. (Id.)
Defendant Daniel Wyant, the Director of MDEQ
until his resignation on or about December 29, 2015,
participated in, directed, and oversaw defendant MDEQ’s
repeated violations of federal water quality laws, failure to properly study and treat Flint River water, and
defendant MDEQ’s systemic denial, lies, and attempts
to discredit outside observers who were publicly reporting that the water in Flint contained dangerous
levels of lead. (Id.) He knowingly disseminated false
statements to the public that led to the continued consumption of lead-contaminated water. (Id. at 9-10.)
Defendant Stephen Busch, the District Supervisor
assigned to the Lansing District Office of defendant
MDEQ, participated in MDEQ’s repeated violations
of federal water quality laws, the failure to properly
study and treat Flint River water, and defendant
MDEQ’s program of systemic denials, lies, and attempts to discredit honest outsiders. (Id. at 10.) He
2

Plaintiffs incorrectly spelled defendant Liane Shekter Smith’s
name as “Liane Sheckter-Smith” in the case caption, but the Court
uses the correct spelling of her name in this opinion and order.

App. 122
personally falsely reported to the EPA that Flint had
enacted an optimized corrosion control plan and provided assurances to plaintiffs that the water was safe
to drink when he knew that such assurances were
false. (Id.)
Defendant Patrick Cook, the Water Treatment
Specialist assigned to the Lansing Community Drinking Water Unit of defendant MDEQ, participated in,
approved, and assented to the decision to allow Flint’s
water to be delivered to residents without corrosion
control or proper study or testing. (Id. at 10-11.)
Defendant Michael Prysby, the Engineer assigned
to District 11 (Genesee County) of MDEQ, participated
in, approved, and assented to the decision to switch the
water source, failed to properly monitor or test the
Flint River water, and provided assurances to plaintiffs that the Flint River water was safe when he knew
those statements to be untrue. (Id. at 11.)
Defendant Bradley Wurfel, the Director of Communications for MDEQ until he resigned on December
29, 2015, repeatedly denied the water situation as it
unfolded and attempted to discredit opposing opinions.
(Id. at 11-12.) He repeatedly made public statements
that created, increased, and prolonged the risks and
harms facing plaintiffs, which he knew were false. (Id.
at 12.) He was eventually relieved of his duties for
his “persistent [negative] tone and derision” and his
“aggressive dismissal, belittlement and attempts to
discredit the individuals involved in [conducting independent studies and tests].” (Id.)

App. 123
Defendant MDHHS, through decision-making
employees, deliberately hid information that would
have revealed the public health crisis in Flint, which
MDHHS had earlier failed to detect. (Id.) MDHHS’s
failure to properly analyze data led it to conclude that
there was no increase in lead contamination in Flint’s
children, and MDHHS resisted and obstructed the efforts of outside researchers and the county health department to determine whether that was actually true
and correct. (Id.)
Defendants Eden Wells, Chief Medical Executive
within the Population Health and Community Services Department of MDHHS, Nick Lyon, Director of
MDHHS, and Nancy Peeler, an MDHHS employee in
charge of its childhood lead poisoning prevention program, participated in, directed, and oversaw the Department’s efforts to hide information to save face and
to obstruct the efforts of outside researchers. (Id. at 1213.) Defendants Wells and Lyon knew as early as 2014
of problems with lead and legionella contamination in
Flint’s water and participated in hiding this information. (Id. at 12-13.) And defendant Peeler continued
to try to generate evidence that there was no lead contamination problem even when her own Department
had data that verified outside evidence to the contrary.
(Id. at 13.)
Defendant Robert Scott, at all relevant times Data
Manager for MDHHS’s Healthy Homes and Lead Prevention Program, also participated in, directed, and
oversaw the Department’s efforts to hide information
to save face and actively sought to obstruct and

App. 124
discredit the efforts of outside researchers. (Id. at 14.)
And he continued to try to generate evidence that
there was no lead contamination problem even when
his own Department had data that verified outside evidence to the contrary. (Id.) He served a key role in
withholding and delaying disclosure of data that outside researchers needed to conduct independent research. (Id.)
Defendant Veolia North America, LLC, a Delaware
corporation with its principal office in Illinois, provided
negligent professional engineering services in reviewing Flint’s water system and declaring the water safe
to drink. (Id. at 14-15.) Defendant Lockwood, Andrews
& Newnam, Inc., a Texas corporation with its principal
office in Texas, provided negligent professional engineering services in preparing Flint’s water treatment
facility to treat water from the Flint River. (Id. at 15.)
b. The events
Under the federal Safe Drinking Water Act, the
EPA is responsible for setting rules regulating drinking water, including the Lead and Copper Rule. (Id.)
Put simply, the law requires sampling of public water
systems, and when results indicate that lead is present
at levels that exceed the lead action level set in the
Lead and Copper Rule, water systems are required to
notify the public, the state, and the EPA of the lead action level “exceedance.” When the levels have the potential to cause serious adverse health effects from
short-term exposure, the water system must issue the

App. 125
notifications within twenty-four hours. See 42 U.S.C.
§ 300g-3(c)(2)(C); 40 C.F.R. § 141.80(c).
In 2010, the EPA commissioned a report noting,
among other things, that defendant MDEQ’s practice
of calculating the amount of lead in water “does not
meet the requirements of Federal Regulations, since it
is required that all 90th percentiles be calculated,”
something MDEQ would not do unless a potential violation had been identified. (Dkt. 1 at 18.) The report
also noted that MDEQ did not conduct the required
number of water samples for lead. (Id.) Defendant
MDEQ also violated “the letter and spirit” of the Lead
and Copper Rule by failing to require corrosion control
for Flint River water and by misinforming the EPA
about whether corrosion control was being utilized. (Id.
at 19.) MDEQ’s former director “explicitly admitted”
that the state agency did not follow the rule. (Id. at 20.)
In November 2012, Flint’s Emergency Manager
suggested joining the Karegnondi Water Authority to
save costs. (Id.) On March 7, 2014, defendant Earley
sent a letter to the Detroit Water and Sewerage Department from which Flint had been receiving its water supply, stating “[w]e expect that the Flint Water
Treatment Plant will be fully operational and capable
of treating Flint River water prior to the date of termination. In that case, there will be no need for Flint to
continue purchasing water to serve its residents and
businesses after April 17, 2014.” (Id. at 21.) On March
26, 2014, defendant Busch e-mailed defendant Shekter
Smith and another colleague stating that starting up
the Flint plant “for continuous operation will carry

App. 126
significant changes in regulatory requirements so
there is a very gray area as to what we consider for
startup.” (Id. at 22.)
However, defendant Glasgow informed defendant
MDEQ on April 17, 2014, that he “assumed there
would be dramatic changes to [MDEQ’s] monitoring”
and did “not anticipate giving the OK to begin sending
water out anytime soon. If water is distributed from
this plant in the next couple of weeks, it w[ould] be
against [his] direction. [He] need[ed] time to adequately train additional staff and to update [MDEQ’s]
monitoring plans before [he would] feel [MDEQ was]
ready.” (Id. at 22.) According to Glasgow, “management
above” seemed “to have their own agenda.” (Id.)
On April 25, 2014, Flint officially began using the
Flint River as its primary water source, despite the
fact that the proper preparations had not been made
and defendant Glasgow’s clear warning to the contrary.
(Id. at 23.) Defendant Croft stated in a press release
that “[t]he test results have shown that our water is
not only safe, but of the high quality that Flint customers have come to expect.” (Id.)
When Flint was receiving its water from the Detroit Water and Sewerage Department, it was already
treated to prevent corrosion, but the water from the
Flint River was not. (Id. at 24.) Defendant Lockwood
was hired to make Flint’s plant sufficient to treat water from its new source. (Id.) Defendants State of Michigan, MDEQ, and Lockwood did not implement any
corrosion control for the new water source, which it

App. 127
required due to the lead pipes in Flint’s water system.
(Id. at 24-26.) Defendants were put on notice that this
was an issue when residents of Flint began complaining almost immediately about discoloration and odor,
among other things. (Id. at 26.)
In August and September 2014, Flint issued two
boil-water advisories after fecal coliform bacteria was
discovered in the water. (Id. at 27.) On October 13,
2014, General Motors ceased using Flint River water
at its engine plant because the company determined
that high levels of chloride would corrode its car parts.
Discussing General Motors’ decision, defendant Prysby
wrote to defendants Busch, Shekter Smith, and others
that the Flint River water had elevated chloride levels
that “although not optimal” were “satisfactory.” (Id.
at 28.) He “stressed the importance of not branding
Flint’s water as ‘corrosive’ from a public health standpoint simply because it does not meet a manufacturing
facility’s limit for production.” (Id.)
In October of 2014, defendant Snyder received a
briefing in which officials blamed iron pipes, susceptible to corrosion and bacteria, for the two boil-water advisories. (Id.) On January 2, 2015, Flint mailed a notice
to its water customers indicating that the city had been
in violation of the Safe Drinking Water Act due to the
presence of trihalomethanes, which was a result of attempts to disinfect the water. (Id.) And on January 9,
2015, the University of Michigan-Flint discovered lead
in the water coming out of campus drinking fountains.
(Id.)

App. 128
As early as January 2015, defendant State of
Michigan began providing purified water coolers at its
Flint offices for state employees in response to concerns about the drinking water, while government officials, including many defendants, continued to tell
Flint residents that the water was safe to drink. (Id.)
On January 12, 2015, the Detroit Water and Sewerage
Department offered to waive a four-million dollar reconnection fee to transition Flint back to water provided by the Detroit Water and Sewerage Department.
Defendant Ambrose, as Emergency Manager, declined
the offer. (Id.)
On January 29, 2015, defendant Shekter Smith
emailed MDEQ deputy director Jim Sygo that a
“change in water chemistry can sometimes cause more
corrosive water to slough material off of pipes as opposed to depositing material or coating pipes in the
distribution system,” and that this “may continue for a
while until things stabilize.” (Id. at 29.) She noted that
because “it appears wide-spread, it’s most likely a distribution system problem.” (Id.)
On February 6, 2015, an Emergency Manager staff
member wrote to defendant Prysby, asking whether he
knew if defendant MDEQ had ever conducted a “source
water assessment” for the Flint River. (Id.) After an initial response stating that he did not know, Prysby
later responded that a study on the Flint River as an
emergency intake had been conducted in 2004. The
2004 study noted that the Flint River was a highly sensitive drinking water source susceptible to contamination. (Id.)

App. 129
On February 27, 2015, in response to concerns
about dangerously high levels of lead in a resident’s
water sample, defendant Busch told the EPA on behalf
of defendant MDEQ that the Flint Water Treatment
Plant had an optimized corrosion control program, despite knowing it did not. (Id.) In an email to defendants
Prysby and Busch, the EPA’s regional drinking water
regulations manager Miguel Del Toral noted high levels of particulate lead in the water sample, and inquired about optimized corrosion control. (Id. at 30.)
He relayed that defendant MDEQ’s testing method—
flushing the line before compliance sampling—impermissibly skewed the test results to show fewer lead
particles than were generally present. (Id.)
During this time, an email from an employee in
defendant MDEQ noted that the switch to the Flint
River “put the city in the business of water production,
where they had historically been in the business of water transmission,” stating that “once the city connects
to the new KWA system in 2016, this issue w[ould] fade
into the rearview.” (Id. at 31.) Also during this time,
defendant Veolia was hired to review Flint’s public
water system, including treatment processes, maintenance procedures, and actions taken. (Id.) Veolia issued an interim report on February 18, 2015, stating
that Flint’s water was “in compliance with drinking
water standards,” and noting that “[s]afe [meant] complian[t] with state and federal standards and required
testing.” (Id.) Veolia dismissed medical concerns by
stating that “[s]ome people may be sensitive to any water.” (Id. at 32.)

App. 130
Defendant Veolia issued its final report on March
12, 2015, stating that “a review of water quality
records for the time period under our study indicates
compliance with State and Federal water quality regulations.” (Id.) Veolia recommended that adding polyphosphate to the water would minimize discoloration.
(Id.)
On April 24, 2015, defendant MDEQ stated to the
EPA that Flint did not have optimized corrosion control in place, contradicting MDEQ’s previous statement made two months prior. (Id. at 33.) That same
month, EPA regional drinking water manager Del
Toral issued a memorandum to the MDEQ, stating:
I wanted to follow up on this because Flint has
essentially not been using any corrosion control treatment since April 30, 2014, and they
have (lead service lines). Given the very high
lead levels found at one home and the preflushing happening in Flint, I’m worried that
the whole town may have much higher lead
levels than the compliance results indicated,
since they are using pre-flushing ahead of
their compliance sampling.
(Id. at 34.) On May 1, 2015, defendant Cook responded
that “[a]s Flint will be switching raw water sources in
just over one year from now, raw water quality will be
completely different than what they currently use. Requiring a study at the current time will be of little to
no value in the long term control of these chronic contaminants.” (Id. at 35.)

App. 131
On June 24, 2015, Del Toral sent a memorandum
to the chief of the EPA’s Region 5 Ground Water and
Drinking Water Branch, and included on the email defendants Shekter Smith, Cook, Busch, and Prysby. (Id.
at 35-36.) He expressed concern at the lead levels and
lack of mitigating treatment, detailing Lee-Anne Walters’ experience. Walters had contacted the EPA with
the lead-level results in her potable water, which defendant MDEQ had told her was coming from the
plumbing in her own home. (Id. at 36.) Del Toral’s inspection revealed that her plumbing was entirely plastic and noted that blood tests showed her child had
elevated blood lead levels. (Id.)
On July 9, 2015, ACLU-Michigan reporter Curt
Guyette publicly broke the story about lead in Flint’s
drinking water, citing Del Toral’s Memorandum and
exposing the lack of corrosion control in Flint’s drinking water. Defendant Wurfel responded: “Let me start
here—anyone who is concerned about lead in the
drinking water in Flint can relax.” (Id. at 38.)
On August 27, 2015, Virginia Tech Professor Marc
Edwards released an analysis of lead levels in homes
he sampled in Flint. More than half of the samples
came back above 5 parts-per-billion, and more than
30% of them came back over 15 ppb, which would be
unacceptable even at the 90th percentile. (Id. at 40-41.)
In September 2015, Professor Edwards published a report of his findings. (Id. at 42-43.) Defendant Wurfel
made a number of statements to qualify, distinguish,
or otherwise downplay these results. (Id. at 41-42, 4344.)

App. 132
On September 17, 2015, defendant Wyant wrote a
letter in response to an inquiry from various legislators, stating that “the MDEQ does not review or receive
draft memos from the USEPA, nor would we expect to
while it is a draft,” despite the memorandum it had
received months earlier from Del Toral. (Id. at 46.)
On September 23, 2015, defendant Croft sent an email
to numerous officials stating that “Flint has officially
returned to compliance with the Michigan Safe Drinking Water Act,” recent “testing has raised questions
regarding the amount of lead that is being found in
the water,” and “over one hundred and sixty lead
tests [have been performed] throughout the city since
switching over to the Flint River and remain within
EPA standards.” (Id.)
On July 28, 2015, MDHHS epidemiologist Cristin
Larder emailed defendant Peeler and MDHHS employee Patricia McKane, noting an increase in blood
lead levels in Flint residents just after the switch and
concluding that the issue “warrant[ed] further investigation.” (Id. at 48.) Defendant Peeler responded by attributing the increase to seasonal variation. (Id.)
On September 24, 2015, Dr. Hanna-Attisha presented the results from her study at a press conference,
which showed post-water transition elevation of bloodlead levels in Flint children. (Id. at 50.) MDHHS
employees “were uniformly dismissive of Dr. HannaAttisha’s results.” (Id.) But the day after Dr. HannaAttisha released her study, the City of Flint issued a
health advisory, telling residents to flush pipes and install filters to prevent lead poisoning. (Id. at 51.)

App. 133
On September 28, 2015, defendant Wurfel publicly stated that he “wouldn’t call [Dr. Hanna-Attisha’s
statements] irresponsible. [He] would call them unfortunate.” And he again declared Flint’s water safe to
drink. (Id. at 53.) The same day, defendant Lyon stated
that he “would like to make a strong statement with a
demonstration of proof that the lead blood levels seen
are not out of the ordinary and are attributable to seasonal fluctuations.” (Id. at 54.)
Plaintiffs cite numerous inter- and intra-department
communications, alleging they show attempts to cover
up the issue. (Id. at 54-58.) By October 12, 2015, defendant Snyder received a proposal to reconnect Flint
to the Detroit Water and Sewerage Department. And
on October 16, 2015, Flint reconnected to the Detroit
Water and Sewerage Department. This did not change
the corrosion that had already occurred, and lead has
continued to leach from pipes into the water. (Id. at 58.)
On October 18, 2015, defendant Wyant stated to
defendant Snyder:
[S]taff made a mistake while working with
the City of Flint. Simply stated, staff employed a federal (corrosion control) treatment
protocol they believed was appropriate, and
it was not. . . . I believe now we made a mistake. For communities with a population
above 50,000, optimized corrosion control should
have been required from the beginning. Because
of what I have learned, I will be announcing a

App. 134
change in leadership in our drinking water
program.
(Id. at 58-59.)
On October 21, 2015, defendant Snyder appointed
a task force to investigate the Flint water crisis. (Id. at
59.) On December 29, 2015, the task force issued a letter detailing its findings: “Although many individuals
and entities at state and local levels contributed to creating and prolonging the problem,” the “primary responsibility for what happened in Flint rests with the
[MDEQ]. . . . It failed in that responsibility and must
be held accountable for that failure.” (Id. at 59-60.)
Among other things, the task force found that “the
agency’s response was often one of aggressive dismissal, belittlement, and attempts to discredit [outside, independent] efforts and the individuals involved,” and
“the MDEQ seems to have been more determined to
discredit the work of others—who ultimately proved to
be right—than to pursue its own oversight responsibility.” (Id. at 60.) The task force stated “we are particularly concerned by recent revelations of MDHHS’s
apparent early knowledge of, yet silence about, elevated blood lead levels detected among Flint’s children.” (Id. at 61.)
In October 2015, defendant Shekter Smith was reassigned so as to have no continued oversight responsibility regarding Flint’s drinking water. On December
5, 2015, the City of Flint declared a state of emergency.
On December 23, 2015, the Michigan Auditor General
provided an investigative report on the crisis, finding

App. 135
that corrosion control should have been maintained
from the beginning and that improper sample sites
had been selected by defendant MDEQ. On December
30, 2015, defendants Wyant and Wurfel resigned. (Id.)
On January 4, 2016, Genesee County declared its own
state of emergency. (Id. at 62.)
On January 21, 2016, Susan Hedman, former EPA
Region 5 Administrator, resigned over her involvement
in the Flint Water crisis.3 That same day, the EPA issued an Emergency Order, based on its finding that
“the City of Flint’s and the State of Michigan’s responses to the drinking water crisis in Flint have been
inadequate to protect public health and that these failures continue.” (Id. at 62.) At one of the several hearings conducted before the U.S. Congress, the EPA
Deputy Assistant Administrator testified:
[Defendant] MDEQ incorrectly advised the
City of Flint that corrosion-control treatment
was not necessary, resulting in leaching of
lead into the city’s drinking water. . . . EPA
regional staff urged MDEQ to address the
lack of corrosion control, but was met with
resistance. The delays in implementing the
3

In paragraph forty-three, plaintiffs state that Hedman
could not yet be named as a defendant pursuant to the Federal
Tort Claims Act, but that if their anticipated FTCA claims to the
EPA were rejected, they might seek to amend their complaint in
order to add claims against Hedman. (Dkt. 1 at 14.) Plaintiffs clarified at the hearing that this was a drafting mistake; plaintiffs
have not filed an FTCA administrative claim, and they have otherwise taken no action to bring suit against Hedman, nor do they
intend to.

App. 136
actions needed to treat the drinking water
and in informing the public of ongoing health
risks raise very serious concerns.
(Id. at 64.)
On January 22, 2016, defendants Shekter Smith
and Busch were suspended without pay. Defendant
Shekter Smith’s firing was announced on February 5,
2016. (Id. at 63.)
c. Plaintiffs’ claims
Plaintiffs bring fifteen claims. In Count 1—against
defendants City of Flint, Croft, Glasgow, State of Michigan, Snyder, Earley, Ambrose, MDEQ, Shekter Smith,
Wyant, Busch, Cook, Prysby, and Wurfel—plaintiffs
bring a 42 U.S.C. § 1983 claim, alleging a deprivation
of a contractually created property right in violation of
substantive due process. According to plaintiffs, these
defendants violated their property right “when, ceasing to provide [p]laintiffs with safe, potable water, they
provided [p]laintiffs with poisonous, contaminated water.” (Id. at 64-65.)
In Count 2—against defendants City of Flint,
Croft, Glasgow, State of Michigan, Snyder, Earley, Ambrose, MDEQ, Shekter Smith, Wyant, Busch, Cook,
Prysby, and Wurfel—plaintiffs bring a § 1983 claim,
alleging a deprivation of a contractually created property right in violation of procedural due process. According to plaintiffs, these defendants deprived them
of their contractually based property right to purchase

App. 137
and receive safe, potable drinking water without notice
or a hearing. (Id. at 65-66.)
In Count 3—against defendants City of Flint,
Croft, Glasgow, State of Michigan, Snyder, Earley, Ambrose, MDEQ, MDHHS, Shekter Smith, Wyant, Busch,
Cook, Prysby, Wurfel, Wells, Peeler, Lyon, and Scott,
i.e., all defendants except Veolia and Lockwood—plaintiffs bring a § 1983 claim, alleging a state-created danger in violation of substantive due process. According
to plaintiffs, these defendants each acted to expose
them to toxic, lead-contaminated water by making,
causing to be made, and/or causing or making representations that the water was safe to drink, and these
actions and omissions were objectively unreasonable
in light of the facts and circumstances confronting
them, in violation of plaintiffs’ Fourteenth Amendment
rights. (Id. at 66-68.)
In Count 4—against defendants City of Flint,
Croft, Glasgow, State of Michigan, Snyder, Earley, Ambrose, MDEQ, MDHHS, Shekter Smith, Wyant, Busch,
Cook, Prysby, Wurfel, Wells, Peeler, Lyon, and Scott,
i.e., all defendants except Veolia and Lockwood—plaintiffs bring a § 1983 claim, alleging a violation of their
substantive due process right to bodily integrity. According to plaintiffs, these defendants caused their
harm by exposing them to lead-contaminated water
and otherwise hiding the contamination from them,
and as a result, plaintiffs suffered bodily harm and
their rights to bodily integrity were violated. (Id. at 6870.)

App. 138
In Count 5—against defendants City of Flint and
State of Michigan—plaintiffs allege a breach of contract. According to plaintiffs, these defendants offered
to sell potable water, plaintiffs agreed to pay for potable water, and these defendants materially and irreparably breached the contract with plaintiffs by failing to
provide potable, safe drinking water. (Id. at 70-71.)
In Count 6—against defendants City of Flint and
State of Michigan—plaintiffs allege a breach of implied
warranty. According to plaintiffs, these defendants directly promised to provide water that was fit for human consumption and/or impliedly promised that the
water was fit for human consumption, and did not. (Id.
at 71-72.)
In Count 7—against all defendants—plaintiffs allege a nuisance. According to plaintiffs, defendant
caused foul, poisonous, lead-contaminated water to be
delivered to their homes, resulting in the presence of
contaminants in their properties and persons, and substantially and unreasonably interfering with their
comfortable living and ability to use and enjoy their
homes. (Id. at 72-73.)
In Count 8—against all defendants—plaintiffs allege a trespass. According to plaintiffs, defendants’
negligent, grossly negligent, willful, and wanton conduct and failures to act caused contaminants to enter
plaintiffs’ property. (Id. at 74-75.)
In Count 9—against defendants City of Flint and
State of Michigan—plaintiffs allege unjust enrichment.
According to plaintiffs, these defendants received and

App. 139
retained the benefits of the funds paid by plaintiffs for
contaminated water that was and is unfit for human
consumption. (Id. at 75.)
In Count 10, plaintiffs allege negligence/professional negligence/ gross negligence against defendant
Veolia. According to plaintiffs, Veolia undertook, for
consideration, to render services that it should have
recognized as necessary for the protection of plaintiffs
and their property, thus creating a duty to plaintiffs to
exercise reasonable care to protect that undertaking;
plaintiffs relied on Veolia to perform its duty; Veolia
breached its duty; and plaintiffs were directly and
proximately harmed by Veolia’s breach. (Id. at 75-78.)
In Count 11, plaintiffs allege negligence/professional negligence/gross negligence against defendant
Lockwood. According to plaintiffs, Lockwood undertook, for consideration, to render services that it should
have recognized as necessary for the protection of
plaintiffs and/or their property, thus creating a duty to
plaintiffs to exercise reasonable care to protect that
undertaking; plaintiffs relied on Lockwood to perform
its duty; Lockwood breached its duty; and plaintiffs
were directly and proximately harmed by Lockwood’s
breach. (Id. at 78-79.)
In Count 12—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and Scott—
plaintiffs allege gross negligence. According to plaintiffs, these defendants owed plaintiffs an independent

App. 140
duty of care, breached the duty of care, and plaintiffs
suffered harm. (Id. at 80-83.)
In Count 13—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and Scott
—plaintiffs allege intentional infliction of emotional
distress. According to plaintiffs, these defendants’ outrageous conduct was intentional and reckless, in conscious disregard for the rights and safety of plaintiffs,
and caused, prolonged, and obscured plaintiffs’ exposure to lead-contaminated water. (Id. at 82-83.)
In Count 14—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and Scott—
plaintiffs allege negligent infliction of emotional distress. According to plaintiffs, these defendants were
in a special relationship to them, being charged with
providing them safe water, the distress they caused
from plaintiffs suffering and having to see family members suffer from lead exposure was highly foreseeable,
and defendants’ negligent acts caused plaintiffs and
their loved ones harm. (Id. at 83-85.)
In Count 15—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and Scott—
plaintiffs allege that these defendants engaged in
proprietary functions when selling potable water to
plaintiffs, i.e., to produce a pecuniary profit for the governmental agencies, not supported by taxes and fees,

App. 141
and thus these defendants do not get governmental immunity. (Id. at 85-87.)
Plaintiffs seek an order declaring defendants’ conduct unconstitutional; an order of equitable relief to
remediate the harm caused by defendants’ unconstitutional conduct including repairs to property, establishment of a medical monitoring fund, and appointing a
monitor to oversee the water operations of Flint for a
period of time deemed appropriate by the court; an
order for an award for general damages; an order
for an award of compensatory damages; an order for
an award of punitive damages; an order for an award
of actual reasonable attorney fees and litigation expenses; and an order for all such other relief the court
deems equitable. (Id. at 88.)
II.

Standard
a. Rule 12(b)(1)

“Motions to dismiss for lack of subject matter jurisdiction fall into two general categories: facial attacks and factual attacks.” United States v. Ritchie, 15
F.3d 592, 598 (6th Cir. 1994). Relevant here, “[a] facial
attack is a challenge to the sufficiency of the pleading
itself.” Id. (emphasis in original). When considering a
facial attack, “the court must take the material allegations of the [complaint] as true and construed in the
light most favorable to the nonmoving party.” Id.
To survive such an attack, “the plaintiff ’s burden
to prove federal question subject matter jurisdiction is

App. 142
not onerous.” Musson Theatrical, Inc. v. Fed. Express
Corp., 89 F.3d 1244, 1248 (6th Cir. 1996) (citing RMI
Titanium Co. v. Westinghouse Elec. Corp., 78 F.3d 1125,
1134 (6th Cir. 1996)). “The plaintiff must show only
that the complaint alleges a claim under federal law,
and that the claim is ‘substantial.’ ” Id. “[T]he plaintiff
can survive the motion by showing any arguable basis
in law for the claim made.” Id. “Dismissal for lack of
subject-matter jurisdiction because of the inadequacy
of the federal claim is proper only when the claim is ‘so
insubstantial, implausible, foreclosed by prior decisions of [the Supreme Court], or otherwise completely
devoid of merit as not to involve a federal controversy.’ ”
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 89
(1998) (quoting Oneida Indian Nation of New York v.
Cty. of Oneida, 414 U.S. 661, 666 (1974)).
b. Rule 12(b)(6)
When deciding a motion to dismiss under Rule
12(b)(6) of the Federal Rules of Civil Procedure, the
Court must “construe the complaint in the light most
favorable to the plaintiff and accept all allegations as
true.” Keys v. Humana, Inc., 684 F.3d 605, 608 (6th Cir.
2012). “To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A plausible claim need not contain “detailed factual allegations,” but it must contain more than “labels and
conclusions” or “a formulaic recitation of the elements

App. 143
of a cause of action.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007).
III. Analysis
Because defendants challenge the sufficiency of
plaintiffs’ complaint on both subject-matter jurisdiction and sufficiency-of-the pleadings grounds, the
Court first addresses defendants’ jurisdictional arguments.
a. Whether the Court has subject-matter
jurisdiction
i. Standing
Defendants Lockwood and Scott argue that plaintiffs fail to establish Article III standing, and thus the
complaint should be dismissed under Rule 12(b)(1).
(See, e.g., Dkt. 59 at 15-16; see Dkt. 96 at 49.) Specifically, they argue that plaintiffs only plead they were
“ ‘damaged’ or ‘injured’ in some unspecified way,” and
that failing to plead that “their blood lead levels are
even elevated, just that they were exposed to leadcontaminated water,” is insufficient to plead a concrete
injury. (See, e.g., Dkt. 59 at 16-17.)
This argument is frivolous. At the beginning of
the complaint, plaintiffs allege that they all consumed
lead-contaminated water, that the water was contaminated with lead because of defendants’ actions, and
that they suffered injuries including hair, skin, digestive, and organ problems; physical pain and suffering;

App. 144
disability; brain and developmental injuries including cognitive deficits; and aggravation of pre-existing
conditions. (Dkt. 1 at 4-5.) There is no question that
plaintiffs sufficiently pleaded a “concrete and particularized” injury, they “suffered an injury in fact,” there
is “a causal connection between the injury and the conduct complained of,” and a favorable decision from this
Court would likely redress plaintiffs’ injury. Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560-61 (1992). Accordingly, the motions to dismiss based on plaintiffs’ failure
to plead a concrete injury is denied.
ii. Preemption
Defendants against whom the four § 1983 claims
are made—all defendants except for Veolia and Lockwood—argue that the federal Safe Drinking Water Act
(“SDWA” or “Act”) has a comprehensive remedial
scheme that preempts plaintiffs’ federal claims. (See
Dkts. 52 at 17, 69 at 25, 70 at 24, 96 at 25, 102 at 35,
103 at 23, 105 at 15.)
Plaintiffs allege that the state violated their substantive and procedural due process rights to property
created by a contract for water with the city and state,
their substantive due process right to be free from a
state-created danger, and their substantive due process right to bodily integrity. According to defendants,
the SDWA provides the exclusive remedy for claims
based on unsafe public drinking water. (See, e.g., Dkt.
103 at 24.) They argue that the Act’s remedial scheme
is so comprehensive that Congress intended the Act to

App. 145
preempt all other federal remedies, including constitutional claims brought under § 1983.
Plaintiffs respond that defendants apply the wrong
preemption analysis, that which applies to § 1983 claims
for federal statutory violations, but the correct test
here is that which applies to § 1983 claims for violations of the Constitution. (See Dkt. 123 at 24.) Plaintiffs argue that because the contours of the rights
afforded under the Constitution are substantially different from those under the SDWA, Congress did not
intend the enforcement scheme in the SDWA to displace constitutional claims under § 1983. (Id. at 24-31.)
When Congress intends a statute’s remedial scheme
to “be the exclusive avenue through which a plaintiff
may assert [the] claims,” § 1983 claims are precluded.
Fitzgerald v. Barnstable Sch. Comm., 555 U.S. 246, 252
(2009) (quoting Smith v. Robinson, 468 U.S. 992, 1009
(1984)). And when, as here, a § 1983 claim is based on
a constitutional right, “lack of congressional intent
may be inferred from a comparison of the rights and
protections of the statute and those existing under the
Constitution.” Id. When “the contours of such rights
and protections diverge in significant ways, it is not
likely that Congress intended to displace § 1983 suits
enforcing constitutional rights.” Id.
Among the several Supreme Court cases that have
addressed the issue, this case is in line with those finding that the federal statute does not preempt § 1983
claims for violations of the Constitution.

App. 146
In Smith v. Robinson, the Supreme Court held
that the Education of the Handicapped Act preempted
§ 1983 due process and equal protection claims because
Congress had placed “on local and state educational
agencies the primary responsibility for developing a
plan to accommodate the needs of each individual
handicapped child,” and “the procedures and guarantees set out in the [statute]” were “comprehensive.” 468
U.S. 992, 1011 (1984). In light “of the comprehensive
nature of the procedures and guarantees set out in”
that statute, the Court found “it difficult to believe that
Congress also meant to leave undisturbed the ability
of a handicapped child to go directly to court with an
equal protection claim to a free appropriate public education.” Id.
And in Rancho Palos Verdes v. Abrams, the Court
similarly held that the Telecommunications Act’s detailed and restrictive administrative and judicial remedies “are deliberate and are not to be evaded through
§ 1983.” 544 U.S. 113, 124 (2005). In both cases, “the
statutes at issue required plaintiffs to comply with particular procedures and/or to exhaust particular administrative remedies,” and a direct route to court through
§ 1983 “would have circumvented these procedures
and given plaintiffs access to tangible benefits—such
as damages, attorney’s fees, and costs—that were unavailable under the statutes.” Fitzgerald, 555 U.S. at
254.
In contrast, the Supreme Court held in Fitzgerald
that the relief available under Title IX—withdrawal of
federal funding from institutions not in compliance

App. 147
with the law and an implied right of action permitting
injunctive relief and damages—was evidence that Congress did not intend to preempt § 1983 claims based on
violations of the Equal Protection Clause. Id. at 255.
The Court noted that “we should ‘not lightly conclude
that Congress intended to preclude reliance on § 1983
as a remedy for a substantial equal protection claim,’ ”
and declined to do so as to Title IX in light of the fact
that there was only an implied remedy under the statute and because of the “divergent coverage of Title IX
and the Equal Protection Clause.” Id. at 255-58.
Under the SDWA, the states are charged with “primary enforcement responsibility.” See 42 U.S.C. § 300g2. And the Administrator of the EPA can sue in federal
court for civil penalties of up to $25,000 for each day in
which the statute or regulations are violated. Id. at
§ 300g-3.
There is a citizen-suit provision as well. “[A]ny
person may commence a civil action on his own behalf
. . . against any person . . . who is alleged to be in violation of any requirement prescribed by or under” the
Act. 42 U.S.C. § 300j-8(a)(1). District courts have jurisdiction “to enforce in an action brought under this subsection any requirement prescribed by or under this
title or to order the Administrator to perform an act”
that is non-discretionary. Id. at (a)(1)-(2). The SDWA
has been interpreted to provide only for prospective injunctive relief for ongoing violations. See Mattoon v.
City of Pittsfield, 980 F.2d 1, 6-7 (1st Cir. 1992) (SDWA
only authorizes suit for continuous or intermittent violation, not for past harm); Batton v. Ga. Gulf, 261

App. 148
F. Supp. 2d 575, 598 (M.D. La. 2003) (“The defendants
nevertheless are correct that the SDWA does not permit a private right of action for the recovery of compensatory damages. . . .”). The citizen-suit provision also
provides that the Court may award costs and attorney’s fees when appropriate.
But the Act includes a robust savings clause:
“Nothing in this section shall restrict any right which
any person (or class of persons) may have under any
statute or common law to seek enforcement of any requirement prescribed by or under this title or to seek
any other relief.” 42 U.S.C. § 300j-8(d)-(e).
Reading these provisions together, the relevant
provisions of the Act can be summarized as follows: the
Act is enforced primarily by the states; the Administrator of the EPA may enforce the Act by bringing civil
suits and enforcement actions; private citizens may enforce the Act by suing anyone in violation of the Act for
injunctive relief, costs, and attorney’s fees; and the Act
explicitly does not restrict “any right” under “any statute or common law” to enforce any requirement prescribed by the Act or regulations or for “any other
relief.”
As in Smith, Congress here placed “on local and
state [ ] agencies the primary responsibility for developing a plan to” provide for and enforce the safe drinking water requirements of the SDWA. 468 U.S. at 1011.
But as in Fitzgerald, the SDWA’s protections are “narrower in some respects and broader in others” than the
constitutional claims plaintiffs bring here. See 555 U.S.

App. 149
at 256. For example, the SDWA provides for citizen
suits “against any person . . . who is alleged to be in
violation of any requirement prescribed by or under”
the Act, 42 U.S.C. § 300j-8(a)(1) (emphasis added),
whereas the Constitution only reaches government officials and limited classes of private persons acting as
the government. See, e.g., Fitzgerald, 555 U.S. at 256.
And the Act requires conduct that may give rise to a
claim under the SDWA, such as for violation of water
quality reporting requirements, that would not likely
give rise to constitutional claims.
On the other hand, the Court can contemplate conduct related to drinking water that might violate the
Constitution, but would not be proscribed by the Act.
For example, allegations related to the rates charged
for water, rather than the quality of water, could conceivably form the basis of constitutional claims that
the SDWA does not reach; such might be the case if
government officials charged differing rates for water
service based on race. These significant differences in
the contours of the statutory and constitutional rights
and protections suggest that Congress did not intend
to preempt constitutional claims under § 1983.
And the savings clause is explicit evidence that
Congress did not mean to preempt the constitutional
claims in this case. Defendants argue that the savings
clause is only meant to apply to “any remedy available under state law,” and a parallel savings clause in
Rancho Palos Verdes did not prevent the Supreme
Court from finding that the Telecommunications Act

App. 150
preempted the § 1983 claims in that case. (See, e.g.,
Dkt. 102 at 15 n.4 (emphasis in original).)
But that holding of Rancho Palos Verde does not
apply here. In that case, the Supreme Court held that
the savings clause did not “save” the § 1983 constitutional claim because any § 1983 claim that could have
been brought before the operation of the Telecommunications Act was preserved. See Rancho Palos Verdes,
544 U.S. at 126 (the savings clause “has no effect on
§ 1983 whatsoever. . . . [T]he claims available under
§ 1983 prior to the enactment of the TCA continue to
be available after its enactment”). In contrast, finding
preemption in this case would certainly affect, for example, plaintiffs’ § 1983 bodily integrity claim, which
would have been available before the SDWA but no
longer if preemption applies.
Allowing plaintiffs’ constitutional claims to proceed would not “circumvent” the SDWA’s “procedures
and give access to tangible benefits . . . that were unavailable under” the Act. Fitzgerald, 555 U.S. at 254. The
procedural requirements for seeking remedies available under the SDWA still apply to claims for violations of the SDWA, because, as Congress intended, the
SDWA preempts § 1983 claims for statutory violations
of the Act. The SDWA’s notice requirements must be
satisfied before bringing suit under the Act: before
bringing suit to enforce the provisions of the SDWA,
plaintiffs must give sixty days’ notice of SDWA violations to the Administrator, the alleged violators, and
to the state. 42 U.S.C. § 300j-8(b)(1)(A). If the Administrator, the Department of Justice, or the state “is

App. 151
diligently prosecuting a civil action in federal court,”
plaintiffs may not bring a suit to enforce the Act, but
may “intervene as a matter of right.” Id. at § 300j8(b)(1)(B).
But the procedural requirements and remedial restrictions under the Act are not intended to preempt
§ 1983 claims for violations of the Constitution. The
“protections guaranteed by the two sources of law” are
“narrower in some respects and broader in others,”
Fitzgerald, 555 U.S. at 256, and Congress explicitly included a robust savings clause that preserves the constitutional claims in this case. Because the SDWA does
not preempt plaintiffs’ constitutional claims, they
must be addressed on the merits. See, e.g., Rietcheck v.
City of Arlington, No. 04-CV-1239-BR, 2006 U.S. Dist.
LEXIS 1490, at *10 (D. Or. Jan. 4, 2006) (“Plaintiffs
here . . . bring their First Claim under § 1983 to enforce their constitutional rights to be free from statecreated danger, which is an entirely different kind of
claim and is only tangentially related to safe drinking
water. The Court, therefore, concludes Plaintiffs’ First
Claim brought under § 1983 is not preempted by the
SDWA because Plaintiffs do not seek to vindicate any
right addressed by the SDWA.”).4

4

On February 2, 2017, in Mays v. Snyder, now assigned to
this Court, Judge John Corbett O’Meara found the opposite. See
Mays v. Snyder, No. 15-14002, 2017 U.S. Dist. LEXIS 14274, at
*11 (E.D. Mich. Feb. 2, 2017). That case is now on appeal. This
Court declined to stay this case sua sponte until the Court of Appeals issues its opinion and order.

App. 152
iii. Eleventh Amendment Immunity
The governmental defendants, i.e., all defendants
except for Veolia and Lockwood, argue that the Eleventh Amendment bars plaintiffs’ claims against the
State of Michigan, state agencies, and state officials in
the official capacities, as well as the City of Flint and
city defendants in their official capacities, who would
not generally be protected by the Eleventh Amendment, because they were acting as an arm of the state.
(See Dkts. 52 at 21, 69 at 25, 70 at 24, 96 at 46, 102 at
31, 103 at 27, 105 at 14.) “Eleventh Amendment immunity constitutes a jurisdictional bar, and unless [it]
is expressly waived, a state and its agencies may not
be sued for damages and injunctive relief in federal
court.” Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 100-01 (1984).
Because the city defendants (City of Flint, the
emergency managers, and other municipal employees
of the city) were not acting as an arm of the state, they
are not entitled to Eleventh Amendment Immunity.
Mt. Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429
U.S. 274, 280 (1977) (“The bar of the Eleventh Amendment to suit in federal courts extends to States and
state officials in appropriate circumstances, . . . but
does not extend to counties and similar municipal
corporations. The issue here thus turns on whether the
[municipality] is to be treated as an arm of the State
partaking of the State’s Eleventh Amendment immunity, or is instead to be treated as a municipal
corporation or other political subdivision to which
the Eleventh Amendment does not extend.”) (internal

App. 153
citations omitted). To determine whether the city defendants are an arm of the state, the following factors
must be considered:
(1) the State’s potential liability for a judgment against the entity; (2) the language by
which state statutes and state courts refer to
the entity and the degree of state control and
veto power over the entity’s actions; (3) whether
state or local officials appoint the board members of the entity; and (4) whether the entity’s
functions fall within the traditional purview
of state or local government.
Kreipke v. Wayne State Univ., 807 F.3d 768, 775 (6th
Cir. 2015) (quoting Ernst v. Rising, 427 F.3d 351, 359
(6th Cir. 2005)). The first factor is “the foremost factor”
and given substantial weight. Id. at 776.
As to the first factor, the City of Flint, and not
Michigan, would be liable for any judgment entered
against it while under emergency management. MICH.
COMP. LAWS § 141.1560(5) (funds “shall be paid out of
the funds of the local government that is or was subject
to the receivership administered by that emergency
manager”). The city defendants argue that they are arms
of the state under MICH. COMP. LAWS § 600.6458(2), because that provision requires the state to pay the liabilities of an “arm of the state” if the arm is unable to
pay, but this assumes the conclusion. That the state
may be on the hook for judgments against arms of the
state does not make the City of Flint an arm of the
state. Because this first prong weighs heavily against
finding that the City of Flint is an arm of the state, the

App. 154
city defendants must make a showing that this “neardeterminative factor” is outweighed by the other three
factors. See Pucci v. Nineteenth Dist. Court, 628 F.3d
752, 761 (6th Cir. 2010).
But the second factor, regarding who between the
city and state has the most control over the provision
of water services, also weighs against finding that the
City of Flint was an arm of the state. The city defendants argue that the state stripped them of home rule
by appointing an emergency manager, but under state
law, an emergency manager is a municipal agent and
thus not subject to the protections of Eleventh Amendment Immunity. See Kincaid v. City of Flint, 311 Mich.
App. 76, 87-88 (2015). The city defendants cannot show
that they are an arm of the state, and thus are not protected by the Eleventh Amendment.
The state defendants (State of Michigan, state
agencies, and state officials in their official capacities)
argue that the allegedly injunctive relief plaintiffs
seek—repairs to property, a medical monitoring fund,
and a monitor to oversee the water operations of Flint
for a period of time deemed appropriate by the Court—
is in essence retroactive and thus barred by the Eleventh Amendment. (See, e.g., Dkt. 103 at 30-31.) The individual defendants acknowledge that suit is brought
against them in their official and unofficial capacities,
but insofar as they are sued in their official capacities,
they seek immunity under the Eleventh Amendment.
(See, e.g., Dkt. 104 at 14.)

App. 155
To obtain relief against the state, plaintiffs must
allege an “ongoing violation of federal law” and seek
“relief properly characterized as prospective,” because
the state has not waived sovereign immunity. Verizon
Md., Inc. v. Pub. Serv. Comm’n of Md., 535 U.S. 635, 645
(2002).
The closest plaintiffs come to pleading an ongoing
violation of federal law in the complaint is alleging
that “the damage had been done[,] lead has continued
to leach from pipes into the water,” and “the water [ ]
continues to poison them.” (See Dkt. 1 at 44, 58.) Even
accepting, as plaintiffs argued at the hearing, that defendants continue to violate the SDWA and the Lead
and Copper Rule (Dkt. 147 at 70), the only remedy
available to plaintiffs premised on a violation of the
SDWA and its regulations is the injunctive relief permitted under the SDWA’s citizen-suit provision. The
SDWA preempts actions under § 1983 for statutory violations of the Act. (See infra at a.ii.)
In Concerned Pastors for Social Action v. Khouri, a
case brought under the SDWA, the court held that injunctive relief similar to the relief plaintiffs seek here
was permissible. 194 F. Supp. 3d 589, 603 (E.D. Mich.
2016). There, the plaintiffs (Concerned Pastors for Social Action, Melissa Mays, the ACLU of Michigan, and
the Natural Resources Defense Council, Inc.) properly
pleaded ongoing violations of the SDWA and Lead and
Copper Rule due to irreversible damage to Flint’s lead
service lines, which thus continued to leach lead into
the drinking water. Id. at 602-03. The district court
held that it could order the replacement of lead service

App. 156
lines, health-risk mitigation, and monitoring, among
other relief, because such relief would be prospective injunctive relief to remedy the ongoing violations
of the Act and its regulations. Id. at 603. The parties
ultimately entered into a comprehensive settlement
agreement providing for most of the equitable relief
plaintiffs seek in this case and much more, and the
Court retains jurisdiction to enforce it. See Concerned
Pastors for Soc. Action v. Khouri, No. 16-cv-10277 (E.D.
Mich. terminated Mar. 28, 2017) (Dkts. 147, 152, 154).
Even assuming that plaintiffs have sufficiently
pleaded an ongoing violation of constitutional law, as
opposed to ongoing violations of the SDWA and Lead
and Copper Rule, they seek “equitable relief to remediate the harm caused” (id. at 88 (emphasis added)),
which is the very relief they are not permitted to seek
against the state under the Eleventh Amendment. See
Verizon Md., Inc., 535 U.S. at 645. Only when the fiscal
consequences to the state are ancillary to a prospective
injunction—for example, enjoining a state from terminating subsistence benefits to indigent individuals
without notice and a hearing in violation of the Due
Process Clause, which undoubtedly results in more
money being paid out of the state fisc, Goldberg v.
Kelly, 397 U.S. 254, 271 (1970)—would such fiscal consequences not violate the Eleventh Amendment. Edelman v. Jordan, 415 U.S. 651, 667-68 (1974). Here, the
fiscal consequences to the state for paying for property
damage or a medical monitoring fund are not ancillary
to enjoining an ongoing violation of federal law.

App. 157
Plaintiffs’ request for an injunction for a monitor
to oversee the water operations of Flint for a period of
time deemed appropriate by the Court is impermissible for a different reason. Plaintiffs do not request prospective injunctive relief for which such monitor could
be ordered to provide oversight. All that remains without the equitable relief of repairs to plaintiffs’ property
and a medical monitoring fund is declaratory relief,
damages, costs, and fees. The Court would be ordering
a monitor to oversee water operations in Flint without
any accompanying injunction against the municipality
that such monitor would be overseeing, which is not
relief that this Court can order.
Accordingly, plaintiffs’ claims as to defendants
State of Michigan, MDEQ, MDHHS, and the state,
MDEQ, and MDHHS employee defendants in their official capacities only, must be dismissed. The claims
may proceed against the city defendants in their official and individual capacities and the state official defendants in their individual capacities.
iv. Federal Absolute Immunity
The MDEQ employee defendants and defendant
Wurfel argue that they are absolutely immune because
federal law authorized and controlled their actions,
and the absolute immunity afforded federal officials
should be extended to the state officials here. (See, e.g.,
Dkt. 102 at 31-32 (citing Butz v. Economou, 438 U.S.
478, 490 (1978)); see Dkt. 70 at 27-29.)

App. 158
As the case cited by these defendants makes abundantly clear, federal officials are generally entitled only
to qualified immunity. Butz, 438 U.S. at 507. “[I]n a suit
for damages arising from unconstitutional action, federal executive officials exercising discretion are entitled only to [ ] qualified immunity . . . , subject to those
exceptional situations where it is demonstrated that
absolute immunity is essential for the conduct of the
public business.” Id. Only officials exercising judicial
or quasi-judicial functions, such as executive action
“analogous to those of a prosecutor” exercising prosecutorial discretion, “should be able to claim absolute
immunity.” See id. at 515; see also Harlow v. Fitzgerald,
457 U.S. 800, 807 (1982) (absolute immunity is limited
to judicial and quasi-judicial functions).
Nothing about the governmental defendants’ alleged actions in this case indicate they were performing judicial or quasi-judicial functions. Defendants
highlight the federal SDWA, which grants wide latitude to the states as the primary enforcement means
of the statute. (See, e.g., Dkt. 102 at 32-33.) The actions
that the state actors are alleged to have taken are the
very essence of “executive officials exercising discretion,” for which they are entitled only to qualified immunity. See Butz, 438 U.S. at 507. The motions to
dismiss based on absolute immunity are denied.

App. 159
v. Whether the Court of Appeals has exclusive jurisdiction over this case
Defendants City of Flint, Earley, Ambrose, Croft,
and Glasgow argue that this case is effectively an appeal of the Emergency Administrative Order that the
EPA issued on January 21, 2016, pursuant to its emergency powers under the SDWA, and such order is a final order that can only be appealed to the Court of
Appeals under the Act. (See Dkts. 52 at 20-21.) According to these defendants, plaintiffs’ relief requires finding numerous facts that might conflict with the
Administrative Order, and thus amounts to an appeal
of it. (Id. at 20-21.) Plaintiffs respond that this Court
should reject the argument as the court did in Concerned Pastors for Social Action v. Khouri. (See, e.g.,
Dkt. 122 at 25-26.)
In that case, defendants similarly argued that the
plaintiffs’ claims were “an implicit request for judicial
review of the [January 21] EPA order.” Concerned Pastors for Soc. Action v. Khouri, 194 F. Supp. 3d 589, 596
(E.D. Mich. 2016). The court rejected the argument because the relief plaintiffs sought, although parallel to
“the EPA’s directives to the Flint and Michigan respondents,” and which might “augment those orders,”
was “wholly collateral to the SDWA’s review provisions.” Id. at 599.
The SDWA’s exclusive review provision is even
less applicable to this case than Concerned Pastors.
The Concerned Pastors plaintiffs brought their case directly under the SDWA, seeking relief using its citizen

App. 160
suit provision, see id. at 596, whereas plaintiffs in this
case do not bring any claim under the SDWA. And like
the plaintiffs there, the plaintiffs in our case are “not a
party to the action between the EPA and the City of
Flint,” nor are they “identified as ‘Respondents’ in the
EPA’s emergency order.” Id. at 598. They are “not seeking to enjoin the EPA Order either explicitly or implicitly.” Id. Federal statutory provisions providing for
exclusive jurisdiction in the Courts of Appeals are
meant to “bar litigants from ‘requesting the District
Court to enjoin action that is the outcome of the
agency’s order.’ ” Id. at 598-99 (quoting F.C.C. v. ITT
World Commc’ns, Inc., 466 U.S. 463, 468 (1984)). Because the relief plaintiffs seek would not do so, defendants’ motion to dismiss on this basis is denied.
b. Whether plaintiffs engage in improper
group pleading under Rule 8 of the Federal Rules of Civil Procedure
Some defendants argue that plaintiffs engaged in
improper group pleading and thus failed to give defendants “fair notice of what the . . . claim[s are] and
the grounds upon which [they] rest.” (See, e.g., Dkt. 52
at 25-26 (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007); see Dkts. 102 at 29-31, 105 at 18.) The
complaint clearly describes the specific conduct plaintiffs allege as to each individual defendant. Defendants
have more than fair notice of the claims against them,
so the motions to dismiss on this basis are denied.

App. 161
c. Federal claims
As set forth above, plaintiffs’ claims cannot proceed against the State of Michigan, MDEQ, MDHHS,
or individual state officials in their official capacities
because they have immunity under the Eleventh
Amendment. The remaining governmental defendants
and individual state officials in their individual capacities argue they are entitled to qualified immunity and
also that plaintiffs fail to plead any constitutional
claim. The Court undertakes a two-step analysis to
determine whether a defendant is entitled to qualified
immunity. First, “viewing the facts in the light most
favorable to plaintiff[s], [the Court] determine[s]
whether the allegations give rise to a constitutional violation.” See Shreve v. Franklin Cty., 743 F.3d 126, 134
(6th Cir. 2014). Second, the Court “assess[es] whether
the right was clearly established at the time of the
incident.” See id. The Court may undertake either
step first, with certain limitations not applicable here,
Camreta v. Greene, 563 U.S. 692, 694 (2011); Pearson v.
Callahan, 555 U.S. 223, 236 (2009), and addresses each
federal claim in that order.
i. Count 1
In Count 1, plaintiffs bring a § 1983 claim against
defendants City of Flint, Croft, Glasgow, Snyder, Earley, Ambrose, Shekter Smith, Wyant, Busch, Cook,
Prysby, and Wurfel, alleging that these defendants
deprived plaintiffs of a property right to which they
are entitled pursuant to a state-created contract, in

App. 162
violation of substantive due process.5 According to
plaintiffs, these defendants violated their property right
to clean water “when, ceasing to provide [p]laintiffs
with safe, potable water, they provided [p]laintiffs with
poisonous, contaminated water.” (Dkt. 1 at 64-65.) Although this is a tremendously serious allegation, plaintiffs fail to plead the existence of a constitutionally
protected fundamental interest, and a substantive due
process claim cannot be based on a state-created contract right alone. The motions to dismiss this claim are
granted.
“[A]n entitlement under state law to water and
sewer service d[oes] not constitute a protectable property interest for purposes of substantive due process.”
Mansfield Apartment Owners Ass’n v. City of Mansfield, 988 F.2d 1469, 1476 (6th Cir. 1993) (quoting
Ransom v. Marrazzo, 848 F.2d 398 (3d Cir. 1988)); see
Bowers v. City of Flint, 325 F.3d 758, 763 (6th Cir. 2003)
(“[M]ost, if not all, state-created contract rights, while
assuredly protected by procedural due process, are
not protected by substantive due process.”) (quotations
omitted). Rather, “[s]ubstantive due process protects
fundamental interests, not state-created contract
rights.” Thomson v. Scheid, 977 F.2d 1017, 1020

5

Plaintiffs also bring this claim against the State of Michigan, MDEQ, and the individual state defendants in their official
capacities. As set forth above, plaintiffs’ claims against these
defendants are barred by Sovereign Immunity. Hereinafter, defendants entitled to Sovereign Immunity are excluded from any
analysis of the merits of a claim in which they are included by
plaintiffs.

App. 163
(6th Cir. 1992) (citing Charles v. Baesler, 910 F.2d 1349
(6th Cir.1990)).
Plaintiffs fail to identify any authority to show
they have a constitutionally protected fundamental interest in clean water. And the Sixth Circuit has explicitly said that they do not. Because plaintiffs base this
substantive due process claim solely on an alleged
property right to clean water created by a contract
with the state, this claim is dismissed.
ii. Count 2
In Count 2, plaintiffs bring a § 1983 claim against
defendants City of Flint, Croft, Glasgow, Snyder, Earley, Ambrose, Shekter Smith, Wyant, Busch, Cook,
Prysby, and Wurfel, alleging that these defendants deprived plaintiffs of a property right to which they are
entitled pursuant to a state-created contract, in violation of procedural due process. According to plaintiffs,
defendants deprived them of their contractually based
property right to purchase and receive safe, potable
drinking water without notice or a hearing. (Dkt. 1 at
65-66.) Defendants argue that plaintiffs fail to plead
the existence of a state-created property interest or
that the procedural protections afforded by the state
are constitutionally infirm. (See, e.g., Dkt. 52 at 29.) Because plaintiffs fail to plead both, the motions to dismiss this claim are granted.
To establish a procedural due process violation under § 1983, plaintiffs must show: (1) that they had a
protected life, liberty, or property interest; (2) that they

App. 164
were deprived of that protected interest; and (3) that
the state did not afford them adequate procedural
rights before depriving them of their protected interest. Wedgewood Ltd. P’ship I v. Twp. of Liberty, Ohio,
610 F.3d 340, 349 (6th Cir. 2010).
As noted above, “state-created contract rights” are
“assuredly protected by procedural due process.” Bowers, 325 F.3d at 763. And other courts have found that
“continued utility service is a property right within
the meaning of the due process clause” requiring predeprivation notice and a hearing. Bradford v. Edelstein, 467 F. Supp. 1361, 1369 (S.D. Tex. 1979); see, e.g.,
Keating v. Neb. Pub. Power Dist., 562 F.3d 923, 925 (8th
Cir. 2009) (reversing district court dismissal of § 1983
claim when plaintiffs alleged that “state officials deprived them of their procedural due process rights
when those officials ordered them to cease drawing
water from the Niobrara Watershed without providing prior notice or a hearing”); see generally Memphis
Light, Gas & Water Div. v. Craft, 436 U.S. 1, 19 (1978)
(“Ordinarily, due process of law requires an opportunity for ‘some kind of hearing’ prior to the deprivation of a significant property interest.”).
But property interests “are created and their dimensions are defined by existing rules or understandings that stem from . . . state law.” See Bd. of Regents v.
Roth, 408 U.S. 564, 577 (1972). So, “property interests
are created by state law”; “whether a substantive interest created by the state rises to the level of a constitutionally protected property interest is a question of
federal constitutional law.” Bowers, 325 F.3d at 765

App. 165
(quotations omitted). “[O]nly those interests to which
one has a legitimate claim of entitlement, including
but not limited to statutory entitlements, are protected
by the due process clause.” Id.
Plaintiffs fail to plead that they have a contract
with the state or City of Flint under Michigan law, and
thus fail to establish the first element required to
make out their procedural due process claim. See
Wedgewood Ltd. P’ship I, 610 F.3d at 349. Under Michigan law, “a contract requires mutual assent.” Kloian v.
Domino’s Pizza, L.L.C., 273 Mich. App. 449, 453 (2006).
But there is no mutual assent when a “transaction between the parties with respect to the ‘exchange’ of
money for services was wholly devoid of free and open
bargaining, the hallmark of contractual relationships.”
Borg-Warner Acceptance Corp. v. Dep’t of State, 433
Mich. 16, 22 (1989). Specifically, if defendant City of
Flint is “not legally capable of declining to” provide water services or “otherwise altering the basic nature of
its duty,” and plaintiffs cannot choose “not to pay the
required fee,” there is no mutual assent to form a contract. See id.; see, e.g., Lufthansa Cargo A.G. v. Cty. of
Wayne, 142 F. App’x 265, 266 (6th Cir. 2005) (defendant
legally required to provide service, and charge of fee for
service “does not create an implied contract under
Michigan law absent consideration in return”).
Plaintiffs claim that they “entered into a contract
for the purchase and sale of potable, safe drinking water” with the “City of Flint.” (Dkt. 1 at 70.) But the City
of Flint, through its City Counsel (and possibly the
emergency managers in this case), sets the rate for

App. 166
water, see Flint Code of Ord. § 46-52(b)(1), (c)(1), which
residents must pay to receive water service. See Flint
Code of Ord. §§ 46-50, 46-51. And water service “may
be denied to any consumer who is in default to the
Division of Water Supply,” a division of the Department
of Public Works, which suggests that such service may
not be denied if a consumer is not in default. Id. at
§§ 46-16 (emphasis added). Although Flint Code of
Ord. § 46-16 defines plaintiffs as consumers, water as
a commodity, and the relationship between plaintiffs
and Flint as “that of vendor and purchaser,” there is no
“mutuality” as required by Michigan contract law. See
Borg-Warner Acceptance Corp., 433 Mich. at 22.
And even if plaintiffs had adequately pleaded the
existence of a state-created contract right, they fail to
plead that the procedures afforded them by the state
are constitutionally inadequate. To overcome defendants’ motions to dismiss, plaintiffs must plead with
particularity that the process afforded them under
state law was inadequate, including post-deprivation
damages remedies to redress the alleged breach of contract. See Vicory v. Walton, 721 F.2d 1062, 1063 (6th Cir.
1983) (“[I]n section 1983 damage suits for deprivation
of property without procedural due process the plaintiff has the burden of pleading and proving the inadequacy of state processes, including state damage
remedies to redress the claimed wrong.”). Plaintiffs do
not sufficiently plead that state procedures were inadequate, so their procedural due process claim is dismissed.

App. 167
iii. Count 3
In Count 3, plaintiffs bring a § 1983 state-created
danger claim, alleging that all defendants except Veolia and Lockwood violated their substantive due process rights. According to plaintiffs, defendants each
acted to expose them to toxic, lead-contaminated water
by making, causing to be made, and causing or making
representations that the water was safe to drink, and
these actions and omissions were objectively unreasonable in light of the facts and circumstances confronting
them. (Dkt. 1 at 66-68.)
Defendants argue that plaintiffs fail to plead this
claim because they do not allege an act of violence inflicted by a third party or danger specific to plaintiffs
as opposed to the public at large. (See, e.g., Dkt. 52 at
31.) Plaintiffs respond that it “is illogical to claim that
public officials cannot be held liable for creating a danger and injuring a plaintiff, whereas they may be held
liable if they created or increased a risk of harm that
was carried out by a private third party.” (See Dkt. 122
at 37.) Because plaintiffs fail to plead that defendants
subjected them to a special danger as distinguished
from the public at large, the motions to dismiss this
claim are granted.
To prevail on a state-created danger claim, plaintiffs must establish three elements: (1) an affirmative
act on the part of the government that creates or increases the risk to plaintiffs, (2) a special danger to
plaintiffs as distinguished from the public at large, and
(3) the requisite degree of state culpability. Stiles v.

App. 168
Grainger Cty., 819 F.3d 834, 854 (6th Cir. 2016). Even
assuming plaintiffs can establish a state-created danger claim for harm directly caused by state actors, as
opposed to private third-parties, plaintiffs fail to show
that defendants in this case created a special danger
to plaintiffs as distinguished from the public at large.
In the Sixth Circuit, the second prong of a statecreated danger claim is satisfied when “the government could have specified whom it was putting at risk,
nearly to the point of naming the possible victim or victims.” Jones v. Reynolds, 438 F.3d 685, 696 (6th Cir.
2006). But when “the victim was not identifiable at the
time of the alleged state action/inaction,” the Sixth Circuit holds “that a § 1983 suit may not be brought under
the ‘state created danger’ theory.” Id. at 697.
For example, a plaintiff cannot satisfy this standard when “officers never interacted with [decedent],”
no “evidence ha[d] been put forward suggesting that
the officers had any reason to know that they were putting [the plaintiff ] at risk by their action/inaction,” and
the crowd plaintiff was among when she was injured
“contained at least 150 people.” Id.; see also Schroder v.
City of Fort Thomas, 412 F.3d 724, 729 (6th Cir. 2005)
(failing to enforce or lower the speed limit on a residential street “did not create a ‘special danger’ to a discrete
class of individuals (of which the [plaintiffs’] son was a
member), as opposed to a general traffic risk to pedestrians and other automobiles”); Jones v. City of Carlisle, 3 F.3d 945, 949-50 (6th Cir. 1993) (holding that an
epileptic driver was “no more a danger to [the plaintiff ]
than to any other citizen on the City streets”); Janan

App. 169
v. Trammell, 785 F.2d 557, 560 (6th Cir. 1986) (holding
that the release of an inmate on parole, who eventually
murdered a citizen, did not violate the Due Process
Clause because “there is [no] showing that the victim, as distinguished from the public at large, faces a
special danger”). Plaintiffs fail to plead the second element of their state-created danger claim, so it is dismissed.6
6

It seems there is little difference between the state-created
danger standard of constitutional liability and the shocks-theconscience standard of constitutional liability. See, e.g., Henry v.
City of Erie, 728 F.3d 275, 282 (3d Cir. 2013) (to establish claim
under state-created danger theory, plaintiff must show that “a
state actor acted with a degree of culpability that shocks the conscience,” among other elements similar to those in the Sixth Circuit); Jones v. Reynolds, 438 F.3d 685, 695 (6th Cir. 2006) (statecreated danger case citing Cty. of Sacramento v. Lewis, 523 U.S.
833, 849 (1998), which address shocks-the-conscience standard).
Here, plaintiffs could not identify, and the Court could not independently find, any case law in the Sixth Circuit in which a statecreated danger claim was permitted to proceed against the government for harm that was caused directly, as opposed to harm
that was caused by a third party. But see Jones, 438 F.3d at 695
(noting in dicta that “[h]ad the officers organized or participated
in this race, the issue would cease to turn on whether they were
responsible for harm caused by a private actor and would turn
instead on whether they had caused the harm themselves”).
Given that the state-created danger theory arises from the Supreme Court’s decision in DeShaney v. Winnebago County Department of Social Services, 489 U.S. 189 (1989), one way courts of
appeals interpret the doctrine is that liability attaches to the state
only “when it fails to protect [a plaintiff ] from third-party harms
that it helped create.” See Barber v. Overton, 496 F.3d 449, 458
n.1 (6th Cir. 2007) (Cook, J., concurring) (quoting Butera v. District of Columbia, 235 F.3d 637, 651 (D.C. Cir. 2001) (“We join the
other circuits in holding that, under the State endangerment concept, an individual can assert a substantive due process right to

App. 170
iv. Count 4
In Count 4, plaintiffs bring a § 1983 substantive
due process claim, alleging that all defendants except
Veolia and Lockwood unlawfully violated their fundamental interest in bodily integrity. Defendants argue
that only a forcible physical intrusion into a person’s
body against the person’s will without a compelling
state interest will suffice, and also that plaintiffs fail
to plead that defendants were motivated by malice
or sadism. (See, e.g., Dkt. 52 at 32-33; see Dkts. 69 at
30-33 and 39-41, 70 at 27-32 and 38-39, 96 at 32-35,
102 at 39-44 and 57-62, 103 at 33-36 and 47-52, 105 at
15-16.) Because plaintiffs sufficiently plead that the
conduct of many of the individual governmental defendants was so egregious as to shock the conscience
and violate plaintiffs’ clearly established fundamental
right to bodily integrity, the claim is only dismissed as
to defendants Snyder, Glasgow, and Cook.

protection by the District of Columbia from third-party violence
when District of Columbia officials affirmatively act to increase or
create the danger that ultimately results in the individual’s
harm.”)). Because plaintiffs otherwise fail to plead the elements
of a state-created danger claim under the Sixth Circuit’s formulation, the Court need not decide whether plaintiffs can maintain a
state-created danger action against government actors for harm
they caused directly; the Court merely highlights that statecreated-danger claims likely collapse into shocks-the-conscience
claims, like that which plaintiffs pursue in Count 4 of their complaint. See Martinez v. Cui, 608 F.3d 54, 64 (1st Cir. 2010) (“Lewis
clarified that the shocks-the-conscience test, first articulated in
Rochin v. California [ ], governs all substantive due process
claims based on executive, as opposed to legislative, action.”) (emphasis in original).

App. 171
“The touchstone of due process is protection of the
individual against arbitrary action of the government,”
and the Supreme Court has defined such a violation as
“executive abuse of power as that which shocks the
conscience” in the “constitutional sense.” Cty. of Sacramento v. Lewis, 523 U.S. 833, 845-46 (1998). To plead
this claim against each executive official in this case,
“plaintiffs must show[ ] not only that the official’s actions shock the conscience, but also that the official violated a right otherwise protected by the substantive
Due Process Clause.” See Martinez v. Cui, 608 F.3d 54,
64 (1st Cir. 2010) (citing cases).
It has long been held that one’s right to bodily integrity is a fundamental interest under the Constitution. Union Pac. Ry. Co. v. Botsford, 141 U.S. 250, 251
(1891) (“No right is held more sacred, or is more carefully guarded by the common law, than the right of
every individual to the possession and control of his
own person, free from all restraint or interference of
others, unless by clear and unquestionable authority of
law.”); see Albright v. Oliver, 510 U.S. 266, 272 (1994)
(“The protections of substantive due process have for
the most part been accorded to matters relating to
marriage, family, procreation, and the right to bodily
integrity.”). As to the first prong of the qualified immunity analysis, plaintiffs’ “allegations give rise to a
constitutional violation.” Shreve, 743 F.3d at 134. They
have a fundamental interest in bodily integrity under
the Constitution, and, as set forth below, defendants
violated plaintiffs’ fundamental interest by taking conscience-shocking, arbitrary executive action, without

App. 172
plaintiffs’ consent, that directly interfered with their
fundamental right to bodily integrity. Lewis, 523 U.S.
at 845-46; Cui, 608 F.3d at 64; see generally Siegert
v. Gilley, 500 U.S. 226, 232 (1991) (“A necessary concomitant to the determination of whether the constitutional
right asserted by a plaintiff is ‘clearly established’ at
the time the defendant acted is the determination of
whether the plaintiff has asserted a violation of a constitutional right at all.”). As to the second prong of the
qualified immunity analysis, a series of Supreme Court
cases over the last seventy-five years makes clear
that defendants violated plaintiffs’ clearly established
rights.
The Court may consider decisions by the United
States Supreme Court, the Sixth Circuit, and district
courts within the Sixth Circuit to determine whether
the law has been clearly established. Higgason v. Stephens, 288 F.3d 868, 876 (6th Cir. 2002). Decisions
from other circuits may be considered “if they ‘point
unmistakably to the unconstitutionality of the conduct
complained of and [are] so clearly foreshadowed by
applicable direct authority as to leave no doubt in
the mind of a reasonable officer that his conduct, if
challenged on constitutional grounds, would be found
wanting.’ ” Barrett v. Stubenville City Sch., 388 F.3d
967, 972 (6th Cir. 2004) (quoting Ohio Civil Serv. Emps.
Ass’n v. Seiter, 858 F.2d 1171, 1177 (6th Cir. 1988)) (alterations in original).
In 1990, the Court held that the “forcible injection
of medication into a nonconsenting person’s body represents a substantial interference with that person’s

App. 173
liberty.” Washington v. Harper, 494 U.S. 210, 229
(1990); see also Cruzan v. Dir. Mo. Dep’t of Health,
497 U.S. 261, 278 (1990) (“[A] competent person has a
constitutionally protected liberty interest in refusing
unwanted medical treatment.”). Whether such intrusion is consensual has been a key consideration in determining the constitutionality of such invasion of an
individual’s person since at least 1942, when the Supreme Court held that the forced sterilization of adults
is unconstitutional. Skinner v. Oklahoma, 316 U.S. 535,
541 (1942); see also Winston v. Lee, 470 U.S. 753, 76667 (1985) (the potentially harmful, nonconsensual surgical intrusion into a suspect’s chest to recover a bullet
without a compelling need is unconstitutional).
That defendants here violated plaintiffs’ clearly
established right to be free from conscience-shocking,
arbitrary executive action that invades their bodily
integrity without their consent is further exemplified
by courts of appeals’ decisions interpreting these Supreme Court cases. See, e.g., Barrett v. United States,
798 F.2d 565, 575 (2d Cir. 1986) (no qualified immunity,
because actions of defendants violated New York law
by administering a “dangerous drug to human subjects
without adequate warning or notice of the risk involved,” and thus defendants “could be held responsible in damages for the consequences”); Lojuk v.
Quandt, 706 F.2d 1456, 1465-66 (7th Cir. 1983) (noting
that “compulsory treatment with anti-psychotic drugs
may invade a patient’s interest in bodily integrity, personal security and personal dignity. . . . , [and] compulsory treatment may invade a patient’s interest in

App. 174
making certain kinds of personal decisions with potentially significant consequences,” in holding that these
fundamental interests are implicated by compulsory
electro shock therapy—“It should be obvious in light of
this liberty interest that the state cannot simply seize
a person and administer [electro shock therapy] to him
without his consent”); Rogers v. Okin, 634 F.2d 650, 653
(1st Cir. 1980) (“[A] person has a constitutionally protected interest in being left free by the state to decide
for himself whether to submit to the serious and potentially harmful medical treatment that is represented
by the administration of antipsychotic drugs.”), vacated and remanded Mills v. Rogers, 457 U.S. 291, 303
(1982) (only applies to involuntarily admitted patients).7
7

See also Wright v. City of Phila., No. 10-1102, 2015 U.S.
Dist. LEXIS 25278, at *37-38 (E.D. Pa. Mar. 2, 2015) (it is clearly
established that the substantive due process right to bodily integrity is violated when the state allows individuals to suffer from
prolonged asbestos exposure in part because “[t]he health effects
associated with asbestos exposure have been within the public’s
knowledge for years”); Athans v. Starbucks Coffee Co., No. CV-061841-PHX-DGC, 2007 U.S. Dist. LEXIS 21412, at *9 (D. Ariz.
Mar. 23, 2007) (citing Supreme Court, Ninth Circuit, and Fourth
Circuit cases to find that a pro se plaintiff states a claim by alleging “intentional poisoning” by a government official); Bounds v.
Hanneman, No. 13-266 (JRT/FLN), 2014 U.S. Dist. LEXIS 43947,
at *27-29 (D. Minn. Mar. 31, 2014) (denying qualified immunity
because “a reasonable officer should have known that providing
an illicit drug to a citizen, where such provision was not required
by the officer’s legitimate duties, violates clearly established
law”); In re Cincinnati Radiation Litig., 874 F. Supp. 796, 818
(S.D. Ohio 1995) (“[B]etween 1960 and 1972 the right to due process as enunciated in Rochin [v. California, 342 U.S. 165 (1952)]
was sufficiently clear to lead a reasonable government official to

App. 175
It would be readily apparent to any reasonable
executive official, given this landscape, that a government actor violates individuals’ right to bodily integrity by knowingly and intentionally introducing
life-threatening substances into such individuals without their consent, especially when such substances
have zero therapeutic benefit. Cf. Harper, 494 U.S. at
229 (noting that although “therapeutic benefits of antipsychotic drugs are well documented, it is also true
that the drugs can have serious, even fatal, side effects”). This is not a case in which there are only a “few
admittedly novel opinions from other circuit or district
courts,” which would be insufficient “to form the basis
for a clearly established constitutional right.” Barrett,
388 F.3d at 972. The breadth and depth of the case law
“point[s] unmistakably to the unconstitutionality of
the conduct complained of ” here, which was “so clearly
foreshadowed by applicable direct authority as to leave
no doubt in the mind of a reasonable officer that his
conduct, if challenged on constitutional grounds, would
be found wanting.” Id. (quoting Seiter, 858 F.2d at
1177).

the conclusion that forcing unwitting subjects to receive massive
doses of radiation was a violation of due process.”); Thegpen v.
Dillon, No. 88 C 20187, 1990 U.S. Dist. LEXIS 3132, at *9-11
(N.D. Ill. Feb. 1, 1990) (clearly established that “compulsory treatment with anti-psychotic drugs may invade a patient’s interest in
bodily integrity”); Osgood v. District of Columbia, 567 F. Supp.
1026, 1033 (D.D.C. 1983) (“[t]here is no serious dispute” that administering psychotropic drugs against an inmate’s will violated
the Due Process Clause of the Fifth Amendment).

App. 176
Taking plaintiffs’ allegations as true and in the
light most favorable to them, as the Court must, the
violation of plaintiffs’ clearly established rights is adequately pleaded against defendants City of Flint, Earley, Ambrose, Wyant, Shekter Smith, Busch, Prysby,
Wurfel, Wells, Lyon, Peeler, Scott, and Croft.
Plaintiffs plead (with particularity as to which
defendant did what) that these defendants were the
decision makers responsible for knowingly causing
plaintiffs to ingest water tainted with dangerous levels
of lead, which has no therapeutic benefits, and hiding
the danger from them. The emergency managers and
individual state employees switched the source of
Flint’s water from the Detroit River to the Flint River,
then knowingly took deliberate action that violated
federal and state, civil and possibly even criminal law,
which caused the lead levels in Flint’s water to rise to
dangerous levels.8 They knew that their actions were
exposing the residents of Flint, including plaintiffs, to
dangerous levels of lead. Lead poisoning caused plaintiffs to suffer from severe medical problems with their
hair, skin, digestive system, and organs, as well as
8

Defendants Earley, Ambrose, Shekter Smith, Busch, Prysby,
Peeler, Scott, and Croft, among others, all face felony and misdemeanor criminal charges stemming from the Michigan Attorney
General’s Flint Water Investigation. See generally Flint Water Investigation, STATE OF MICHIGAN ATTORNEY GENERAL BILL SCHUETTE,
http://www.michigan.gov/ag/0,4534,7-164-78314---,00.html (last
visited May 31, 2017). Cf. Lyons v. Stovall, 188 F.3d 327, 332 n.3
(6th Cir. 1999) (“[I]t is well-settled that ‘federal courts may take
judicial notice of proceedings in other courts of record’. . . .”) (quoting Granader v. Public Bank, 417 F.2d 75, 82-83 (6th Cir. 1969)).

App. 177
brain and other developmental injuries including cognitive deficits, among other issues. (Dkt. 1 at 65.)
And when the evidence confirmed that, in fact, the
lead levels in the water and in residents’ blood were
rising, these defendants worked to discredit the evidence and knowingly and proactively made false statements to the public to persuade residents that the
water was safe to consume. They did so, even though
their own testing revealed the opposite. Many residents, plaintiffs included, continued to consume the
water in reliance on defendants’ false assurances.
It cannot be that such actions are not “so egregious, so outrageous, that [they] may fairly be said to
shock the contemporary conscience.” See Lewis, 523
U.S. at 847 n.8. Nor can it be said that reasonable officials would not have had fair notice that such actions
would violate the Constitution, i.e., that defendants
were violating plaintiffs’ clearly established right to
bodily integrity and to be free from arbitrary, conscience shocking executive action. As recently reiterated by the Sixth Circuit, immunity does not extend to
“the plainly incompetent or those who knowingly violate the law.” Arrington-Bey v. City of Bedford Heights,
No. 16-3317, 2017 U.S. App. LEXIS 3429, at *8 (6th Cir.
Feb. 24, 2017) (quoting White v. Pauly, ___ U.S. ___, 137
S. Ct. 548, 551 (2017)). And particularly with respect
to the individual governmental defendants who are
facing felony and misdemeanor criminal charges pursuant to the Michigan Attorney General’s Flint Water
Investigation, qualified immunity cannot and should not
protect them from civil liability for the constitutional

App. 178
violations that are pleaded against them. Id.; see Barrett, 798 F.2d at 575 (no qualified immunity for defendants who knowingly violated state criminal law).
Again, plaintiffs’ involuntariness here is key. See
Riggins v. Nevada, 504 U.S. 127, 137-38 (1992) (forced
administration of antipsychotic medication during trial
violated Fourteenth Amendment); Harper, 494 U.S. at
229 (“The forcible injection of medication into a nonconsenting person’s body represents a substantial interference with that person’s liberty.”); Cruzan, 497
U.S. at 278 (“[A] competent person has a constitutionally protected liberty interest in refusing unwanted
medical treatment.”); Rochin v. California, 342 U.S.
165, 172 (1952) (“Illegally breaking into the privacy of
the petitioner, the struggle to open his mouth and remove what was there, the forcible extraction of his
stomach’s contents. . . . This is conduct that shocks the
conscience.”). Plaintiffs’ exposure to dangerous levels
of lead was involuntary on two levels.
First, it was involuntary because these defendants
hid from plaintiffs that Flint’s water contained dangerous levels of lead. Misleading Flint’s residents as to the
water’s safety—so that they would continue to drink
the water and Flint could continue to draw water from
the Flint River—is no different than the “forced, involuntary invasions of bodily integrity that the Supreme
Court has deemed unconstitutional.” See Heinrich ex
rel. Heinrich v. Sweet, 62 F. Supp. 2d 282, 313-14 (D.
Mass. 1999) (utilizing false pretenses to engage patients
in participating in radiation treatments with no therapeutic value no different than “forced, involuntary

App. 179
invasions of bodily integrity that the Supreme Court
has deemed unconstitutional”). Second, it was involuntary because under state and municipal law, plaintiffs
were not permitted to receive water in any other way.
See Flint Code of Ord. §§ 46-25, 46-26, 46-50(b). The
city defendants themselves make this argument. (See
Dkt. 52 at 37.) Even had plaintiffs wanted to receive
water from a different source, they would not have
been permitted to.
Defendants claim they had a legitimate state interest in lowering the cost of Flint’s water services. Accepting that as true, any such cost-cutting measure
cannot justify the harm that was knowingly inflicted
on plaintiffs without their consent. This is especially so
given that Michigan law “forbids the price [of any water sold] to exceed[ ] ‘the actual cost of service as determined under the utility basis of rate-making.’ ” Davis
v. City of Detroit, 269 Mich. App. 376, 379 (2006) (quoting MICH. COMP. LAWS § 123.141).
The alleged actions of defendants City of Flint,
Earley, Ambrose, Wyant, Shekter Smith, Busch, Cook,
Prysby, Wurfel, Wells, Lyon, Peeler, Scott, and Croft are
so egregious that “[e]ven absent the abundant case law
that has developed on this point since the passage of
the Bill of Rights, the Court would not hesitate to declare that a reasonable government official must have
known that by instigating and participating in” the
knowing provision of lead-laden water and then intentional and active concealment of this truth to the residents of Flint, who were not legally permitted to obtain
alternative water service, “he would have been acting

App. 180
in violation of those rights.” See In re Cincinnati Radiation Litig., 874 F. Supp. at 815. For these reasons, the
motions to dismiss are denied as to these defendants.
Plaintiffs fail to plead with particularity that defendant Snyder was directly responsible for being
involved in the decision making himself—rather, according to plaintiffs, he should be responsible because he
appointed the emergency managers who are also defendants in this case. And they plead that defendant
Glasgow argued that if “water is distributed from this
plant in the next couple of weeks, it w[ould] be against
[his] direction,” but that “management above” overrode
him. Finally, plaintiffs plead that defendant Cook was
involved in the decision to switch to Flint River water
without proper study or corrosion control, but fail to
plead that he was involved in misleading the public after it became apparent that lead was rising to dangerous levels in the drinking water. Plaintiffs fail to allege
that these three defendants violated clearly established law, so Count 4 must be dismissed as to them.
d. State claims
The governmental defendants argue that they
have state statutory immunity for violations of state
tort law and that plaintiffs otherwise fail to plead the
state-law claims. Defendants Veolia and Lockwood argue that plaintiffs fail to plead their claims and that
certain relief plaintiffs seek is unavailable in Michigan. The arguments are addressed in that order.

App. 181
i. Whether the governmental defendants have state statutory immunity
for violations of state tort law
Under MICH. COMP. LAWS § 691.1407, “a governmental agency is immune from tort liability if
the governmental agency is engaged in the exercise or discharge of a governmental function,” id. at
§ 691.1407(1), and “the elective or highest appointive
executive official of all levels of government are immune from tort liability for injuries to persons or
damages to property if he or she is acting within the
scope of his or her . . . executive authority.” Id. at
§ 691.1407(5).
As to lower level government employees, “each officer and employee of a governmental agency . . . is immune from tort liability for an injury to a person or
damage to property caused by the officer[ or] employee
. . . while in the course of employment or service . . .
while acting on behalf of a governmental agency if all
of the following are met: (a) [the officer or employee] is
acting or reasonably believes he or she is acting within
the scope of his or her authority”; “(b) [t]he governmental agency is engaged in the exercise or discharge of
a governmental function”; and (c) the officer’s or employee’s “conduct does not amount to gross negligence
that is the proximate cause of the injury or damage.”
Id. at § 691.1407(2).
For such lower level employees, Michigan case law
requires not only that the employee be grossly negligent, but also that the employee’s actions were the

App. 182
proximate cause of the injury for a tort claim to proceed. An employee’s action is the proximate cause of
the injury if it is “the one most immediate, efficient,
and direct cause, of the [plaintiffs]’ injuries.” Robinson
v. City of Detroit, 462 Mich. 439, 446 (2000). “There cannot be other more direct causes of plaintiff ’s injuries.”
White v. Roseville Pub. Schs., No. 307719, 2013 Mich.
App. LEXIS 342, at *10 (Mich. Ct. App. Feb. 21, 2013).
If no reasonable juror could find that a lower level official was “the one most immediate” cause of plaintiffs’
injuries, the claims as to those officials must be dismissed. Robinson, 462 Mich. at 463.
The exception to the immunity statute is when
plaintiffs seek “to recover for bodily injury or property
damage arising out of the performance of a proprietary
function.” MICH. COMP. LAWS § 691.1413. A proprietary
function is “any activity which is conducted primarily
for the purpose of producing a pecuniary profit for the
governmental agency, excluding, however, any activity
normally supported by taxes or fees.” Id.
Plaintiffs argue that the governmental defendants
are not entitled to governmental immunity because
their primary purpose in selling water to plaintiffs was
to produce a pecuniary profit for the state and its agencies, and the municipalities’ and state’s sale of water is
not normally supported by taxes and fees. (Dkt. 1 at
85.)
Michigan courts have held that the “operation of
the water department is not a proprietary activity,” i.e.,
is not excepted from governmental immunity, in part

App. 183
because Michigan law “requires the price of any water
sold to be based on, and forbids the price to exceed, ‘the
actual cost of service as determined under the utility
basis of rate-making.’ ” Davis v. City of Detroit, 269
Mich. App. 376, 379 (2006) (quoting MICH. COMP. LAWS
§ 123.141). Thus, the proprietary function exception to
state governmental immunity does not apply.
Aside from making the proprietary function/nongovernmental function argument, plaintiffs seem to
concede that the emergency managers are the highest
appointed executive officials of the city. The tort claims
against the emergency managers are thus dismissed.
So too for defendant Croft, Flint’s Director of the Department of Public Works.
Similarly, the MDEQ employee defendants argue
that defendant Shekter Smith is entitled to absolute
immunity as the highest appointed executive official of
her agency—she is the Chief of the Office of Drinking
Water and Municipal Assistance for MDEQ. MICH.
COMP. LAWS § 691.1407(5). Defendant Wyant, as the
former Director of MDEQ, also claims absolute immunity from the tort claims (Dkt. 69 at 22), as does defendant Wurfel, as the Director of Communications of
MDEQ. (Dkt. 70 at 40.) Plaintiffs do not argue that any
of these defendants are not the highest appointed or
elected officials of their levels of government. Rather,
plaintiffs argue that none of the MDEQ employee
defendants are absolutely immune because they “knowingly l[ied] to EPA and the public as ‘performing oversight,’ and the lies alleged [ ] did not serve the ends of
regulatory oversight”; because they used their office for

App. 184
an illegitimate purpose, according to plaintiffs, they
are not entitled to immunity. (Dkt. 123 at 46-50.)
But whether something is considered a governmental function is defined by the general activity performed, not the specific conduct of the individual
employees. Smith v. State, 428 Mich. 540, 608 (1987).
Michigan courts would find that these MDEQ employee defendants were performing a governmental
function, so they are entitled to immunity under the
state immunity statute. The tort claims against defendants Shekter Smith, Wyant, and Wurfel are thus
dismissed.
Finally, the State Defendants argue that defendants Snyder, Lyon, and Wells are entitled to absolute
immunity under the state immunity statute. (See Dkt.
103 at 21.) Because under Michigan law they are the
highest “elective or highest appointive executive official” of their departments (see Dkt. 144 (defendant
Wells entitled to absolute immunity)), and they were
acting in the scope of their executive authority, the tort
claims against them are dismissed.
As to defendant Glasgow, a lower level employee,
no reasonable jury could find that he is the one defendant most directly responsible for plaintiffs’ harm.
Plaintiffs allege that defendant Glasgow stated “[i]f
water is distributed from this plant in the next couple
of weeks, it w[ould] be against [his] direction,” because
he “need[ed] time to adequately train additional staff
and to update [MDEQ’s] monitoring plans before [he
would] feel [MDEQ was] ready.” (Dkt. 1 at 22.) They

App. 185
allege that defendant Glasgow stated “management
above” seemed “to have their own agenda.” (Id.) At the
very least, the “management above” would be more directly responsible for plaintiffs’ harms. Thus, the tort
claims are also dismissed as to defendant Glasgow.
And defendants Prysby (an engineer at MDEQ),
Cook (a water treatment specialist at MDEQ), and
Busch (the district supervisor for MDEQ), are lower
level employees nonetheless entitled to immunity. As
with defendant Glasgow, even if plaintiffs sufficiently
pleaded that defendants Prysby, Cook, and Busch were
grossly negligent, reasonable jurors could not find that
any one of them was the proximate cause of plaintiffs’
injuries. As alleged, defendants “Cook, Busch, and
Prysby were undeniably aware that no corrosion control was being used in Flint” by “no later than April
2015.” (Dkt. 1 at 34.) This was long after the water allegedly began to harm plaintiffs. Plaintiffs say it was
“likely much earlier,” but this is insufficient to show
that defendants Cook, Busch, and Prysby were the
proximate cause of their injuries. Thus, the state tort
claims against them are dismissed.
Finally, even accepting as true that plaintiffs sufficiently allege Nancy Peeler, a lower level employee at
MDHHS, acted with gross negligence, plaintiffs fail to
show that she was the proximate cause of their injuries. Taking plaintiffs’ allegations as true, defendant
Peeler, at all relevant times an MDHHS employee in
charge of its childhood lead poisoning prevention program, participated in, directed, and oversaw the Department’s efforts to hide information to save face, and

App. 186
to obstruct the efforts of outside researchers. (Dkt. 1 at
12-13.) And she tried to generate evidence that there
was no lead contamination problem, even when her
own Department had data that verified outside evidence to the contrary. (Id. at 13.) Moreover, when
MDHHS epidemiologist Cristin Larder emailed defendant Peeler, among others, noting an increase in
blood lead levels in Flint just after the switch and concluding that the issue “warrant[ed] further investigation,” Peeler attributed it to seasonal variation. (Id. at
48.) But given that lead levels were already rising in
plaintiffs’ blood by the time Peeler is alleged to have
acted, Michigan courts would likely hold that a reasonable juror could not find that she was the proximate
cause of the harm. Thus, the claims against her must
be dismissed.9
Plaintiffs argue that dismissal is premature, and
“it should be sufficient that [d]efendant’s alleged actions, taken as true . . . , could be ‘the’ proximate cause
of the Flint crisis.” (Dkt. 121 at 30.) But it is not enough
to say any defendant’s actions were “among” those
that caused plaintiffs’ harm. (Id.) Rather, the test is
whether a jury could reasonably find, if plaintiffs
proved their allegations, that a defendant, individually,
was the most direct cause of the harm.

9

Plaintiffs do not directly address defendant Scott, but they
similarly fail to plead how he—a data manager at MDHHS who
attempted to refute outside evidence of rising lead levels—is the
proximate cause of plaintiffs’ injuries. The state tort claims as to
defendant Scott are thus dismissed.

App. 187
As this case highlights, the more governmental actors that are involved in causing a massive tort in
Michigan, the less likely it is that state tort claims can
proceed against the individual government actors,
given the way the state immunity statute operates. Because the harm that befell plaintiffs was such a massive undertaking, and took so many government actors
to cause, the perverse result is that none can be held
responsible under state tort law, at least based on
plaintiffs’ pleadings; it is nearly impossible to point to
any one of the defendants as the most proximate cause
of plaintiffs’ injuries. White, 2013 Mich. App. LEXIS
342, at *10 (“There cannot be other more direct causes
of plaintiff ’s injuries.”).
It is plaintiffs’ burden to plausibly plead who was
most directly responsible for the harm. They fail to
do so here, so all of the lower-level governmental employees are immune from plaintiffs’ state tort claims.
Accordingly, plaintiffs’ Counts 7 (nuisance), 8 (trespass), 12 (gross negligence), 13 (intentional infliction
of emotional distress), and 14 (negligent infliction of
emotional distress) are dismissed as to all remaining
governmental defendants, based on state statutory immunity.
ii. Breach of contract
In Count 5, plaintiffs allege that defendants City
of Flint and State of Michigan breached the contract
defendants had with plaintiffs for the sale and purchase of safe, potable water. As set forth above,

App. 188
plaintiffs fail to sufficiently plead that they had such a
contract under Michigan law. See supra III.c.ii. Plaintiffs claim for breach of contract is thus dismissed.
iii. Breach of implied warranty
In Count 6, plaintiffs allege that defendants City
of Flint and State of Michigan are liable for a breach of
implied warranty. According to plaintiffs, these defendants directly or impliedly promised to provide water
that was fit for human consumption and later admitted
that the water supplied was contaminated and thus
not fit for human consumption, in breach of implied
warranty. (Dkt. 1 at 71-72.)
Defendants argue that the implied warranty claim
must fail, because implied warranty claims exist only
under Michigan’s version of the UCC and such a contract would be one for services, but the UCC only applies to contracts for goods. Defendants also argue that
even if the UCC did apply here, plaintiffs failed to comply with the UCC’s notice requirements for bringing an
implied warranty claim. (Dkt. 52 at 39.) Plaintiffs implicitly agree, arguing that the state’s UCC would
never “apply to the supply of public drinking water to
consumers.” (Dkt. 122 at 45.) And they fail to establish,
and do not even argue, that implied warranty claims
exist outside the UCC. (Id. at 44-46.)
“Warranties of merchantability and fitness for a
particular purpose are, by their nature, inapposite to a
contract for services like that at issue here.” De Valerio
v. Vic Tanny Int’l, 140 Mich. App. 176, 180 (1984).

App. 189
Plaintiffs could not provide, in their briefs or at the
hearing, and the Court could not independently find,
any Michigan case law in which implied warranty
claims were adjudicated as to contracts for services.
Because breach of implied warranty claims exist only
under the Michigan UCC, and the alleged contract
here (which, as set forth above, does not actually exist)
would be one for services and not goods for which the
state’s UCC is inapplicable, plaintiffs’ breach of implied warranty claim is dismissed.
iv. Nuisance
Plaintiffs allege that all defendants are liable
for nuisance, because they caused lead-contaminated
water to be delivered to plaintiffs’ homes, which substantially and unreasonably interfered with their comfortable living and ability to use and enjoy their homes.
(Dkt. 1 at 72-73.)
As noted above, all of the governmental defendants are entitled to immunity from state tort liability.
That leaves the private defendants. Defendants Veolia
and Lockwood argue that the claim fails because they
did not control the nuisance. (Dkts. 50 at 14-16, 59 at
19-22.)
To plead a private nuisance claim in Michigan
(plaintiffs only respond to the motions to dismiss as to
private nuisance, so we need not address public nuisance claims), plaintiffs must show that defendants
committed “a nontrespassory invasion of [their] interest in the private use and enjoyment of land.” Adkins

App. 190
v. Thomas Solvent Co., 440 Mich. 293, 302 (1992).
Plaintiffs must show that defendants were “in control,
either through ownership or otherwise,” which “must
be something more than merely issuing a permit or
regulating activity on the property which gives rise to
the nuisance.” McSwain v. Redford Twp., 173 Mich.
App. 492, 498 (1988). Put differently, Michigan courts
do not impose liability when a “defendant has not either created the nuisance, owned or controlled the
property from which the nuisance arose, or employed
another to do work which he knows is likely to create
a nuisance.” Id. at 499.
Plaintiffs argue that “control” is satisfied because
defendants Veolia and Lockwood had the “power to
prevent the injury.” (Dkt. 117 at 22.) But the case cited
by plaintiffs for this proposition—a defective premises
case—holds that the “power to prevent the injury . . .
rests primarily upon him who has control and possession” of the premises. Sholberg v. Truman, 496 Mich. 1,
10-11 (2014). Plaintiffs’ argument assumes the conclusion. To plead their claim, plaintiffs are required to sufficiently allege that Veolia or Lockwood had sufficient
control and possession of the premises to establish that
either had the power to prevent the injury.
Plaintiffs plead that Lockwood, “an engineering
firm, was hired to prepare Flint’s water treatment
plant for the treatment of new water sources.” According to plaintiffs, they were “responsible for providing
engineering services to make Flint’s inactive water
treatment plant sufficient to treat water from each of

App. 191
its new sources.” Plaintiffs elsewhere note that Lockwood was “the consultant.” (Dkt. 1 at 21.)
Plaintiffs plead that Veolia “was hired to conduct
a review of the City’s water quality, largely in response
to citizen complaints.” Veolia’s “task was to review
Flint’s public water system, including treatment processes, maintenance procedures, and actions taken.”
According to plaintiffs, “Veolia had an opportunity to
catch what [d]efendant [Lockwood] had missed or refused to warn about.” However, Veolia concluded that
the water was “in compliance with . . . state and federal
standards and required testing.” (Id. at 31.)
Because control under Michigan law “must be
something more than merely issuing a permit or regulating activity on the property,” see McSwain, 173
Mich. App. at 498, defendants Veolia and Lockwood, in
their role as consultants and advisors, cannot be held
liable for the alleged nuisance. Their “control” is even
less than that of a regulating or permit-granting authority. Moreover, plaintiffs plead that defendant
MDEQ was “Flint’s ‘primacy agency,’ ” and thus “responsible for ensuring that Flint set water quality
standards and properly treated its water” (Dkt. 1 at
25), further undercutting their argument that defendants Veolia and Lockwood were in control of the nuisance. The claim is therefore dismissed.
v. Trespass
Plaintiffs allege that all defendants are liable for
trespass, because they willfully caused contaminants

App. 192
to enter plaintiffs’ property and plaintiffs’ bodies. (Dkt.
1 at 74.) Again, because the governmental defendants
are immune from state tort liability, this claim remains
only as to defendants Veolia and Lockwood. Defendants Veolia and Lockwood argue that the claim fails
because they did not intentionally invade plaintiffs’
land with a tangible object. (See Dkts. 50 at 16, 59 at
22.)
In Michigan, “claims of trespass and nuisance are
difficult to distinguish and include overlapping concepts.” Traver Lakes Cmty. Maint. Ass’n v. Douglas Co.,
224 Mich. App. 335, 344 (1997). But Michigan courts
have “recognized a desire to ‘preserve the separate
identities of trespass and nuisance,” Wiggins v. City of
Burton, 291 Mich. App. 532, 555 (2011), and thus trespass requires “proof of an unauthorized direct or immediate intrusion of a physical, tangible object onto
land over which the plaintiff has a right of exclusive
possession.” Adams v. Cleveland-Cliffs Iron Co., 237
Mich. App. 51, 67 (1999). When “the possessor of land
is menaced by noise, vibrations, or ambient dust,
smoke, soot, or fumes, the possessory interest implicated is that of use and enjoyment, not exclusion, and
the vehicle through which a plaintiff normally should
seek a remedy is the doctrine of nuisance.” Id.
Put differently, although the intrusion of particulate matter may give rise to a claim of nuisance, the
“tangible object” requirement for trespass is not met by
such intrusion. Id. at 69. This is so because particulate
matter “simply become[s] a part of the ambient circumstances of th[e] space.” Id. Plaintiffs argue that they

App. 193
are permitted to plead in the alternative, and defendants actions “either constitute[ ] a nuisance or
trespass.” (Dkt. 117 at 23.) But for different reasons,
plaintiffs fail to plead either.
Even if particulate matter were sufficient to satisfy the tangible object requirement to plead a trespass
in Michigan, plaintiffs fail to plead that Veolia and
Lockwood intended for the particulate matter to invade plaintiffs’ property. “Trespass is an intentional
tort, meaning it is based on an intentional act,” specifically requiring “an intentional and unauthorized invasion.” Swiderski v. Comcast Cablevision of Shelby,
Inc., No. 227194, 2002 Mich. App. LEXIS 806, at *8
(Mich. Ct. App. June 4, 2002). For these reasons, plaintiffs’ claim of trespass is dismissed.
vi. Unjust enrichment
Plaintiffs allege that defendants City of Flint and
State of Michigan received the benefits of funds paid
by plaintiffs for water, that they utilized these funds
for the government, and that retaining the benefit of
these funds would be unjust. (Dkt. 1 at 75.)
Defendant City of Flint argues that an unjust enrichment claim is a tort claim, and thus governmental
immunity applies. (Dkt. 52 at 46.) Defendant cites one
case in which the Michigan Court of Appeals characterizes tort claims to include “common law misappropriation and unjust enrichment.” See Polytorx v. Univ.
of Mich. Regents, Nos. 318151, 320989, 2015 Mich. App.
LEXIS 939, at *19 (Mich. Ct. App. May 7, 2015). But

App. 194
that case was about the statute of limitations. Id.
(holding that there is a three-year statute of limitations); see, e.g., Trudel v. City of Allen Park, Nos.
304507, 304567, 312351, 2013 Mich. App. LEXIS 1855,
at *49 (Mich. Ct. App. Nov. 14, 2013) (citing MICH.
COMP. LAWS § 600.5813).
The Michigan Supreme Court has held that “ ‘tort
liability’ as used in [MICH. COMP. LAWS §] 691.1407(1)
encompasses all legal responsibility arising from noncontractual civil wrongs for which a remedy may be obtained in the form of compensatory damages.” Mick v.
Kent Cty. Sheriff ’s Dep’t (In re Estate of Bradley), 494
Mich. 367, 397 (2013); see id. at 409 (McCormack, J.,
dissenting) (“[U]njust enrichment. . . . is based on principles of equity; it sounds in neither contract nor tort,
yet it shares characteristics of both.”). And unjust enrichment claims are equitable claims only available
when there is no express contract. But plaintiffs could
not identify, and this Court could not independently
find, any case in which Michigan statutory immunity
was extended to state actors for claims of unjust enrichment.
Whether the governmental defendants are entitled to immunity from unjust enrichment claims is a
complicated and unsettled area of state law. Accordingly, the Court declines to exercise jurisdiction over
this claim. 28 U.S.C. § 1367(c)(1) (“The district courts
may decline to exercise supplemental jurisdiction over
a claim . . . [if ] the claim raises a novel or complex issue of State law.”); see, e.g., Arrington v. City of Raleigh,
369 F. App’x 420, 423 (4th Cir. 2010) (district court

App. 195
abused discretion by retaining jurisdiction over claim
involving “state law immunity issues [that] are both
novel and complex”).
vii. Negligence/professional negligence/
gross negligence against defendant
Veolia
Plaintiffs allege that defendant Veolia, by agreeing to work for defendant City of Flint on the switch
from the Detroit River to the Flint River as its municipal water source, undertook a duty to plaintiffs and
carelessly and negligently caused plaintiffs’ harm.
(Dkt. 1 at 75-76.)
Defendant Veolia argues that there is no independent cause of action for gross negligence in Michigan, and ordinary negligence claims cannot be brought
against Veolia as professionals, thus only the professional negligence claim is proper. (Dkt. 50 at 20.) Veolia
does not argue that the professional negligence claim
should be dismissed as a matter of law.
Defendant Veolia is correct that “gross negligence
is not an independent cause of action under Michigan
law.” Buckner v. Roy, No. 15-cv-10441, 2015 U.S. Dist.
LEXIS 108371, at *23 (E.D. Mich. Aug. 18, 2015).
Plaintiffs do not adequately address Veolia’s argument
that gross negligence is used as a standard in certain
types of claims rather than an independent cause of
action, instead stating in conclusory terms that they
have sufficiently alleged an action for gross negligence.
(See Dkt. 117 at 19.)

App. 196
In Michigan, gross negligence is used as a standard for a plaintiff ’s tort claim to proceed against a
defendant with whom the plaintiff has signed a waiver
of liability. See Xu v. Gay, 257 Mich. App. 263, 269
(2003) (“A contractual waiver of liability also serves
to insulate against ordinary negligence, but not gross
negligence.”). The case plaintiffs cite to support their
argument that gross negligence is an independent
claim is merely an application of this principal. See Sa
v. Red Frog Events, LLC, 979 F. Supp. 2d 767, 778-79
(E.D. Mich. 2013) (waiver of liability did not apply because plaintiff adequately pleaded gross negligence).
Because gross negligence is not an independent cause
of action in Michigan, the claim is dismissed.
As to ordinary negligence, Veolia argues that because plaintiffs’ claim arises from actions taken in “the
course of a professional relationship” and raises questions of its professional judgment “beyond the realm of
common knowledge and experience,” the claim is one
of professional negligence. (Dkt. 50 at 20-21 (citations
omitted).) According to Veolia, the ordinary negligence
claim is precluded because Veolia is sued as a water
treatment professional. (Id. at 21.) Veolia quotes plaintiffs’ allegations, which identify Veolia as a “professional engineering service[ ]” that was required to
“exercise independent judgment . . . in according with
sound professional practices.” (Id. at 22.)
Plaintiffs respond that they have plausibly alleged
that Veolia violated both standards of care—that
of a reasonable person and that of a reasonable

App. 197
professional—and thus both claims should remain.
(Dkt. 117 at 20-21.)
The cases Veolia cites are generally medical malpractice cases, which are distinct from plaintiffs’ negligence claim here. In Michigan, malpractice actions do
not include actions against engineers. Nat’l Sand, Inc.
v. Nagel Constr., Inc., 182 Mich. App. 327, 340 (1990).
Rather, even assuming a “malpractice” action could be
brought against an engineer, it would simply mean
that ordinary “negligence by an engineer is malpractice,” not “that an action against engineer is a malpractice action.” Id. at 339; see, e.g., Bacco Constr. Co. v. Am.
Colloid Co., 148 Mich. App. 397, 416 (1986) (sustaining
ordinary negligence action against engineer for harm
caused by miscalculations).
The professional negligence claim is dismissed.
Because Veolia does not argue that plaintiffs otherwise
fail to sufficiently plead an ordinary negligence claim,
the claim survives.
viii. Negligence/professional negligence/
gross negligence against defendant
Lockwood
Plaintiffs make the same negligence/professional
negligence/gross negligence claims against defendant
Lockwood as they make against defendant Veolia, and
defendant Lockwood makes similar arguments as
those made by defendant Veolia in its motion to dismiss. (See Dkt. 59 at 25-26.) For the same reasons as
those set forth above, the professional negligence and

App. 198
gross negligence claims are dismissed but the ordinary
negligence claim survives.
ix. Punitive damages/joint and several liability
Defendants Veolia and Lockwood argue that punitive damages are not recoverable in Michigan unless
authorized by statute, which is not the case here, and
thus plaintiffs’ request for such damages must be
barred. (Dkts. 50 at 20, 59 at 26.) Plaintiffs respond indirectly, arguing that exemplary damages are permitted. (Dkts. 50 at 24-25, 59 at 20-21.)
Punitive damages “are generally not recoverable
in Michigan” with the exception of when “they are expressly authorized by statute.” Casey v. Auto Owners
Ins. Co., 273 Mich. App. 388, 400 (2006). And when a
plaintiff does not identify “any statute that would
grant them punitive damages,” dismissal of a request
for punitive damages is proper. Id. Plaintiffs do not do
so here, so their request for punitive damages is dismissed.
Plaintiffs are correct, though, as to exemplary
damages; “exemplary damages are distinct from punitive damages and are designed to compensate plaintiffs for humiliation, outrage, and indignity resulting
from a defendant’s wilful, wanton, or malicious conduct.” Fellows v. Superior Prods. Co., 201 Mich. App.
155, 158 (1993) (quotations omitted). Rather than
punishment for bad acts, for which punitive damages
are awarded, exemplary damages are intended to

App. 199
compensate for emotional harms that are not adequately compensated by pecuniary or compensatory
damages. Id. Although the punitive damages request
should be dismissed, plaintiffs may be entitled to exemplary damages. Their request for exemplary damages may proceed.
Defendant Veolia also argues that plaintiffs cannot recover joint-and-several liability in Michigan.
(Dkt. 50 at 27.) Michigan has replaced joint-andseveral liability with fair-share liability. See Smiley v.
Corrigan, 248 Mich. App. 51, 55 (2001). Plaintiffs concede the point. (Dkt. 117 at 12.) Thus, any claim for
joint-and-several liability is dismissed.
IV. Conclusion
For the reasons set forth above, the motions to dismiss (Dkts. 50, 52, 59, 69, 70, 96, 102, 103, 105) are each
GRANTED IN PART and DENIED IN PART.
Plaintiffs’ Counts 1 (substantive due process property claim), 2 (procedural due process property claim),
3 (substantive due process state-created danger claim),
5 (breach of contract claim), 6 (breach of implied warranty claim), 7 (nuisance claim), 8 (trespass claim), 12
(gross negligence claim), 13 (IIED claim), and 14
(NIED claim) are DISMISSED WITH PREJUDICE.
Plaintiffs’ Count 4 (substantive due process bodily
integrity claim) is DISMISSED WITH PREJUDICE as
to defendants Shekter Smith, Busch, Prysby, Wurfel,
Wells, Lyon, and Peeler in their official capacities.

App. 200
Count 4 is DISMISSED WITH PREJUDICE as to defendants State of Michigan, MDHHS, MDEQ, Snyder,
Cook, and Glasgow in its entirety.
The Court declines to exercise supplemental jurisdiction over Count 9 (unjust enrichment claim), so it is
DISMISSED WITHOUT PREJUDICE.
Plaintiffs’ Counts 10 and 11 (professional negligence and gross negligence claims) are DISMISSED
WITH PREJUDICE.
Plaintiffs’ Count 15 (proprietary function claim) is
not an independent cause of action, and so is DISMISSED WITH PREJUDICE.
Accordingly, plaintiffs’ Count 4 (substantive due
process bodily integrity claim) may proceed against defendants City of Flint, Earley, Ambrose, Wyant, and
Croft, and defendants Shekter Smith, Busch, Prysby,
Wurfel, Wells, Lyon, and Peeler in their individual capacities. Plaintiffs’ Counts 10 and 11 (ordinary negligence claims) may proceed against defendants Veolia
and Lockwood, respectively.
IT IS SO ORDERED.
Dated: June 5, 2017
Ann Arbor, Michigan

s/Judith E. Levy
JUDITH E. LEVY
United States District Judge

[Certificate Of Service Omitted]

App. 201
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0003p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

SHARI GUERTIN, individually and
as next friend of her child, E.B.,
a minor; DIOGENES MUSECLEVELAND,
Plaintiffs-Appellees,
v.

Nos. 17-1699/1745

STATE OF MICHIGAN, et al.,
Defendants,
CITY OF FLINT, MICHIGAN,
HOWARD CROFT, DARNELL EARLEY,
and GERALD AMBROSE (17-1699);
LIANE SHEKTER-SMITH, DANIEL
WYANT, STEPHEN BUSCH, MICHAEL
PRYSBY, and BRADLEY WURFEL
(17-1745);,
Defendants-Appellants.
Appeal from the United States District Court
for the Eastern District of Michigan at Ann Arbor.
No. 5:16-cv-12412—Judith E. Levy, District Judge.
Decided and Filed: May 16, 2019
Before: McKEAGUE, GRIFFIN, and WHITE,
Circuit Judges.

App. 202
COUNSEL
ON PETITION FOR REHEARING EN BANC:
Frederick A. Berg, Jr., Sheldon H. Klein, BUTZEL
LONG, P.C., Detroit, Michigan, Alexander S. Rusek,
WHITE LAW PLLC, Okemos, Michigan, William Y.
Kim, CITY OF FLINT, Flint, Michigan, Barry A. Wolf,
LAW OFFICE OF BARRY A. WOLF PLLC, Flint,
Michigan, for Appellants in 17-1699. John J. Bursch,
BURSCH LAW PLLC, Caledonia, Michigan, Philip A.
Grashoff, Jr., KOTZ SANGSTER WYSOCKI P.C.,
Bloomfield Hills, Michigan, Thaddeus E. Morgan, Michael H. Perry, FRASER TREBILCOCK, Lansing,
Michigan, Charles E. Barbieri, Allison M. Collins, FOSTER, SWIFT, COLLINS & SMITH, P.C., Lansing,
Michigan, Jay M. Berger, Michael J. Pattwell, CLARK
HILL PLC, Lansing, Michigan, for Appellants in 171745. ON RESPONSE: Steven Hart, HART,
McLAUGHLIN & ELDRIDGE, LLC, Chicago, Illinois,
John Sawin, SAWIN LAW FIRM, LTD., Chicago, Illinois, Paul T. Geske, McGUIRE LAW, P.C., Chicago, Illinois, for Appellees. ON BRIEF: Samuel R. Bagenstos,
Ann Arbor, Michigan, for Amici Curiae.
GIBBONS, J. (pg. 3), delivered a separate concurring opinion in which STRANCH, J., joined. SUTTON,
J. (pp. 4–10), delivered a separate concurring opinion
in which BUSH, J., joined. KETHLEDGE, J. (pp. 11–
13), delivered a separate dissenting opinion in which
THAPAR, LARSEN, NALBANDIAN, and MURPHY,
JJ., joined.

App. 203
----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

The court received petitions for rehearing en banc.
The original panel has reviewed the petitions for rehearing and concludes that the issues raised in the petitions were fully considered upon the original
submission and decision. The petitions then were circulated to the full court.1 Less than a majority of the
judges voted in favor of rehearing en banc.
Therefore, the petitions are denied.

----------------------------------------------------------------------

CONCURRENCE
-----------------------------------------------------------------------

GIBBONS, Circuit Judge, concurring in the denial
of rehearing en banc. I write separately to note that at
this stage in the proceeding, it is better to find out what
facts will eventually be before the district court, rather
than to prematurely attempt to determine what law
would apply to those hypothetical facts. In reading the
89-page complaint, this court could find many iterations of possible allegations. As Judge Sutton notes,
some of those possible allegations would not permit

1

Judge Readler recused himself from participation in this
decision.

App. 204
finding a constitutional violation. Still, others would
permit such a finding.
When considering a 12(b)(6) motion to dismiss, it
is not our job to find the facts. Our job is, and only is,
to determine whether any possible allegation plausibly
states a claim under which relief can be granted. To
decide any other issue would be judicial overreach. To
discuss anything further would be an advisory opinion.
Both the majority and dissent rushed to articulate a
standard before the facts had been fully discovered.
The plaintiffs, with whom every opinion expresses
sympathy, are entitled to the full benefit of the rule’s
broad standard. That means that, so long as they have
pled plausible allegations that would constitute a constitutional violation, they are entitled to discovery. The
12(b)(6) standard “does not impose a probability requirement at the pleading stage; it simply calls for
enough fact to raise a reasonable expectation that discovery will reveal evidence of illegal [conduct].” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 556 (2007). We
must “let district courts do what district courts do
best—make factual findings—and steel ourselves to
respect what they find.” Taglieri v. Monasky, 907 F.3d
404, 408 (6th Cir. 2018) (en banc).

App. 205
----------------------------------------------------------------------

CONCURRENCE
-----------------------------------------------------------------------

SUTTON, Circuit Judge, concurring in the denial
of rehearing en banc. If bad facts run the risk of making bad law, terrible facts run the risk of disfiguring
law and silencing it altogether. In their complaint, the
plaintiffs in this traumatic case plant the seeds of two
potential stories. One speaks of local officials who bungled their response to a water crisis and in the process
inadvertently polluted the water supply for the people
of Flint, Michigan. The other speaks of local officials
who intentionally poisoned Flint’s water supply. In
each telling, the claimants invoke the Due Process
Clause of the Fourteenth Amendment. In each telling,
the claimants invoke the most far-reaching and the
least guide-posted permutation of that guarantee: substantive due process. And in each telling, the claimants
seek hundreds of millions of dollars in retroactive
money damages for the alleged constitutional violations.
Each story leads to a different end.
Negligent, even grossly negligent, conduct by local
officials does not generally violate citizens’ substantive
due process rights. Least of all would these actions
clearly violate such rights, as there is very little that is
clear about substantive due process. If that’s what happened here, this litigation needs to end—promptly. It
is a distraction to the key goal (fixing Flint’s water supply), and it is unfair to the public servants to boot.

App. 206
Their mistakes may deserve public criticism, but they
do not deserve the tag of violating clearly established
constitutional rights and what comes with it: exposure
to crippling monetary judgments.
But an intentional or reckless effort to poison
Flint’s water supply is another matter. If that’s what
happened, the case must proceed.
So which account is the right account? It’s too
early to say. At the pleading stage of a case, plaintiffs
are entitled to make plausible allegations in their complaint and use the discovery process to ferret out support for their preferred account through depositions,
emails, and documents. At this early stage of the case,
we must give the benefit of the doubt to the plaintiffs’
preferred theory of the case and allow the discovery
process to determine whether plausible allegations in
their complaint mature into fact-supported allegations.
In view of the starkly different nature of these two
accounts and in view of the starkly different outcomes
for each of them, I would have written the majority
opinion—permitting this case to proceed to discovery—in a different key. At least five features of this unfortunate case warrant a tone of caution.
Cautionary feature one. This is a money damages
case against public officials in their individual capacities. We do not lightly allow citizens to tap private
pockets or the public treasury by suing the public officials that a majority of them selected to handle these
jobs. That’s why claimants must show that (1) the

App. 207
officials violated their constitutional rights and (2) the
officials were on notice of the prohibition because they
violated well-established constitutional rights. Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982). Only when the
unconstitutionality of a local official’s actions is “beyond debate,” only when “every reasonable official
would have understood that what he is doing violates
that right,” will we deny him protection. Ashcroft v. alKidd, 563 U.S. 731, 741 (2011) (quotation omitted).
Qualified immunity protects “all but the plainly incompetent or those who knowingly violate the law.” Malley
v. Briggs, 475 U.S. 335, 341 (1986). That is a rigorous
standard.
Cautionary feature two. Even when viewed in its
best light, the plaintiffs’ claim of unconstitutionality
takes us to the outer edges of judicial competence. Unlike claims anchored in the U.S. Constitution’s text,
substantive due process cases offer little guidance
about the reach of our authority, inviting a freefloating inquiry devoid of textual rhyme or reason.
That’s why we are directed to proceed slowly in this
area “lest the liberty protected by the Due Process
Clause be subtly transformed into the policy preferences of ” any two judges on this court. Washington v.
Glucksberg, 521 U.S. 702, 720 (1997). And that’s why
the U.S. Supreme Court warns us that “the Fourteenth
Amendment is not a font of tort law to be superimposed
upon whatever systems may already be administered
by the States.” County of Sacramento v. Lewis, 523 U.S.
833, 848 (1998) (quotation omitted).

App. 208
But “a font of tort law” layered onto the state
courts’ remedial laws is just what we seem to be getting in this case. Our job is not to invoke highly abstract rights to facilitate money damages actions
under § 1983 but to stoop to examine the details of the
cases to make sure they plainly mark the lines of constitutional trespass and alert public officials to their
metes and bounds. A comparison between this case and
the bodily integrity cases invoked by the claimants
shows a yawning gap. Sure, the U.S. Supreme Court
has prohibited investigators from forcibly pumping a
suspect’s stomach to recover swallowed evidence, Rochin v. California, 342 U.S. 165, 172 (1952), has allowed a prisoner (in some cases) to forgo unwanted
antipsychotic medication, Washington v. Harper, 494
U.S. 210, 221–22 (1990), and has assumed a right to
refuse life-saving medical treatment, Cruzan v. Dir.,
Mo. Dep’t of Health, 497 U.S. 261, 279 (1990).
But to describe these fact patterns is to question
their applicability here. Not one of them involves the
provision of a public utility in a time of economic hardship. Not one of these decisions, innovative at the time,
involves a retroactive money damages action against
public officials in their individual capacities. And all of
them caution us to adopt the tenor of restraint when it
comes to extending the right to bodily integrity in a
new direction.
The precedent the panel majority found “especially analogous” to today’s case, Guertin v. Michigan,
912 F.3d 907, 921 (6th Cir. 2019), has no business in
the inquiry. It is a district court case. See In re

App. 209
Cincinnati Radiation Litig., 874 F. Supp. 796 (S.D.
Ohio 1995). And district court decisions do not mark
appellate law—the relevant benchmark for ascertaining well-established constitutional law. See Camreta v.
Greene, 563 U.S. 692, 709 n.7 (2011); Hall v. Sweet, 666
F. App’x 469, 481 (6th Cir. 2016).
Cautionary feature three. Even aside from the
one-off nature of these cases, the inscrutable nature of
the inquiry by itself gives pause. While many acts of
public officials might theoretically affect the right to
bodily integrity, only an official who “shocks the conscience” violates the right. Lewis, 523 U.S. at 846. Missing from this case so far is any recognition that the
purpose of the test is to restrain judges, not empower
them; to remove claims from the constitutional arena,
not to expand nebulous notions of substantive due process. See id. at 846–49. Also missing is an appreciation
of the imperative that we not apply the “clearly established” prong of qualified immunity at a nose-bleed
level of generality, but rather must find precedent “particularized to the facts of the case.” White v. Pauly, 137
S. Ct. 548, 551–52 (2017) (per curiam) (quotation omitted). Whatever else the shocks-the-conscience test
means in the context of an effort to pierce public employees’ qualified immunity, it at a minimum requires
“an exact analysis of circumstances,” Lewis, 523 U.S. at
850, measured by truly comparable cases. In the often
“unfamiliar territory” that cases like this one present,
“mechanical application” of prior precedent usually
does little good. Id.

App. 210
Cautionary feature four. All of this means that our
court and the district court must carefully match allegations to individual defendants to determine whether
the plaintiffs can show that each official engaged in
conscience-shocking behavior—and clearly established
behavior at that. Doubt clouds several aspects of the
claims that remain in the case. By the plaintiffs’ own
account, the defendants relied on independent experts
in making the most crucial decisions. How could that
conduct show intentional misconduct—intentional poisoning of the people of Flint—given that the officials,
aware of their own limitations, sought outside help?
That does not sound like intentional or reckless behavior.
A like concern arises from the allegations against
individual defendants still in the case. Take Darnell
Earley as one example of this problem. He served as
Flint’s emergency manager from November 2013 until
January 12, 2015. The complaint alleges that he “made
the decision to switch to Flint River water,” R. 1 at 7,
then “forced the transition through” before Flint’s
treatment plant was ready in order to keep up with his
“aggressive deadline,” R. 1 at 21. He also allegedly
made false and misleading statements that Flint’s water was safe. But the complaint does not allege that he
knew those statements were false. It instead says that
the government hired an outside engineering firm to
make sure the city properly treated the water. Those
experts did not recommend that the city set water
quality standards or implement corrosion control before using the river’s water. And the first report of lead

App. 211
in Flint’s drinking water did not come until January 9,
2015. That’s only four days before Gerald Ambrose replaced Earley as the emergency manager and around
the same time that officials employed a second outside
engineering firm to investigate complaints. (That firm
also concluded that the water was safe.) I struggle to
see how Earley’s actions, all consistent with outside experts’ advice, rise to the threshold of a clearly established substantive due process violation. The same
may be true of other individual defendants.
Cautionary feature five. A similar case already exists in state court. Based on the same events, several
individuals filed a putative class action in the Michigan courts against most of the same defendants under
the substantive due process guarantee of the Michigan
Constitution. See Mays v. Snyder, 916 N.W.2d 227, 240,
242 (Mich. Ct. App. 2018). The Michigan Court of Appeals denied the defendants’ motions for summary disposition as to the state law due process bodily integrity
claims, and that case continues to wind its way
through the Michigan court system. Id. at 242–43, 277.
Would it not make sense for the federal courts to
wait and see what relief the Michigan Constitution
provides before determining whether the state defendants violated the Due Process Clause of the U.S. Constitution? Before deciding whether someone may sue a
State for depriving him of property or liberty or life
without due process, the federal courts first consider
the judicial process the State provides him to remedy
his alleged injuries. Parratt v. Taylor, 451 U.S. 527,
543–44 (1981); see Hudson v. Palmer, 468 U.S. 517, 533

App. 212
(1984); see also Albright v. Oliver, 510 U.S. 266, 283–86
(1994) (Kennedy, J., concurring in the judgment). For
that reason, if the underlying state and federal claims
in today’s case turned on process in its conventional
sense, the federal courts presumably would stay their
hand to determine what process the State provided. If
that approach makes sense in the context of procedural due process, it makes doubly good sense in the
context of substantive due process. Otherwise, we give
claimants more leeway when they raise the most inventive of the two claims, rewarding them for asking
us to do more of what we should be doing less.
This is not a new concept. For some time, the federal courts have tried to avoid federal constitutional
questions when they can. See Ashwander v. Tenn. Valley Auth., 297 U.S. 288, 341 (1936) (Brandeis, J., concurring). One way to further that goal is to learn
whether the substantive due process protections of the
Michigan Constitution or any other state laws redress
the plaintiffs’ injuries. Because the “open-ended” nature of substantive due process claims lacks “guideposts for responsible decisionmaking,” Collins v. City of
Harker Heights, 503 U.S. 115, 125 (1992), we should
welcome input from the Michigan courts about what
process, substantive or otherwise, is due under state
law. Better under these circumstances, it seems to me,
to hold the federal substantive due process claims in
abeyance—and avoid prematurely creating new federal constitutional tort regimes—until the plaintiffs
have had a chance to vindicate their rights in state
court. Cf. Browder v. City of Albuquerque, 787 F.3d

App. 213
1076, 1083–85 (10th Cir. 2015) (Gorsuch, J., concurring).
All of this by the way will prove beneficial whether
the plaintiffs win or lose in state court. If they win,
there will be less, perhaps nothing at all, for the federal
courts to remedy under federal substantive due process. If they lose, the state courts’ explanation may inform the federal claims.
Having urged our court and the district court to
address these claims with caution and restraint, I
must accept a dose of my own medicine. Two features
of this case offer some support for these decisions—sufficient support to wait and see before granting a petition to review the case as a full court. One reasonable
explanation for waiting to review the dispute is the
stage of the case—Rule 12(b)(6)—from which these decisions arose. This is not a barebones complaint based
on implausible allegations. It comes in at 89 pages. And
it offers plenty of details that at least plausibly allege
public acts of recklessness and intentional misbehavior. The point of discovery is to allow claimants and the
courts to determine whether facts support plausible
claims. That opportunity should help us all in resolving
this case fairly.
A second reasonable explanation for waiting to review this case as a full court is the hard-to-pin-down
nature of the clearly established inquiry. The officials,
it is true, can be found liable only if this lawsuit falls
into the narrow category of cases so egregious, so obvious, that all reasonable officials must have known

App. 214
what they did was wrong. See Hope v. Pelzer, 536 U.S.
730, 741 (2002). What’s tricky is figuring out what
counts as reckless or intentional behavior—in the context of a clearly established conscience-shocking standard of care. For better or worse, the case law seems to
present a sliding scale—the more evidence of unforgiveable intent, the less necessity to identify a case just
like this one. That is what seemed to happen in Hope
v. Pelzer. The facts were unique. No correctional officials before then, at least in a litigated case, had
thought to chain inmates to a hitching post in the unrelenting heat of the Alabama sun for seven hours as a
form of prison discipline. What permitted the U.S. Supreme Court to hold that the state officials violated
clearly established norms turned not on any one precedent but on the egregiousness of the state officials’
state of mind. Id. at 741, 745. So long as that is an appropriate approach to qualified immunity claims, it
would seem that allegations like these—intentional or
reckless poisoning of citizens—plausibly clear the
clearly established hurdle and warrant discovery. See
Wesley v. Campbell, 779 F.3d 421, 433–34 (6th Cir.
2015); Evans-Marshall v. Bd. of Educ. of Tipp City Exempted Village Sch. Dist., 428 F.3d 223, 235 (6th Cir.
2005) (Sutton, J., concurring); see also Jacobs v. City of
Chicago, 215 F.3d 758, 774–76 (7th Cir. 2000) (Easterbrook, J., concurring in part and concurring in the
judgment).
That discovery should proceed does not eliminate
a role for the district court. One would hope that the
court, in view of the seriousness of the allegations and

App. 215
the potential protections of qualified immunity at
summary judgment, would not deploy a laissez-faire
approach to document and deposition discovery. Carefully tailored and prompt discovery should answer
whether the intentional and reckless poisoning allegations hold up. If not, this case needs to return to the
court of public opinion, where one suspects it should
have remained all along.

----------------------------------------------------------------------

DISSENT
-----------------------------------------------------------------------

KETHLEDGE, Circuit Judge, dissenting from the
denial of rehearing en banc. To state the obvious, the
sympathies of every decent person run entirely to the
plaintiffs in this case. But sometimes the law, evenhandedly applied, leads to a result contrary to the
crush of popular opinion. This is one of those cases.
Respectfully, the majority’s decision on the issue of
qualified immunity is barely colorable. To overcome
qualified immunity, the plaintiffs must show that “existing law” made not merely the legality, but “the constitutionality of the [state] officer’s conduct ‘beyond
debate.’ ” District of Columbia v. Wesby, 138 S.Ct. 577,
589 (2018) (emphasis added) (quoting Ashcroft v. alKidd, 563 U.S. 731, 741 (2011)). Here, the putative
constitutional violation concerns the vaguest of constitutional doctrines, namely substantive due process.
The doctrine purports to protect—“specifically,” no

App. 216
less—"those fundamental rights and liberties which
are, objectively, deeply rooted in this Nation’s history
and tradition, and implicit in the concept of ordered
liberty, such that neither liberty nor justice would exist
if they were sacrificed.” Maj. Op. at 6-7 (quoting Washington v. Glucksberg, 512 U.S. 702, 720-21 (1997)). That
formulation (along with any number of alternative
ones) is more oratory than legal rule, which has made
the doctrine malleable enough to generate an array of
constitutional rights over the years. Those include, to
cite only a handful: the right to work unlimited hours
in a bakery, Lochner v. New York, 198 U.S. 45, 53 (1905);
the right to procreate, Skinner v. Oklahoma ex rel. Williamson, 316 U.S. 535, 541 (1942); the right to charge
certain minimum railroad rates, Ex parte Young, 209
U.S. 123, 149 (1908); the right to teach schoolchildren
in German, Meyer v. Nebraska, 262 U.S. 390, 403
(1923); and the right not to pay “grossly excessive” punitive damages, BMW of N. Am., Inc. v. Gore, 517 U.S.
559, 562 (1996).
But just as crowbars are not made out of tin, substantive due process’s easy malleability makes it a notably poor instrument for prying away an officer’s
qualified immunity. For to overcome that immunity in
a case (like this one) where the claim is constitutional,
the “contours” of the relevant constitutional rule “must
be so well defined that it is ‘clear to a reasonable officer’ ” that his conduct would violate the rule. Wesby,
138 S.Ct. at 590 (quoting Saucier v. Katz, 533 U.S. 194,
202 (2001)). That requirement—often repeated by the
Supreme Court, but sometimes, as here, overlooked—

App. 217
presents two obstacles to the majority’s decision in this
case. The first concerns the particular “fundamental
right” (or rule) that the majority relies upon, namely a
“right to bodily integrity[.]” Maj. Op. at 7. The sheer
vagueness of that formulation illustrates that its “contours” are shapeless rather than crisp, subjective rather than objective, unknowable until judicially
announced. Even the majority acknowledges (as it
stretches the right further) that the right presents “far
from a categorical rule.” Maj. Op. at 8.
The second problem is related: the “bodily integrity” caselaw fails to provide the “high ‘degree of specificity[,]’ ” Wesby, 138 S.Ct. at 590 (quoting Mullenix v.
Luna, 136 S.Ct. 305, 309 (2015) (per curiam)), necessary to overcome qualified immunity, at least as to the
claim here. Instead that caselaw for the most part provides a handful of data points, which form more of a
dusty nimbus than a planetary ring. But the caselaw
does reveal a sine qua non for the right’s violation: that
the officer’s invasion of the plaintiff ’s bodily integrity
be intentional. To cite the majority’s own examples: the
right protects against “forcible injection” of “antipsychotic medication[,]” Washington v. Harper, 494 U.S.
210, 220-21, 229 (1990); against forcible stomachpumping, Rochin v. California, 342 U.S. 165, 172
(1952); and, in a district court case, against conducting
medical experiments upon cancer patients without
their consent, In re Cincinnati Radiation Litigation,
874 F.Supp. 796, 803 (S.D.Ohio 1995). Nobody forcibly
injects or stomach-pumps or conducts medical experiments upon another person by accident. Yet the claim
at issue here, as the plaintiffs themselves make it,

App. 218
indisputably sounds in negligence: that “Defendants
violated Plaintiffs’ rights to bodily integrity, insofar as
Defendants failed to protect Plaintiffs from a foreseeable risk of harm”—the classic formulation, as any firstyear law student knows, of a negligence claim—from
“exposure to lead contaminated water.” Compl. ¶ 384
(emphasis added). And even the majority concedes that
“[t]here is no allegation defendants intended to harm
Flint residents.” Maj. Op. at 18. Thus, the only manner
in which the majority’s “examples illustrate the
breadth” of the right to bodily integrity, Maj. Op. at 9,
is to show that the right is inapposite here.
What the majority opinion does, in response, is
simple: it changes the level of generality at which it
describes the putative right, until the description is
general enough to reach the plaintiffs’ allegations of
negligence. Specifically, what the court first describes
as a “constitutional right [of persons] to be free from
forcible intrusions on their bodies against their will,”
Maj. Op. at 9 (emphasis added), on the next page becomes a sweeping right of “nonconsenting individuals”
to be free of “foreign substances with no known therapeutic value[,]” Maj. Op. at 10—in short, a constitutional right to be free of unwanted substances. That
putative right is violated every day, indeed every time
that virtually any of us takes a breath. But more to the
point, the majority’s formulation elides what the prior
cases require—namely that the officer’s injection or intrusion of the “foreign substance” into the plaintiff ’s
body be intentional.

App. 219
No official—no matter how blameworthy he might
be on moral grounds—can be expected to recognize in
advance that a court will recast a legal rule so that it
applies to conduct to which it has never applied before.
That in part is why the Supreme Court has “repeatedly
stressed that courts must not ‘define clearly established law at a high level of generality[.]’ ” Wesby, 138
S.Ct. at 590 (quoting Plumhoff v. Rickard, 572 U.S. 765,
779 (2014)). Yet that is precisely what our court’s opinion does here. The Supreme Court has also repeatedly
said that courts must not turn substantive due process
into “a font of tort law to be superimposed upon whatever systems may already be administered by the
States[.]” Daniels v. Williams, 474 U.S. 327, 332 (1986)
(quoting Paul v. Davis, 424 U.S. 693, 701 (1976)). Yet
our court’s opinion does that too, by expanding substantive due process to reach claims based on negligence rather than intent. Our court’s opinion, “in other
words, does exactly what the Supreme Court has repeatedly told us not to do.” Etherton v. Rivard, 800 F.3d
737, 757 (6th Cir. 2015) (dissenting opinion), rev’d sub
nom. Woods v. Etherton, 136 S.Ct. 1149 (2016) (per curiam).
I respectfully dissent from the order denying rehearing en banc.
ENTERED BY ORDER OF
THE COURT
/s/ Deb S. Hunt
Deborah S. Hunt, Clerk

App. 220
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

In re
FLINT WATER CASES

Civil Action No.
5:16-cv-10444-JRL-MKM
(consolidated)
Hon. Judith E. Levy
Mag. Mona K. Majzoub

FIRST INTERIM REPORT OF THE SPECIAL
MASTER REGARDING DATA COMPILATION
BASED ON RESPONSES TO THE AMENDED
ORDER REGARDING COLLECTION OF DATA
(Filed Feb. 22, 2019)
The Court’s Amended Order Regarding the Collection of Data (Dkt. 673) (“Order”) requires that Reporting Counsel provide certain specified claims data to the
Special Master. Specifically, the Order states that Reporting Counsel:
provide the data specified herein and in the
data collection instrument (“Census Template”) (attached as Exhibit A in Dkt. 614) for:
(a) all plaintiffs who are named in any case
included in In re Flint Water Cases; (b) all
named plaintiffs in any case pending in the
Eastern District of Michigan asserting claims
of injury or damage resulting from the Flint
water contamination; (c) all named plaintiffs
in any action pending in Genesee County Circuit Court or the Michigan Court of Claims asserting injury or damage resulting from the

App. 221
Flint Water contamination; and (d) all persons
(including entities) who have entered into an
engagement or retainer agreement with a Reporting Counsel with respect to the Flint water contamination but who have not yet filed
any action.
Order at 7. The Order further specifies:
Reporting Counsel shall provide the information
identified in the Census Template for each “injured party” subject to this Order. To assure
that the information is provided in a consistent and usable format, Reporting Counsel
shall provide the information using an excel
version of the Census Template that the Special Master will provide to counsel. If Reporting Counsel maintain data in a format that is
not readily transferred to an Excel format,
then Reporting Counsel shall propose an alternative format provided that the same information categories are included and that the
data is compiled in an electronic format (such
as a database).
Id. at 8. The Census Template, in PDF format, is attached at Exhibit A. The Order further states:
If more than one firm represents a plaintiff or
prospective plaintiff, counsel shall designate
one firm as the Reporting Counsel. All counsel
representing plaintiffs in this proceeding shall
be responsible for ensuring that all claims relating to the Flint water contamination are
registered in accordance with this Order and
shall coordinate with Reporting Counsel to

App. 222
avoid submission of the same claim by multiple counsel.
Id. at 8. Additionally, the Order provides that the Special Master “will establish a secure FTP or similar site
and Reporting Counsel shall post the reports to that
site.” Id. at 9.
PROCESS AND RESULTS
The Special Master established a secure site for
each law firm that submitted claim data. Only the designated law firm and the Special Master have access
to the law firm’s site. The Special Master created and
circulated an electronic data collection template to enable the firms to compile data in a uniform format. As
of December 28, 2018, nine law firms had provided
claim data. (One firm provided updated claim data in
January 2019, and three firms provided updated claim
data in February 2019. Two additional firms provided
data in February 2019. The new and updated submissions made in February 2019 are not reflected in the
counts discussed in this First Interim Report.)1
The Special Master has compiled and analyzed the
data and has provided to each Reporting Counsel a report confirming the data received and outlining certain
1

The firms submitting data as of December 28, 2018 were:
Berezofsky Law Group, LLC; Cuker Law Firm, LLC; Goodman,
Hurwitz & James, P.C.; Levy Konigsberg LLP; Marc J. Bern &
Partners LLP; Napoli Shkolnik PLLC; Pitt McGehee Palmer &
Rivers P.C.; The Sanders Law Firm, PC; and Sawin Law Firm,
Ltd.

App. 223
questions and requesting, in some cases, clarifications,
updates or additional data. The Order provides that
Reporting Counsel are to provide updated data at 45day intervals. The Special Master will work with the
Reporting Counsel to address any issues and to obtain
information relevant to a full understanding of the
claim data.
SUMMARY OF AGGREGATE CLAIM DATA
Data provided by Reporting Counsel identified a
total of 26,664 injured party records.2 (The Census
Template requested identification by injured party rather than by case in order to obtain a count of individual plaintiffs/claimants.)
The Special Master has identified 3,021 injured
party records that appear to be duplicates. That is,
there are 3,021 records where the first and last name
and date of birth match another record. Some of these
apparent duplicates appear within the data submission of a single Reporting Counsel and other apparent
duplicates appear in multiple Reporting Counsels’ submissions. In the former case, the duplication in some
cases may be submission of multiple “claims” for the
same claimant as two separate injured parties listed
on the report (e.g., both as a property owner and
2

The use of the term “injured party” in this First Interim
Report is simply a term of convenience to indicate a person’s assertion of claims of injury or damage from alleged contaminant
exposure and should not be construed as any finding, conclusion
or determination of any injury, damage or contaminant exposure
by any specific person.

App. 224
individual claim), while in other cases the records may
simply be duplication of the same claim. The Special
Master has provided each Reporting Counsel with a
list of all apparent duplicate injured parties and will
work with the Reporting Counsel to determine the
appropriate treatment of each such injured party for
purposes of determining the aggregate number of individual parties as of the date of the data submission.
Generally, however, it is reasonable to assume that the
total number of non-duplicate injured parties identified in the data submitted to date is approximately
25,154 (26,664 minus one half of the potential duplicates).
Many submissions were missing information.
Most importantly, there are 5,135 individuals identified as injured parties whose dates of birth were not
provided in the submissions. Once the missing dates of
birth are provided, the Special Master may identify additional duplicates. Additionally, of course, the dates of
birth are important for determining the number of individual injured parties who are (or were at the time
of exposure) minors. As explained below, various records are missing certain dates or information about
water or blood lead level testing.
In some cases, the data was provided in formats
different than that requested in the Census Template.
In order to provide this First Interim Report, the Special Master has (as much as feasible) reconciled and
conformed the data. The numbers provided below are
not adjusted to account for duplicate claims pending
confirmation and are subject to further refinements

App. 225
and revisions as updates and clarifications are received from Reporting Counsel.
INJURED PARTY AND CLAIM TYPES
The Census Template requested that claims be
identified as an injured party type of either individual,
business or other. The breakdown of injured party
types identified in the submissions are set forth in the
chart below.
Injured Party Type
Individual
Property Owner
Business/Business
Owner

Grand
Total
26,009
583
54

Other

3

Blank

15

Total

26,664

The Census Template asked for information on
whether the claim type was for personal injury (PI),
wrongful death (WD), property damage (PD), or a
combination thereof. The breakdown of claim types
identified in the submissions are set forth in the
chart below.

App. 226
Claim Type
PI and WD total

23,943

PI; BI; PI,ED3

21,018

PI and PD

2,870

WD; PI and WD

30

WD and PD

25

PD-only

638

Don’t know/blanks

2,083

Total

26,664

The Census Template requested information intended to determine whether claims of injury are
based primarily on lead exposure or whether there are
claims of injury due to exposure to other substances.
The Census Template asked Reporting Counsel to describe the nature of the exposure or injury other than
lead exposure. Based on the data submitted, it appears
that this question was interpreted differently by Reporting Counsel and therefore it may be necessary to
obtain clarification. For example, some firms listed the
physical symptoms complained of; others listed allegations of toxic exposure; and some listed the type of
claimant – such as a property owner or business owner.
The various personal injury types identified in the submissions for claims identified in the data as personal
injury or wrongful death are set forth in the chart below.
3

tress.

“ED” was identified by Reporting Counsel as emotional dis-

App. 227
Personal Injury Types
(consolidated)4

Total

E-coli, TTHMs and other bacteria

10,657

Lead exposure (and others)
4

8,008

The Special Master categorized the responses provided by
Reporting Counsel into the chart categories as follows:
•
E-coli, TTHMs and other bacteria: consists of responses
of “e-coli, TTHMs and other bacteria.”
•
Lead exposure (and others): includes “Lead + Other,”
“Lead+ Other,” “lead,” “Lead Exposure.”
•
Residence/Family/Business: includes “Business – Own,”
“Business – Rent,” “Employee,” “Family Member – Owner,”
“Family Member – Rent,” “Former Residence – Owner,”
“Former Residence – Rent,” “Former Residence Family
Member – Owner,” “Former Residence Family Member –
Rent,” “Residence – Own,” “Residence – Rent,” “Own.”
•
Hair loss/skin rash/irritation: includes “hair loss,” “rash,
hair loss,” “skin irritation,” “skin irritation, hair loss,”
“skin rash,” “skin rash, hair loss,” “skin rash/irritation,”
“Skin Rashes” “skin rashes, hair loss.”
•
PI: includes “PI.”
•
Legionella Exposure/Possible Legionella Exposure (and
others): includes “e. coli, TTHMs, Legionella, Pneumonia and other bacteria,” “ID/possible legionella,” “Lead
Exposure and Possible Legionella Exposure,” “Lead and
Legionella Exposure,” “Lead Exposure and Potential
Leigonella Exposure,” “Lead/Legionella + Other,” “Legionella,
e-coli, TTHMs and other bacteria,” “Legionella/ID,”
“Possible Legionnares.”
•
Infectious disease (and other): includes “infectious disease,”
“hair loss, infectious disease,” “skin rash, hair loss, infectious disease,” “skin rash, hair loss, infectious disease,” “skin rash, infectious disease.”
•
Gastro-Intestinal: includes “Gastro-Intestinal.”
•
“#N/A”: consists of responses provided as “#N/A.”
•
Blank: consists of records that were blank (no response
provided).

App. 228
Residence/Family/Business

3,570

Hair loss/skin rash, rotation

417

PI

164

Legionella Exposure/Possible
Legionella Exposure (and others)

26

Infectious disease (and other)

15

Gastro-Intestinal

3

“#N/A”

415

Blank

668

Total

23,943
AGE OF INJURED PARTIES

The following chart provides a breakdown of the
age of injured parties for individuals for whom date of
birth was provided as of year-end 2014.
Injured Parties by Age as of Year End 20145
(No Adjustment for Duplicates)
6 or younger (DOBs 2008-2014)
7-11 (DOBs 2003-2007)
12-17 (DOBs 1997-2002)
Subtotal under 18
(DOBs 1997-2014)

3,189
2,125
1,843
7,157

Post 2014 DOBs (DOBs 2017-18)

89

Post 2014 DOBs (DOBs 2015-16)

657

5

Age as of year-end 2014 and based on DOBs provided in
data. No adjustment for potential duplicates.

App. 229
Subtotal under 18
between 2014-18
(DOBs 1997-2018)

7,903

18+ (DOBs pre-1997)

12,989

Total with DOBs

20,892

Blank or invalid DOBs

5,135

Grand Total

26,027

Business/Property Owner
Grand Total

637
26,664

The following chart provides a breakdown of age
groups as of year-end 2018.
Injured Parties by Age as of Year End 20186
(No Adjustment for Duplicates)
6 or younger (DOBs 2012-2018)
7-11 (DOBs 2007-2011)
12-17 (DOBs 2001-2006)
Subtotal under 18
(DOBs 2001-2018)

2,127
2,251
2,334
6,712

18+ (DOBs 2001)

14,180

Total with DOBs

20,892

6

Age as of year-end 2014 and based on DOBs provided in
data. No adjustment for potential duplicates.

App. 230

Blank or Invalid DOBs

5,135

Total

26,027

Business/Property Owner

637

Grand Total

26,664
WATER TESTING

A total of 6,419 injured parties reported having
one or more water tests performed. in many cases, the
dates of testing and results were not provided. The following chart provides a breakdown of dates of water
testing based on the test that was first identified in the
data.7
Date of Water
Test Performed
Blank/Invalid

7

1,565

2014

2

2015

220

2016

4,236

2017

339

2018

57

Total

6,419

An addendum to the reporting sheet provided the opportunity to include additional testing dates and results. Dates of
such additional tests are not reflected in this chart.

App. 231
The age of the individual injured parties as of
year-end 2014 for those reporting that a water test was
performed is summarized in the following chart.
Water Tests Performed:
Injured Parties by Age as of Year End 2014
6 or younger (DOBs 2008-2014)
7-11 (DOBs 2003-2007)
12-17 (DOBs 1997-2002)
Subtotal under 18
(DOBs 1997-2014)

675
482
395
1,552

Post 2014 DOBs (DOBs 2017-18)

12

Post 2014 DOBs (DOBs 2015-16)

129

Subtotal under 18
between 2014-18
(DOBs 1997-2018)

1,693

18+ (DOBs pre-1997)

3,426

Total with DOBs

5,119

Blank or invalid DOBs

1,058

Total Non-Business/Property

6,177

Business/Property Owners
Total

242
6,419

The Census Template also requested information
on the results of the water testing. The Special Master
is working with several Reporting Counsel to clarify
and confirm the data that was received so that the Special Master can accurately report on this information.

App. 232
BLOOD LEAD LEVEL TESTING
A total of 4,035 injured parties report having one
or more blood lead level tests performed. Again, in
many cases the dates of testing and results were not
provided. The age of the injured parties as of year-end
2014 for those reporting that a blood test was performed is summarized in the following chart.
Blood Lead Level Testing: Injured
Parties by Age as of Year End 2014
6 or younger (DOBs 2008-2014)
7-11 (DOBs 2003-2007)
12-17 (DOBs 1997-2002)
Subtotal under 18
(DOBs 1997-2014)

1,231
761
396
2,388

Post 2014 DOBs (DOBs 2017-18)

8

Post 2014 DOBs (DOBs 2015-16)

215

Subtotal under 18
between 2014-18
(DOBs 1997-2018)

2,611

18+ (DOBs pre-1997)

1,399

Total with DOBs

4,010

Blank or invalid DOBs
Grand Total

25
4,035

The Census Template also requested information on the results of the blood lead level testing. The

App. 233
Special Master is working with several Reporting
Counsel to clarify and confirm the data that was received so that the Special Master can accurately report
on this information.
COGNITIVE FUNCTION TESTING
The data reflects 12 injured parties reported having a cognitive function test performed.
Date: February 22, 2019

/s/ Deborah E. Greenspan
Deborah E. Greenspan
Special Master

[Certificate Of Service Omitted

App. 234
EXHIBIT A

Injured Party Type
Last Name or
Business Name
Injured Party Name

First name

Injured Party
DOB (mm/dd/yyyy)

Address of Injured
Party as of 4/25/14
(if other addresses
since 4/25/14,
add in Addendum)

Street
Apt #
City
State
Zip

Does Injured Party Allege Exposure
Other than at Residence (Y/N)
(if Yes, provide requested
description in Addendum)
Type of Claim: PI (Personal Injury), Wrongful
Death (WD), and/or Property Damage (PD)

App. 235

Personal Injury Type – Identify if allegation
of exposure and injury is due to
factor other than led (e.g., Legionella)
Water Test(s) Performed?
(if multiple provide
add’l date(s) and
results in Addendum)
Month
Day
Date of Water
Test if known
Year
Water Test
Who Performed
the Water Test
Results of Water
Test - Lead Level
in Water (mg/dL)

Blood Lead
Level Test

Blood Lead Level
Test(s) Performed?
(if multiple provide
add’l date(s) and
results in Addendum)
(if this question is left
blank, the response
will be deemed “no.”)
Month
Date of Blood
Day
Lead Level
Year
Test if known

App. 236
Result of Blood Lead
Level Test (mg/dL)
Cognitive function
test performed?
(if this question is left
blank, the response
will be deemed “no.”)

Cognitive
Function Test

Case Name
Case Filing
Information
(if filed)

Filing Judisdiction

Law Firm of Record
(if different than
firm completing form)

Case Number
Laws Firm
Name
Attorney
Last Name
Attorney
First Name

ADDENDUM
Injured
Party Name
If Additional
Residence of
Injured Party
after 4/25/14,
Provide Additional Address
and Dates Here:

Last Name or Business Name
First Name
Month
Day
Year
Start Date
Month
Day
Year
End Date

App. 237

Street
Apt #
City
State
ZIP
If Second
Additional
Residence of
Injured Party
after 4/25/14,
Provide Second
Additional
Address and
Dates Here:

Month
Day
Year
Month
Day
Year

Start Date

End Date
Street
Apt #
City
State
ZIP

If Exposure at Location(s) other than
Residence - provide a name and description
of such location (e.g., name of school or
business jobsite or “multiple locations”)
Month
Day
Date of Water
Year
If Multiple Test if Known
Water Tests Second Test Who performed the Water Test
Results of Water Test – Lead
Level in Water (mg/dL)

App. 238

If Multiple
Water Tests Third Test

If Multiple
Water Tests Fourth Test

If Multiple
Blood Lead
Level Tests Second Test

If Multiple
Blood Lead
Level Tests Third Test

Date of Water
Test if Known

Month
Day
Year

Who performed the Water Test
Results of Water Test - Lead
Level in Water (mg/dL)
Month
Day
Date of Water
Year
Test if Known
Who performed the Water Test
Results of Water Test - Lead
Level in Water (mg/dL)
Month
Date of Blood
Day
Lead Level
Year
Test if known
Result of Blood Lead
Level Test (mg/dL)
Month
Date of Blood
Day
Lead Level
Year
Test if known
Result of Blood Lead
Level Test (mg/dL)

App. 239

If Multiple
Blood Lead
Level Tests Fourth Test

Date of Blood
Lead Level
Test if known

Month
Day
Year

Result of Blood Lead
Level Test (mg/dL)

App. 240
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SHARI GUERTIN, individually
and as next friend of her child,
E. B., a minor, and DIOGENES
MUSE-CLEVELAND;
Plaintiffs,
v.
STATE OF MICHIGAN, RICHARD
SNYDER (individually and in his
official capacity as Governor
of Michigan); STATE OF
MICHIGAN DEPARTMENT OF
ENVIRONMENTAL QUALITY;
STATE OF MICHIGAN
DEPARTMENT OF HEALTH
AND HUMAN SERVICES; CITY
OF FLINT, a Michigan municipal
corporation; VEOLIA NORTH
AMERICA, LLC, a Delaware
Corporation; LOCKWOOD,
ANDREWS & NEWNAM, INC.,
a Texas corporation; DARNELL
EARLEY (individually, and in
his official capacity as Emergency
Manager); GERALD AMBROSE
(individually, and in his official
capacity as Emergency Manager);
DANIEL WYANT (individually
and in his official capacity as
Director of MDEQ); LIANE
SHEKTER-SMITH (individually
and in her official capacity as
Chief of the Office of Drinking

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.

App. 241
Water and Municipal Assistance )
for MDEQ ); STEPHEN BUSCH )
(individually and in his official
)
capacity as District Supervisor
)
for MDEQ); PATRICK COO
)
(individually and in his capacity
)
as Water Treatment Specialist
)
for MDEQ); MICHAEL PRYSBY )
(individually and in his capacity as )
an Engineer for MDEQ); BRADLEY )
WURFEL (individually and in
)
his capacity as Director of
)
Communications for MDEQ);
)
EDEN WELLS (individually and )
in her capacity as Chief Medical
)
Executive for MDHHS); NICK
)
LYON, (individually and in his
)
capacity as Director of MDHHS);
)
NANCY PEELER (individually
)
and in her official capacity as an )
employee of the MDHHS); ROBERT )
SCOTT (individually and in his )
official capacity as an employee )
of MDHHS); HOWARD CROFT
)
(individually and in his official
)
capacity as Flint’s Director of
)
Public Works);and MICHAEL
)
GLASGOW (individually and
)
in his official capacity as an
)
employee of the City of Flint),
)
Defendants.
)
COMPLAINT AND JURY DEMAND
Plaintiffs, SHARI GUERTIN, individually and as
next friend of her child, E. B., a minor, and DIOGENES

App. 242
MUSE-CLEVELAND, by and through their attorneys,
complaining against Defendants herein, state as follows:
INTRODUCTION
1. This case arises from the poisoning of Plaintiffs, residents of the City of Flint, Michigan, with lead
from Flint’s pipes and service lines, as a result of the
switch of Flint’s drinking water supply to the Flint
River, without the use of any corrosion control.
2. Defendants created and maintained this condition when the State of Michigan subsumed the authority of the local government; and also through the
actions of the state’s regulatory and administrative entities and employees.
3. In 2014, Defendants discovered that dangerous levels of lead were leaching into Flint’s drinking water. Not only did Defendants fail to take any
measures to eliminate this danger, as required by federal law, but they actually took affirmative steps to
downplay the severity of the contamination from its
citizens. In so doing, Defendants negligently and recklessly exposed Plaintiffs to devastating and irreversible health problems.
4. Plaintiffs seek recovery from Defendants for
injuries, damages and losses suffered by Plaintiffs as
a result of exposure to the introduction of lead and
other toxic substances from Defendants’ ownership,
use, management, supervision, storage, maintenance,

App. 243
disposal, and release of highly corrosive water from the
Flint River into the drinking water of Flint, Michigan.
5. The actions of the City of Flint and the State
of Michigan, along with their agencies and employees
in inflicting immeasurable harm on Plaintiffs amounts
to violations of Plaintiffs’ constitutional rights.
6. The injuries to Plaintiffs resulted not only
from the acts of the individual Defendants but from
the policy and/or practice of the State of Michigan, its
agencies, and the City of Flint.
7. Defendants, acting for the state and/or city under color of law, deprived Plaintiffs of their constitutional rights.
8. The State of Michigan and/or City of Flint
provided a mantle of authority to the individual Defendants that enhanced their power as harm-causing
individual actors.
9. The individual Defendants’ conduct was so
dominated by governmental authority that the individual Defendants must be deemed to act with the authority of the government.
10. Plaintiffs bring this action for damages
against those Defendants named in their individual
capacities who acted under color of law in depriving
Plaintiffs of their constitutional rights, and against the
City of Flint.
11. Plaintiffs bring this action for prospective relief only as against the State of Michigan, the Michigan

App. 244
Department of Environmental Quality, and the Michigan Department of Health and Human Services.
12. The health effects of lead poisoning are well
known. The CDC has noted that: “No safe blood level
in children has been identified. Even low levels in blood
have been shown to affect IQ, ability to pay attention,
and academic achievement.” Lead impacts nearly every
organ and system in the human body. Lead causes multitudinous and serious injuries to the nervous system,
which can lead to convulsions, coma and brain death.
It causes learning and behavioral disorders, memory
loss, nausea, anemia, hearing loss, fatigue, colic, hypertension, and myalgia. Moreover, children under the age
of 6 years old are more susceptible to the toxic effects
of lead than are adults since the brain and central
nervous system are not completely developed.
13. As a direct and proximate result of Defendants’ negligent, grossly negligent, and reckless conduct, Plaintiffs were directly exposed to hazardous and
toxic substances known to cause disease, and that this
exposure caused or contributed to Plaintiffs’ injuries.
Therefore, the doctrine of joint and several liability
should be extended to apply to each Defendant herein,
in their individual capacity.
14. As a direct and proximate result of the Defendants’ conduct, Plaintiffs have suffered injuries and
currently suffer and will continue to suffer damages
and losses which include, but are not limited to, physical and psychological injuries, learning and other permanent disabilities, pain, mental anguish, emotional

App. 245
distress, the loss of household services, the cost of medical, educational and rehabilitation expenses and other
expenses of training and assistance, and loss of earnings, income, and earning capacity. Such injuries, damages and losses are reasonably likely to continue to
occur in the future.
PARTIES
15. Plaintiff SHARI GUERTIN is, and has at all
times relevant hereto been, a resident of Flint connected to Flint’s water system and a paying consumer
of Flint water. SHARI GUERTIN and her minor child,
E. B., have been exposed to extremely high levels of
lead due to the actions of the Defendants, having
bathed in and consumed lead contaminated water.
16. Plaintiff is, and has at all times relevant
hereto been, a resident of Flint connected to Flint’s water system. Plaintiff has been exposed to extremely
high levels of lead due to the actions of the Defendants,
having bathed in and consumed lead contaminated water.
17. As a result of Defendants’ actions, Plaintiffs
have suffered injuries including but not necessarily
limited to: various health problems (including without
limitation, hair, skin, digestive and other organ problems), physical pain and suffering, mental anguish,
fright and shock, disability, denial of social pleasures
and enjoyments, embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or
developmental injuries including (without limitation)

App. 246
cognitive deficits, lost earning capacity, aggravation of
pre-existing conditions, contract damages and property damages (including but not limited to damaged
plumbing and lost real property value).
18. Defendant City of Flint (“Flint” or “the City”)
is a Michigan municipal corporation located in Genesee County, Michigan.
19. Through its Department of Public Works,
Flint distributes water to its nearly 100,000 residents.
20. When Flint Emergency Manager Darnell Earley, as the City’s final policymaking authority, made the
decision, on behalf of the State of Michigan and the
City, to rush the distribution of water from the Flint
River without proper treatment, including corrosion
control, Plaintiffs were poisoned.
21. It was the official custom, policy, and/or practice of the City, for which it is directly responsible, that
led to the violations of Plaintiffs’ constitutional rights
described herein.
22. The actions of lower level City employees, not
named as defendants herein, in delivering residents
unsafe water were constrained by policies not of their
own making. Flint’s water treatment employees were
inadequately trained, in light of the duties assigned to
them the need for more training was obvious, and the
inadequacy was so likely to result in the violation of
constitutional rights that Flint’s policy makers can
reasonably said to have been deliberately indifferent
to the need for additional training. The City is liable

App. 247
because through its policy makers it violated the constitutional rights of Plaintiffs, including but not limited to the rights to bodily integrity and to be free from
state created danger.
23. Defendant Howard Croft was at all relevant
times Flint’s Department of Public Works Director
acting within the scope of his employment and/or authority under color of law. He is sued herein in his individual and official capacities. At all relevant times
Croft knew that the City’s water treatment plant was
unprepared to adequately provide safe drinking water
to Flint’s residents. He nonetheless caused and allowed
unsafe water to be delivered to Flint’s residents and
did not disclose that Flint’s water was unsafe. Defendant Croft also made numerous false statements about
the safety and quality of Flint’s water that he knew to
be untrue. Defendant Croft violated clearly established
constitutional rights of Plaintiffs, including but not
limited to the rights to bodily integrity and to be free
from state created danger. Defendant Croft’s actions
further constitute gross negligence, as he had a substantial lack of concern and/or willful disregard for
whether an injury resulted to Plaintiffs.
24. Defendant Michael Glasgow was at all relevant times a water treatment plant operator for the
City of Flint acting within the scope of his employment
and/or authority under color of law. He is sued herein
in his individual and official capacities. Glasgow knew
that the City’s water treatment plant was unprepared
to adequately provide safe drinking water to Flint’s
residents. He nonetheless allowed unsafe water to be

App. 248
delivered to Flint’s residents and did not disclose
that Flint’s water was unsafe. Defendant Glasgow violated clearly established constitutional rights of Plaintiffs, including but not limited to the rights to bodily
integrity and to be free from state created danger. Defendant Glasgow’s actions further constitute gross negligence, as he had a substantial lack of concern and/
or willful disregard for whether an injury resulted to
Plaintiffs.
25. Defendant State of Michigan (“Michigan”
or “the State”) directs, controls, and operates Defendant Michigan Department of Environmental Quality
(“MDEQ”) and Defendant Michigan Department of
Health and Human Services (“MDHHS”). The State
also stood in the shoes of the City of Flint at all times
relevant hereto, having absorbed the authority of the
City of Flint.
26. Defendant Richard Snyder (“Governor Snyder”)
is the Governor of Michigan. He is sued herein in his
individual and official capacities. He was at all times
acting within the scope of his employment and/or authority under color of law. Governor Snyder participated in, directed, and facilitated the State’s decision
to transition Flint’s water source from safe, treated water to untreated corrosive water that would deliver
lead into Plaintiffs’ home. He also participated in, directed, and facilitated the State’s insufficient response
to protect Plaintiffs from the State’s actions.
27. Under color of state law, Governor Snyder
violated clearly established constitutional rights of

App. 249
Plaintiffs, including but not limited to the rights to
bodily integrity and to be free from state created danger.
28. Defendant Darnell Earley (“Earley”) was
Governor Snyder’s Emergency Manager in Flint from
November 1, 2013, through January 12, 2015, and at
all times relevant hereto was acting within the scope
of his employment and/or authority under color of law.
He is sued herein in his official and individual capacities. Earley made the decision to switch to Flint River
water. Earley made false and/or misleading statements
representing that the water was safe to drink as it poisoned thousands. Earley violated clearly established
constitutional rights of Plaintiffs, including but not
limited to the rights to bodily integrity and to be free
from state created danger. Earley’s actions constitute
gross negligence, as he had a substantial lack of concern and/or willful disregard for whether an injury resulted to Plaintiffs.
29. Defendant Gerald Ambrose (“Ambrose”) was
Governor Snyder’s Emergency Manager in Flint from
January 13, 2015, until April 28, 2015, and was at all
times relevant hereto acting within the scope of his
employment and/or authority under color of law. He is
sued herein in his official and individual capacities.
Defendant Ambrose was also an employee of the State
of Michigan as a financial advisor for Flint’s financial
emergency from January 2012, until December 2014.
He was involved in and directed the State’s decision to
transition Flint from safe, treated water on an aggressive timeline to corrosive, untreated water from an

App. 250
unprepared water treatment plant. He also made false
and/or misleading statements representing that the
water was safe to drink as it poisoned thousands. Defendant Ambrose violated clearly established constitutional rights of Plaintiffs, including but not limited to
the rights to bodily integrity and to be free from state
created danger. Defendant Ambrose’s actions constitute gross negligence, as he had a substantial lack of
concern and/or willful disregard for whether an injury
resulted to Plaintiffs.
30. Defendant Michigan Department of Environmental Quality (“MDEQ”) is the state agency responsible for implementing safe drinking water laws, rules,
and regulations in Michigan, and Flint specifically. The
MDEQ failed to require corrosion control for Flint
River water in violation of the federal Lead and Copper
Rule, misled the federal EPA, conducted illegal and improper sampling of Flint’s water, lied to the public
about the safety of Flint’s water, and attempted to publicly discredit outside individuals that offered evidence
of the water’s contamination. The MDEQ was consistently more concerned with satisfying its own perceptions of technical rules than carrying out its duty to the
people of Flint, ignoring voluminous evidence of the
crisis it had created until its denial could no longer
withstand outside scrutiny.
31. Defendant Liane Shekter-Smith (“ShekterSmith”) was at all relevant times Chief of the Office of
Drinking Water and Municipal Assistance for MDEQ,
acting within the scope of her employment and/or authority under color of law, until she was removed from

App. 251
her position on October 19, 2015. She is sued herein in
her individual and official capacities. Defendant
Shekter-Smith was grossly negligent in that she knowingly participated in, approved of, and caused the decision to transition Flint’s water source to a highly
corrosive, inadequately studied and treated alternative. She disseminated false statements to the public
that led to the continued consumption of dangerous
water despite knowing or having reason to know that
the water was dangerous. Defendant Shekter-Smith
violated clearly established constitutional rights of
Plaintiffs, including but not limited to the rights to
bodily integrity and to be free from state created danger. Defendant Shekter-Smith’s actions constitute gross
negligence, as she had a substantial lack of concern
and/or willful disregard for whether an injury resulted
to Plaintiffs.
32. Defendant Daniel Wyant (“Wyant”) was at all
relevant times the Director of MDEQ until Governor
Snyder accepted his resignation on or about December
29, 2015, acting within the scope of his employment
and/or authority under color of law. He is sued herein
in his official and individual capacities. Wyant participated in, directed, and oversaw the MDEQ’s repeated
violations of federal water quality laws, the failure to
properly study and treat Flint River water, and the
MDEQ’s program of systemic denial, lies, and attempts
to discredit honest outsiders. He disseminated false
statements to the public that led to the continued consumption of dangerous water despite knowing or having reason to know that the water was dangerous.

App. 252
Defendant Wyant violated clearly established constitutional rights of Plaintiffs, including but not limited to
the rights to bodily integrity and to be free from state
created danger. Defendant Wyant’s actions constitute
gross negligence, as he had a substantial lack of concern and/or willful disregard for whether an injury resulted to Plaintiffs
33. Defendant Stephen Busch (“Busch”) was at
all relevant times the District Supervisor assigned to
the Lansing District Office of the MDEQ and was acting within the scope of his employment and/or authority under color of law. He is sued herein in his official
and individual capacities. He participated in MDEQ’s
repeated violations of federal water quality laws, the
failure to properly study and treat Flint River water,
and the MDEQ’s program of systemic denial, lies, and
attempts to discredit honest outsiders. He personally
falsely reported to the EPA that Flint had enacted an
optimized corrosion control plan, providing assurances
to Plaintiffs that the water was safe when he knew or
should have known that these assurances were false,
or were no more likely to be true than false. Defendant
Busch violated clearly established constitutional rights
of Plaintiffs, including but not limited to the rights to
bodily integrity and to be free from state created danger. Defendant Busch’s actions constitute gross negligence, as he had a substantial lack of concern and/or
willful disregard for whether an injury resulted to
Plaintiffs.
34. Defendant Patrick Cook (“Cook”) was at all
relevant times Water Treatment Specialist assigned to

App. 253
the Lansing Community Drinking Water Unit of the
MDEQ and was acting within the scope of his employment and/or authority under color of law. He is sued
herein in his official and individual capacities. Cook is
individually liable because he, as the Lansing Community Drinking Unit manager, in a grossly negligent
manner, participated in, approved, and/or assented to
the decision to allow Flint’s water to be delivered to
residents without corrosion control or proper study
and/or testing. Defendant Cook violated clearly established constitutional rights of Plaintiffs, including but
not limited to the rights to bodily integrity and to be
free from state created danger. Defendant Cook’s actions constitute gross negligence, as he had a substantial lack of concern and/or willful disregard for whether
an injury resulted to Plaintiffs.
35. Defendant Michael Prysby (“Prysby”) was at
all relevant times an the Engineer assigned to District
11 (Genesee County) of the MDEQ and was acting
within the scope of his employment and/or authority
and was acting within the scope of his employment
and/or authority under color of law. He is sued herein
in his official and individual capacities. Prysby is individually liable because he, as the engineer assigned to
District 11, participated in, approved, and/or assented
to the decision to switch the water source, failed to
properly monitor and/or test the Flint River water, and
provided assurances to Plaintiffs that the Flint River
water was safe when he knew or should have known
those statements to be untrue, or no more likely to
be true than false. Defendant Prysby violated clearly

App. 254
established constitutional rights of Plaintiffs, including but not limited to the rights to bodily integrity and
to be free from state created danger. Defendant Prysby’s
action constitute gross negligence, as he had a substantial lack of concern and/or willful disregard for
whether an injury resulted to Plaintiffs.
36. Defendant Bradley Wurfel (“Wurfel”) was at
all relevant times the Director of Communications for
MDEQ and was acting within the scope of his employment and/or authority under color of law. He is sued
herein in his official and individual capacities. Wurfel
resigned his position on December 29, 2015. Wurfel
served as the MDEQ’s principal means of public deception, repeatedly denying the increasingly obvious disaster as it unfolded and attempting to discredit the
only reliable people in the picture. Wurfel would eventually be relieved of his duties for his “persistent [negative] tone and derision” and his “aggressive dismissal,
belittlement and attempts to discredit the individuals
involved in [conducting independent studies and tests].”
37. Defendant, Wurfel repeatedly made public
statements that created, increased, and prolonged the
risks and harms facing Plaintiffs. Defendant Wurfel
violated clearly established constitutional rights of
Plaintiffs, including but not limited to the rights to
bodily integrity and to be free from state created danger. He made such statements knowing that they were
false or that they were no more likely to be true than
false. Defendant Wurfel’s actions constitute gross negligence, as he had a substantial lack of concern and/or

App. 255
willful disregard for whether an injury resulted to
Plaintiffs.
38. Defendant Michigan Department of Health
and Human Services (“MDHHS”) is the state agency
responsible for public health. Instead of protecting
public health, MDHHS deliberately hid information
that would have revealed the public health crisis in
Flint, which MDHHS had earlier failed to detect.
MDHHS’s failure to properly analyze data led it to conclude that there was no increase in lead contamination
in Flint’s children, and it resisted and obstructed the
efforts of outside researchers and the county health department to determine whether that was the actually
true and correct.
39. Defendant Eden Wells (“Wells”), was at all
relevant times Chief Medical Executive within the
Population Health and Community Services Department of the MDHHS and was acting within the scope
of her employment and/or authority under color of law.
She is sued herein in her official and individual capacities. Wells participated in, directed, and/or oversaw
the department’s efforts to hide information to save
face, and to obstruct the efforts of outside researchers.
Further, Wells knew as early as 2014 of problems with
lead and legionella contamination in Flint’s water and
instead of fulfilling her duty to protect and notify the
public, she participated in hiding this information. Defendant Wells violated clearly established constitutional rights of Plaintiffs, including but not limited to
the rights to bodily integrity and to be free from state
created danger. Defendant Wells’s actions constitute

App. 256
gross negligence, as she had a substantial lack of concern and/or willful disregard for whether an injury resulted to Plaintiffs.
40. Defendant Nick Lyon was at all relevant
times Director of MDHHS and was acting within the
scope of his employment and/or authority under color
of law. He is sued herein in his official and individual
capacities. He participated in, directed, and/or oversaw
the department’s efforts to hide information to save
face, and to obstruct and discredit the efforts of outside
researchers. He knew as early as 2014 of problems
with lead and legionella contamination in Flint’s water
and instead of fulfilling his duty to protect and notify
the public, he participated in hiding this information.
Defendant Lyons violated clearly established constitutional rights of Plaintiffs including but not limited to
the rights to bodily integrity and to be free from state
created danger. Defendant Lyons’ actions constitute
gross negligence, as he had a substantial lack of concern and/or willful disregard for whether an injury resulted to Plaintiffs.
41. Defendant Nancy Peeler was at all relevant
times a MDHHS employee in charge of its childhood
lead poisoning prevention program, acting within the
scope of her employment and/or authority under color
of law. She is sued herein in her official and individual
capacities. She participated in, directed, and/or oversaw the department’s efforts to hide information to
save face, and actively sought to obstruct and discredit
the efforts of outside researchers. Even when her own
department had data that verified outside evidence of

App. 257
a lead contamination problem, she continued trying to
generate evidence to the contrary. Defendant Peeler
violated clearly established constitutional rights of
Plaintiffs, including but not limited to the rights to
bodily integrity and to be free from state created danger. Defendant Peeler’s actions constituted gross negligence, as she had a substantial lack of concern and/or
willful disregard for whether an injury resulted to
Plaintiffs.
42. Defendant Robert Scott was at all relevant
times Data Manager for MDHHS’s Healthy Homes
and Lead Prevention Program, acting within the scope
of his employment and/or authority under color of law.
He is sued herein in his official and individual capacities. He participated in, directed, and/or oversaw the
department’s efforts to hide information to save face,
and actively sought to obstruct and discredit the efforts of outside researchers. Even when his own department had data that verified outside evidence of a
lead contamination problem, he continued trying to
generate evidence to the contrary. He also served a key
role in withholding and/or delaying disclosure of data
that outside researchers needed to protect the people
of Flint. Defendant Scott violated clearly established
constitutional rights of Plaintiffs, including but not
limited to the rights to bodily integrity and to be free
from state created danger. Defendant Scott’s actions
constitute gross negligence, as he had a substantial
lack of concern and/or willful disregard for whether an
injury resulted to Plaintiff.

App. 258
43. Susan Hedman, former EPA Region 5 Administrator, cannot yet be named as a Defendant pursuant
to the Federal Tort Claims Act (“FTCA”). Plaintiffs note
that if their anticipated FTCA claims to the EPA are
rejected, they may seek to amend their complaint in
order to add claims against Ms. Hedman.
44. Defendant Veolia North America, LLC (“Veolia”) is a Delaware corporation with its principal office
in Illinois. Veolia is a Defendant in this action based on
its provision of negligent professional engineering services in reviewing Flint’s water system and declaring
the water safe to drink. Veolia maintains an office in
Wayne County, Michigan, transacts business in the
State of Michigan, including the business it performed
for the City of Flint in 2015, and has committed a tort
in the State of Michigan, among bases for personal jurisdiction under MCL 600.705. Each of these bases extends to this District specifically.
45. Defendant Lockwood, Andrews & Newnam,
Inc. (“LAN”) is a Texas corporation with its principal
office in Texas. LAN is a Defendant in this action based
on its provision of negligent professional engineering
services in preparing Flint’s water treatment facility
to treat water from the Flint River. LAN maintains an
office in Flint, Genesee County, Michigan, regularly
conducts business in the Eastern District of Michigan,
and has committed a tort in the State of Michigan,
among bases for personal jurisdiction under MCL
600.705. Each of these bases extends to this District
specifically.

App. 259
JURISDICTION & VENUE
46. This Court has jurisdiction over Plaintiffs’
42 U.S.C. § 1983 claims pursuant to 28 U.S.C. § 1331,
as those claims arise under the Constitution and laws
of the United States. This Court has jurisdiction over
Plaintiffs’ remaining claims pursuant to 28 U.S.C.
§ 1367 because they are so related to claims in this action within the Court’s original jurisdiction that they
form part of the same case or controversy under Article
III of the United States.
47. This action does not present novel or complex
issues of State law that predominate over claims for
which this Court has original jurisdiction.
48. There are no compelling reasons for declining supplemental jurisdiction over those of Plaintiffs’
claims that do not arise under 42 U.S.C. § 1983.
49. All Defendants reside in this district within
the meaning of 28 U.S.C. § 1391(c). This Court has
personal jurisdiction over all Defendants because a
Michigan state court would have personal jurisdiction
under MCL 600.701 and MCL 600.705.
50. Venue in this District is appropriate pursuant to to 28 U.S.C. § 1391(b)(1) and (2).
51. Mich. Comp. Laws 600.6440 exempts actions
against State agencies from the jurisdiction of the
Michigan Court of Claims where the claimant has an
adequate remedy in the federal courts.

App. 260
FACTS
52. The outrageous actions of Defendants in this
matter have caused harm to Plaintiffs.
53. The actions of those state employees sued in
their individual capacities, acting under color of law, in
failing to protect Plaintiffs and then obscuring their
mistake as Plaintiffs continued to suffer, constitute
gross negligence and/or constitutional violations for
which they are not afforded immunity.
54. Two private entities contributed to this public health catastrophe when they negligently undertook
to provide services for Flint’s water system, resulting
in the poisoning of thousands, including Plaintiffs.
55. As a direct and proximate result of Defendants’ actions and/or failures to act, Plaintiffs’ constitutional and other rights have been violated and they
have suffered serious physical, mental, and emotional
injury, as well as property damage, as described in this
complaint.
The State of Michigan Completely
Overtook and Replaced Flint’s
Representative City Government
56. At all times between December, 2011 and
April 30, 2015, the City of Flint was under the control
and authority of an Emergency Manager appointed by,
and serving at the pleasure of, Governor Snyder.

App. 261
57. Michael Brown served Governor Snyder as
Flint’s emergency manager from December of 2011,
until August of 2012.
58. Ed Kurtz served Governor Snyder as Flint’s
emergency manager from August of 2012, until July of
2013.
59. Michael Brown again served Governor Snyder
as Flint’s emergency manager from July of 2013, until
October of 2013.
60. Defendant Earley served Governor Snyder
as Flint’s emergency manager from October of 2013,
until January of 2015.
61. Defendant Ambrose served Governor Snyder
as Flint’s emergency manager from January of 2015,
until April 30, 2015.
62. Therefore, at all relevant times prior to April
30, 2015, Flint’s local government was under the control of the State of Michigan.
The MDEQ, as a Matter of Pattern,
Practice, Custom, and Policy, Has Failed to
Adequately Protect Michigan Citizens
Against Lead Contaminated Drinking Water
63. In 2010, the EPA commissioned a report that
indicated problems with the MDEQ’s ability to ensure
safe drinking water.
64. The report noted that funding cuts caused
important MDEQ drinking water positions to be filled

App. 262
“with staff from other programs that have been cut or
eliminated. . . . While this practice preserves jobs, it
decreases the technical knowledge of staff[.]”
65. The report flatly stated that “[t]raining for
new staff would also be appreciated on fundamental
public health issues and compliance decisions.”
66. The report also indicated a number of technical shortcomings with the way the MDEQ regulated
the state’s drinking water, particularly as it related to
lead contamination.
67. Specifically, the report noted that while federal regulations require water utilities to certify that
the drinking water of 90% of homes in a given community contain no more than 15 parts per billion (“ppb”)
of lead, MDEQ had a practice of not even calculating
“90th percentiles” unless a potential exceedence had
been identified. This “does not meet the requirements
of Federal Regulations, since it is required that all 90th
percentiles be calculated.”
68. The report also noted that MDEQ did not
conduct the required number of water samples for
lead, apparently in an effort to conserve agency resources.
69. Organizational and individual actions and
failures of the MDEQ, such as those illustrated in the
report, directly resulted in the Flint catastrophe.

App. 263
The MDEQ Failed to Follow the U.S.
Environmental Protection Agency’s Lead and
Copper Rule in Flint And to Take Reasonable
Action to Prevent Flint’s Residents
70. The United States Environmental Protection
Agency (“EPA”) is responsible for setting rules under
the Safe Drinking Water Act.
71. Enforcement and implementation of those
rules is delegated to state environmental agencies. In
the case of Michigan, that agency is the MDEQ.
72. The EPA’s Lead and Copper Rule (“LCR”) has
been enacted to establish protocols to ensure that public water systems do not allow unsafe levels of lead or
copper to contaminate their drinking water supply.
73. While failing to protect Plaintiffs, the MDEQ
violated both the letter and spirit of the LCR.
74. Specifically, the MDEQ violated the letter
and spirit of the LCR in at least the following ways:
a.

By failing to require corrosion control for
Flint River water from the time Flint began drawing it;

b.

By misinforming the EPA about whether
corrosion control was being utilized;

c.

By improperly conducting sampling.

75. Instead of taking any preventative measures,
the MDEQ determined it was sufficient to conduct
two rounds of six-month lead sampling, using Flint’s

App. 264
residents, including Plaintiffs, as guinea pigs in a process of trial and error.
76. The first round of lead sampling was conducted between July and December 2014, and the second between January and June 2015. Despite the fact
that the sampling procedures were woefully inadequate, the tests showed rising lead levels in Flint’s water.
77. In conducting the sampling required under
the LCR, the MDEQ collected an insufficient number
of samples, consistent with MDEQ’s pattern, practice,
policy, and custom.
78. Further, the LCR requires at least 50% of
homes sampled to be verified as having lead pipes, with
the remaining 50% to have been built before 1986 and
known to have lead solder.
79. Flint’s data was essentially useless because
the MDEQ failed to require that the appropriate number of samples be drawn from these “high risk” homes.
80. Because an insufficient number of samples
were taken from a pool of homes that were not properly
determined to be “high risk,” the City of Flint has not
had a valid LCR sampling event since the switch to the
Flint River.
81. The MDEQ, through its former director, has
explicitly admitted that it did not follow the LCR, and
that it should have required corrosion control.

App. 265
82. Had the MDEQ followed the LCR, it would
have required water quality parameters and optimized
corrosion control on the Flint River water from the
very beginning, which likely would have prevented the
entire public health catastrophe that has caused Plaintiffs to suffer injuries and damages.
83. Instead, the MDEQ engaged in a pattern of
obfuscation and aggressive denial since the time the
source of Flint’s water was changed.
84. At all relevant times, MDEQ and its employees (incorrectly) insisted, despite overwhelming
information to the contrary, that it was minimally in
compliance with technical rules. No effort was made to
do a single thing more, even when it became obvious
that Defendants had created a public health catastrophe, until outside observers forced Defendants into action.
Under the State’s Authority, Flint’s Water
Supply Was Switched to the Flint River Without
the Provision of Any Corrosion Control,
Causing Poisonous Lead from Thousands of
Pipes to Leach Into Plaintiffs’ Drinking Water
85. For decades prior to April 25, 2014, the City
of Flint received safe, clean, treated drinking water from
the Detroit Water and Sewer Department (“DWSD”).
86. In November of 2012, Emergency Manager
Ed Kurtz wrote to Treasurer Andy Dillon suggesting

App. 266
that Flint join the yet-to-be-formed Karegnondi Water
Authority (KWA) due to cost savings over DWSD.
87. In April, 2013, Dillon gave Kurtz permission
to notify the DWSD that it would be terminating service and switching to the KWA in the coming years.
88. On April 16, 2013, Kurtz ordered that Flint
would switch its long term water supplier from the
DWSD to the KWA.
89. The KWA depended on an infrastructure
that had not yet been built.
90. While waiting for the KWA to come online,
the Emergency Manager ordered that instead of temporarily remaining with DWSD, Flint would switch to
the Flint River as a temporary source for the City’s water.
91. The temporary use of the Flint River was
also designed as a cost-cutting measure.
92. The Flint River was studied for use as a primary water source in a 2011 feasibility report, of which
Defendants were aware. At that time, the Flint River
was rejected because the costs to prepare Flint’s water
treatment plant to treat Flint River water to applicable standards were estimated to be in the tens of millions of dollars.
93. On March 7, 2014, Defendant Earley, who
had replaced Kurtz, sent a letter to the DWSD stating
“[w]e expect that the Flint Water Treatment Plant will
be fully operational and capable of treating Flint River

App. 267
water prior to the date of termination. In that case,
there will be no need for Flint to continue purchasing
water to serve its residents and businesses after April
17, 2014.”
94. Even Defendant Earley knew that the important limitation was that the treatment plant be
ready to treat Flint River water. The treatment plant
was not ready, but he forced the transition through in
order to meet the aggressive deadline he had selfimposed to cut costs.
95. Defendant Michael Glasgow, the water treatment plant’s laboratory and water quality supervisor
informed the MDEQ on April 16, 2014, that he was “expecting changes to our Water Quality Monitoring parameters, and possibly our DBP on lead & copper
monitoring plan . . . Any information would be appreciated, because it looks as if we will be starting the
plant up tomorrow and are being pushed to start distributing water as soon as possible . . . I would like to
make sure we are monitoring, reporting and meeting
requirements before I give the OK to start distributing
water.”
96. The next day, Defendant Glasgow wrote to
MDEQ, including Defendants Prysby and Busch, noting that he “assumed there would be dramatic changes
to our monitoring. I have people above me making
plans to distribute water ASAP. I was reluctant before,
but after looking at the monitoring schedule and our
current staffing, I do not anticipate giving the OK to
begin sending water out anytime soon. If water is

App. 268
distributed from this plant in the next couple of weeks,
it will be against my direction. I need time to adequately train additional staff and to update our monitoring plans before I will feel we are ready. I will
reiterate this to management above me, but they seem
to have their own agenda.”
97. The rushed nature of the transition to Flint
River water is also evident by a request made by Defendant Earley’s assistant to the treasury for a contract to be expedited in order to meet the “aggressive
timeline” of the switch.
98. On March 26, 2014, Defendant Busch emailed Defendant Shekter-Smith and another colleague the following: “One of the things we didn’t get
to today that I would like to make sure everyone is on
the same page on is what Flint will be required to do
in order to start using their plant full time. Because
the plant is setup for emergency use, they could
startup at any time, but starting up for continuous
operation will carry significant changes in regulatory
requirements so there is a very gray area as to what
we consider for startup.”
99. Defendant Ambrose participated in, directed,
and/or assented to the decisions to terminate DWSD
service and begin premature Flint River water service
when he served as a financial advisor to the two Emergency Managers that preceded him.
100. On April 24, 2014, Daugherty Johnson,
Flint’s Utilities Administrator, sent an email to Howard Croft, Mike Prysby, and Stephen Bush, stating: “As

App. 269
you are aware, the City has undergone extensive upgrades to our Water Treatment Plant and its associated facilities. Our intentions and efforts have been to
operate our facility as the primary drinking water
source for the City of Flint. Through consultation with
your office and our engineering firm we’ve developed a
system of redundant electrical systems, treatment processes and adequate finished water storage[.]”
101. An April 23, 2014 email from Defendant
Busch to Defendant Wurful developed talking points
for an upcoming Flint meeting. Among them, Busch offers: “While the Department is satisfied with the City’s
ability to treat water from the Flint River, the Department looks forward to the long term solution of continued operation of the City of Flint Water Treatment
Plant using water from the KWA as a more consistent
and higher quality source water.”
102. On April 25, 2014, Flint officially began using the Flint River as its primary water source, despite
the fact that the proper preparations had not been
made.
103. The same day, then Flint Mayor Dayne
Walling publically declared “It’s regular, good, pure
drinking water, and it’s right in our backyard.”
104. Flint DPW Director Howard Croft also
stated in a press release that “The test results have
shown that our water is not only safe, but of the high
quality that Flint customers have come to expect. We
are proud of that end result.”

App. 270
105. Croft’s statement was made despite Mr.
Glasgow’s known concerns regarding the facility’s inadequate preparation and monitoring.
106. This April 25, 2014 transition put Flint in
the business of water treatment, where it had previously only been in the business of water distribution,
highlighting the need for proper training of employees
and analysis of water treatment processes.
107. Defendant LAN, an engineering firm, was
hired to prepare Flint’s water treatment plant for the
treatment of new water sources, including both the
KWA and the Flint River.
108. Flint’s water treatment plant had not
needed to treat the water received from DWSD, as
DWSD provided the water in an already treated state.
109. Defendant LAN was responsible for providing engineering services to make Flint’s inactive water
treatment plant sufficient to treat water from each of
its new sources.
110. Defendant LAN carelessly and negligently
failed in its task. Its actions facilitated the transfer of
Flint’s water source to river water without the proper
treatment.
111. That treatment, necessary to protect against
the poisoning of thousands of Flint residents, including Plaintiffs, and would have cost a relatively small
amount of money.

App. 271
112. An important consideration any time a water system changes sources is to account for differences
in those sources. According to the EPA, “it is critical
that public water systems, in conjunction with their
primacy agencies and, if necessary, outside technical
consultants, evaluate and address potential impacts
resulting from treatment and/or source water changes.”
Various factors specific to individual water sources necessitate different treatments, including but not limited to the use of chemical additives.
113. Neither the State of Michigan (on its own or
through its control over the City of Flint), the MDEQ,
nor LAN required water quality standards to be set for
the Flint River water that would be delivered to Flint’s
residents. Further, none of them required corrosion
control be implemented to ensure that corrosive water
was not delivered throughout Flint’s aging water system.
114. The MDEQ, as Flint’s “primacy agency,” was
responsible for ensuring that Flint set water quality
standards and properly treated its water.
115. LAN, as Flint’s outside contractor, had a
duty to recognize the need for corrosion control and advise that it should be implemented.
116. The water obtained from the Flint River
was substantially more corrosive than the treated water Flint had been receiving from DWSD.

App. 272
117. Water becomes more corrosive when it contains greater quantities of chloride, which can enter
the water from manmade and natural sources.
118. Flint River water is known to contain about
8 times more chloride than the treated water that Flint
had been receiving from DWSD.
119. It is well known that corrosive water that is
not properly treated results in the corrosion of pipes,
such that the metals in the pipes will leach into drinking water.
120. Phosphates are often added to corrosive water as a method of corrosion control, to prevent metals
from leaching into the water.
121. Incredibly, at the time of the switch to Flint
River water, no phosphates were being added to the
water supply.
122. In fact, nothing whatsoever was being done
to account for the corrosive nature of the Flint River
water, despite the clear duties of the City of Flint, the
MDEQ, the State as Flint’s manager, and LAN as the
consultant.
123. As a result of the failure to properly treat
water from the Flint River, corrosive water was delivered throughout the Flint Water System.
124. The corrosive water predictably corroded
metal pipes, causing them to leach into water.
125. The corrosive nature of the water was almost immediately apparent. Soon after the switch,

App. 273
Flint residents began complaining about discolored
water – clearly indicating that iron or other metals
were leaching into the water.
126. It is important that a new source of water
be properly studied and treated to ensure that its use
will not result in the corrosion of pipes in the delivery
system. This is particularly important where portions
of the delivery system, included but not limited to service lines, are made of lead.
127. An estimated 15,000 of Flint’s 30,000 residential service lines are composed at least partially of
lead.
128. Setting standards and optimal ranges for
water quality is necessary to prevent widespread impacts from substandard or dangerous water.
129. Lead is a powerful neurotoxin that can have
devastating, irreversible impacts on the development
of children. There is no safe level of lead as its effects
are harmful even at low
130. Lead exposure in children causes heightened levels of lead in the blood and body, resulting
in problems including decreased IQ, behavioral problems, hearing impairment, impaired balance and nerve
function, infections, skin problems, digestive problems,
and psychological disorders. Lead also causes serious
health effects in adults, including digestive, cardiovascular, and reproductive problems, kidney damage,
dizziness, fatigue, weakness, depression and mood

App. 274
disorders, diminished cognitive performance, nervousness, irritability, and lethargy.
131. Lead contamination is not the only problem
that is caused when corrosive water is distributed in a
public water system.
132. When water corrodes iron pipes, the iron
leaching into the water system can consume chlorine.
This can eliminate the chlorine necessary to prevent
the growth of microorganisms that can cause disease.
133. With chlorine consumed by iron, the risk of
infection by organisms such as legionella increases.
134. Corrosion of iron water pipes is obvious
when it occurs, as the water appears discolored.
135. The corrosion of iron pipes can also result in
an increase in water main leaks and breaks.
136. The signs of iron corrosion are a warning
sign that lead corrosion may also be present, since both
are caused by the same phenomenon.
137. Almost immediately after the water source
was changed to the Flint River, signs of trouble with
Flint’s water quality began to surface.
138. Within weeks, many residents began to
complain about odorous, discolored water.
139. As complaints rolled in, Flint Mayor Walling called the water a “safe, quality product,” and
claimed that “people are wasting their precious money
buying bottled water.”

App. 275
140. In August and September, 2014, the City of
Flint issued two boil water advisories after fecal coliform bacteria was discovered in the water.
141. On October 13, 2014, General Motors ceased
the use of Flint River water at its engine plant because
of fears that it would cause corrosion due to high levels
of chloride.
142. Discussing General Motors’ decision, Defendant Prysby wrote to Defendants Busch, Shekter-Smith
and others that the Flint River water had elevated
chloride levels. He stated that “although not optimal”
the water was “satisfactory.” He noted that he had
“stressed the importance of not branding Flint’s water
as ‘corrosive’ from a public health standpoint simply
because it does not meet a manufacturing facility’s
limit for production.”
143. In October of 2014, Governor Snyder received a briefing that blamed iron pipes, susceptible to
corrosion and bacteria, for the two boil water advisories.
144. On January 2, 2015, the City of Flint mailed
a notice to its water customers indicating that it was
in violation of the Safe Drinking Water Act due to the
presence of trihalomethanes, which was a product of
attempting to disinfect the water. It was claimed that
the water was safe to drink for most people with
healthy immune systems.

App. 276
145. On January 9, 2015, the University of Michigan – Flint discovered lead in campus drinking fountains.
146. With the Flint water quality problems now
being recognized, on January 12, 2015, DWSD offered
to waive a 4 million dollar reconnection fee to transition back to DWSD water. Defendant Ambrose, as
Emergency Manager, declined the offer.
147. On January 21, 2015, enraged Flint residents attended a meeting a Flint City hall, bringing
jugs of discolored water and complaining about the water’s smell and taste.
148. As early as January of 2015, the State of
Michigan provided purified water coolers at its Flint
offices in response to concerns about the drinking water, while State employees continued for many months
to tell the general public that the water was safe to
drink.
149. In a January 29, 2015, e-mail to MDEQ deputy director Jim Sygo, Defendant Shekter-Smith made
statements indicating her personal knowledge of the
Flint River’s corrosivity. “I’m theorizing here, but most
likely what they are seeing is a result of differing water
chemistry. A change in water chemistry can sometimes
cause more corrosive water to slough material off of
pipes as opposed to depositing material or coating
pipes in the distribution system. This may continue for
a while until things stabilize. It would be unusual for
water leaving the plant to have color like people are
seeing at their taps. Generally this is a distribution

App. 277
system problem or a premise plumbing issues. Since it
appears wide-spread, it’s most likely a distribution system problem.”
150. On February 6, 2015, an Emergency Manager staff member wrote to Defendant Prysby, described as the MDEQ’s “most knowledgeable staff
member on the Flint and Genesee County water supply issues,” asking whether he knew if MDEQ had ever
conducted a “source water assessment” for the Flint
River. After an initial response stating that he did not
know, Prysby later responded that a study on the Flint
River as an emergency intake had been conducted in
2004.
151. The 2004 study noted that the Flint River
was a highly sensitive drinking water source that was
susceptible to contamination, yet apparently even Defendant Prysby did not consult it before approving the
Flint River as a source.
152. On February 27, 2015, in response to concerns about extremely high levels of lead in a resident’s
water sample, Defendant Busch told the EPA on behalf
of MDEQ that the Flint Water Treatment Plant had an
optimized corrosion control program, despite the fact
that it did not.
153. MDEQ was required to know whether Flint
had an optimized corrosion control program, because
ensuring the existence of that program was the express responsibility of MDEQ.

App. 278
154. MDEQ did, in fact, know that no optimized
corrosion control had been implemented, since MDEQ
was involved in the decision not to implement corrosion control.
155. MDEQ did not require the use of corrosion
control, and it did not set water quality parameters for
the Flint River source water, both of which it was required to do.
156. The effect of this inexplicable failure was
the exposure of Plaintiffs to poisonous water that
caused a wide variety of health effects, including developmental problems in young children.
157. Also on February 27, 2015, the EPA’s regional drinking water regulations manager. Miguel
Del Toral, began to voice his concerns about the likely
cause of the high lead levels detected in Flint. In an
email to Defendant Prysby that date (which was also
copied to Defendant Busch) Del Toral attributed those
levels to particulate lead, which would mean that the
MDEQ’s testing methods of “pre-flushing” water from
homes would bias samples low. He also inquired about
optimized corrosion control, which he noted was required that Flint was “required to have” in place.
158. At another point in February, 2015, Governor Snyder received a briefing on Flint’s water problems from MDEQ director Dan Wyant, which included
resident complaints about discolored, low quality tap
water, and a letter from a state representative indicating that his constituents were “on the verge of civil unrest.”

App. 279
159. Snyder took no significant action in response to the Flint residents’ pleas.
160. Around the same time, an MDEQ e-mail explained away “hiccups” in the transition to Flint’s water system, discounting the possibility of imminent
threats to public health, and noting that the switch to
the Flint River “put the city in the business of water
production, where they had historically been in the
business of water transmission.” It was claimed that
“once the city connects to the new KWA system in
2016, this issue will fade into the rearview.”
161. The MDEQ e-mail also noted that “MDEQ
approved the use of river as a source[.]”
162. In early 2015, Defendant Veolia was hired
to conduct a review of the City’s water quality, largely
in response to citizen complaints. Veolia thereafter
negligently declared the water safe.
163. Veolia’s task was to review Flint’s public
water system, including treatment processes, maintenance procedures, and actions taken.
164. As water treatment professionals, Veolia
had an opportunity to catch what Defendant LAN had
missed or refused to warn about – that corrosive water
was being pumped through lead pipes into the homes
of Flint residents without any corrosion control.
165. Veolia issued an interim report on its findings, which it presented to a committee of Flint’s City
Council on February 18, 2015.

App. 280
166. In its interim report, Veolia indicated that
Flint’s water was “in compliance with drinking water
standards.” It also noted that “[s]afe [equals] compliance with state and federal standards and required
testing.”
167. In other words, Veolia publically declared
Flint’s corrosive water, which was leaching heavy metals from service lines, safe.
168. Defendant Veolia’s interim report also noted
that the discoloration in Flint’s water “raises questions,” but “[d]oesn’t mean the water is unsafe.”
169. The interim report noted that among Veolia’s “next steps” were to “carry out more detailed study
of initial findings” and “[m]ake recommendations for
improving water quality.”
170. In response to potential questions about
“[m]edical problems,” Veolia’s interim report dismissively
claimed that “[s]ome people may be sensitive to any
water.”
171. Veolia issued its final “Water Quality Report” dated March 12, 2015.
172. In the final report, Veolia noted that it had
conducted a “160-hour assessment of the water treatment plant, distribution system, customer services and
communication programs, and capital plans and annual budget.”
173. The final report claims that “a review of water quality records for the time period under our study

App. 281
indicates compliance with State and Federal water
quality regulations.”
174. The final report states that “the public has
also expressed its frustration of discolored and hard
water. Those aesthetic issues have understandably increased the level of concern about the safety of the water. The review of the water quality records during the
time of Veolia’s study shows the water to be in compliance with State and Federal regulations, and based on
those standards, the water is considered to meet drinking water requirements.”
175. Specifically addressing the lack of corrosion
control, the final report notes that “[m]any people are
frustrated and naturally concerned by the discoloration of the water with what primarily appears to be
iron from the old unlined cast iron pipes. The water
system could add a polyphosphate to the water as a
way to minimize the amount of discolored water. Polyphosphate addition will not make discolored water issues go away. The system has been experiencing a
tremendous number of water line breaks the last two
winters. Just last week there were more than 14 in one
day. Any break, work on broken valves or hydrant
flushing will change the flow of water and potentially
cause temporary discoloration.”
176. Therefore, in addition to missing the connection between the lack of corrosion control and lead
contamination, Veolia made a permissive “could” suggestion aimed only at reducing aesthetic deficiencies

App. 282
while suggesting that Flint’s drinking water met all
applicable requirements and was safe to drink.
177. As a result of Veolia’s actions, Plaintiffs continued to be exposed to poisonous water beyond February and March of 2015.
178. As evidence of problems mounted, the state
and the MDEQ repeatedly denied the dangers facing
Flint’s residents, insisting that their water was safe to
drink.
179. On March 23-24, 2015, Flint’s powerless
City Council voted 7-1 to end Flint River service and
return to DWSD. Defendant Ambrose declared that
vote “incomprehensible” and rejected the proposal.
180. Defendant Ambrose then publically declared
that “Flint water today is safe by all Environmental
Protection Agency and Michigan Department of Environmental Quality standards, and the city is working
daily to improve its quality . . . water from Detroit is
no safer than water from Flint.”
181. On April 24, 2015, the MDEQ finally admitted to the EPA that Flint did not have optimized corrosion control in place, expressly contradicting its
statement from two months prior.
182. By no later than April 2015, but likely much
earlier, Defendants Cook, Busch, and Prysby were undeniably aware that no corrosion control was being
used in Flint following the switch to the Flint River as
the water source..

App. 283
183. The MDEQ, Defendants Cook, Busch, and
Prysby also knew that at least one EPA employee (EPA
Region 5 groundwater and drinking water regulations
manager, Miguel Del Toral (“Del Toral”)) disagreed
with their assertion that the MDEQ was adhering to
EPA requirements in its oversight of Flint’s compliance with the LCR.
184. The flawed interpretation used by MDEQ
and its employees amounted to a one year “free pass”
for the system, during which Flint’s residents would be
used as guinea pigs to see whether they should have
been protected in the first place.
185. The MDEQ, Defendants Cook, Busch, and
Prysby were expressly told by Del Toral that their sampling procedures skewed lead level results and did not
properly account for the presence of lead service lines.
186. In April 2015, Del Toral issued a memorandum to the MDEQ, stating: “I wanted to follow up on
this because Flint has essentially not been using any
corrosion control treatment since April 30, 2014, and
they have (lead service lines). Given the very high lead
levels found at one home and the pre-flushing happening in Flint, I’m worried that the whole town may have
much higher lead levels than the compliance results
indicated, since they are using pre-flushing ahead of
their compliance sampling.”
187. Del Toral, a national expert in the field,
identified the problem, the cause of that problem, and
the specific reason the state had missed it. Defendants
ignored and dismissed him.

App. 284
188. MDEQ’s director, Defendant Wyant, was expressly aware of Del Toral’s comments and concerns.
189. On May 1, 2015, Defendant Cook sent an
email to Del Toral disagreeing with Del Toral’s interpretation of his own agency’s rules and vehemently resisting calls for a water quality. Cook noted that “[a]s
Flint will be switching raw water sources in just over
one year from now, raw water quality will be completely different than what they currently use. Requiring a study at the current time will be of little to no
value in the long term control of these chronic contaminants.”
190. Apparently, Defendant Cook and the MDEQ
believed they could simply run out the clock on Flint’s
water quality problem, in conscious disregard for the
safety of the public, including Plaintiffs, as the water
source would be changing in the near future
191. Cook also falsely claimed that “the City of
Flint’s sampling protocols for lead and copper monitoring
comply with all current state and federal requirements.
Any required modifications will be implemented at a
time when such future regulatory requirements take
effect.
192. While Cook attempted to defend himself
and the MDEQ, he completely ignored Del Toral’s well
founded concerns that the MDEQ was missing lead in
Flint’s public drinking water. Instead, he was focused
on insisting that the MDEQ had technically complied
with applicable rules. It had not.

App. 285
193. On June 24, 2015, Del Toral authored an
alarming memorandum to Thomas Poy, the chief of the
EPA’s Region 5 Ground Water and Drinking Water
Branch, more fully stating his concerns about the problems with MDEQ’s oversight of Flint (the “Memorandum”).
194. Del Toral’s Memorandum noted that Flint
was not providing corrosion control treatment for mitigating lead and copper levels, “[a] major concern from
a public health standpoint.” Further, “[r]ecent drinking
water sample results indicate the presence of high lead
results in the drinking water, which is to be expected
in a public water system that is not providing corrosion
control treatment. The lack of any mitigating treatment for lead is of serious concern for residents that
live in homes with lead service lines or partial lead service lines, which are common throughout the City of
Flint.”
195. The Memorandum additionally noted that,
“[t]he lack of mitigating treatment is especially concerning as the high lead levels will likely not be reflected in the City of Flint’s compliance samples due to
the sampling procedures used by the City of Flint for
collecting compliance samples. . . . This is a serious
concern as the compliance sampling results which are
reported by the City of Flint to residents could provide
a false sense of security to the residents of Flint regarding lead levels in their water and may result in
residents not taking necessary precautions to protect
their families from lead in the drinking water . . . [o]ur
concern . . . has been raised with the [MDEQ].”

App. 286
196. Del Toral’s Memorandum also noted that a
Flint resident, Ms. Lee-Anne Walters, who had directly
contacted the EPA had alarming results of 104 ug/L
and 397 ug/L1, especially alarming given the flawed
sampling procedures used by the MDEQ. The MDEQ
had told the resident that the lead was coming from
the plumbing in her own home, but Del Toral’s inspection revealed that her plumbing was entirely plastic.
197. The memorandum also noted blood tests
showed Ms. Walters’s child had elevated blood lead levels, and that additional sample results from residentrequested samples showed high levels of lead.
198. Among those cc’d on the Memorandum were
Defendants Liane Shekter-Smith, Patrick Cook, Stephen Busch, and Michael Prysby.
199. On May 11, 2015, Jon Allan, director of the
Michigan Office of the Great Lakes, e-mailed Defendant Shekter-Smith for her reactions to the following
language in a proposed report “By 2020, 98 percent
of population served by community water systems is
provided drinking water that meets all health-based
standards . . . By 2020, 90 percent of the non-community
water systems provide drinking water that meets all
health-based standards.” Responding the same day,
MDEQ Water Resources Division Chief William Creal
replied: “I think you are nuts if you go with a goal
less than 100 percent for (drinking water) compliance
in the strategy. How many Flints to you intend to allow???”

App. 287
200. Defendant Shekter-Smith responded the
next day: “The balance here is between what is realistic and what is ideal. Of course, everyone wants 100
percent compliance. The reality, however, is that it’s
impossible. It’s not that we ‘allow’ a Flint to occur; circumstances happen. Water mains break, systems lose
pressure, bacteria gets into the system, regulations
change and systems that were in compliance no longer
are, etc. Do we want to put goal in black and white that
cannot be met but sounds good? Or do we want to establish a goal that challenges us but can actually be
accomplished? Perhaps there’s a middle ground?”
201. Defendant Shekter-Smith’s May 12, 2015
email comments reflect her obvious awareness at that
time that Flint’s water did not meet health based
standards, and her callous “circumstances happen”
statement demonstrated her deliberate indifference to
the results.
202. In approximately July 2015, Defendant
Busch claimed that “almost all” homes in the pool sampled for lead in Flint had lead service lines. This was
patently untrue and was made with no basis in fact,
and the effect of this mistake made the lead testing
results even more unreliable. Busch knew that this
statement was not true, because Flint’s records available at that time were insufficient to allow him to make
such a determination.
203. On July 9, 2015 ACLU-Michigan reporter
Curt Guyette publicly broke the story about lead in
Flint’s drinking water, citing Del Toral’s Memorandum

App. 288
and exposing the lack of corrosion control in Flint’s
drinking water.
204. Four days later, Defendant Wurfel issued
the following public statement: “Let me start here- anyone who is concerned about lead in the drinking water
in Flint can relax.”
205. On July 21, 2015, the EPA and MDEQ conducted a conference call regarding MDEQ’s implementation of the LCR. EPA pushed for optimized corrosion
control (which MDEQ had previously falsely told the
EPA that Flint was using), while MDEQ claimed it was
unnecessary and premature.
206. MDEQ could not have been more wrong. Far
from being premature, it was already too late to fully
protect the people of Flint.
207. In an e-mail follow-up to that call, sent to
an EPA employee, Defendant Shekter-Smith stated
“while we understand your concerns with the overall
implementation of the lead and copper rule (the “LCR”);
we think it is appropriate for EPA to indicate in writing (an email would be sufficient) your concurrence
that the city is in compliance with the lead and copper
rule as implemented in Michigan . . . This would help
distinguish between our goals to address important
public health issues separately from the compliance requirements of the actual rule which we believe have
been and continue to be met in the city of Flint.”
208. Defendant Shekter-Smith’s statement indicates that she and the MDEQ were more concerned

App. 289
about proving technical compliance with the LCR than
“address[ing] important public health issues.”
209. Again, Defendant Shekter-Smith statements
demonstrate a deliberate indifference to whether an
injury resulted to Flint’s residents, including Plaintiffs.
210. On July 22, 2015, Governor Snyder’s chief of
staff, Dennis Muchmore, sent an email indicating his
awareness of the problems with Flint’s water and the
state’s inadequate response. He noted: “I’m frustrated
by the water issue in Flint. I really don’t think people
are getting the benefit of the doubt. Now they are concerned and rightfully so about the lead level studies
they are receiving from DEQ samples. Can you take a
moment out of your impossible schedule to personally
take a look at this? These folks are scared and worried
about the health impacts and they are basically getting blown off by us (as a state we’re just not sympathizing with their plight).”
211. Linda Dykema, director of the MDHHS Division of Environmental Health sent an email to a number of department employees attempting to discredit Del
Toral, who to this point was the only government employee actively trying to protect Flint’s residents, including Plaintiffs, from lead poisoning. She claimed
“[r]egarding the EPA drinking water official quoted in
the press articles, the report that he issued was a result of his own research and was not reviewed or approved by EPA management. He has essentially acted
outside his authority.”

App. 290
212. On July 24, 2015, Defendant Wurfel wrote
an e-mail to Defendants Busch, Prysby, Shekter-Smith
and Wyant, stating: “Guys, the Flint Ministers met
with the Governor’s office again last week. They also
brought along some folks from the community – a college prof and GM engineer – who imparted that 80 water tests in Flint have shown high lead levels. Could
use an update on the January/June testing results, as
well as recap of the December testing numbers, and
any overview you can offer to edify this conversation.”
213. Defendant Busch responded the same day
in email to Defendant Wurfel copied to all others on the
original e-mail, claiming that the second round of Flint
drinking water testing showed a 90th percentile level
of 11 parts per billion, almost double the prior round’s
results.
214. Even with MDEQ’s terribly flawed sampling methods showing that lead levels had nearly
doubled since the first six month testing, and even with
outside evidence of even higher levels, Defendants
showed no concern and took no immediate action to
protect the people of Flint, including Plaintiffs.
215. Defendant Busch also noted in his e-mail
that Flint would be completing “a study (within 18
months) and are allowed a period of additional time (2
additional years) to install the selected treatment for
fully optimized corrosion control.
216. MDEQ and its employees would have allowed the continued poisoning of Flint’s residents,

App. 291
including Plaintiffs, over three more years without
even attempting to reduce the water’s corrosiveness.
217. On July 24, 2015, Defendant Wurfel wrote
the following to recipients including Mr. Muchmore
and Defendant Wyant: “Guys, here’s an update and
some clarification on the lead situation in Flint. Please
limit this information to internal for now . . . By the
tenants of the federal statute, the city is in compliance
for lead and copper. That aside, they have not optimized their water treatment . . . Conceivably, by the
time we’re halfway through the first timeline, the city
will begin using a new water source with KWA . . . and
conceivably, the whole process starts all over again. In
terms of near-future issues, the bottom line is that residents of Flint do not need to worry about lead in their
water supply, and DEQ’s recent sampling does not indicate an eminent [sic] health threat from lead or copper.”
218. In August, 2015, the EPA pressed MDEQ
to move faster on implementing corrosion control in
Flint.
219. On August 23, 2015, Virginia Tech Professor
Marc Edwards wrote MDEQ to inform them that he
would be conducting a study of Flint’s water quality.
220. On August 27, 2015, Professor Edwards’s
preliminary analysis was released. More than half of
the first 48 samples he tested came back above 5 ppb,
and more than 30% of them came back over 15ppb,
which would be unacceptable even as a 90th percentile.
He called the results “worrisome.”

App. 292
221. In an e-mail response to a Governor’s office
inquiry regarding the high lead levels in residents’
homes and the discrepancy between those numbers
and the state’s test results, Defendant Wurfel stated
“[d]on’t know what it is, but I know what it’s not. The
key to lead and copper in drinking water is that it’s not
the source water, or even the transmission lines (most
of which are cast iron). It’s in the premise plumbing
(people’s homes).”
222. This statement was made despite the facts
that about half of Flint’s homes are connected to lead
service lines, and that it was clear by this point that
Ms. Walters’s home had plastic plumbing.
223. Wurfel then blamed Del Toral, the ACLU,
and others taking action to help Flint’s residents, stating: “This person is the one who had EPA lead specialist come to her home and do tests, then released an
unvetted draft of his report (that EPA apologized to us
profusely for) to the resident, who shared it with
ACLU, who promptly used it to continue raising hell
with the locals . . . [I]t’s been rough sledding with a
steady parade of community groups keeping everyone
hopped-up and misinformed.”
224. On August 28, 2015, an EPA employee notified Defendant Shekter-Smith and other MDEQ employees that “Marc Edwards (Virginia Tech) is working
with some of the citizens in Flint and they are finding
lead at levels above five parts per billion and some
above 15 parts per billion. There’s no indication of
whether any of these homes were also sampled and

App. 293
analyzed by Flint and will now be part of their compliance calculations. Virginia Tech sent out 300 bottles
and have gotten 48 back. We are not involved in this
effort by Dr. Edwards.”
225. On September 2, 2015, Defendant Wurfel
engaged in further efforts to discredit Marc Edwards,
this time in a press release. He stated: “[W]e want to
be very clear that the lead levels being detected in
Flint drinking water are not coming from the treatment plant or the city’ transmission lines . . . The issue
is how, or whether, and to what extent the drinking water is interacting with lead plumbing in people’s
homes. . . . the results reported so far fail to track with
any of the lead sampling conducted by the city. In addition, Virginia Tech results are not reflected by the
blood lead level testing regularly conducted by the
state department of community health that have not
shown any change since Flint switched sources.”
226. Defendant Wurfel knew this statement to
be false, or had no reason to believe that it was true.
For example, it was obvious by this point that Ms. Walters’s home had plastic plumbing.
227. On September 6, 2015, another Wurfel attempt to discredit Edwards’s results was published
through Michigan Public Radio: “The samples don’t
match the testing that we’ve been doing in the same
kind of neighborhoods all over the city for the past
year. With these kinds of numbers, we would have expected to be seeing a spike somewhere else in the other
lead monitoring that goes on in the community.”

App. 294
228. Tragically, had the MDEQ or MDHHS been
doing their jobs, they would indeed have seen spikes in
all other forms of lead monitoring. Even worse, the
MDEQ had been told exactly why its testing failed to
reveal extremely high levels of lead.
229. Dr. Edwards published a report in early
September, 2015, with startling findings. Among them:
“FLINT HAS A VERY SERIOUS LEAD IN WATER
PROBLEM”; “101 out of 252 water samples from Flint
homes had first draw lead more than 5 ppb”; “Flint’s
90th percentile lead value is 25 parts per billion . . .
over the EPA allowed level of 15ppb that is applied to
high risk homes . . . How is it possible that Flint
‘passed’ the official EPA Lead and Copper Rule sampling overseen by MDEQ?”; “Several samples exceeded
100ppb and one sample collected after 45 seconds of
flushing exceeded 1,000 ppb[.].”
230. Additional Edwards findings included that
“[o]n average, Detroit water is 19 times less corrosive
than the Flint River water currently in use”; “even
with phosphate, Flint River water has 16 times more
lead compared to the same condition using Detroit water.”
231. Therefore, the Flint River water was so corrosive that even the obvious, necessary measure of
adding corrosion control may not have been enough to
make it totally safe
232. This would have been known if the water
were properly treated or studied before the switch. Instead, by and through the actions of Defendants

App. 295
herein, the residents of Flint, including Plaintiffs, were
used as guinea pigs in a “test then treat” scenario that
ensured at least one year of absolutely no protection
from lead contamination.
233. Edwards predicted that “in the weeks and
months ahead MDEQ and Flint will be forced to admit
they failed to protect public health as required under
the Federal Lead and Copper Rule.” He was entirely
correct.
234. Another scurrilous attack by Defendant
Wurfel on Professor Edwards and his team occurred on
September 9, 2015, when Wurfel told a reporter: “[T]he
state DEQ is just as perplexed by Edwards’s results as
he seems to be by the city’s test results, which are done
according to state and federal sampling guidelines and
analyzed by certified labs.”
235. This statement by Defendant Wurfel was
made with full knowledge that at least one EPA employee had told MDEQ that its testing was not being
conducted according to federal guidelines.
236. Defendant Wurfel also claimed that Professor Edwards’ team “only just arrived in town and
(have) quickly proven the theory they set out to prove,
and while the state appreciates academic participation
in this discussion, offering broad, dire public health advice based on some quick testing could be seen as fanning political flames irresponsibly.”
237. Again, Wurfel and MDEQ publically attempt
to discredit the people working to protect the public,

App. 296
including Plaintiffs, while providing false assurances
to Flint’s residents, including Plaintiffs, about the water that continues to poison them.
238. On September 10, 2015, Dr. Yanna Lambrinidou, a member of the EPA National Drinking
Water Advisory Council Lead and Copper Rule workgroup wrote to Defendants Wurfel and Busch, requesting information on “optimal water quality parameter
ranges” that MDEQ should have set for Flint’s water.
However, no such information existed, because MDEQ
had never created it.
239. Busch responded 101 previous water quality parameter ranges would have been established for
the City of Flint’s wholesale finished water supplier,
the Detroit Water and Sewerage Department, not the
City of Flint itself. As the City of Flint has not yet established optimized corrosion control treatment, the
MDEQ is not yet at the point of regulatory requirements where the range of water quality parameters
would be set.”
240. Water quality parameter ranges ensure
safe levels of things like PH, nitrates, and phosphates.
241. Dr. Lambrinidou replied “Do you mean that
MDEQ never set optimal water quality parameter
ranges specifically for Flint before Flint’s switch to
Flint River water? It is my impression, please correct
me if I’m wrong, that under the LCR, all large systems
– whether they are consecutive or not – must have optimal water quality parameter ranges designated by
states specifically for them (at the time when these

App. 297
systems are deemed to have optimized their treatment). Is there language in the LCR I am missing that
allows a utility not to have optimal quality parameter
ranges established specifically for it? My second question is this: If the City of Flint had no optimal water
quality parameter ranges established specifically for it
in the past, how did it achieve LCR compliance? Isn’t
it the case that utility-specific optimal water quality
parameter ranges (and maintenance of these ranges)
are required for all large systems to avoid an LCR violation?”
242. Busch’s response reiterated his contention
that Flint was not required to implement corrosion
control until unacceptably high levels of lead had already appeared in the water. This callous response, on
September 25, 2015, indicated Busch’s deliberate indifference to the health and welfare of Flint’s residents,
including Plaintiffs.
243. A September 10 e-mail from the EPA’s Jennifer Crooks to Defendant Shekter-Smith, summarizing
an apparent EPA-DEQ conference call, acknowledged
that Professor Edwards’s study “[was] putting added
pressure on MDEQ, and EPA to ensure that Flint addresses their lack of optimized corrosion control treatment in an expedited manner in order to protect the
residents from exposure to high lead levels.” Further,
“EPA acknowledged that to delay installation of corrosion control treatment in Flint would likely cause even
higher levels of lead over time as Flint’s many lead service lines are continuously in contact with corrosive
water.”

App. 298
244. In a September 17, 2015 letter, Defendant
Wyant wrote a letter in response to an inquiry from
various legislators, disavowing any responsibility for
reacting to Del Toro’s alarm-sounding Memorandum:
“With respect to the draft memo referenced in your letter, the MDEQ does not review or receive draft memos
from the USEPA, nor would we expect to while it is a
draft.
245. Wyant’s statement was made despite the
fact that he and the MDEQ were fully aware of Del
Toral’s Memorandum and the concerns it raised, and
as though this apparent MDEQ policy justified ignoring Del Toral.
246. On September 15, 2015, MLive published
an article entitled “Virginia Tech professor says Flint’s
tests for lead in water can’t be trusted.” Edwards is
quoted as recommending a return to DWSD, stating
“Flint is the only city in America that I’m aware of that
does not have a corrosion control plan in place to stop
this kind of problem.”
247. On September 23, 2015, an e-mail from Defendant Croft to numerous officials included the following: “I am pleased to report that the City of Flint has
officially returned to compliance with the Michigan
Safe Drinking Water Act and we have received confirming documentation from the DEQ today . . . Recent
testing has raised questions regarding the amount of
lead that is being found in the water and I wanted to
report to you our current status. At the onset of our
plant design, optimization for lead was addressed and

App. 299
discussed with the engineering firm and with the DEQ.
It was determined that having more data was advisable prior to the commitment of a specific optimization
method. Most chemicals used in this process are phosphate based and phosphate can be a ‘food’ for bacteria.
We have performed over one hundred and sixty lead
tests throughout the city since switching over to the
Flint River and remain within EPA standards.”
248. Defendant Croft’s statement was made despite his knowledge that the samples the city had
taken were insufficient to draw any conclusions
249. Defendant Croft’s widely disseminated message makes no mention of the flawed lead testing results.
250. On September 25, 2015, Snyder Chief of
Staff Dennis Muchmore sent an e-mail to Governor
Snyder and others that treated the situation in Flint
as a political inconvenience instead of a humanitarian
crisis. He stated: “The DEQ and [MDHHS] feel that
some in Flint are taking the very sensitive issue of children’s exposure to lead and trying to turn it into a
political football claiming the departments are underestimating the impacts on the populations and are particularly trying to shift responsibility to the state . . . I
can’t figure out why the state is responsible except that
Dillon did make the ultimate decision so we’re not able
to avoid the subject. The real responsibility rests with
the County, city, and KWA[.]”
251. In addition to ignoring the fact that the
state had taken over Flint, Muchmore’s evasion of

App. 300
state responsibility ignores the role of the MDEQ and
MDHHS in this crisis.
252. Where MDEQ caused, obscured, and lied
about the lead problem, MDHHS should have discovered and revealed it.
253. Instead, the MDHHS obscured, obfuscated,
and intentionally withheld information which conclusively showed that the children of Flint were being poisoned. It took the work of an outside doctor to force
MDHHS to acknowledge its failures.
254. While MDEQ ignored and criticized the
very people it should have been gratefully listening to
in Del Toral and Dr. Edwards, the MDHHS extended
the same treatment to Dr. Mona Hanna-Attisha, a pediatrician at Flint’s Hurley Hospital.
255. In a July 28, 2015, email from MDHHS
epidemiologist Cristin Larder to MDHHS employees
Nancy Peeler and Patricia McKane, Larder identifies
an increase in blood lead levels in Flint just after the
switch to river water, and concludes only that the issue
“warrant[s] further investigation.”
256. On the same day, Nancy Peeler sent an email admitting an uptick in children with elevated
blood lead levels in Flint in July, August, and September 2014, but attributing it to seasonal variation.
257. MDHHS took no actions as outsiders began
to discover and reveal Flint’s lead problem. Instead, it
withheld data and obstructed those researchers while
actively attempting to refute their findings.

App. 301
258. In a September 10, 2015, e-mail from MDHSS
health educator Michelle Bruneau to colleague Kory
Groestch, regarding a talking points memorandum,
she states: “[M]ay be a good time to float the draft out
to the others because if we’re going to take action it
needs to be soon before the Virginia Tech University
folks scandalize us all.”
259. Again, instead of acting to help the people
of Flint, including Plaintiffs, the State and its employees were concerned with protecting themselves.
260. In a September 11, 2015, e-mail to Linda
Dykema and Kory Groestch of the MDHHS, Defendant
Shekter-Smith wrote: “Since we last spoke, there’s
been an increase in the media regarding lead exposure.
Any progress developing a proposal for a lead education campaign? We got a number of legislative inquiries that we are responding to. It would be helpful to
have something more to say.” DHHS’s Bruneau responded to Groetsch: “Told ya,” and incredibly, includes
a “smiley face” emoticon.
261. Groetsch then responds to Shekter-Smith
that Bruneau has written only “the bones” of a health
education and outreach plan.
262. The same day, Robert Scott, the data manager for the MDHHS Healthy Homes and Lead Prevention program, was e-mailed a copy of a grant
proposal for Professor Edwards’s study Edwards’s
grant proposal described a “perfect storm” of “out of
control” corrosion of city water pipes leading to “severe
chemical/biological health risks for Flint residents.”

App. 302
Scott forwarded the grant proposal to MDHHS employees Nancy Peeler, Karen Lishinski, and Wesley
Priem, with the note[w]hen you have a few minutes,
you might want to take a look at it. Sounds like there
might be more to this than what we learned previously.
Yikes!”
263. On September 22, 2015, MDHHS Environmental Public Health Director Lynda Dykema, emailed
MDHHS’ Geralyn and Defendant Peeler, among others. She stated: “Here is a link to the VA Tech study re
city of Flint drinking water . . . It appears that the researchers have completed testing of a lot of water samples and the results are significantly different than the
city and DEQ data. It also appears that they’ve held
public meetings in Flint, resulting in concerns about
the safety of the water that have arisen in the last few
days.”
264. On the same day, Dr. Mona Hanna-Attisha
requested from Robert Scott and others at MDHHS
full state records on blood tests, likely to compare to
her own data. She notes “[s]ince we have been unable
to obtain recent MCIR blood lead data for Flint kids in
response to the lead in water concerns, we looked at all
the blood lead levels that were processed through Hurley Medical Center[.]” She tells the MDHHS that despite being denied data access from the state, she has
found “striking results.”
265. Dr. Hanna-Attisha had heard complaints
from Flint residents about their water and found out
that no corrosion control was being used. She developed

App. 303
a study using her hospital’s data, comparing lead levels in blood samples taken before and after the switch
in the water supply.
266. On September 24, 2015, Dr. Hanna-Attisha
released a study showing post-water-transition elevated blood-lead levels in Flint children at a press conference. Dr. Hanna-Attisha had essentially done the
job that the MDHHS should have done.
267. Earlier that day, MDHSS employee Angela
Minicuci circulated a memorandum of “Flint Talking
Points” in anticipation of Dr. Hanna-Attisha’s study. It
noted that her results were “under review” by MDHHS,
but that her methodology was different, implying that
her methodology was unorthodox or improper. “Looking at the past five years as a whole provides a much
more accurate look at the season trends of lead in the
area,” MDHHS claimed. “MDHHS data provides a
much more robust picture of the entire blood lead levels for the Flint area.”
268. Also regarding Dr. Hanna-Attisha’s findings, Governor Snyder’s press secretary e-mailed a number of state employees the following: “Team, [h]ere’s
the data that will be presented at the Hurley Hospital
press conference at 3 p.m. As you’ll see, they are pointing to individual children, a very emotional approach.
Our challenge will be to show how our state data is different from what the hospital and the coalition members are presenting today.”
269. Here again, the State and the individual
Defendants in this action were more concerned about

App. 304
protecting their own respective reputations than the
lives of Flint residents, including Plaintiffs. It never
addressed the most important – and obvious question
– what if Dr. Hanna Attisha was right?
270. MDHHS employees were uniformly dismissive of Dr. Hanna-Attisha’s results. Wesley Priem, manager of the MDHHS Healthy Homes Section, wrote to
MDHHS’ Kory Groetsch: “This is definitely being
driven by a little science and a lot of politics.”
271. The same day the results were released,
Robert Scott emailed Nancy Peeler, noting that he had
tried to “recreate Hurley’s numbers,” and says he sees
“a difference between the two years, but not as much
difference as they did.” Despite the fact that this constitutes MDHHS’s first internal recognition that their
own methodology could have been wrong and that
Flint children had been poisoned, Scott added “I’m sure
this one is not for the public.”
272. As this was going on, Professor Edwards
forcefully requested blood lead data from Mr. Scott. In
an email, the Professor notes that the State had failed
to provide the records to Dr. Hanna-Attisha’s team,
and accusing the MDHHS of “raising . . . obstacles to
sharing it with everyone who asks.” Professor Edwards
claims to have been requesting the data since August,
and notes that he has sent Scott ten e-mails on the subject.
273. The next day, Scott drafted a remarkable response, but never sent it to Professor Edwards on the
advice of Defendant Peeler. Included in the would-be

App. 305
response: “I worked with you earlier this month to get
data to you relatively quickly but did not manage to
complete the process before I went on annual leave for
several days. I neglected to inform you that I’d be away,
and I apologize for not informing you.”
274. Despite the fact that Scott admitted to going on vacation and leaving an important task unfinished as a public health crisis unfolded, Peeler tells
him to “apologize less.”
275. The day after Dr. Hanna-Attisha releases
her study, the City of Flint issues a health advisory,
telling residents to flush pipes and install filters to prevent lead poisoning.
276. The same day, Robert Scott responded to an
email from colleagues about Detroit Free Press interest in doing a lead story. At 12:16 p.m., Free Press reporter Kristi Tanner sent an email to Angela Minicuci
at MDHHS saying Tanner had looked at the lead increase in Flint as shown in DHS records between 20132014 and 2-14-2015 and Tanner is concluding that the
increase “is statistically significant.”
277. Scott writes to Minicuci: “The best I could
say is something like this: ‘While the trend for Michigan as a whole has shown a steady decrease in lead
poisoning year by year, smaller areas such as the city
of Flint have their bumps from year to year while still
trending downward overall.’
278. Nancy Peeler, also a party to the conversation, writes back to Scott and Minicuci: “My secret hope

App. 306
is that we can work in the fact that this pattern is similar to the recent past.”
279. This conversation unfolded the very day after Scott told Peeler that his own review of the data
showed increased post-switch lead levels, but that his
findings were not to be made public.
280. Peeler and Scott intentionally withheld information that they had a duty to disclose to the public,
and actively sought to hide the lead poisoning epidemic
that they had previously failed to discover.
281. Also on September 25, MDHHS’s Lasher
sent an email to Mr. Muchmore, Defendant Wyant, Defendant Wufel, and others, repeating criticisms of Dr.
Hanna-Attisha’s findings using quotation marks in
reference to the “data” that she reviewed and calling
her sample size into question.
282. Those MDHHS employees not actively engaged in the cover-up showed no urgency whatsoever
to this public health crisis. Cristin Larder sent an email to a number of colleagues: “After looking at the
data Kristi send you and talking with Sarah, I realize
I do not have access to the data I need to answer her
specific question about significance. I won’t be able to
get access before Monday. Sorry I wasn’t able to be
helpful right now.” Angela Minicuci responded: “Not a
problem, let’s connect on Monday.”
283. The MDHHS apparently could not be troubled with an ongoing public health emergency on the
weekend.

App. 307
284. As this crisis unfolded, Governor Snyder received briefings from Mr. Muchmore, which were more
focused on political reputation preservation than helping the people of Flint, including Plaintiffs.
285. Muchmore referred to the people raising
concerns about Flint’s lead as the “anti everything
group,” and claimed that it was the responsibility of
the City of Flint (overtaken by Snyder’s Emergency
Manager) to “deal with it.” Still, by September 26,
2015, Muchmore had told the governor that finding
funds “to buy local residents home filters is really a viable option,” and had identified service lines to homes
as a likely cause of the problem.
286. The Governor took no immediate action to
protect the rights, health, and safety of Flint’s residents while his subordinates continued to insist that
the water was safe and discredit those who presented
evidence to the contrary.
287. On September 28, 2015, another incredible
Defendant Wurfel public statement was released. He
claimed that the Flint situation is turning into “near
hysteria,” and saying of Dr. Hanna-Attisha’s statements “I wouldn’t call them irresponsible. I would call
them unfortunate.” He again declares Flint’s water
safe.
288. On September 28, 2015, State Senator Jim
Ananich sent a letter to Governor Snyder, noting “Mt
is completely unacceptable that respected scientific experts and our trusted local physicians have verified
that the City of Flint’s drinking water is dangerous for

App. 308
our citizens, especially our most vulnerable young people.” He called for immediate action, but the Governor
continued to wait.
289. The same day, MDHHS Director Nick Lyon
continues trying to discredit Dr. Hanna-Attisha’s study
despite his own department’s knowledge that it shows
a real problem. In an e-mail, he stated: “I need an analysis of the Virginia Tech/Hurley data and their conclusions. I would like to make a strong statement with a
demonstration of proof that the lead blood levels seen
are not out of the ordinary and are attributable to seasonal fluctuations. Geralyn is working on this for me
but she needs someone in public health who can work
directly with her on immediate concerns/questions.”
290. Incredibly, and in blatant violation of state
law, at all relevant times the state’s “top doctor,”
MDHHS chief medical executive Dr. Eden Wells was
attending to her responsibilities part time while also
working at the University of Michigan. Dr. Wells did
not become a full time state employee until February
1, 2016, and her mandatory responsibilities at the
state prior to that time may have involved as little as
eight (8) hours per week.
291. Dr. Wells was the sole medical doctor working as an executive for the department.
292. Dr. Wells’s predecessor, Dr. Gregory Holtzman, has noted that as a full time employee, he “kept
quite busy.”

App. 309
293. Other outsiders continued to put pressure
on the MDHHS to be more transparent.
294. Genesee County Health Officer Mark Valacak
wrote an e-mail to department employees, demanding
“to know whether you have confirmed with the lead
program staff at MDHHS that he state results that
purport that lead levels have not shown a significant
increase since the changeover of the water supply for
the city of Flint indeed represent Flint city zip codes
only and not Flint mailing addresses. As I mentioned
to you both this morning, Flint mailing addresses include outlying areas like Flint and Mundy Townships
which obtain their water from the Detroit water authority.”
295. Valacak’s email pointed out further flaws in
MDHHS methodology.
296. In the face of continued state denials, a
September 29, 2015, article in the Detroit Free Press
publically claimed “Data that the State of Michigan released last week to refute a hospital researcher’s claim
that an increasing number of Flint children have been
lead-poisoned since the city switched its water supply
actually supports the hospital’s findings, a Free Press
analysis has shown. Worse, prior to the water supply
change, the number of lead-poisoned kids in Flint, and
across the state, had been dropping; the reversal of
that trend should prompt state public health officials
to examine a brewing public health crisis.”
297. Dr. Hanna-Attisha could see the problem and
the Free Press could see the problem with the state’s

App. 310
own data, and yet the MDHHS found signs of a lead
problem but ignored it.
298. Finally, Governor Snyder was forced to admit that there was an emergency he could no longer
ignore. His Executive Director sent an e-mail on September 29, 2015 to Mr. Muchmore, Nick Lyon, and Defendant Wyant, among others, soliciting information
for a meeting regarding emergency management and
noting that Dr. Wells “should be speaking with Hurley.”
299. A September 29, 2015, internal e-mail between MDHHS employees refers to the situation in
Flint as sounding “like a third world country” and
openly wondering when the federal government might
be able to step in.
300. The same day, MDHHS employees discuss
efforts made by Genesee County to obtain MDHHS
data. Ms. Lasher writes “I understand that we are still
reviewing the data – but the county has basically issued a ransom date that they want this information by
tomorrow . . . Eden – please coordinate an answer so
Nick can walk into the 1 p.m. (meeting with the governor) prepared on this.”
301. As demonstrated in Ms. Lasher’s email, the
state continued to refuse to take even the simplest
measure to protect public health until outsiders forced
it to do so.
302. Also on September 29, 2015, Geralyn
Lasher e-mailed Defendants Peeler and Wells, Scott,
and several others at MDHHS: “Is it possible to get the

App. 311
same type of data for just children under the age of six?
So basically, the city of Flint kids ages six and under
with the same type of approach as the attached chart
you gave us last week?”
303. Linda Dykema responds to fellow MDHHS
employees including Defendant Wells: “[i]t’s bad enough
to have a data war with outside entities, we absolutely
cannot engage in competing data analyses within the
Department, or, heaven forbid, in public releases.”
304. Defendant Wells’s only reply to that email
was a single word: “Agree,” showing MDHHS continuing efforts to mislead the public, protect itself, and discredit Dr. Hanna-Attisha.
305. The MDHHS and its employees were completely disinterested in the truth or finding out whether
it may have made an error.
306. When Dr. Hanna-Attisha directly e-mailed
Defendant Wells with updated findings that isolated
certain high risk areas of the city and showed that
blood lead levels have "more than tripled,” Defendant
Wells responded that the state was working to replicate Hanna-Attisha’s analysis, and inquired about Dr.
Hanna-Attisha’s plans to take the information public.
307. While discouraging her department to look
further into Dr. Hanna-Attisha’s findings and misleading Dr. Hanna-Attisha, Defendant Wells remained focused on a single task; saving face at the expense of
Flint’s residents.

App. 312
308. Also on September 29, 2015, Genesee
County issued its own health advisory about Flint’s
water. Two days later, the county warned Flint residents not to drink the water.
309. As the lead crisis unfolded, the State also
obscured the cause of Flint’s Legionnaires’ disease outbreak. Because of the common cause, the lack of corrosion control, this effort further hindered outside efforts
with respect to the lead problem.
310. The state actively prevented interested federal officials from becoming involved in the Legionnaires’ investigation.
311. A Centers for Disease Control and Prevention (“CDC”) employee wrote to Genesee County
Health officials in April of 2015: “We are very concerned about this Legionnaires’ disease outbreak . . .
It’s very large, one of the largest we know of in the past
decade, and community-wide, and in our opinion and
experience it needs a comprehensive investigation.”
312. That e-mail added “I know you’ve run into
issues getting information you’ve requested from the
city water authority and the MI Dept of Environmental Quality. Again, not knowing the full extent of your
investigation it’s difficult to make recommendations,
and it may be difficult for us to provide the kind of detailed input needed for such an extensive outbreak
from afar.”
313. On December 5, 2015, an employee of Genesee County Health Department accused state officials

App. 313
of covering up their mishandling of Flint’s Legionnaires’ disease outbreak. Tamara Brickey wrote to colleagues that “[t]he state is making clear they are not
practicing ethical public health practice.” Further, “evidence is clearly pointing to a deliberate cover-up,” and
“Mil my opinion, if we don’t act soon, we are going to
become guilty by association.”
314. On October 1, 2015, the MDHHS officially
confirmed Dr. Hanna-Attisha’s results. Department
employees developed a “talking points” memorandum
that gently admitted that further analysis of their own
data supported the doctor’s findings, but cited lead
paint as a greater concern than the water.
315. Finally, after months of denial, obstruction,
and lies, the State began to act on October 12, 2015.
Governor Snyder received a proposal to reconnect Flint
to DWSD and worked on plans for lead testing and
water filters. Still, Governor Snyder’s “comprehensive
action plan” stated that “[t]he water leaving Flint’s
drinking water system is safe to drink, but some families with lead plumbing in their homes or service connections could experience higher levels of lead in the
water that comes out of their faucets.”
316. Subsequent tests have shown that lead levels in Flint’s water have been so high that filters could
not remove all lead, meaning that the state’s recommendation and distribution of filters as a solution continued to inflict harm.

App. 314
317. On October 16, 2015, Flint reconnected to
DWSD. However, the damage had been done and lead
has continued to leach from pipes into the water.
318. Two days later Defendant Wyant admitted
the colossal failure that his department had made,
many months after it was expressly brought to their
attention. Wyant informed Governor Snyder that “staff
made a mistake while working with the City of Flint.
Simply stated, staff employed a federal (corrosion control) treatment protocol they believed was appropriate,
and it was not.” Also; “simply said, our staff believed
they were constrained by two consecutive six-month
tests. We followed and defended that protocol. I believe
now we made a mistake. For communities with a
population above 50,000, optimized corrosion control
should have been required from the beginning. Because of what I have learned, I will be announcing a
change in leadership in our drinking water program.”
319. Defendant Wyant admitted to the Detroit
News that MDEQ’s “actions reflected inexperience,
and our public response to the criticism was the wrong
tone early in this conversation.”
320. Apparently, by “early in this conversation,”
Wyant meant “until today.” On October 21, 2015, Governor Snyder appointed a five person task force to investigate the Flint water crisis. The task force included
Ken Sikkema, senior policy fellow at Public Sector
Consultants, Chris Kolb, president of the Michigan
Environmental Council, Matthew Davis, a professor
of pediatrics and internal medicine at the University

App. 315
of Michigan, Eric Rothstein, a private water consultant, and Lawrence Reynolds, a Flint pediatrician. The
day before the task force’s findings were released,
Snyder’s new chief of staff wrote to him that “[i]f this
is the path that the Task Force is on, it is best to make
changes at DEQ sooner rather than later. That likely
means accepting Dan’s resignation. It also means moving up the termination of the 3 DEQ personnel previously planned for Jan 4 to tomorrow.”
321. On December 29, 2015, the task force issued
a letter detailing its findings.
322. In that letter, the task force stated that
“[w]e believe the primary responsibility for what happened in Flint rests with the Michigan Department of
Environmental Quality (MDEQ). Although many individuals and entities at state and local levels contributed to creating and prolonging the problem, MDEQ is
the government agency that has responsibility to ensure safe drinking water in Michigan. It failed in that
responsibility and must be held accountable for that
failure.”
323. The task force letter continued: “The Safe
Drinking Water Act (SDWA) places responsibility for
compliance with its requirements on the public water
system. In this instance, the City of Flint had the responsibility to operate its water system within SDWA
requirements, under the jurisdiction of the MDEQ. The
role of the MDEQ is to ensure compliance with the
SDWA through its regulatory oversight as the primary

App. 316
agency having enforcement responsibility for the Flint
water system.”
324. The letter indicated that the MDEQ had
failed to properly interpret and apply the Lead and
Copper Rule. The letter pointed to a “minimalist approach to regulatory and oversight authority” at
MDEQ’s Office of Drinking Water and Municipal Assistance (headed by Defendant Shekter-Smith) which
“is unacceptable and simply insufficient to the task of
public protection. It led to MDEQ’s failure to recognize
a number of indications that switching the water
source in Flint would-and did- compromise both water
safety and water quality.”
325. The letter also noted that “[t]hroughout
2015, as the public raised concerns and as independent
studies and testing were conducted and brought to the
attention of MDEQ, the agency’s response was often
one of aggressive dismissal, belittlement, and attempts
to discredit these efforts and the individuals involved.”
326. Further, that “the MDEQ seems to have
been more determined to discredit the work of others
– who ultimately proved to be right – than to pursue
its own oversight responsibility.”
327. Regarding other failures of the state, the
task force report noted that “we are particularly concerned by recent revelations of MDHHS’s apparent
early knowledge of, yet silence about, elevated blood
lead levels detected among Flint’s children.”

App. 317
328. “The City of Flint’s water customers—fellow
Michigan citizens—were needlessly and tragically exposed to toxic levels of lead through their drinking water supply.” The report also notes that the state
government should be responsible for remedying the
tragedy, “having failed to prevent it.”
329. In October 2015, Defendant Shekter-Smith
was reassigned so as to have no responsibility for
Flint’s drinking water.
330. On December 5, 2015, the City of Flint declared a state of emergency. In response to a blog post
by Professor Edwards entitled “Michigan Health Department Hid Evidence of Health Harm Due to Lead
Contaminated Water. Allowed False Public Assurances
by MDEQ and Stonewalled Outside Researchers,” the
Governor’s Communications Director wrote to Governor Snyder and others “Mt wasn’t until the Hurley report came out that our epidemiologists took a more
in-depth look at the data by zip code, controlling for
seasonal variation, and confirmed an increase outside
of normal trends. As a result of this process we have
determined that the way we analyze data collected
needs to be thoroughly reviewed.”
331. In other words, MDHHS’s failure to
properly analyze its own data was a matter of practice,
pattern, custom, and/or policy.
332. On December 23, 2015, the Michigan Auditor General provided an investigative report on the crisis, finding that corrosion control should have been

App. 318
maintained from the beginning and that improper
sample sites had been selected by the MDEQ.
333. On December 30, 2015, Defendants Wyant
and Wurfel resigned.
334. On January 4, 2016, Genesee County declared its own state of emergency.
335. On January 12, 2016, the Governor called
the National Guard into Flint and requested assistance from FEMA.
336. On January 13, 2015, the Governor announced the massive spike in Legionnaires’ disease in
Genesee county, ten months after the state was made
aware that the spike coincided with the switch to Flint
River water.
337. On January 16, 2016, President Obama declared a federal state of emergency in his January 19,
2016, State of the State address, Governor Snyder admitted to the people of Flint that “Government failed
you at the federal, state and local level.”
338. On January 21, 2016, EPA’s Susan Hedman
resigned over her involvement in the Flint Water crisis. Hedman had acted with deliberate indifference to
the MDEQ’s failures to follow federal law and guidelines, and helped to silence Del Toral.
339. On January 21, 2016, the EPA issued an
Emergency Order, based on its finding that “the City of
Flint’s and the State of Michigan’s responses to the

App. 319
drinking water crisis in Flint have been inadequate to
protect public health and that these failures continue.”
340. The Emergency Order included as Respondents the City of Flint, the MDEQ, and the Emergency
Order provided for the EPA to conduct its own sampling of lead in Flint’s water and undertake other actions as part of a process “to abate the public health
emergency in the City of Flint.”
341. The Emergency Order notes that “[t]he
presence of lead in the City water supply is principally
due to the lack of corrosion control treatment after the
City’s switch to the Flint River as a source in April
2014. The river’s water was corrosive and removed protective coatings in the system. This allowed lead to
leach into the drinking water, which can continue until
the system’s treatment is optimized.”
342. The Emergency Order indicates that “water
provided by the City to residents poses an imminent
and substantial endangerment to the health of those
persons. Those persons’ health is substantially endangered by their ingestion of lead in waters that persons
legitimately assume are safe for human consumption.”
343. Further, the EPA states that “The City,
MDEQ and the State have failed to take adequate
measures to protect public health.”
344. According to the Emergency Order: “Based
upon the information and evidence, EPA determines
that Respondents’ actions that resulted in the introduction of contaminants, which entered a public water

App. 320
system and have been consumed and may continue to
be consumed by those served by the public water system, present an imminent and substantial endangerment to the health of persons.”
345. In a public statement, EPA Administrator
Gina McCarthy declared: “Let’s be really clear about
why we are here today . . . We are here today because
a state-appointed emergency manager made the decision that the City of Flint would stop purchasing
treated water that had well served them for 50 years
and instead purchase untreated—and not treat that
water and by law the state of Michigan approved that
switch and did not require corrosion control. All to save
money. Now that state decision resulted in lead leaching out of lead service pipes and plumbing, exposing
kids to excess amounts of lead. That’s why we’re here.”
346. On January 22, Defendants Shekter-Smith
and Busch were suspended without pay. Defendant
Shekter-Smith’s firing was announced on February 5,
2016.
347. At one of several congressional hearings on
the subject, EPA Deputy Assistant Administrator Joel
Beauvais testified “MDEQ incorrectly advised the City
of Flint that corrosion-control treatment was not necessary, resulting in leaching of lead into the city’s
drinking water . . . EPA regional staff urged MDEQ to
address the lack of corrosion control, but was met with
resistance. The delays in implementing the actions
needed to treat the drinking water and in informing

App. 321
the public of ongoing health risks raise very serious
concerns.”
COUNT I:
42 U.S.C. § 1983 – SUBSTANTIVE DUE PROCESS – DEPRIVATION OF CONTRACTUALLY
CREATED PROPERTY RIGHT
(Against Defendants City of Flint, Croft,
Glasgow, State of Michigan, Snyder, Earley,
Ambrose, MDEQ, Shekter-Smith, Wyant,
Busch, Cook, Prysby, and Wurfel)
348. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 347 of this complaint, as
though fully restated herein.
349. Plaintiffs possessed and were deprived of a
state contract law created property right to purchase
and receive safe, potable drinking water.
350. Plaintiffs’ right was created by the actions
of the parties as well as under Section § 46-16 et. seq.
of the Flint City Ordinance.
351. Plaintiffs’ right is so rooted in the traditions
and conscience of the American people as to be ranked
as fundamental and protected by the Constitution.
352. Defendants violated Plaintiffs’ property
right when, ceasing to provide Plaintiffs with safe, potable water, they provided Plaintiffs with poisonous,
contaminated water.

App. 322
353. The violation of Plaintiffs’ property right is
not adequately redressed in a state breach of contract
action.
354. The violation of Plaintiffs’ property right involved Defendants’ failure to adequately train, supervise, and/or hire employees.
355. It was Defendants’ practice to inadequately
train, supervise, and/or hire employees.
356. Defendants’ outrageous, deliberate acts
and/or inaction in violating Plaintiffs’ protected property right caused Plaintiffs to suffer injuries.
357. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
358. As a direct and proximate result of all of the
above Defendants’ conduct and/or failures to act,
Plaintiffs have suffered past, present and future personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,
lost earning capacity, aggravation of pre-existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), and punitive damages.

App. 323
COUNT II:
42 U.S.C. § 1983 – PROCEDURAL DUE PROCESS – DEPRIVATION OF CONTRACTUALLY
CREATED PROPERTY RIGHT
(Against Defendants City of Flint, Croft,
Glasgow, State of Michigan, Snyder, Earley,
Ambrose, MDEQ, Shekter-Smith, Wyant,
Busch, Cook, Prysby, and Wurfel)
359. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 358 of this complaint as
though fully restated herein.
360. Defendants deprived Plaintiffs of their contractually based property right to purchase and receive
safe, potable drinking water without notice or hearing.
361. Defendants have not provided Plaintiffs
with just compensation for their taking of Plaintiffs’
property interests.
362. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
363. As a direct and proximate result of all of the
above Defendants’ conduct and/or failures to act,
Plaintiffs have suffered past, present and future personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,

App. 324
lost earning capacity, aggravation of pre existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), as well as punitive damages.
COUNT III:
42 U.S.C. § 1983 – SUBSTANTIVE DUE
PROCESS – STATE CREATED DANGER
(Against Defendants City of Flint, Croft,
Glasgow, State of Michigan, Snyder, Earley,
Ambrose, MDEQ, MDHHS, Shekter Smith,
Wyant, Busch, Cook, Prysby, Wurfel,
Wells, Peeler, Lyon, and Scott)
364. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 363 of this complaint as
though fully restated herein.
365. Plaintiffs in this action are citizens of the
United States and all of the Defendants are persons for
purposes of 42 U.S.C. § 1983.
366. Defendants in this Count III, at all times
relevant hereto, were acting under the color of law in
their individual and official capacity as State and City
officials, and their acts and/or omissions were conducted within the scope of their official duties and employment.
367. Plaintiffs herein, at all times relevant
hereto, have a clearly established Constitutional right
under the Fourteenth Amendment, such that the state
may not deprive a person of life, liberty or property
without due process of law.

App. 325
368. Defendants each acted to expose Plaintiffs
to toxic, lead-contaminated water.
369. Defendants made, caused to be made,
and/or were responsible for continued representations
that the water was safe to drink.
370. Defendants’ actions and omissions with regard to the switch to the Flint River, as described
herein, were objectively unreasonable in light of the
facts and circumstances confronting them, and therefore violated the Fourteenth Amendment rights of
Plaintiffs.
371. Defendants’ actions and omissions with regard to the switch to the Flint River, as described
herein, were also malicious and/or involved reckless,
callous, and deliberate indifference to Plaintiffs’ federally protected rights. These actions and omissions
shock the conscience and violated the Fourteenth
Amendment rights of Plaintiffs.
372. Defendants obscured and hid information
that was known to them to demonstrate the danger
that faced Plaintiffs.
373. Defendants acted with a deliberate indifference to a known and/or obvious danger.
374. Defendants created and/or increased the
danger facing Plaintiffs.
375. Defendants’ actions constituted gross negligence, because they were so reckless as to demonstrate

App. 326
a substantial lack of concern for whether an injury
would result.
376. As a result of the actions of the Defendants,
Plaintiffs suffered injuries, including but not limited to
personal injuries, illnesses, exposure to toxic substances, and property damage.
377. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
378. As a direct and proximate result of all of the
above Defendants’ conduct and/or failures to act,
Plaintiffs have suffered past, present and future personal injuries,including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,
lost earning capacity, aggravation of pre existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), and punitive damages

App. 327
COUNT IV:
42 U.S.C. § 1983 – SUBSTANTIVE DUE
PROCESS – BODILY INTEGRITY
(Against Defendants City of Flint, Croft,
Glasgow, State of Michigan, Snyder, Earley,
Ambrose, MDEQ, MDHHS, Shekter Smith,
Wyant, Busch, Cook, Prysby, Wurfel, Wells,
Peeler, Lyon, and Scott)
379. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 378 of this complaint as
though fully restated herein.
380. Plaintiffs in this action are citizens of the
United States and all of the Defendants are persons for
purposes of 42 U.S.C. § 1983.
381. All Defendants, at all times relevant hereto,
were acting under the color of law in their individual
and official capacity as State and City officials, and
their acts and/or omissions were conducted within the
scope of their official duties and employment.
382. Plaintiffs have a clearly established right to
bodily integrity under the Fourteenth Amendment.
383. At all times relevant hereto, that right is
and has been well established.
384. In providing Plaintiffs with contaminated
water, and/or causing Plaintiffs to consume that water,
Defendants violated Plaintiffs’ right to bodily integrity,
insofar as Defendants failed to protect Plaintiffs from
a foreseeable risk of harm from the exposure to lead
contaminated water.

App. 328
385. As a result of Defendants’ actions and/or
omissions, Plaintiffs suffered bodily harm and their
rights to bodily integrity were violated.
386. Defendants’ actions were malicious, reckless, and/or were made with deliberate indifference to
Plaintiffs’ constitutional rights. Defendants engaged in
these acts willfully, maliciously, in bad faith, and/or in
reckless disregard for Plaintiffs’ constitutional rights.
387. Defendants’ actions shock the conscience of
Plaintiffs and of any reasonable person.
388. As a direct and proximate result of Defendants’ unlawful conduct, Plaintiffs have suffered injuries and seek relief as described in this complaint.
389. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
390. As a direct and proximate result of all of
the above Defendants’ conduct and/or failures to act,
Plaintiffs have suffered past, present and future personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental
injuries including (without limitation) cognitive deficits, lost earning capacity, aggravation of pre existing
conditions, contract damages and property damages

App. 329
(including but not limited to damaged plumbing and
lost real property value), and punitive damages.
COUNT V:
BREACH OF CONTRACT
PLAINTIFF GUERTIN
(Against Defendants City of Flint
and the State of Michigan)
391. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 390 of this complaint as
though fully restated herein.
392. Defendant City of Flint, by its statutes and
by offering services to its residents, offers to sell potable, safe drinking water to its residents.
393. Plaintiffs, Guertin, accepted the offer by utilizing Flint’s water, agreeing to pay for the water, and
tendering payment for the water.
394. Plaintiffs, Guertin, and Defendant City of
Flint entered into a contract for the purchase and sale
of potable, safe drinking water.
395. Defendant State of Michigan overtook the
local government of Flint and assumed and/or shared
its duties under the contract to sell potable, safe drinking water to Plaintiffs.
396. Defendants materially and irreparably
breached the contract with Plaintiffs by failing to
provide potable, safe drinking water, and instead

App. 330
providing harmful, foul, contaminated water unfit for
human consumption.
397. As a result of Defendants’ breach, Plaintiffs
suffered damages in the amount of all debts and obligations for Flint water, whether tendered or untendered, and as stated throughout this complaint.
398. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
399. As a direct and proximate result of the
above Defendants’ conduct and/or failures to act,
Plaintiffs have suffered past, present and future personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,
lost earning capacity, aggravation of pre existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), and exemplary damages.

App. 331
COUNT VI:
BREACH OF IMPLIED WARRANTY
(Against Defendants City of Flint and
the State of Michigan)
400. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 399 of this complaint as
though fully restated herein.
401. The State of Michigan and the City of Flint
directly promised to provide water that was fit for human consumption and/or impliedly promised that the
water was fit for human consumption.
402. The State of Michigan and the City of Flint
have both admitted that the water it supplied was contamination, including being poisoned with lead, and
therefore clearly not fit for its intended use of human
consumption.
403. The provision of water unfit for its intended
purpose and/or the admission that the water was not
fit for its intended purpose constitute material
breaches of an implied warranty and/or contract.
404. Defendants are liable to Plaintiffs for all
amounts billed and/or charged and/or collected,
whether paid or unpaid, for water that was unfit for
human consumption.
405. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
406. As a direct and proximate result of the individual Defendants’ conduct and/or failures to act,

App. 332
Plaintiffs have suffered past, present and future personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,
lost earning capacity, aggravation of pre existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), and exemplary damages.
COUNT VII:
NUISANCE
(Against All Defendants)
407. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 406 of this complaint as
though fully restated herein.
408. Defendants’ actions in causing foul, poisonous, lead contaminated water to be delivered to the
homes of Plaintiffs resulted in the presence of contaminants in Plaintiffs’ properties and/or persons.
409. Defendants’ actions substantially and unreasonably interfered with Plaintiffs’ comfortable living and ability to use and enjoy their homes,
constituting a nuisance.

App. 333
410. Plaintiffs did not consent for foul, poisonous, lead contaminated water to physically invade
their persons or property.
411. Plaintiffs suffered injuries and damage to
their persons and/or properties as a direct and proximate result of Defendants’ actions in causing lead contaminated water to be delivered to their homes.
412. Defendants’ actions in causing a substantial and unreasonable interference with Plaintiffs’
ability to use and enjoy their properties constitutes a
nuisance and Defendants are liable for all damages
arising from such nuisance, including compensatory
and exemplary relief.
413. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
414. As a direct and proximate result of the Defendants’ conduct and/or failures to act, Plaintiffs have
suffered past, present and future personal injuries, including but not limited to: various health problems (including without limitation hair, skin, digestive and
other organ problems), physical pain and suffering,
mental anguish, fright and shock, disability, denial of
social pleasures and enjoyments, embarrassment, humiliation, and mortification, medical expenses, wage
loss, brain and/or developmental injuries including
(without limitation) cognitive deficits, lost earning capacity, aggravation of pre existing conditions, contract
damages and property damages (including but not limited to damaged plumbing and lost real property
value), as well as exemplary damages.

App. 334
COUNT VIII:
TRESPASS
(Against All Defendants)
415. Plaintiffs incorporate every allegation in
this complaint as if fully restated herein. Plaintiffs
hereby incorporate the allegations in paragraphs 1
through 414 of this complaint as though fully restated
herein.
416. Defendants’ negligent, grossly negligent,
willful, and/or wanton conduct and/or failures to act
caused contaminants to enter upon Plaintiffs’ property
and into Plaintiffs’ persons.
417. Upon information and belief, Defendants
had exclusive control over the facilities providing
Plaintiffs’ water at all relevant times.
418. Defendants, knowingly or in circumstances
under which they should have known, engaged in deliberate actions that released contaminants which
were substantially certain to invade the properties of
Plaintiffs.
419. Defendants knew or should have known of
the likelihood that corrosive water would cause lead to
drink into Plaintiffs’ drinking water.
420. Defendants’ actions resulted in contaminants entering into Plaintiffs’ persons and properties,
causing injury and damage to person and property.

App. 335
421. Defendants’ actions were done with actual
malice or wanton, reckless or willful disregard for
Plaintiffs’ safety, rights, and/or property.
422. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
423. As a direct and proximate result of the Defendants’ conduct and/or failures to act, Plaintiffs have
suffered past, present and future personal injuries, including but not limited to: various health problems (including without limitation hair, skin, digestive and
other organ problems), physical pain and suffering,
mental anguish, fright and shock, disability, denial of
social pleasures and enjoyments, embarrassment, humiliation, and mortification, medical expenses, wage
loss, brain and/or developmental injuries including
(without limitation) cognitive deficits, lost earning capacity, aggravation of pre existing conditions, contract
damages and property damages (including but not limited to damaged plumbing and lost real property
value), and exemplary damages.
COUNT IX:
UNJUST ENRICHMENT
(Against Defendants City of Flint
and State of Michigan)
424. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 423 of this complaint as
though fully restated herein.

App. 336
425. Defendants have received the benefits of the
funds paid by Plaintiffs for contaminated water that
was and is unfit for human consumption.
426. Defendants have utilized these funds for
the operation of the government(s) of Flint and/or
Michigan.
427. The retention of the benefit of the funds
paid by Plaintiffs constitutes unjust enrichment in the
amount of all funds paid for water that was unfit for
human consumption.
428. It would be unjust to allow Defendants to
retain the benefit they obtained from Plaintiffs.
COUNT X:
NEGLIGENCE/PROFESSIONAL
NEGLIGENCE/GROSS NEGLIGENCE
(Against Defendant Veolia)
429. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 428 of this complaint as
though fully restated herein.
430. Veolia undertook, for consideration, to render services for the City of Flint which it should have
recognized as necessary for the protection of Plaintiffs
and/or their property.
431. Veolia undertook to perform a duty owed to
Plaintiffs by the City of Flint and/or the State of Michigan.

App. 337
432. Based on its undertaking, Veolia had a duty
to Plaintiffs to exercise reasonable care to protect that
undertaking.
433. Plaintiffs relied on the City, State, and/or
Veolia to perform its duties with respect to the City’s
public drinking water system.
434. Veolia carelessly and negligently failed to
undertake its duties with respect to the City’s public
drinking water system with reasonable care and conduct as a professional engineering firm.
435. Veolia carelessly and negligently failed to
exercise reasonable care in inspecting the City’s water
system and issuing its interim and final reports.
436. Veolia carelessly and negligently failed to
exercise reasonable care when it declared that Flint’s
drinking water met federal and/or state and/or all applicable requirements.
437. Veolia carelessly and negligently failed to
exercise reasonable care when it represented that
Flint’s drinking water was safe.
438. Veolia carelessly and negligently failed to
exercise reasonable care when it discounted the possibility that problems unique to Flint’s water supply
were causing medical harms.
439. Veolia carelessly and negligently failed to
exercise reasonable care when it failed to warn about
the dangers of lead leaching into Flint’s water system.

App. 338
440. Veolia carelessly and negligently failed to
exercise reasonable care when it did not forcefully recommend the immediate implementation of corrosion
control for purposes of preventing lead contamination
in Flint’s water supply.
441. Plaintiffs suffered harm resulting from Veolia’s failures to exercise reasonable care to protect its
undertaking.
442. Veolia’s failures to exercise reasonable care
in performing its undertaking proximately caused the
Plaintiffs’ injuries and were entirely foreseeable.
443. Veolia is liable to Plaintiffs for all harms resulting to themselves and their property from Veolia’s
failures to exercise reasonable care.
444. Veolia’s liability includes without limitation
personal injuries, illnesses, exposure to toxic substances, and property damage suffered by Plaintiffs as
a result of Veolia’s failures to exercise reasonable care.
445. Veolia’s conduct and/or failure(s) to act constitute gross negligence because it was so reckless that
it demonstrates a substantial lack of concern for
whether an injury would result.
446. Veolia’s actions and/or omissions were a
and/or the proximate cause of the Plaintiffs’ injuries.
447. As a direct and proximate result of Veolia’s
actions and/or omissions, Plaintiffs have suffered past,
present and future personal injuries, including but not
limited to: various health problems (including without

App. 339
limitation hair, skin, digestive and other organ problems), physical pain and suffering, mental anguish,
fright and shock, disability, denial of social pleasures
and enjoyments, embarrassment, humiliation, and
mortification, medical expenses, wage loss, brain
and/or developmental injuries including (without limitation) cognitive deficits, lost earning capacity, aggravation of pre existing conditions, contract damages and
property damages (including but not limited to damaged plumbing and lost real property value), as well as
punitive and/or exemplary damages.
COUNT XI:
NEGLIGENCE/PROFESSIONAL
NEGLIGENCE/GROSS NEGLIGENCE
(Against Defendant LAN)
448. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 447 of this complaint as
though fully restated herein.
449. LAN undertook, for consideration, to render
services for the City of Flint which it should have recognized as necessary for the protection of Plaintiffs
and/or their property.
450. LAN undertook to perform a duty owed to
Plaintiffs by the City of Flint and/or the State of Michigan.
451. Based on its undertaking, LAN had a duty
to Plaintiffs to exercise reasonable care to protect that
undertaking.

App. 340
452. Plaintiffs relied on the City, State, and/or
LAN to perform the duty to ensure the proper treatment of the new water source(s).
453. LAN failed to exercise reasonable care in
preparing for and executing the transition from
treated DWSD water to untreated Flint River water.
454. LAN failed to undertake reasonable care
and conduct as a professional engineering firm.
455. LAN failed to exercise reasonable care
when it did not implement corrosion control in a system containing lead pipes that was being transitioned
onto a highly corrosive water source.
456. Plaintiffs suffered harm resulting from
LAN’s failures to exercise reasonable care to protect its
undertaking.
457. LAN’s failures to exercise reasonable care
to protect its undertaking proximately caused the
Plaintiffs’ injuries and were entirely foreseeable.
458. LAN is liable to Plaintiffs for all harms resulting to themselves and their property from Veolia’s
failures to exercise reasonable care.
459. LAN liability includes without limitation
personal injuries, illnesses, exposure to toxic substances, and property damage suffered by Plaintiffs as
a result of LAN’s failures to exercise reasonable care.
460. LAN’s conduct and/or failure(s) to act constitute gross negligence because it was so reckless that

App. 341
it demonstrates a substantial lack of concern for
whether an injury would result.
461. LAN’s actions and/or omissions were a
and/or the proximate cause of the Plaintiffs’ injuries.
462. As a direct and proximate result of LAN’s
actions and/or omissions, Plaintiffs have suffered past,
present and future personal injuries, including but not
limited to: various health problems (including without
limitation hair, skin, digestive and other organ problems), physical pain and suffering, mental anguish,
fright and shock, disability, denial of social pleasures
and enjoyments, embarrassment, humiliation, and
mortification, medical expenses, wage loss, brain
and/or developmental injuries including (without limitation) cognitive deficits, lost earning capacity, aggravation of pre existing conditions, contract damages and
property damages (including but not limited to damaged plumbing and lost real property value), as well as
punitive and/or exemplary damages.
COUNT XII:
GROSS NEGLIGENCE
(Against Defendants Snyder, Croft, Glasgow,
Earley, Ambrose, Shekter-Smith, Wyant, Busch,
Cook, Prysby, Wurfel, Wells, Peeler and Scott)
463. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 462 of this complaint as
though fully restated herein.

App. 342
464. Defendants independently owed Plaintiffs a
duty to exercise reasonable care.
465. Defendants undertook, for consideration, to
perform a duty owed to Plaintiffs and by the City of
Flint and/or the State of Michigan.
466. Based on their undertakings, Defendants
had a duty to Plaintiffs to exercise reasonable care to
protect that undertaking.
467. Plaintiffs relied on the City, State, and/or
Defendants to perform the duty to ensure the proper
treatment of Flint River Water.
468. Plaintiffs relied on the City, State, and/or
Defendants to perform the duty to disclose known hazards in their drinking water.
469.
care.

Defendants failed to exercise reasonable

470. Defendants breached their duties to Plaintiffs in ways including but not limited to the following:
a. Failing to require corrosion control treatment of Flint River water;
b. Failing to conduct proper testing of Flint’s
water;
c. Failing to require proper testing of Flint’s
water;
d. Failing to respond to evidence that Flint’s
water was improperly treated;

App. 343
e. Misrepresenting that corrosion control
treatment had been implemented;
f. Publically declaring unsafe water to be
safe to drink;
g. Ignoring evidence that Flint’s water was
unsafe to drink;
h. Withholding information that showed
that Flint’s water was unsafe to drink;
i. Publicly discrediting those who claimed
that Flint’s water may not be safe to drink;
j. Failing to warn Plaintiffs the public that
Flint’s water was not safe to drink.
471. Plaintiffs suffered harm resulting from Defendants’ failures to exercise reasonable care.
472. Plaintiffs suffered harm resulting from Defendants’ failures to exercise reasonable care to protect
their undertakings.
473. Defendants’ failures to exercise reasonable
care to protect their undertakings proximately caused
the Plaintiffs’ injuries and were entirely foreseeable.
474. Defendants are liable to Plaintiffs for all
harms resulting to themselves and their property from
Defendants’ failures to exercise reasonable care.
475. Defendants’ liability includes without limitation personal injuries, illnesses, exposure to toxic
substances, and property damage suffered by Plaintiffs
as a result of Defendants’ failures to exercise reasonable care.

App. 344
476. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
477. All of the above individual Defendants’ conduct and/or failure to act constitute gross negligence
because it was so reckless that it demonstrates a substantial lack of concern for whether injury would result.
478. The performance of governmental functions
constituting gross negligence falls within the exceptions of governmental immunity pursuant to MCL
691.1407.
479. As a direct and proximate result of the
above individual Defendants’ conduct and/or failures
to act, Plaintiffs have suffered past, present and future
personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,
lost earning capacity, aggravation of pre existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), as well as punitive and/or exemplary damages.

App. 345
COUNT XIII:
INTENTIONAL INFLICTION
OF EMOTIONAL DISTRESS
(Against Defendants Snyder, Croft, Glasgow,
Earley, Ambrose, Shekter-Smith, Wyant, Busch,
Cook, Prysby, Wurfel, Wells, Peeler and Scott)
480. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 479 of this complaint as
though fully restated herein.
481. Defendants’ outrageous conduct in causing,
prolonging, and obscuring Plaintiffs’ exposure to toxic,
lead contaminated water exceeds all bounds of decency
in a civilized society.
482. Defendants’ outrageous conduct was intentional and/or reckless and made with a conscious disregard for the rights and safety of Plaintiffs.
483. Defendants’ outrageous conduct caused severe distress to Plaintiffs..
484. Defendants’ outrageous conduct was the
proximate cause of Plaintiffs’ injuries.
485. As a direct and proximate result of the
above individual Defendants’ conduct and/or failures
to act, Plaintiffs have suffered past, present and future
personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,

App. 346
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,
lost earning capacity, aggravation of pre existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), as well as punitive and/or exemplary damages.
COUNT XIV:
NEGLIGENT INFLICTION
OF EMOTIONAL DISTRESS
(Against Defendants Snyder, Croft, Glasgow,
Earley, Ambrose, Shekter Smith, Wyant, Busch,
Cook, Prysby, Wurfel, Wells, Peeler and Scott)
486. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 485 of this complaint as
though fully restated herein.
487. Defendants were in a special relationship to
Plaintiffs, being persons entrusted with the protection
of their most basic needs – water, health, and safety.
488. The distress caused to Plaintiffs by Defendants was highly foreseeable.
489. Defendants placed Plaintiffs in a zone of
physical danger, causing them severe emotional distress.
490. Plaintiffs have contemporaneously perceived the exposure of their immediate family members to lead contaminated water.

App. 347
491. Defendants’ negligent acts were the proximate cause of Plaintiffs’ contemporaneous perception
of their loved ones exposure to lead contaminated water.
492. Defendants’ negligent acts were the proximate cause of Plaintiffs being placed into a zone of
physical danger and resulting severe emotional distress.
493. Defendants’ negligent acts were the proximate cause any and all severe emotional distress related to their own exposure and their families’
exposure to lead contaminated water.
494. As a direct and proximate result of the
above individual Defendants’ conduct and/or failures
to act, Plaintiffs have suffered past, present and future
personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental injuries including (without limitation) cognitive deficits,
lost earning capacity, aggravation of pre existing conditions, contract damages and property damages (including but not limited to damaged plumbing and lost
real property value), as well as punitive and/or exemplary damages.
495. At critical times including during gestation
and her developmental years, the minor plaintiff has

App. 348
been exposed to damaging levels of lead and other toxic
substances. Plaintiffs’ damages and losses include, but
are not limited to, physical and psychological injuries,
learning and other permanent disabilities, weight loss,
stunted growth, anemia, headaches, abdominal and
other pain, mental anguish, emotional distress, the
cost of medical, educational, and rehabilitation expenses, and other expenses of training and assistance,
and loss of income and earning capacity
496. Plaintiffs, at the time of sustaining the injuries complained of herein, have been the owners, lessees and/or occupants of certain real property located
in Flint, Michigan, that received highly corrosive and
contaminated water pumped from the Flint River.
497. Upon information and belief, Defendants,
who were acting under the color of law, deprived Plaintiffs of their rights under the 14th Amendment to the
United States Constitution. Specifically, Defendants
deprived Plaintiffs of life, liberty and property without
due process of law when the decision to switch to the
Flint River was made, thus providing Plaintiffs with
toxic and unsafe water.

App. 349
COUNT XV:
PROPRIETARY FUNCTION
(Against Defendants Snyder, Croft, Glasgow,
Earley, Ambrose, Shekter Smith, Wyant, Busch,
Cook, Prysby, Wurfel, Wells, Peeler and Scott)
498. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 497 of this complaint as
though fully restated herein.
499. At relevant times, Defendants engaged in
proprietary functions, specifically, the sale of potable
water to Plaintiffs.
500. Defendants’ primary purpose in the aforementioned facts was to produce a pecuniary profit for
the governmental agencies.
501. The relevant activities are not normally
supported by taxes and fees.
502. The conduct of Defendants constituted “proprietary function” in avoidance of governmental immunity.
503. The performance of governmental functions
constituting proprietary function falls within the exceptions of governmental immunity pursuant to MCL
691.1413.
504. Defendants independently owed Plaintiffs a
duty to exercise reasonable care.
505. Based on their undertakings, Defendants
had a duty to Plaintiffs to exercise reasonable care to
protect that undertaking.

App. 350
506. Plaintiffs relied on Defendants to perform
the duty to ensure the proper treatment of Flint River
Water.
507. Plaintiffs relied on Defendants to perform
the duty to disclose known hazards in their drinking
water.
508.
care.

Defendants failed to exercise reasonable

509. Defendants breached their duties to Plaintiffs in ways including but not limited to the following:
a. Failing to require corrosion control treatment of Flint River water;
b. Failing to conduct proper testing of Flint’s
water;
c. Failing to require proper testing of Flint’s
water;
d. Failing to respond to evidence that Flint’s
water was improperly treated;
e. Misrepresenting that corrosion control
treatment had been implemented;
f. Publically declaring unsafe water to be
safe to drink;
g. Ignoring evidence that Flint’s water was
unsafe to drink;
h. Withholding information that showed
that Flint’s water was unsafe to drink;

App. 351
i. Publicly discrediting those who claimed
that Flint’s water may not be safe to drink;
j. Failing to warn Plaintiffs the public that
Flint’s water was not safe to drink.
510. Plaintiffs suffered harm resulting from Defendants’ failures to exercise reasonable care.
511. Defendants are liable to Plaintiffs for all
harms resulting to themselves and their property from
Defendants’ failures to exercise reasonable care.
512. Defendants’ liability includes without limitation personal injuries, illnesses, exposure to toxic
substances, and property damage suffered by Plaintiffs
as a result of Defendants’ failures to exercise reasonable care.
513. Defendants’ actions and/or omissions were
the proximate cause of the Plaintiffs’ injuries.
514. As a direct and proximate result of the
above individual Defendants’ conduct and/or failures
to act, Plaintiffs have suffered past, present and future
personal injuries, including but not limited to: various
health problems (including without limitation hair,
skin, digestive and other organ problems), physical
pain and suffering, mental anguish, fright and shock,
disability, denial of social pleasures and enjoyments,
embarrassment, humiliation, and mortification, medical expenses, wage loss, brain and/or developmental
injuries including (without limitation) cognitive deficits, lost earning capacity, aggravation of pre existing
conditions, contract damages and property damages

App. 352
(including but not limited to damaged plumbing and
lost real property value), as well as punitive and/or exemplary damages.
PUNITIVE DAMAGES
515. Plaintiffs hereby incorporate the allegations in paragraphs 1 through 344 of this complaint as
though fully restated herein.
516. Upon information and belief, Defendants
engaged in willful, wanton, malicious, and or/reckless
conduct that caused the foregoing property damage,
nuisances, and trespasses upon Plaintiffs’ persons and
properties, disregarding the rights of Plaintiffs.
517. Defendants’ willful, wanton, malicious,
and/or reckless conduct includes but is not limited to:
a. failure to provide safe drinking water to
the residents of Flint;
b. failure to implement adequate corrosion
controls for Flint River water; and
c. underestimating the seriousness of the
lead contamination in Flint’s water system.
518. Defendants have caused great harm to
Plaintiffs’ property and water supplies and demonstrated an outrageous conscious disregard for Plaintiffs’ safety with implied malice, warranting the
imposition of punitive damages.

App. 353
DEMAND FOR JURY TRIAL
Plaintiffs hereby demand a jury trial pursuant to
Federal Rule of Civil Procedure 3 8(b) on all issues so
triable in this action.
RELIEF REQUESTED
WHEREFORE, this Complaint is being plead in
avoidance of governmental immunity and the Defendants’ defense of governmental immunity is voidable
due to the proprietary function and gross negligence
exceptions as well as all other relevant exceptions and
Plaintiffs demand judgment against Defendants, and
each of them, jointly and severally, and request the following relief from the Court:
A. An order declaring the conduct of defendants
unconstitutional;
B.

An order of equitable relief to remediate the
harm caused by defendants of unconstitutional conduct including repairs or property,
establishment of a medical monitoring fund,
and appointing a monitor to oversee the water
operations of Flint for a period of time deemed
appropriate by the court;

C.

An order for an award for general damages;

D. An order for an award of compensatory damages;
E. An order for an award of punitive damages;
F.

An order for an award of actual reasonable attorney fees and litigation expenses;

App. 354
G. An order for all such other relief the court
deems equitable.
Respectfully submitted,
/s/ David E. Hart
MADDIN, HAUSER, ROTH & HELLER, P.C.
Second Floor Essex Centre
28400 Northwestern Hwy
Southfield, Michigan 48034
Tel. (248) 827-1884
dhart@maddinhauser.com
Counsel for Plaintiffs
Scott Morgan Admission Pending
MORGAN LAW FIRM, LTD.
55 West Wacker Dr., Suite 900
Chicago, Illinois 60601
Tel. 312.327.3386
smorgan@smorgan-law.com
Counsel for Plaintiffs
John Sawin Admission Pending
SAWN LAW FIRM, LTD.
55 West Wacker Drive, Suite 900
Chicago, Illinois 60601
Tel. 312.853.2490
jsawinsawinlawyers.com
Counsel for Plaintiffs

App. 355
Steven Hart & Robert Mclaughlin
Admissions Pending
HART, MCLAUGHLIN & ELDRIDGE, LLC
116 West Illinois Street, Suite 3E
Chicago, Illinois 60654
Tel. 312.955.0545
Counsel for Plaintiffs
Dated: July 27, 2016

App. 356
Act No.
436 Public Acts of 2012
Approved by the Governor
December 26, 2012
Filed with the Secretary of State
December 27, 2012
EFFECTIVE DATE: March 28, 2013
The People of the State of Michigan enact:
*

*

*

Sec. 1. This act shall be known and may be cited
as the “local financial stability and choice act”.
Sec. 2. As used in this act:
(a) “Chapter 9” means chapter 9 of title 11 of the
United States Code, 11 USC 901 to 946.
(b) “Chief administrative officer” means any of
the following:
*

*

*

(ii) The city manager of a city or, if a city does not
employ a city manager, the mayor of the city.
*

*

*

(e) “Emergency manager” means an emergency
manager appointed under section 9. An emergency
manager includes an emergency financial manager appointed under former 1988 PA 101 or former 1990 PA
72 who was acting in that capacity on the effective date
of this act.

App. 357
*

*

*

(g) “Financial and operating plan” means a written financial and operating plan for a local government
under section 11, including an educational plan for a
school district.
*

*

*

(k) “Local government” means a municipal government or a school district.
(l) “Local government representative” means the
person or persons designated by the governing body
of the local government with authority to make recommendations and to attend the neutral evaluation process on behalf of the governing body of the local
government.
*

*

*

(n) “Municipal government” means a city, a village, a township, a charter township, a county, a department of county government if the county has an
elected county executive under 1966 PA 293, MCL
45.501 to 45.521, an authority established by law, or a
public utility owned by a city, village, township, or
county.
*

*

*

(q) “Receivership” means the process under this act
by which a financial emergency is addressed through
the appointment of an emergency manager. Receivership does not include chapter 9 or any provision under
federal bankruptcy law.

App. 358
*

*

*

(u)

“State financial authority” means the follow-

(i)
urer.

For a municipal government, the state treas-

ing:

*

*

*

(v) “Strong mayor” means a mayor who has been
granted veto power for any purpose under the charter
of that local government.
(w) “Strong mayor approval” means approval of
a resolution under 1 of the following conditions:
(i)

The strong mayor approves the resolution.

(ii) The resolution is approved by the governing
body with sufficient votes to override a veto by the
strong mayor.
(iii) The strong mayor vetoes the resolution and
the governing body overrides the veto.
Sec. 3. The legislature finds and declares all of the
following:
(a) That the health, safety, and welfare of the citizens of this state would be materially and adversely
affected by the insolvency of local governments and
that the fiscal accountability of local governments is
vitally necessary to the interests of the citizens of this
state to assure the provision of necessary governmental services essential to public health, safety, and welfare.

App. 359
(b) That it is vitally necessary to protect the
credit of this state and its political subdivisions and
that it is necessary for the public good and it is a valid
public purpose for this state to take action and to assist
a local government in a financial emergency so as to
remedy the financial emergency by requiring prudent
fiscal management and efficient provision of services,
permitting the restructuring of contractual obligations, and prescribing the powers and duties of state
and local government officials and emergency managers.
(c) That the fiscal stability of local governments
is necessary to the health, safety, and welfare of the
citizens of this state and it is a valid public purpose for
this state to assist a local government in a condition of
financial emergency by providing for procedures of alternative dispute resolution between a local government and its creditors to resolve disputes, to determine
criteria for establishing the existence of a financial
emergency, and to set forth the conditions for a local
government to exercise powers under federal bankruptcy law.
(d) That the authority and powers conferred by
this act constitute a necessary program and serve a
valid public purpose.
*

*

*

(3) If a finding of probable financial stress is
made for a municipal government by the local emergency financial assistance loan board under subsection
(2), the governor shall appoint a review team for that

App. 360
municipal government consisting of the state treasurer or his or her designee, the director of the department of technology, management, and budget or his or
her designee, a nominee of the senate majority leader,
and a nominee of the speaker of the house of representatives. The governor may appoint other state officials
or other persons with relevant professional experience
to serve on a review team to undertake a municipal financial management review.
*

*

*

(5) The department of treasury shall provide
staff support to each review team appointed under this
section.
*

*

*

Sec. 5. (1) In conducting its review, the review
team may do either or both of the following:
*

*

*

(4) The review team shall include 1 of the following conclusions in its report:
(a) A financial emergency does not exist within
the local government.
(b) A financial emergency exists within the local
government.
*

*

*

Sec. 6. (1) Within 10 days after receipt of the report under section 5, the governor shall make 1 of the
following determinations:

App. 361
(a) A financial emergency does not exist within
the local government.
(b) A financial emergency exists within the local
government.
*

*

*

(3) A local government for which a financial
emergency determination under this section has been
confirmed to exist may, by resolution adopted by a vote
of 2/3 of the members of its governing body elected and
serving, appeal this determination within 10 business
days to the Michigan court of claims. A local government may, by resolution adopted by a vote of 2/3 of the
members of its governing body elected and serving,
waive its right to appeal as provided in this subsection.
The court shall not set aside a determination of financial emergency by the governor unless it finds that the
determination is either of the following:
(a) Not supported by competent, material, and
substantial evidence on the whole record.
(b) Arbitrary, capricious, or clearly an abuse or
unwarranted exercise of discretion.
Sec. 7. (1) Notwithstanding section 6(3), upon the
confirmation of a finding of a financial emergency
under section 6, the governing body of the local government shall, by resolution within 7 days after the confirmation of a finding of a financial emergency, select 1
of the following local government options to address
the financial emergency:

App. 362
(a) The consent agreement option pursuant to
section 8.
(b) The emergency manager option pursuant to
section 9.
(c) The neutral evaluation process option pursuant to section 25.
(d) The chapter 9 bankruptcy option pursuant to
section 26.
*

*

*

(2) Subject to subsection (3), if the local government has a strong mayor, the resolution under subsection (1) requires strong mayor approval. If the local
government is a school district, the resolution shall be
approved by the school board. The resolution shall be
filed with the state treasurer, with a copy to the superintendent of public instruction if the local government
is a school district.
*

*

*

Sec. 8. (1) The chief administrative officer of a local government may negotiate and sign a consent
agreement with the state treasurer as provided for in
this act. If the local government is a school district and
the consent agreement contains an educational plan,
the consent agreement shall also be signed by the superintendent of public instruction. The consent agreement shall provide for remedial measures considered
necessary to address the financial emergency within
the local government and provide for the financial

App. 363
stability of the local government. The consent agreement may utilize state financial management and
technical assistance as necessary in order to alleviate
the financial emergency. The consent agreement shall
also provide for periodic financial status reports to the
state treasurer, with a copy of each report to each state
senator and state representative who represents that
local government. The consent agreement may provide
for a board appointed by the governor to monitor the
local government’s compliance with the consent agreement. In order for the consent agreement to go into
effect, it shall be approved, by resolution, by the governing body of the local government and shall be approved and executed by the state treasurer. Nothing in
the consent agreement shall limit the ability of the
state treasurer in his or her sole discretion to declare
a material breach of the consent agreement. A consent
agreement shall provide that in the event of a material
uncured breach of the consent agreement, the governor
may place the local government in receivership or in
the neutral evaluation process. If within 30 days after
a local government selects the consent agreement option under section 7(1)(a) or sooner in the discretion
of the state treasurer, a consent agreement cannot be
agreed upon, the state treasurer shall require the local
government to proceed under 1 of the other local options provided for in section 7.
*

*

*

Sec. 9. (1) The governor may appoint an emergency manager to address a financial emergency within
that local government as provided for in this act.

App. 364
(2) Upon appointment, an emergency manager
shall act for and in the place and stead of the governing
body and the office of chief administrative officer of
the local government. The emergency manager shall
have broad powers in receivership to rectify the financial emergency and to assure the fiscal accountability
of the local government and the local government’s
capacity to provide or cause to be provided necessary
governmental services essential to the public health,
safety, and welfare. Following appointment of an emergency manager and during the pendency of receivership, the governing body and the chief administrative
officer of the local government shall not exercise any of
the powers of those offices except as may be specifically
authorized in writing by the emergency manager or as
otherwise provided by this act and are subject to any
conditions required by the emergency manager.
(3) All of the following apply to an emergency
manager:
(a) The emergency manager shall have a minimum of 5 years’ experience and demonstrable expertise in business, financial, or local or state budgetary
matters.
(b) The emergency manager may, but need not,
be a resident of the local government.
(c)

The emergency manager shall be an individ-

ual.
(d) Except as otherwise provided in this subdivision, the emergency manager shall serve at the

App. 365
pleasure of the governor. An emergency manager is
subject to impeachment and conviction by the legislature as if he or she were a civil officer under section 7
of article XI of the state constitution of 1963. A vacancy
in the office of emergency manager shall be filled in the
same manner as the original appointment.
(e) The emergency manager’s compensation shall
be paid by this state and shall be set forth in a contract
approved by the state treasurer. The contract shall be
posted on the department of treasury’s website within
7 days after the contract is approved by the state treasurer.
(f ) In addition to the salary provided to an emergency manager in a contract approved by the state
treasurer under subdivision (e), this state may receive
and distribute private funds to an emergency manager.
As used in this subdivision, “private funds” means any
money the state receives for the purpose of allocating
additional salary to an emergency manager. Private
funds distributed under this subdivision are subject to
section 1 of 1901 PA 145, MCL 21.161, and section 17
of article IX of the state constitution of 1963.
(4) In addition to staff otherwise authorized by
law, an emergency manager shall appoint additional
staff and secure professional assistance as the emergency manager considers necessary to fulfill his or her
appointment.
(5) The emergency manager shall submit quarterly reports to the state treasurer with respect to
the financial condition of the local government in

App. 366
receivership, with a copy to the superintendent of public instruction if the local government is a school district and a copy to each state senator and state
representative who represents that local government.
In addition, each quarterly report shall be posted on
the local government’s website within 7 days after the
report is submitted to the state treasurer.
(6) The emergency manager shall continue in the
capacity of an emergency manager as follows:
(a) Until removed by the governor or the legislature as provided in subsection (3)(d). If an emergency
manager is removed, the governor shall within 30 days
of the removal appoint a new emergency manager.
(b)

Until the financial emergency is rectified.

(c) If the emergency manager has served for at
least 18 months after his or her appointment under
this act, the emergency manager may, by resolution, be
removed by a 2/3 vote of the governing body of the local
government. If the local government has a strong
mayor, the resolution requires strong mayor approval
before the emergency manager may be removed. Notwithstanding section 7(4), if the emergency manager is
removed under this subsection and the local government has not previously breached a consent agreement
under this act, the local government may within 10
days negotiate a consent agreement with the state
treasurer. If a consent agreement is not agreed upon
within 10 days, the local government shall proceed
with the neutral evaluation process pursuant to section 25.

App. 367
(7) A local government shall be removed from receivership when the financial conditions are corrected
in a sustainable fashion as provided in this act. In addition, the local government may be removed from receivership if an emergency manager is removed under
subsection (6)(c) and the governing body of the local
government by 2/3 vote approves a resolution for the
local government to be removed from receivership. If
the local government has a strong mayor, the resolution requires strong mayor approval before the local
government is removed from receivership. A local government that is removed from receivership while a financial emergency continues to exist as determined by
the governor shall proceed under the neutral evaluation process pursuant to section 25.
(8) The governor may delegate his or her duties
under this section to the state treasurer.
(9) Notwithstanding section 3(1) of 1968 PA 317,
MCL 15.323, an emergency manager is subject to all of
the following:
(a) 1968 PA 317, MCL 15.321 to 15.330, as a public servant.
(b) 1973 PA 196, MCL 15.341 to 15.348, as a public officer.
(c) 1968 PA 318, MCL 15.301 to 15.310, as if he
or she were a state officer.
*

*

*

App. 368
(11) Notwithstanding section 7(4) and subject to
the requirements of this section, if an emergency manager has served for less than 18 months after his or her
appointment under this act, the governing body of the
local government may pass a resolution petitioning the
governor to remove the emergency manager as provided in this section and allow the local government
to proceed under the neutral evaluation process as
provided in section 25. If the local government has a
strong mayor, the resolution requires strong mayor
approval. If the governor accepts the resolution, notwithstanding section 7(4), the local government shall
proceed under the neutral evaluation process as provided in section 25.
Sec. 10. (1) An emergency manager shall issue to
the appropriate local elected and appointed officials
and employees, agents, and contractors of the local government the orders the emergency manager considers
necessary to accomplish the purposes of this act, including, but not limited to, orders for the timely and
satisfactory implementation of a financial and operating plan, including an educational plan for a school district, or to take actions, or refrain from taking actions,
to enable the orderly accomplishment of the financial
and operating plan. An order issued under this section is binding on the local elected and appointed officials and employees, agents, and contractors of the
local government to whom it is issued. Local elected
and appointed officials and employees, agents, and contractors of the local government shall take and direct

App. 369
those actions that are necessary and advisable to
maintain compliance with the financial and operating
plan.
(2) If an order of the emergency manager under
subsection (1) is not carried out and the failure to carry
out an order is disrupting the emergency manager’s
ability to manage the local government, the emergency
manager, in addition to other remedies provided in
this act, may prohibit the local elected or appointed official or employee, agent, or contractor of the local government from access to the local government’s office
facilities, electronic mail, and internal information systems.
Sec. 11. (1) An emergency manager shall develop
and may amend a written financial and operating plan
for the local government. The plan shall have the objectives of assuring that the local government is able
to provide or cause to be provided governmental services essential to the public health, safety, and welfare
and assuring the fiscal accountability of the local government. The financial and operating plan shall provide for all of the following:
(a) Conducting all aspects of the operations of
the local government within the resources available
according to the emergency manager’s revenue estimate.
(b) The payment in full of the scheduled debt service requirements on all bonds, notes, and municipal
securities of the local government, contract obligations
in anticipation of which bonds, notes, and municipal

App. 370
securities are issued, and all other uncontested legal
obligations.
(c) The modification, rejection, termination, and
renegotiation of contracts pursuant to section 12.
(d) The timely deposit of required payments to
the pension fund for the local government or in which
the local government participates.
(e)

For school districts, an educational plan.

(f ) Any other actions considered necessary by
the emergency manager in the emergency manager’s
discretion to achieve the objectives of the financial and
operating plan, alleviate the financial emergency, and
remove the local government from receivership.
(2) Within 45 days after the emergency manager’s
appointment, the emergency manager shall submit the
financial and operating plan, and an educational plan
if the local government is a school district, to the state
treasurer, with a copy to the superintendent of public
instruction if the local government is a school district,
and to the chief administrative officer and governing
body of the local government. The plan shall be regularly reexamined by the emergency manager and the
state treasurer and may be modified from time to time
by the emergency manager with notice to the state
treasurer. If the emergency manager reduces his or her
revenue estimates, the emergency manager shall modify the plan to conform to the revised revenue estimates.

App. 371
(3) The financial and operating plan shall be in a
form as provided by the state treasurer and shall contain that information for each year during which year
the plan is in effect that the emergency manager, in
consultation with the state financial authority, specifies. The financial and operating plan may serve as a
deficit elimination plan otherwise required by law if so
approved by the state financial authority.
(4) The emergency manager, within 30 days of
submitting the financial and operating plan to the
state financial authority, shall conduct a public informational meeting on the plan and any modifications to
the plan. This subsection does not mean that the emergency manager must receive public approval before he
or she implements the plan or any modification of the
plan.
(5) For a local government in receivership immediately prior to the effective date of this act, a financial
and operating plan for that local government adopted
under former 2011 PA 4 or a financial plan for that local government adopted under former 1990 PA 72 shall
be effective and enforceable as a financial and operating plan for the local government under this act until
modified or rescinded under this act.
Sec. 12. (1) An emergency manager may take 1 or
more of the following additional actions with respect to
a local government that is in receivership, notwithstanding any charter provision to the contrary:

App. 372
(a) Analyze factors and circumstances contributing to the financial emergency of the local government and initiate steps to correct the condition.
(b) Amend, revise, approve, or disapprove the
budget of the local government, and limit the total
amount appropriated or expended.
(c) Receive and disburse on behalf of the local
government all federal, state, and local funds earmarked for the local government. These funds may
include, but are not limited to, funds for specific programs and the retirement of debt.
(d) Require and approve or disapprove, or amend
or revise, a plan for paying all outstanding obligations
of the local government.
(e) Require and prescribe the form of special reports to be made by the finance officer of the local government to its governing body, the creditors of the local
government, the emergency manager, or the public.
(f ) Examine all records and books of account,
and require under the procedures of the uniform budgeting and accounting act, 1968 PA 2, MCL 141.421 to
141.440a, or 1919 PA 71, MCL 21.41 to 21.55, or both,
the attendance of witnesses and the production of
books, papers, contracts, and other documents relevant
to an analysis of the financial condition of the local government.
(g) Make, approve, or disapprove any appropriation, contract, expenditure, or loan, the creation of any

App. 373
new position, or the filling of any vacancy in a position
by any appointing authority.
(h) Review payrolls or other claims against the
local government before payment.
(i) Notwithstanding any minimum staffing level
requirement established by charter or contract, establish and implement staffing levels for the local government.
(j) Reject, modify, or terminate 1 or more terms
and conditions of an existing contract.
*

*

*

(n) Consolidate or eliminate departments of the
local government or transfer functions from 1 department to another and appoint, supervise, and, at his or
her discretion, remove administrators, including heads
of departments other than elected officials.
(o) Employ or contract for, at the expense of the
local government and with the approval of the state financial authority, auditors and other technical personnel considered necessary to implement this act.
(p) Retain 1 or more persons or firms, which may
be an individual or firm selected from a list approved
by the state treasurer, to perform the duties of a local
inspector or a local auditor as described in this subdivision. The duties of a local inspector are to assure
integrity, economy, efficiency, and effectiveness in the
operations of the local government by conducting meaningful and accurate investigations and forensic audits,

App. 374
and to detect and deter waste, fraud, and abuse. At
least annually, a report of the local inspector shall be
submitted to the emergency manager, the state treasurer, the superintendent of public instruction if the local government is a school district, and each state
senator and state representative who represents that
local government. The annual report of the local inspector shall be posted on the local government’s website within 7 days after the report is submitted. The
duties of a local auditor are to assure that internal controls over local government operations are designed
and operating effectively to mitigate risks that hamper
the achievement of the emergency manager’s financial
plan, assure that local government operations are effective and efficient, assure that financial information
is accurate, reliable, and timely, comply with policies,
regulations, and applicable laws, and assure assets are
properly managed. At least annually, a report of the local auditor shall be submitted to the emergency manager, the state treasurer, the superintendent of public
instruction if the local government is a school district,
and each state senator and state representative who
represents that local government. The annual report of
the local auditor shall be posted on the local government’s website within 7 days after the report is submitted.
(q) An emergency manager may initiate court
proceedings in the Michigan court of claims or in the
circuit court of the county in which the local government is located in the name of the local government to
enforce compliance with any of his or her orders or any

App. 375
constitutional or legislative mandates, or to restrain
violations of any constitutional or legislative power or
his or her orders.
(r) Subject to section 19, if provided in the financial and operating plan, or otherwise with the prior
written approval of the governor or his or her designee,
sell, lease, convey, assign, or otherwise use or transfer
the assets, liabilities, functions, or responsibilities of
the local government, provided the use or transfer of
assets, liabilities, functions, or responsibilities for this
purpose does not endanger the health, safety, or welfare of residents of the local government or unconstitutionally impair a bond, note, security, or uncontested
legal obligation of the local government.
(s) Apply for a loan from the state on behalf of
the local government, subject to the conditions of the
emergency municipal loan act, 1980 PA 243, MCL
141.931 to 141.942.
(t) Order, as necessary, 1 or more millage elections for the local government consistent with the
Michigan election law, 1954 PA 116, MCL 168.1 to
168.992, sections 6 and 25 through 34 of article IX of
the state constitution of 1963, and any other applicable
state law.
(u) Subject to section 19, authorize the borrowing of money by the local government as provided by
law.
(v) Approve or disapprove of the issuance of obligations of the local government on behalf of the local

App. 376
government under this subdivision. An election to approve or disapprove of the issuance of obligations of the
local government pursuant to this subdivision shall
only be held at the general November election.
(w) Enter into agreements with creditors or other
persons or entities for the payment of existing debts,
including the settlement of claims by the creditors.
(x) Enter into agreements with creditors or other
persons or entities to restructure debt on terms, at
rates of interest, and with security as shall be agreed
among the parties, subject to approval by the state
treasurer.
(y) Enter into agreements with other local governments, public bodies, or entities for the provision of
services, the joint exercise of powers, or the transfer of
functions and responsibilities.
(z) For municipal governments, enter into agreements with other units of municipal government to
transfer property of the municipal government under
1984 PA 425, MCL 124.21 to 124.30, or as otherwise
provided by law, subject to approval by the state treasurer.
(aa) Enter into agreements with 1 or more other
local governments or public bodies for the consolidation of services.
(bb) For a city, village, or township, the emergency manager may recommend to the state boundary
commission that the municipal government consolidate with 1 or more other municipal governments, if

App. 377
the emergency manager determines that consolidation
would materially alleviate the financial emergency of
the municipal government and would not materially
and adversely affect the financial situation of the government or governments with which the municipal
government in receivership is consolidated. Consolidation under this subdivision shall proceed as provided
by law.
(cc) For municipal governments, with approval of
the governor, disincorporate or dissolve the municipal
government and assign its assets, debts, and liabilities
as provided by law. The disincorporation or dissolution
of the local government is subject to a vote of the electors of that local government if required by law.
(dd) Exercise solely, for and on behalf of the local
government, all other authority and responsibilities of
the chief administrative officer and governing body
concerning the adoption, amendment, and enforcement of ordinances or resolutions of the local government as provided in the following acts:
(i) The home rule city act, 1909 PA 279, MCL
117.1 to 117.38.
(ii) The fourth class city act, 1895 PA 215, MCL
81.1 to 113.20.
(iii) The charter township act, 1947 PA 359, MCL
42.1 to 42.34.
(iv)
(v)

1851 PA 156, MCL 46.1 to 46.32.
1966 PA 293, MCL 45.501 to 45.521.

App. 378
(vi) The general law village act, 1895 PA 3, MCL
61.1 to 74.25.
(vii) The home rule village act, 1909 PA 278,
MCL 78.1 to 78.28.
(viii) The revised school code, 1976 PA 451, MCL
380.1 to 380.1852.
(ix) The state school aid act of 1979, 1979 PA 94,
MCL 388.1601 to 388.1896.
(ee) Take any other action or exercise any power
or authority of any officer, employee, department,
board, commission, or other similar entity of the local
government, whether elected or appointed, relating to
the operation of the local government. The power of the
emergency manager shall be superior to and supersede
the power of any of the foregoing officers or entities.
(ff ) Remove, replace, appoint, or confirm the appointments to any office, board, commission, authority,
or other entity which is within or is a component unit
of the local government.
(2) Except as otherwise provided in this act, during the pendency of the receivership, the authority of
the chief administrative officer and governing body to
exercise power for and on behalf of the local government under law, charter, and ordinance shall be suspended and vested in the emergency manager.
(3) Except as otherwise provided in this subsection, any contract involving a cumulative value of
$50,000.00 or more is subject to competitive bidding by

App. 379
an emergency manager. However, if a potential contract involves a cumulative value of $50,000.00 or more,
the emergency manager may submit the potential contract to the state treasurer for review and the state
treasurer may authorize that the potential contract is
not subject to competitive bidding.
(4) An emergency manager appointed for a city
or village shall not sell or transfer a public utility furnishing light, heat, or power without the approval of a
majority of the electors of the city or village voting
thereon, or a greater number if the city or village charter provides, as required by section 25 of article VII of
the state constitution of 1963. In addition, an emergency manager appointed for a city or village shall not
utilize the assets of a public utility furnishing heat,
light, or power, the finances of which are separately
maintained and accounted for by the city or village, to
satisfy the general obligations of the city or village.
Sec. 13. Upon appointment of an emergency manager and during the pendency of the receivership, the
salary, wages, or other compensation, including the accrual of postemployment benefits, and other benefits of
the chief administrative officer and members of the
governing body of the local government shall be eliminated. This section does not authorize the impairment
of vested pension benefits. If an emergency manager
has reduced, suspended, or eliminated the salary,
wages, or other compensation of the chief administrative officer and members of the governing body of a local government before the effective date of this act, the
reduction, suspension, or elimination is valid to the

App. 380
same extent had it occurred after the effective date
of this act. The emergency manager may restore, in
whole or in part, any of the salary, wages, other compensation, or benefits of the chief administrative officer and members of the governing body during the
pendency of the receivership, for such time and on such
terms as the emergency manager considers appropriate, to the extent that the emergency manager finds
that the restoration of salary, wages, compensation, or
benefits is consistent with the financial and operating
plan.
*

*

*

Sec. 17. Beginning 6 months after an emergency
manager’s appointment, and every 3 months thereafter, an emergency manager shall submit to the
governor, the state treasurer, the senate majority
leader, the speaker of the house of representatives,
each state senator and state representative who represents the local government that is in receivership, and
the clerk of the local government that is in receivership, and shall post on the internet on the website
of the local government, a
*

*

*

(3) With respect to any aspect of a receivership
under this act, the costs incurred by the attorney general in carrying out the responsibilities of subsection
(2) for attorneys, experts, court filing fees, and other
reasonable and necessary expenses shall be at the
expense of the local government that is subject to that
receivership and shall be reimbursed to the attorney

App. 381
general by the local government. The failure of a municipal government that is or was in receivership to remit to the attorney general the costs incurred by the
attorney general within 30 days after written notice to
the municipal government from the attorney general
of the costs is a debt owed to this state and shall be
recovered by the state treasurer as provided in section
17a(5) of the Glenn Steil state revenue sharing act
of 1971, 1971 PA 140, MCL 141.917a. The failure of
a school district that is or was in receivership to remit
to the attorney general the costs incurred by the attorney general within 30 days after written notice
to the school district from the attorney general of
the costs is a debt owed to this state and shall be recovered by the state treasurer as provided in the state
school aid act of 1979, 1979 PA 94, MCL 388.1601 to
388.1896.
*

*

*

(5) If, after the date that the service of an emergency manager is concluded, the emergency manager
or any employee, agent, appointee, or contractor of the
emergency manager is subject to a claim, demand, or
lawsuit arising from an action taken during the service
of that emergency manager, and not covered by a procured worker’s compensation, general liability, professional liability, or motor vehicle insurance, litigation
expenses of the emergency manager or any employee,
agent, appointee, or contractor of the emergency manager, including attorney fees for civil and criminal proceedings and preparation for reasonably anticipated
proceedings, and payments made in settlement of civil

App. 382
proceedings both filed and anticipated, shall be paid
out of the funds of the local government that is or was
subject to the receivership administered by that emergency manager, provided that the litigation expenses
are approved by the state treasurer and that the
state treasurer determines that the conduct resulting
in actual or threatened legal proceedings that is the
basis for the payment is based upon both of the following:
(a) The scope of authority of the person or entity
seeking the payment.
(b) The conduct occurred on behalf of a local government while it was in receivership under this act.
(6) The failure of a municipal government to
honor and remit the legal expenses of a former emergency manager or any employee, agent, appointee, or
contractor of the emergency manager as required by
this section is a debt owed to this state and shall be
recovered by the state treasurer as provided in section
17a(5) of the Glenn Steil state revenue sharing act of
1971, 1971 PA 140, MCL 141.917a. The failure of a
school district to honor and remit the legal expenses of
a former emergency manager or any employee, agent,
appointee, or contractor of the emergency manager as
required by this section is a debt owed to this state and
shall be recovered by the state treasurer as provided
in the state school aid act of 1979, 1979 PA 94, MCL
388.1601 to 388.1896.

App. 383
Sec. 21. (1) Before the termination of receivership
and the completion of the emergency manager’s term,
or if a transition advisory board is appointed under
section 23, then before the transition advisory board is
appointed, the emergency manager shall adopt and implement a 2-year budget, including all contractual and
employment agreements, for the local government
commencing with the termination of receivership.
(2) After the completion of the emergency manager’s term and the termination of receivership, the
governing body of the local government shall not
amend the 2-year budget adopted under subsection (1)
without the approval of the state treasurer, and shall
not revise any order or ordinance implemented by the
emergency manager during his or her term prior to 1
year after the termination of receivership.
Sec. 22. (1) If an emergency manager determines
that the financial emergency that he or she was appointed to manage has been rectified, the emergency
manager shall inform the governor and the state treasurer.
(2) If the governor disagrees with the emergency
manager’s determination that the financial emergency
has been rectified, the governor shall inform the emergency manager and the term of the emergency manager shall continue or the governor shall appoint a new
emergency manager.
(3) Subject to subsection (4), if the governor
agrees that the financial emergency has been rectified,
the emergency manager has adopted a 2-year budget

App. 384
as required under section 21, and the financial conditions of the local government have been corrected in a
sustainable fashion as required under section 9(7), the
governor may do either of the following:
(a)
ship.

Remove the local government from receiver-

(b) Appoint a receivership transition advisory
board as provided in section 23.
(4) Before removing a local government from receivership, the governor may impose 1 or more of the
following conditions on the local government:
(a) The implementation of financial best practices within the local government.
(b) The adoption of a model charter or model
charter provisions.
(c) Pursue financial or managerial training to
ensure that official responsibilities are properly discharged.
Sec. 23. (1) Before removing a local government
from receivership, the governor may appoint a receivership transition advisory board to monitor the affairs
of the local government until the receivership is terminated.
(2) A receivership transition advisory board shall
consist of the state treasurer or his or her designee, the
director of the department of technology, management,
and budget or his or her designee, and, if the local
government is a school district, the superintendent

App. 385
of public instruction or his or her designee. The governor also may appoint to a receivership transition advisory board 1 or more other individuals with relevant
professional experience, including 1 or more residents
of the local government.
(3) A receivership transition advisory board
serves at the pleasure of the governor.
(4) At its first meeting, a receivership transition
advisory board shall adopt rules of procedure to govern
its conduct, meetings, and periodic reporting to the
governor. Procedural rules required by this section are
not subject to the administrative procedures act of
1969, 1969 PA 306, MCL 24.201 to 24.328.
(5) A receivership transition advisory board may
do all of the following:
(a) Require the local government to annually
convene a consensus revenue estimating conference
for the purpose of arriving at a consensus estimate of
revenues to be available for the ensuing fiscal year of
the local government.
(b) Require the local government to provide
monthly cash flow projections and a comparison of
budgeted revenues and expenditures to actual revenues and expenditures.
(c) Review proposed and amended budgets of the
local government. A proposed budget or budget amendment shall not take effect unless approved by the receivership transition advisory board.

App. 386
(d) Review requests by the local government to
issue debt under the revised municipal finance act,
2001 PA 34, MCL 141.2101 to 141.2821, or any other
law governing the issuance of bonds or notes.
(e) Review proposed collective bargaining agreements negotiated under section 15(1) of 1947 PA 336,
MCL 423.215. A proposed collective bargaining agreement shall not take effect unless approved by the receivership transition advisory board.
(f ) Review compliance by the local government
with a deficit elimination plan submitted under section
21 of the Glenn Steil state revenue sharing act of 1971,
1971 PA 140, MCL 141.921.
(g) Review proposed judgment levies before submission to a court under section 6093 or 6094 of the
revised judicature act of 1961, 1961 PA 236, MCL
600.6093 and 600.6094.
(h) Perform any other duties assigned by the governor at the time the receivership transition advisory
board is appointed.
(6) A receivership transition advisory board is a
public body as that term is defined in section 2 of the
open meetings act, 1976 PA 267, MCL 15.262, and
meetings of a receivership transition advisory board
are subject to the open meetings act, 1976 PA 267,
MCL 15.261 to 15.275. A receivership transition advisory board is also a public body as that term is defined
in section 2 of the freedom of information act, 1976 PA
442, MCL 15.232, and a public record in the possession

App. 387
of a receivership transition advisory board is subject to
the freedom of information act, 1976 PA 442, MCL
15.231 to 15.246.
*

*

*

Sec. 27. (1) The local elected and appointed officials and employees, agents, and contractors of a local
government
*

*

*

Sec. 32. This act does not impose any liability or
responsibility in law or equity upon this state, any department, agency, or other entity of this state, or any
officer or employee of this state, or any member of a
receivership transition advisory board, for any action
taken by any local government under this act, for any
violation of the provisions of this act by any local government, or for any failure to comply with the provisions of this act by any local government. A cause of
action against this state or any department, agency,
or entity of this state, or any officer or employee of this
state acting in his or her official capacity, or any membership of a receivership transition advisory board
acting in his or her official capacity, may not be maintained for any activity authorized by this act, or for the
act of a local government filing under chapter 9, including any proceeding following a local government’s filing.

App. 388
Sec. 33. If any portion of this act or the application of this act to any person or circumstances is found
to be invalid by
*

*

*

/s/ Carol Morey Viventi
Secretary of the Senate
/s/ Jerry [Illegible] Randall
Clerk of the
House of Representatives
Approved

Governor

